<html>
<title> - DETECTION OF LEAD IN THE DC DRINKING WATER SYSTEM</title>
<body><pre>[Senate Hearing 108-504]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-504
 
           DETECTION OF LEAD IN THE DC DRINKING WATER SYSTEM

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON FISHERIES, WILDLIFE, 
                               AND WATER

                                 of the

                             COMMITTEE ON 
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             APRIL 7, 2004

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works


           DETECTION OF LEAD IN THE DC DRINKING WATER SYSTEM


                                                        S. Hrg. 108-504

           DETECTION OF LEAD IN THE DC DRINKING WATER SYSTEM

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON FISHERIES, WILDLIFE, 
                               AND WATER

                                 of the

                             COMMITTEE ON 
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 7, 2004

                               __________

  Printed for the use of the Committee on Environment and Public Works




                    U.S. GOVERNMENT PRINTING OFFICE
94-604                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texas                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                              ----------                              

             Subcommittee on Fisheries, Wildlife, and Water

                   MICHAEL D. CRAPO, Idaho, Chairman
JOHN W. WARNER, Virginia             BOB GRAHAM, Florida
LISA MURKOWSKI, Alaska               MAX BAUCUS, Montana
CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 7, 2004
                           OPENING STATEMENTS

Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    49
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....     3
Graham, Hon. Bob, U.S. Senator from the State of Florida, 
  prepared statement.............................................   165
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    49
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     7
Strauss, Hon. Paul, U.S. Senator (Shadow) from the District of 
  Columbia, prepared statement...................................   165
Warner, Hon. John W. Warner, U.S. Senator from the Commonwealth 
  of Virginia....................................................     1

                               WITNESSES

Best, Dana, M.D., director, Smoke Free Homes Project; medical 
  director, Healthy Generations Program; assistant professor, 
  George Washington University School of Medicine and Health 
  Sciences; and Children's National Medical Center...............   147
    Prepared statement...........................................   290
    Responses to additional questions from:
        Senator Crapo............................................   302
        Senator Jeffords.........................................   302
Borland, Gloria, DuPont Circle Parents...........................   141
    Prepared statement...........................................   268
    Response to additional question from Senator Jeffords........   283
Grumbles, Benjamin H., Acting Assistant Administrator, Office of 
  Water, Environmental Protection Agency.........................    51
    Prepared statement...........................................   166
Jacobus, Thomas P., general manager, Washington Aqueduct, 
  Baltimore District, U.S. Army Corps of Engineers...............    58
    Prepared statement...........................................   247
    Responses to additional questions from:
        Senator Crapo............................................   268
        Senator Inhofe...........................................   267
        Senator Jeffords.........................................   267
Johnson, Jerry, N., general manager, District of Columbia, Water 
  and Sewer Authority............................................    54
    Prepared statement...........................................   179
    Responses to additional questions from:
        Senator Crapo............................................   191
        Senator Jeffords.........................................   184
Lanard, Jody, M.D., risk communication consultant................   144
    Prepared statement...........................................   284
Lucey, Daniel R., interim chief health officer, District of 
  Columbia Department of Health..................................    56
    Prepared statement...........................................   192
    Responses to additional questions from:
        Senator Crapo............................................   243
        Senator Jeffords.........................................   241
Welsh, Donald, Director, Region III, Environmental Protection 
  Agency.........................................................    52
    Prepared statement...........................................   169
    Responses to additional questions from:
        Senator Crapo............................................   177
        Senator Inhofe...........................................   173
        Senator Jeffords.........................................   174

                          ADDITIONAL MATERIAL

Articles:
    Centers for Disease Control and Prevention, National Center 
      for Environmental Health...................................   129
    Environmental Protection Agency, Ground Water & Drinking 
      Water......................................................   131
    Journal of the CAI-NEV AWWA:
        Lead Leaching from Brass Water Meters Under Pressurized 
          Flow Conditions, UNC-Ashville Environmental Quality 
          Institute.............................................370-383
        Lead Leaching from In-Service Residential Water Meters: A 
          Laboratory Study, UNC-Ashville Environmental Quality 
          Institute.............................................368-369
    The Washington Post:
        City Officials Say Lead in Water Poses Problem in 
          Palisades Section of NW, November 3, 1986.............152-154
        District Residents Applaud Planned Inquiry By Senate, by 
          Nakamura, David, staff writer, March 28, 2004..........   385
        Fear of Lead in D.C. Water Spurs Requests for Tests, 
          December 6, 1986......................................155-156
        Lead Found in Water of Many City Homes; Contamination May 
          Affect 56,000 Houses, January 23, 1987................159-160
        Lead Pipes Unsatisfactory, June 9, 1893..................   385
        Potomac Water and Lead Pipe, September 15, 1895..........   385
        Tests on Lead in D.C. Water to Take 3 Months, December 
          21, 1986..............................................157-158
Letters from:
    Capacasa, Jon M., director, Water Protection Division, 
      Environmental Protection Agency............................   386
    PureWater DC.................................................  9-43
    Senator Jeffords.............................................    46
    Senator Wyden................................................    48
    Williams, Anthony, Mayor, District of Columbia; Schwartz, 
      Carol, councilmember, at-large, chair, Committee on Public 
      Works and the Environment..................................4, 384
Reports:
    Centers for Disease Control & Prevention Advisory Committee, 
      Turning Lead Into Gold: How the Bush Administration is 
      Poisoning the Lead Advisory Committee at the CDC..........100-127
    Environmental Protection Agency, Office of the Inspector 
      General, EPA Claims to Meet Drinking Water Goals Despite 
      Persistent Data Quality Shortcomings, March 5, 2004.......324-343
    Environmental Protection Agency, Region 3; Washington 
      Aqueduct; U.S. Army Corps of Engineers; District of 
      Columbia Water and Sewer Authority, Action Plan to Reduce 
      the Occurrence of Lead Leaching from Service Lines, Solder, 
      or Fixtures Into Tap Water in the District of Columbia and 
      Arlington County and Falls Church, VA.....................249-266
    Neurotoxicology and Teratology, Bone Lead Levels in 
      Adjudicated Delinquents....................................    92
    The New England Journal of Medicine, April 17, 2003, 
      Intellectual Impairment in Children with Blood Lead 
      Concentrations Below 10 mg per Deciliter................... 69-98
Responses to additional questions from Senator Jeffords:
    Jablow, Valerie, parent......................................   283
    McKeon, Christopher, parent..................................   283
Statements:
    Bellinger, David C., Ph.D., M.Sc., Children's Hospital 
      Boston, Harvard Medical School, supplemental article.......   344
    Brannum, Robert Vinson, parent...............................   321
    Bressler, Andy, resident, District of Columbia...............   318
    Keegan, Mike, policy analyst, National Rural Water 
      Association................................................   353
    Maas, Richard P., and Patch, Steve C., UNC-Asheville 
      Environmental Quality Institute............................   357
    Olson, Erik D., senior attorney, Natural Resources Defense 
      Council....................................................   303
    Wolf, Muriel, M.D., Children's Medical Center, George 
      Washington University Medical School.......................   318
Timeline for the Implementation of the Lead and Copper Rule in 
  the District of Columbia 2000 to 2004..........................   320


           DETECTION OF LEAD IN THE DC DRINKING WATER SYSTEM

                              ----------                              


                        WEDNESDAY, APRIL 7, 2004

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Fisheries, Wildlife, and Water,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:40 p.m. in 
room 406, Senate Dirksen Building, Hon. Michael D. Crapo 
(chairman of the subcommittee) presiding.
    Present: Senators Crapo, Warner, Clinton, Jeffords [ex 
officio], and Inhofe [ex officio].

OPENING STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner [assuming the chair]. The hearing will come 
to order.
    We are in the process of voting and I will start the 
hearing simply by giving my statement.
    I feel very strongly about this subject and have spent a 
good deal of time on it and would like to express a few 
thoughts.
    I thank all for bringing this hearing together. It is an 
issue that directly impacts my constituents in Virginia. I must 
say I work very closely with the Nation's capital and the 
governmental authorities there as I have through these 26 years 
that I have been privileged to be a Senator. Therefore, this is 
a hearing that affects a good deal of my interests and my 
career.
    My constituents, particularly in Arlington County and the 
city of Falls Church, because they are the primary customers of 
the Washington Aqueduct System along with the District of 
Columbia. The facts of this situation as they have unfolded 
over the past 2 months are really very disturbing. It is even 
more disturbing, however, that we and the public became aware 
of this ongoing problem only after reports in the local media. 
Every one of the government officials sitting before us on the 
first panel, the EPA, the Corps, the Water and Sewer Authority, 
had some measure of knowledge that testing showed some level of 
lead. That level we will hear more about today and that that 
water was used for drinking.
    The levels we understand here on the committee exceeded the 
Federal action levels. The rest, we know there was no immediate 
action taken even though that knowledge was in the hands of 
responsible government officials. We will have the opportunity 
today to give a full explanation of that.
    We must start correcting the problem. We will have time to 
address the past but in short, the Corps must determine if a 
better treatment regime will reduce the leaching of lead from 
service lines. The Water and Sewer Authority must take 
immediate steps to provide filters to residents who are served 
by the over 37,000 service lines that are ``undetermined.'' 
Those are residents in the category where WASA does not know if 
they have had lead service lines. If water sampling of some of 
these residents with ``undetermined'' service lines reveal lead 
contamination above the 15 ppb action level, all of these 
residents, in my judgment, must be provided with water filters. 
If WASA does not provide the filters for those with 
undetermined service lines, EPA must exercise its emergency 
authority to ensure that this occurs because of the imminent 
public health threat.
    I also call on EPA to examine the need to set an 
enforceable maximum contaminant level, MCL, for lead in 
drinking water instead of the current 15 ppb. Such an approach 
may be the only recourse to protect public health and ensure 
that all necessary steps are taken to reduce lead contamination 
in drinking water. In this situation, it does not appear that 
the additional regulatory requirements that should have been 
implemented when sampling showed high lead levels were enforced 
by either the EPA or WASA, but you will be given that 
opportunity today to set the record in your own perspective.
    The first order of business that must be taken by 
responsible agencies before us today is restoring the public 
trust. I underline that. You have a long way to go and can 
start with your commitment to provide water filters to all 
persons served by undetermined service lines. You must also 
look to ways to finance the full replacement of lead service 
lines all the way up to the home, not just that portion of the 
lead service line that is owned by WASA.
    I say to my colleagues, I look forward to working with the 
leadership of this committee to see that we do the responsible 
thing here in the Congress.
    As you see, the second vote has been called and I must go 
over and make that vote. The committee will stand in recess 
until the Chairman appears.
    [The prepared statement of Senator Warner follows:]
         Statement of Hon. John Warner, U.S. Senator from the 
                        Commonwealth of Virginia

    Mr. Chairman, thank you for conducting this important hearing this 
morning. It is an issue that directly impacts my constituents in 
Arlington County and the city of Falls Church because they are the 
primary customers of the Washington Aqueduct system along with the 
District of Columbia.
    The facts of this situation, as they have unfolded over the past 2 
months are very disturbing. It is even more disturbing, however, that 
we and the public became aware of this ongoing problem only after 
reports in the Washington Post.
    Every one of the government officials sitting before us on the 
first panel--the EPA, the Corps, and the Water and Sewer Authority--
knew that testing showed lead levels in the drinking water were 
exceeding the Federal action levels. No one took action. No one 
properly notified the public. And, it seems that you are still finger 
pointing at each other as to who's to blame.
    We must start correcting the problem. In the short-term, the Corps 
must determine if a better treatment regime will reduce the leaching of 
lead from service lines. The Water and Sewer Authority must take 
immediate steps to provide filters to residents who are served by the 
over 37,000 service lines that are ``undetermined.'' Those are 
residents in a category where WASA does not know if they have lead 
service lines. Yet, water sampling of some of these residences with 
``undetermined'' service lines reveal lead contamination above the 15 
ppb action level. All of these residences must be provided with water 
filters.
    If WASA does not provide filters for those with ``undetermined'' 
service lines, EPA must exercise its emergency authority to ensure that 
this occurs because of the imminent public health threat. I also call 
on EPA to examine the need to set an enforceable maximum contaminant 
level (MCL) for lead in drinking water instead of the current 15 parts 
per billion action level. Such an approach may be the only recourse to 
protect public health and ensure that all necessary steps are taken to 
reduce lead contamination in drinking water. In this situation, it does 
not appear that the additional regulatory requirements that should have 
been implemented when sampling showed high lead levels were enforced by 
either EPA or WASA.
    The first order of business that must be taken by the responsible 
agencies appearing before us today is restoring the public trust. 
You've got a long way to go. It can start with your commitment to 
provide water filters to all persons served by ``undetermined'' service 
lines. You must also look to ways to financing the full replacement of 
lead service lines all the way up to the home, not just that portion of 
the lead service line that is owned by WASA.
    Mr. Chairman, I look forward to working with you on the specific 
challenges facing this region. I also share your concerns that this 
could be a public health problem confronting any city with lead service 
lines.

    [Recess.]

 OPENING STATEMENT OF HON. MICHAEL D. CRAPO, U.S. SENATOR FROM 
                       THE STATE OF IDAHO

    Senator Crapo. This hearing will come to order.
    Ladies and gentlemen, it is my understanding Senator Warner 
already convened the hearing so he could make his statement and 
go vote. Those of us who are here have been on the floor and 
have voted and we will now officially convene the Senate 
Committee on Environment and Public Works' hearing of the 
Subcommittee on Fisheries, Wildlife and Water.
    This is an oversight hearing on the detection of lead in 
the DC drinking water system, focusing on the needed 
improvements in the public communications and the status of 
short- and long-term solutions.
    Today's hearing will review the detection of lead in DC 
drinking water, specifically on needed improvements in the 
communication and the status of immediate actions and long-term 
solutions. Mayor Anthony Williams of the District of Columbia 
and Council Member Carol Schwartz were among those who 
requested that we hold this hearing. I appreciate their efforts 
and look forward to working with them and others to address the 
immediate risks of this situation.
    Mayor Williams joined me yesterday in a meeting with city 
residents and Council Member Schwartz has been very helpful and 
would have come with us but for a regularly scheduled 
legislative session. Council Member Schwartz has also forwarded 
to my attention the letter that she and Mayor Williams wrote to 
the Appropriations Committee last week which, without 
objection, will be entered in the record.
    [The referenced document follows:]
                                                     April 1, 2004.
Hon. Pete V. Domenici, Chairman,
Subcommittee on Energy and Water Development,
Committee on Appropriations,
127 Dirksen Senate Office Building,
Washington, DC.
Hon. Harry Reid, Ranking Member,
Subcommittee on Energy and Water Development,
Committee on Appropriations,
156 Dirksen Senate Office Building,
Washington, DC.
    Dear Chairman Domenici and Ranking Member Reid: We are writing you 
in support of Congresswoman Eleanor Holmes Norton's written request to 
you for $12,145,000 in response to the elevated lead levels in the 
District of Columbia's drinking water. The total projected cost to the 
District for FY '04 is $25,824,101.
    As you are aware, the Government of the District of Columbia and 
the District of Columbia Water and Sewer Authority (WASA) have expended 
considerable effort and resources to deal with the presence of elevated 
levels of lead in the drinking water of some residences in the 
District. The lead appears to be entering the water through corrosion 
of lead service lines that connect water mains to residences. Although 
the lead service lines have been in place in most cases for more than 
fifty years, the elevation of lead levels in the water is a very recent 
phenomenon.
    The District is requesting this Federal support because this 
drinking water crisis was apparently created by Federal action: 
specifically by the actions of the United States Army Corps of 
Engineers and the United States Environmental Protection Agency. The 
apparent cause for this recent rise in lead levels is a change in the 
treatment chemistry initiated by the United States Army Corps of 
Engineers' Washington Aqueduct, the provider of the District's water, 
and an agency over which your Subcommittee has jurisdiction, and 
approved by the United States Environmental Protection Agency (EPA), 
the regulator of the District's water. EPA regulates the District's 
water because, unlike 49 of the States, the District does not have 
primacy for regulation in this area, despite multiple requests for such 
in the past 25 years. Thus, the responsibility and funding for 
regulation of the District's drinking water is delegated by EPA to its 
regional office in Philadelphia, rather than to the District.
    The total costs that the District is projected to incur for fiscal 
year 2004 are $25,824,101. We are requesting funding from the Energy 
and Water Development Subcommittee in the amount of $12,145,000 to help 
replace lead service lines that are currently part of the District's 
drinking water infrastructure.
    As it now stands, the significant expenditures associated with 
addressing the lead problem will have to be borne by the District's 
taxpayers and WASA's ratepayers, which is inherently unfair.
    By this letter, we are requesting full reimbursement to both the 
District and to WASA for these cost.
    The regulatory decisions of EPA appear to have generated these 
costs, and the resources to address them reside within EPA. It would be 
wholly inappropriate and unjust for the people of the District to bear 
these costs. Even had the actions of EPA not been the cause of this 
problem, the structural imbalance the District faces due to its unique 
situation relative to the Federal Government leaves it with 
insufficient resources to support its basic needs, let alone 
extraordinary demands such as have been created by the lead in water 
problem.
    We are working with Congresswoman Norton to advance this critical 
issue. On behalf of the people of the District of Columbia, we 
respectfully request a prompt and favorably reply.
            Sincerely,
                                       Anthony A. Williams,
                                                             Mayor.

                                            Carol Schwartz,
                                           Councilmember, At-Large,
              Chair, Committee on Public Works and the Environment.

    Senator Crapo. Many members of this committee also 
advocated for this hearing. First, let us recognize the 
obvious. Clean water is everyone's need and everyone's 
priority, even though we may sometimes take it for granted. 
Second, we must appreciate this subject is both complex and 
emotional. We must proceed accordingly without covering the 
facts with hard feelings and without disregarding hard feelings 
with factual arguments.
    There is a lot of work to do, some technical and some 
digging up service lines. In order to do these jobs correctly, 
we need clear heads, clear messages and clear agreements. We 
need to fix this problem and we must fix it now. An important 
fact already in evidence is that lead is toxic but 
historically, it was used for plumbing and as an ingredient in 
paint and automotive fuel. Because plumbing, paint chips, dust 
and exhaust fumes surround most Americans, lead is very 
troubling.
    We have made progress by phasing out leaded gasoline and 
more slowly rehabilitating lead painted homes. Lead in plumbing 
represents an enormous part of the Nation's need to replace and 
rehabilitate its water system. Health risks of lead are 
generally widely accepted and a recent study may add new 
concerns. Lead poisoning delays physical and mental development 
in children and in adults, causes increases in blood pressure 
and after long-term exposure, damages kidneys.
    Another important fact is that many people were surprised 
in January of this year when they read in the newspaper that 
lead levels were high, in some cases very high in many homes in 
Washington, DC. The fact that people were surprised means that 
to communicate effectively from now on, we must communicate 
differently from now on. In addition to the obvious reason for 
communicating risks to the public, it is especially important 
in managing lead. By the nature of the problem, we will be 
living with lead in our home environments for a long time. 
Therefore, it is particularly important that we are vigilant.
    The members of the first panel are here to explain efforts 
to repair missed communications with the public, to review 
lessons learned to date and to explain intended efforts or 
policy changes for better communication of risks in the future. 
Every Senator and staff member knows the challenge of 
communicating risks because we have been evacuated, some of us 
twice, from our offices when attacked with anthrax and ricin. 
Since those episodes, we have installed an announcement 
procedure by which we hear immediately of every suspicious 
substance found in our buildings. Even though most of these 
announcements are followed by an all clear message, we are 
prepared for the sight of a safety team wearing protective 
clothing as they hurry to investigate. People should have the 
information they need to judge risks for themselves.
    In addition to the issue of communication, we also want to 
hear the latest developments in finding and eliminating lead. 
Also, I am specifically interested in how the public will be 
included in deliberations and decisions about this problem.
    The second panel is here to describe health risks of lead, 
a personal experience with this issue, and professional advice 
about how communications can be improved.
    I appreciate the witnesses from every perspective and their 
commitment to join us today. I strongly encourage the first 
panel to remain to hear what the second panel has to say. To 
all those who are following this issue, remember that this 
situation is a specific and serious example of a national 
issue. Depending on where you live and work, your water 
infrastructure is anywhere from 40 to 140 years old. That means 
many Americans are already experiencing either the problems of 
an aging system or the limits of a small system.
    All systems need to work reliably everywhere and for 
everyone. To accomplish this will require more money than we 
currently have. In 2000, the Water Infrastructure Network 
estimated that current infrastructure needs could cost around 
$1 trillion over the next 15 to 20 years. That is around $20 
billion per year more than current spending.
    The EPA's own GAP analysis from 2002 estimates almost $300 
billion in infrastructure resource shortfalls over 20 years. I 
raised this issue on the Senate floor and won unanimous 
approval to increase available spending authority for water 
infrastructure and I am pushing to retain this amendment in the 
budget resolution conference.
    Today's hearing is about Washington's particular reasons 
for a new effort to upgrade the Nation's water systems. I 
encourage all cities to heed the warning and to listen to the 
call.
    [The prepared statement of Senator Crapo follows:]

  Statement of Hon. Michael D. Crapo, U.S. Senator from the State of 
                                 Idaho

    Today's hearing will review the detection of lead in DC drinking 
water; specifically on needed improvements in communication and the 
status of immediate actions and long-term solutions.
    Mayor Anthony Williams of the District of Columbia and 
Councilmember Carol Schwartz were among those who requested that we 
hold this hearing. I appreciate their efforts and look forward to 
working with them and others to address the immediate risks of this 
situation.
    Mayor Williams joined me yesterday in a meeting with city residents 
and Councilmember Schwartz has been very helpful and would have come 
with us but for a regularly scheduled legislative session.
    Councilmember Schwartz has also forwarded to my attention the 
letter that she and Mayor Williams wrote to the Appropriations 
Committee last week.
    Many members of this committee also advocated for this hearing.

                         OVERVIEW ON THE ISSUE

    First, let us recognize the obvious: clean water is everyone's need 
and everyone's priority, even though we may take it for granted.
    Second, we must appreciate that this subject is both complex and 
emotional. We must proceed accordingly, without coloring facts with 
hard feelings, and without disregarding hard feelings with factual 
arguments. There is a lot of work to do: some technical and some 
digging up of service lines. In order to do these jobs correctly we 
need clear heads, clear messages, and clear agreements. We need to fix 
this problem, and we must fix it now.
    An important fact already in evidence is that lead is toxic, but 
historically was used for plumbing and as an ingredient in paint and 
automobile fuel. Because plumbing, paint chips and dust, and exhaust 
fumes surround most Americans, lead is very troubling. We have made 
progress by phasing out leaded gasoline and--more slowly--
rehabilitating lead-painted homes. Lead in plumbing represents an 
enormous part of the Nation's need to replace and rehabilitate its 
water system.
    Health risks of lead are generally widely accepted, and a recent 
study may add new concerns. Lead poisoning delays physical and mental 
development in children and, in adults, causes increases in blood 
pressure and--after long-term exposure--damages kidneys.
    Another important fact is that many people were surprised in 
January of this year when they read in the newspaper that lead levels 
were high--in some cases very high--in many homes in Washington. The 
fact that people were surprised means that to communicate effectively 
from now on we must communicate differently from now on.
    In addition to the obvious reason for communicating risks to the 
public, it is especially important in managing lead. By nature of the 
problem, we will be living with lead in our home environments for a 
long time; therefore, it requires particular vigilance.

                       CHARGE TO THE FIRST PANEL

    The members of the first panel are here to explain efforts to 
repair missed communications with the public, to review lessons learned 
to date, and explain intended efforts or policy changes for better 
communicating risks in the future.
    Every Senator and staff member knows the challenge of communicating 
risks because we have been evacuated from our offices--some of us 
twice--when attacked with anthrax and ricin. Since those episodes we 
have installed an announcement procedure by which we hear immediately 
of every suspicious substance found in our buildings. Even though most 
of these announcements are followed by an ``all clear'' message, we are 
prepared for the sight of a safety team wearing protective clothing as 
they hurry to investigate. People should have the information they need 
to judge risks for themselves.
    In addition to the issue of communication, we also want to hear of 
the latest developments in finding and eliminating the lead. Also, I am 
specifically interested in how the public will be included in 
deliberations and decisions about this problem.

                         CHARGE TO SECOND PANEL

    The second panel is here to describe the health risks of lead, 
relate personal experiences with this issue, and offer professional 
advice about how communications could be improved. I appreciate your 
commitment to join us today. I strongly urge the first panel to remain 
to hear what the second panel has to say.

                           THE NATIONAL NEED

    To all who are following this issue, remember: this situation is a 
specific and serious example of a national issue. Depending on where 
you live and work, your water infrastructure is anywhere from 40 to 140 
years old. That means many Americans are already experiencing either 
the problems of an aging system or the limits of a small system. All 
systems need to work reliably everywhere and for everyone.
    To accomplish this will require more money than we currently have. 
In 2000, the Water Infrastructure Network estimated that current 
infrastructure needs could cost around $1 trillion over the next 15-20 
years.\1\ This is around $20 billion per year more than current 
spending. The EPA's own ``Gap Analysis'' from 2002 estimates almost 
$300 billion in infrastructure resource shortfalls over 20 years.\2\
---------------------------------------------------------------------------
    \1\ Water Infrastructure Network. April 2000. Clean and Safe Water 
for the 21st Century. Link from http://www.win-water.org/; direct from: 
http://www.amsa-cleanwater.org/advocacy/winreport/winreport2000.pdf.
    \2\ EPA. 2002. The Clean Water and Drinking Water Infrastructure 
Gap Analysis. Link: http:
//www.epa.gov/owm/ (click ``Featured Information''); direct: http://
www.epa.gov/owm/gapreport.pdf.
---------------------------------------------------------------------------
    I raised this issue on the Senate floor and won unanimous approval 
to increase available spending authority for water infrastructure--and 
I am pushing to retain this amendment in the Conference on the Budget 
Resolution.
    Today's hearing is about Washington's particular reason for a new 
effort to upgrade the Nation's water systems. I encourage all cities to 
heed the warning and answer the call.

    Senator Crapo. At this point, we will turn to our Ranking 
Member, Senator Jeffords, for his opening statement.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Thank you, Mr. Chairman, and good 
afternoon to everyone.
    I would like to start by thanking Senator Crapo and 
Chairman Inhofe for granting the Minority's request to hold 
this hearing. The residents of Washington, DC deserve to get 
answers from Federal and local officials on why there is lead 
in the DC water and why residents were not notified that safe 
drinking is a right, not a privilege.
    This committee has oversight responsibilities for the Army 
Corps of Engineers, the Environmental Protection Agency, as 
well as, the Safe Drinking Water Act. Each of us in the Senate 
has a special oversight responsibility for the District and its 
residents. I have lived in Washington for a long time and I 
take this responsibility seriously. At one time, I was kind of 
de facto Mayor for a while but that was a long time ago.
    Many of us have switched to bottled water. I am disturbed 
because bottled water is not regulated in that manner, the tap 
water is. We cannot even find out what is in bottled water.
    Yesterday, Senator Crapo and I met with a group of 
Washington parents. Their outrage and sadness at the effect on 
their children was unanimous. Their charges to us were, ``fix 
this situation and don't let it happen again.'' I am committed 
to doing everything in our power to solve this problem and I 
know the Chairman of the subcommittee agrees with me.
    My overriding question today for our witnesses is how did 
we get here? How did we get to the point where the future of 
the children living in our Nation's capital are threatened 
every day by the water in their faucets and bath tubs? How did 
we get to the point where water tests were conducted revealing 
startlingly high lead levels, but yet that information was 
never provided to residents who unnecessarily exposed 
themselves, their unborn children and their children to lead 
contaminated water? How did we get to the point where it takes 
congressional hearings and newspapers to expose this action? 
How did we get to the point where 2 years after the fact, EPA 
announces that WASA did not comply with the requirements of the 
lead and copper rule? How did we get to the point where the 
research from over a year ago showed that lead exposure levels 
below the current standard of 10 ppb have an adverse effect on 
children's intelligence level and yet the Federal Government 
has not responded?
    Lead is a serious health threat to children and to pregnant 
women. It is particularly dangerous for children who retain 
about 68 percent of the lead that enters their bodies while 
adults retain only about 1 percent. Children exposed to lead 
experience low birth weight, growth retardation, mental 
retardation, learning disabilities and other effects. It is an 
also particularly harmful drug for women in pregnancy.
    I have already mentioned our meeting yesterday with a group 
of DC parents and I want to take this chance to share a few 
more thoughts from other concerned parents. I ask unanimous 
consent that a letter and petition from PureWater DC, an 
Internet-based site for parents concerned about ongoing water 
issues in DC be placed in the record--13,077 people signed this 
petition expressing their concern and the expectation for 
District officials to take action quickly to fix the problem.
    Senator Crapo. Without objection, the petition will be made 
a part of the record.
    [The referenced document follows:]

    [GRAPHIC] [TIFF OMITTED] T4604.001
    
    [GRAPHIC] [TIFF OMITTED] T4604.002
    
    [GRAPHIC] [TIFF OMITTED] T4604.003
    
    [GRAPHIC] [TIFF OMITTED] T4604.004
    
    [GRAPHIC] [TIFF OMITTED] T4604.005
    
    [GRAPHIC] [TIFF OMITTED] T4604.006
    
    [GRAPHIC] [TIFF OMITTED] T4604.007
    
    [GRAPHIC] [TIFF OMITTED] T4604.008
    
    [GRAPHIC] [TIFF OMITTED] T4604.009
    
    [GRAPHIC] [TIFF OMITTED] T4604.010
    
    [GRAPHIC] [TIFF OMITTED] T4604.011
    
    [GRAPHIC] [TIFF OMITTED] T4604.012
    
    [GRAPHIC] [TIFF OMITTED] T4604.013
    
    [GRAPHIC] [TIFF OMITTED] T4604.014
    
    [GRAPHIC] [TIFF OMITTED] T4604.015
    
    [GRAPHIC] [TIFF OMITTED] T4604.016
    
    [GRAPHIC] [TIFF OMITTED] T4604.017
    
    [GRAPHIC] [TIFF OMITTED] T4604.018
    
    [GRAPHIC] [TIFF OMITTED] T4604.019
    
    [GRAPHIC] [TIFF OMITTED] T4604.020
    
    [GRAPHIC] [TIFF OMITTED] T4604.021
    
    [GRAPHIC] [TIFF OMITTED] T4604.022
    
    [GRAPHIC] [TIFF OMITTED] T4604.023
    
    [GRAPHIC] [TIFF OMITTED] T4604.024
    
    [GRAPHIC] [TIFF OMITTED] T4604.025
    
    [GRAPHIC] [TIFF OMITTED] T4604.026
    
    [GRAPHIC] [TIFF OMITTED] T4604.027
    
    [GRAPHIC] [TIFF OMITTED] T4604.028
    
    [GRAPHIC] [TIFF OMITTED] T4604.029
    
    [GRAPHIC] [TIFF OMITTED] T4604.030
    
    [GRAPHIC] [TIFF OMITTED] T4604.031
    
    [GRAPHIC] [TIFF OMITTED] T4604.032
    
    [GRAPHIC] [TIFF OMITTED] T4604.033
    
    [GRAPHIC] [TIFF OMITTED] T4604.034
    
    [GRAPHIC] [TIFF OMITTED] T4604.035
    
    Senator Jeffords. I believe it is imperative that during 
each moment of today's hearing, we all remember that real 
parents, children and babies are being affected by this 
situation as we speak.
    Today's hearing is just the first step in what I hope will 
be a long list of actions that we can take to help solve DC's 
lead problem and prevent this from occurring elsewhere in this 
Nation. Today, I requested from my colleague, Senator Graham of 
Florida, and Representatives Dingell and Solarz that the 
General Accounting Office conduct an investigation into the 
Environmental Protection Agency's enforcement of the Safe 
Drinking Water Act lead provisions, using Washington, DC as a 
case study.
    During the questioning for EPA today, I will urge the 
Agency to immediately initiate nationwide testing to ensure 
that we do not have an undetected national lead problem. In the 
coming days, I will be introducing legislation that will take 
action to overhaul the current regulatory regime for lead in 
drinking water. My bill will modify the Safe Drinking Water Act 
to improve public communications, to require immediate 
notification of all homes with elevated lead level results, to 
require public water systems to provide in-home filters where 
lead is a problem, to prohibit lead in plumbing fixtures, to 
require immediate nationwide testing of public water systems, 
to eliminate lead service lines and lead pipes and to increase 
water infrastructure funding.
    I was struck by the question posed by one resident. Can you 
actually help fix this problem? I hope the answer to that will 
be a resounding yes. Today is step No. 1 in that direction.
    I look forward to hearing from our witnesses today.
    Thank you for this opportunity.
    Senator Crapo. Thank you.
    [The prepared statement of Senator Jeffords follows:]

      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont

    I would like to start by thanking Senator Crapo and Chairman Inhofe 
for granting the minority's request to hold this hearing. The residents 
of Washington, DC deserve to get answers from Federal and local 
officials on why there is lead in DC water and why residents were not 
notified. Safe drinking water is a right, not a privilege.
    This Committee has oversight responsibilities for the Army Corps of 
Engineers, the Environmental Protection Agency, as well as the Safe 
Drinking Water Act.
    Each of us in the Senate has a special oversight responsibility for 
the District and its residents. I've lived in Washington for a long 
time, and I take this responsibility seriously.
    Many of us live in Washington. We certainly all work in Washington. 
Our family, friends, children and grandchildren drink the tap water 
here daily.
    Many of us have switched to bottled water. I am disturbed that 
because bottled water is not regulated in the same manner that tap 
water is, we cannot even find out if our bottled water is safe.
    Yesterday Senator Crapo and I met with a group of Washington 
parents. Their outrage and sadness at the effect on their children was 
unanimous. Their charge to us was: Fix this situation and don't let it 
happen again. I am committed to doing everything in our power to solve 
this problem.
    My overriding question today for our witnesses is--How did we get 
here? How did we get to the point where the futures of children living 
in our Nation's capital are threatened every day by the water in their 
faucets and bathtubs? How did we get to the point where water tests 
revealed startlingly high lead levels, but yet that information was 
never provided to residents who unnecessarily exposed themselves, their 
unborn children, and their children to lead-contaminated water?
    How did we get to the point where it takes Congressional hearings 
and newspaper exposes to get action? How did we get to the point where 
2 years after the fact, the EPA announces that WASA did not comply with 
the requirements of the Lead and Copper Rule?
    How did we get to the point where research from over a year ago 
showing that lead exposure at levels below the current standard of 10 
parts-per-billion have an adverse effect on children's intelligence 
levels, and yet the Federal Government has not responded?
    Lead is a serious health threat to children and pregnant women. It 
is particularly dangerous for children, who retain about 68 percent of 
the lead that enters their bodies, while adults retain about 1 percent. 
Children exposed to lead experience low birth weight, growth 
retardation, mental retardation, learning disabilities, and other 
effects. It is also particularly harmful during pregnancy.
    I have already mentioned our meeting yesterday with a group of DC 
parents, and I want to take this chance to share a few more thoughts 
from some other concerned parents. I ask unanimous consent that a 
letter and petition from PureWater DC, an internet-based site for 
parents concerned about the ongoing water issues in DC. Thirteen-
hundred and seventy-seven people signed this petition expressing their 
concern and the expectation for District officials to act quickly to 
fix the problem.
    I ask unanimous consent that the many letters and e-mails I have 
received from DC residents be included in the record, and I ask that 
the record remain open for 2 weeks to allow more people to provide 
their views.
    I believe it is imperative that during each moment of today's 
hearing, we all remember that real parents, children, and babies are 
being affected by this situation as we speak.
    Today's hearing is just the first step in what I hope is a long 
list of actions that we can take to help solve DC's lead problem and 
prevent this from occurring elsewhere in the Nation.
    Today, I requested with my colleagues Senator Graham of Florida and 
Representatives Dingell and Solis that the General Accounting Office 
conduct an investigation into the Environmental Protection Agency's 
enforcement of the Safe Drinking Water Act's lead provisions, using 
Washington, DC as a case study.
    During the questions for EPA today, I will urge the Agency to 
immediately initiate nationwide testing to ensure that we do not have 
an undetected national lead problem.
    In the coming days, I will be introducing legislation that will 
take action to overhaul the current regulatory regime for lead in 
drinking water.
    My bill will modify the Safe Drinking Water Act to improve public 
communication, to require immediate notification of all homes with 
elevated lead test results, to require public water systems to provide 
in-home filters where lead is a problem, to prohibit lead in plumbing 
fixtures, to require immediate nationwide testing of public water 
systems, to eliminate lead service lines and lead pipes, and to 
increase water infrastructure funding.
    I have requested a hearing on the childhood lead poisoning in the 
Health, Education, Labor, and Pensions Committee on which I sit to 
ensure that the Centers for Disease Control is aggressively addressing 
childhood lead poisoning.
    I was struck by the question posed by one resident--can you 
actually help fix this problem? I hope to answer that question with a 
resounding ``yes.''
    Today is step No. 1. I look forward to hearing from our witnesses.
    Thank you, Mr. Chairman.

    [GRAPHIC] [TIFF OMITTED] T4604.234
    
    [GRAPHIC] [TIFF OMITTED] T4604.235
    
    [GRAPHIC] [TIFF OMITTED] T4604.236
    
    Senator Crapo. We will now turn to the Chairman of our 
committee, Senator Inhofe, who has been very strong in 
encouraging us to hold these hearings.
    Senator Inhofe. Thank you very much, Mr. Chairman, for 
holding this hearing.
    In deference to our witnesses, I will submit my statement 
for the record and move on.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    I like to thank Chairman Crapo for holding this hearing, like most 
of my colleagues, when I'm not back in my home State, I stay here in 
the District of Columbia. And while the lead levels in the drinking 
water probably won't shorten my life expectancy, I do have grand kids 
who come to visit and don't want to put them at any added risk.
    First I think that it's important to put the risk from lead 
exposure into perspective. While high blood lead levels are a cause for 
concern, the blood lead levels of the children in the District of 
Columbia are far lower than those we experienced nationwide just a 
generation ago.
    The Centers for Disease Control (CDC) has established guidelines 
for lead exposure, their level of concern for blood lead is 10 
micrograms per deciliter. Twenty years ago, the vast majority of 
children in America would have exceeded that level. A nationwide study 
conducted by CDC in the early 1980s, 88 percent of the children in the 
survey exceeded the current CDC level of concern.
    From the mid-1920s until the mid-1980s motor gasoline contained an 
additive, tetraethyl-lead, that improved fuel performance by preventing 
pre-ignition in the cylinders of the engine. This lead was released as 
a gas and in the form of a very fine dust. Even today, areas around 
busy roads and highways may contain elevated levels of lead.
    Because of concern over lead in the drinking water the CDC recently 
conducted a study of residents in the District whose tap water had the 
highest lead levels, above 300 parts per billion. Not one person had 
lead levels in their blood above CDC's level of concern.
    The current tempest over DC's drinking water raises several 
pressing questions. First and foremost is, What caused the sudden jump 
in lead levels seen in the water samples? Hopefully our witnesses will 
have some answers.
    But equally important, is the longer-term question of whether or 
not our system properly responded to the incident. It has been almost 2 
years since the first water samples tested high in lead.
    What we know for certain is that somewhere between the source and 
the spigot, something went wrong. What we need to know is why is it 
taking 2 years to solve this problem.

    Senator Crapo. Thank you very much.
    Senator Clinton.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. I want to thank you and Chairman Inhofe 
for this hearing. I particularly want to thank Senator Jeffords 
for his strong interest and leadership on this issue.
    With your consent, I will submit the entire statement for 
the record but I want to make a few additional points.
    There is no safe level of lead and recent studies, one 
concluded last April published in the New England Journal of 
Medicine, followed 172 children in Rochester, NY and measured 
blood lead levels at 6, 12, 18, 24, 36, 48 and 60 months and 
tested their IQs at 36 and 60 months. The study found that most 
of the reduction in IQ attributable to lead occurred at blood 
levels below 10 mpd which is the level that the Centers for 
Disease Control considers to be the threshold level for health 
effects.
    The researchers found that IQ scores of children who had 
blood lead levels of 10 mpd were about seven points lower than 
for children with levels of 1 mpd. An increase in blood levels 
from 10 to 30 mpd were associated with a small additional 
decline in IQ. While this is only one study, there are a number 
of other research findings that suggest what we currently 
consider to be a safe level for lead is in fact too high. That 
underscores the seriousness of the issue we are here to talk 
about today.
    Lead exposure comes from a variety of sources and lead in 
drinking water accounts for only about 20 percent of lead 
exposures, but if no level of lead is safe then any source of 
lead needs to be taken very seriously. To the DC residents who 
are here, and that includes many of us who serve in this body 
who live part-time inside the District boundaries, I think you 
have a right to be disturbed and have an absolute right to have 
your questions answered.
    I don't think it is productive in this hearing to try to 
assess blame but at some point, we need to get specific 
questions answered. Why did WASA not notify residents about 
elevated lead levels as soon as it had the test results? Why 
did the DC Health Department engage in this issue when notified 
of the problems? Why did EPA take so long to get involved? How 
is it possible that WASA or no agency has accurate records 
about who has lead service lines and in the absence of such 
records, why is WASA refusing to provide water filters to homes 
for which it does not have information one way or the other?
    These are some of the questions I have. I look forward to 
this hearing but I have to conclude by saying one of the great 
benefits of living in our country over many, many decades has 
been that we could count on the water we drank and the food we 
ate to be safe much more so than in other countries in the 
world. For the capital of our Nation to have this problem is 
deeply concerning. I am grateful we are having this hearing and 
I also look forward to working with Senator Jeffords on his 
legislation.
    Senator Crapo. Thank you very much, Senator Clinton.
    Without objection, full statements of any of the Senators 
will be made a part of the record.
    At this point, we would like to call our first panel. We 
thank you all for joining us.
    Before we begin, I would like to address a few of the rules 
of the committee to all witnesses today. You will notice there 
is a clock in front of you. You should have been informed you 
should keep your oral testimony to 5 minutes. We thank you for 
your written testimony, those of you who provided it, and we 
assure you we will carefully review your written testimony. 
However, 5 minutes goes by quickly and if you are like most 
witnesses, you will find your 5 minutes goes by before you are 
done saying everything you have to say. We encourage you to 
watch the clock. If you do forget, I will lightly tap the gavel 
to remind you to look down at it.
    The reason for that is because we want to have the 
opportunity to have dialog and discussion with you. You will 
find you will have an opportunity to make a lot of your points 
that you didn't get to in your first 5 minutes as we get 
engaged in that dialog. So please pay attention to the clock.
    With that, let me introduce our first panel. We will ask 
you to speak in the order I introduce you. We first have 
Benjamin H. Grumbles, Acting Assistant Administrator, Office of 
Water, EPA; Donald Welsh, Director, Region III, EPA in 
Philadelphia; Jerry Johnson, general manager, District of 
Columbia Water and Sewer Authority; Dr. Daniel Lucey, interim 
chief health officer, District of Columbia Department of 
Health; and Thomas B. Jacobus, general manager, Washington 
Aqueduct, Baltimore District, U.S. Army Corps of Engineers.
    Gentlemen, we thank you for coming and for your 
preparation. Mr. Grumbles, please proceed.

      STATEMENT OF BENJAMIN H. GRUMBLES, ACTING ASSISTANT 
ADMINISTRATOR, OFFICE OF WATER, ENVIRONMENTAL PROTECTION AGENCY

    Thank you. Thank you for having this hearing and for 
putting together such a balanced presentation of witnesses to 
cover all the perspectives and issues we are all facing here.
    I want to say on behalf of EPA that we, like you, are 
asking a lot of tough questions of ourselves as well as 
questions of our colleagues. We want to focus on collaborating 
together, not finger pointing, coming up with solutions, 
concrete actions, restoring the quality of the water and the 
confidence of the public here in the District and making sure 
that this situation doesn't happen in other places throughout 
the country.
    I would like to touch on a few things, then I will turn to 
Don Welsh, who is the Regional Administrator, and has a more 
local perspective in terms of what is happening in the District 
itself. I just wanted to touch on a few items from the national 
perspective.
    The first thing I would like to say is that EPA places a 
very high priority on reducing exposure to lead. As you all 
pointed out very eloquently, it is a neurotoxin, a very 
dangerous poison and it is all of our jobs to ensure that 
exposure to lead is prevented or reduced.
    The next point I would like to make is that the 1991 Lead 
and Copper Rule signaled a fundamental change in that we went 
from having a 50 ppb MCL at the treatment plant itself to a 
different approach which would try to take into account the bad 
things that can happen once the water leaves the treatment 
plant and goes through the distribution systems to the homes 
and buildings in communities. That resulted in an action level 
and the focus of the rule is on corrosion control, monitoring, 
public education and if necessary, lead service line 
replacement.
    I am asked repeatedly whether this a national problem. I 
would say from the data we have, it is not so much a national 
problem as it is a localized problem and a national 
opportunity. This is an opportunity to look hard at the 
existing regulatory framework, to look particularly hard at the 
monitoring and public education requirements and really focus 
on what we can all do, not just from a local perspective with 
respect to the District of Columbia, but also from the national 
perspective.
    EPA is doing several things. One is that we have initiated 
a national compliance review to determine whether or not there 
is a national problem, what success there has been since the 
1991 rule, and also to determine how well the current rule is 
being implemented, focusing particularly on monitoring, public 
education and communication. We are also reviewing within our 
Office of Water, various aspects of current policy and also 
issues associated with the rule to determine whether or not the 
policies or the regulation itself should be revised. We are 
establishing several work groups with the benefit of experts to 
look at simultaneous compliance issues, sampling protocols and 
possibly also public education, how best to advance what we did 
in 2002 and that was to issue guidance on public education for 
lead and drinking water, how to communicate and keep 
communities informed.
    We are very concerned and want to be very proactive with 
respect to lead and drinking water at schools and day care 
facilities. I have written to all the State Environmental and 
Public Health Commissioners asking them to share with us what 
they are doing on that front. Do they test regularly for lead 
in drinking water at schools, what protocols they are 
following, what results they are finding, what EPA could do 
recognizing our limited legal authorities when it comes to 
schools and day care facilities, to provide additional guidance 
or leadership?
    The last thing I would say is that from a national 
perspective, if there is a silver lining in this lead problem 
in the District, it is that it gives us all an opportunity to 
focus on areas such as public education, communication and 
monitoring and the importance of water infrastructure.
    So we look forward to working with you, your colleagues and 
all the stakeholders and concerned citizens on this issue.
    Thank you.
    Senator Crapo. Thank you very much, Mr. Grumbles.
    Mr. Welsh.

STATEMENT OF DONALD WELSH, DIRECTOR, REGION III, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Welsh. Good afternoon. I am Don Welsh, the Regional 
Administrator for USEPA, Region III.
    Thank you for the opportunity to appear before you today to 
discuss the important issue of lead in the tap water of 
District of Columbia residents and the steps that EPA and other 
agencies are taking to resolve the problem on a short- and 
long-term basis.
    Elevated levels of lead in the environment, whether in 
drinking water or lead paint, can pose significant risks to 
health, particularly to pregnant women and young children. 
Reducing exposure to all sources of lead is vital to protecting 
the health of our citizens.
    It is unacceptable to us that many families in the District 
continue to live with fear and uncertainty over the quality of 
the water they drink. At EPA, we will not be satisfied until 
all aspects of this problem are resolved. There is no higher 
priority for my office than to work with the city to protect 
the residents.
    To that end, EPA and the District of Columbia have 
directed, and are closely monitoring, a series of interim 
measures with firm deadlines to ensure that residents have safe 
drinking water and a proper precautionary guidance. At the same 
time, a multi-agency Technical Expert Working Group is acting 
as quickly as possible to identify and correct the cause of the 
elevated lead levels.
    The city and EPA have had regular meetings and 
conversations to monitor progress and to ensure necessary 
actions are being taken.
    By way of background, EPA's Lead and Copper Rule requires 
systems to optimize corrosion control to prevent lead and 
copper from leaching into drinking water. To assure corrosion 
control is effective, the rule establishes an action level of 
15 parts per billion for lead. If lead concentrations exceed 
the action level in more than 10 percent of the taps sampled, 
the system must intensify tap water sampling and undertake a 
number of additional actions to control corrosion and to 
educate the public about steps they should take to protect 
their health. If the problem is not abated, the system must 
also begin a lead service line replacement program.
    The results of DC's required tap monitoring exceeded the 15 
ppb action level for 10 percent of taps monitored during 6 of 
15 reporting periods since January 1992, 3 times prior to 1994 
and 3 times since 2002. An Optimal Corrosion Control Treatment 
limit implemented by the Aqueduct appeared to be effective in 
minimizing lead levels until the sampling period between July 
2001 and June 30, 2002. According to reports filed by WASA, the 
90th percentile value had increased to 75 ppb during that 
period and registered at 40 ppb and 63 ppb for 2 subsequent 
monitoring periods.
    On October 27, 2003, EPA Region III received results from a 
separate lead service line sampling program conducted by WASA 
indicating that 3,372 of 4,613 service lines tested had numbers 
exceeding the action level, many by a large margin. The 
information was reviewed by our technical staff with an eye 
toward determining how to address the underlying cause of the 
corrosion problem.
    As indicated, WASA and the District of Columbia Government 
are undertaking a series of actions outlined by EPA to address 
the public health threat posed by lead in drinking water. WASA 
will ensure delivery by April 10 of certified water filters and 
consumer instructions to occupants and homes and buildings with 
lead service lines. Periodic replacement of the filters will 
also be assured.
    Additional tap water sampling has begun in schools as part 
of a broader program to test a representative group of 
facilities that are not served by lead service lines to 
determine the full scope of the problem. WASA has committed to 
an accelerated schedule for physically replacing lead service 
lines in the District. WASA is expediting notification to 
customers of the results of water sampling at their residences, 
committing to providing results in 30 days or less.
    As EPA, the District and WASA continue to expand outreach 
efforts to provide important information to consumers, WASA is 
providing an enhanced public education plan to reach all 
sectors of the population in an effective way. EPA is 
undertaking a compliance audit of WASA's lead service line and 
public education actions. In letters to WASA last week, EPA 
asserts instances in which requirements were not met, ,and as 
part of the enforcement process, requires WASA to provide 
information to EPA responding to those findings.
    In a separate initiative, an internal EPA team is 
evaluating WASA's prior outreach efforts, a process to be 
completed by month's end that involves a review of materials, 
interviews with residents and public officials and a survey of 
best practices from public water systems around the country.
    It is clear that WASA was ineffective in informing the 
public of the magnitude of the lead problem in drinking water 
and in conveying the steps families and individuals should take 
to protect themselves. Mass media tools, including direct 
contact with media representatives, as is recommended in EPA 
guidance, were not used effectively.
    The Region is also taking a critical look back at how we 
could have done a better job in our oversight capacity to 
ensure the public interest is being served by WASA's actions. 
There will continue to be lessons learned that will benefit the 
agency in the future. The Technical Expert Working Group made 
up of representatives from the public and private sectors is 
making progress in identifying the cause of the elevated lead 
levels. By next week, EPA is scheduled to receive a proposal 
from the technical team for a water chemistry change to reduce 
corrosion and maintain other protections. Under the proposed 
timetable, a partial system test is currently planned for June 
1 followed by full system implementation on or about September 
1. EPA has formed an independent peer review group to check the 
team's findings.
    In closing, working closely with the District of Columbia, 
our public service partners and concerned citizens, we will 
continue to aggressive act to protect residents and resolve the 
lead problem. We are taking action to hasten the day when the 
citizens of the District of Columbia can once again be 
confident in the safety of their drinking water.
    Thank you for the opportunity to present this information 
this afternoon. I am pleased to answer any questions that you 
have.
    Senator Crapo. Thank you very much, Mr. Welsh.
    Mr. Johnson.

  STATEMENT OF JERRY N. JOHNSON, GENERAL MANAGER, DISTRICT OF 
               COLUMBIA WATER AND SEWER AUTHORITY

    Mr. Johnson. Good afternoon.
    I am Jerry Johnson, general manager of the District of 
Columbia Water and Sewer Authority. I am pleased to be here to 
provide testimony about WASA's endeavors relative to lead 
replacement program and the issues of elevated lead levels in 
some homes in the District of Columbia.
    It goes without saying that these issues are of the utmost 
importance and this is an excellent opportunity to reassure 
this panel and the residents of the District of Columbia that 
working expeditiously to find lasting solutions is absolutely 
WASA's highest priority.
    There are several critical areas I wish to cover today and 
answer the questions members of the committee have. I will 
attempt to follow the outline as put forth in your letter of 
invitation. First, WASA has undertaken an aggressive effort to 
distribute filters to residents it believes have lead service 
lines in the District of Columbia. As of today, WASA has 
distributed filters to all of these households, some 27,000 of 
them, and will provide replacement filters for a 6-month 
supply. In addition, over 200 filters have been distributed to 
home day care centers with lead service lines.
    Second, WASA is working tirelessly to keep customers 
informed regarding all facets of the lead issue. WASA recently 
expanded its lead service hotline, a program we initiated in 
January 2003, to facilitate direct communication with our 
customers. We have added personnel to allow us to staff 
operations for 12 hours a day, Monday through Friday and 9 
hours a day on weekends. Since February, the hotline has 
fielded over 45,000 calls and 6,200 e-mails. Our website, which 
is continuously updated, averages about 1,700 visits per day. 
The March and April edition of our monthly newsletter, ``What's 
on Tap,'' which is distributed to 125,000 plus residents of the 
District, focuses on the lead issue and provides advice to 
customers.
    Also, since February 2004, WASA has supported 10 joint 
public information meetings across the city, along with the DC 
Department of Health and the Washington Aqueduct and another 15 
to 16 ANC and civic association groups where we have also had 
joint appearances. It is estimated that approximately 1,500 
residents have attended these meetings. In addition, in 
February WASA sent mailings to every address in the District of 
Columbia, over 360,000, residents regarding the lead issue.
    The mailings, which were multilingual, contained a 
Department of Health fact sheet, general information about the 
subject of lead and water and contained precautions that 
residents should take regarding the use of water. WASA has also 
made available brochures and maps in all libraries and 
community centers throughout the center. We are currently in 
the process of contacting by mail, residents we believe are 
served by lead service pipes to provide additional information 
on flushing and encourage those residents who have not already 
done so, to avail themselves of tap water testing at no cost to 
them.
    We are also contacting approximately 21,000 as opposed to 
37,000 residents for which there is no record of the pipe 
materials our customers have in the data base. That is simply 
because we are maintaining historical records that date back to 
1901 and they are just not all in place. In addition, a 
direction communication with customers, WASA has conducted 
media briefings and representatives for the board and 
management have appeared before congressional committees, 
hearings and briefings of the DC Council, the Mayor and 
attended regular mayoral press briefings.
    Additionally, WASA has reached agreement with the George 
Washington University School of Public Health, Department of 
Environmental and Occupational Health to provide the Authority 
with assistance and advice in a number of health related areas.
    Third, getting to the root problem by conducting research 
as to why there is an increase in some homes and which specific 
homes are affected will continue to be a priority for WASA. 
Currently we are working with EPA, the Washington Aqueduct, the 
DC Department of Health, and respected scientists and experts 
on this problem.
    We have also increased the number of lead service pipes in 
public space that are to be replaced this year, adding about 50 
percent to those with an addition of $7 million that has been 
provided by the Board of Directors, putting the lead 
replacement number from 800 to 1,300 this year with an 
additional 300 that we expect to be undertaken by the District 
of Columbia through its Road Replacement Program.
    In addition, the Board has been considering, through a 
resolution adopted at its last meeting, a $350 million proposal 
to replace every one of the estimated 2,300 lead service lines 
in the District by 2010. Community input on this proposal will 
be sought over the next 2 months. Since lead service pipes are 
in both public space and private space, we will work with 
homeowners to replace those in their space and are working 
currently with the District in an effort to find financial 
assistance and looking at options for these citizens having 
difficulty in paying that cost.
    With that, Mr. Chairman, I will end my testimony. I noticed 
the red light is on and rather than your dropping the gavel, I 
would be glad to respond to any questions you have but we want 
you to know it is WASA's intention to address this challenge in 
a manner that works for our city, for our residents, for the 
visitors who come to our city and to implement the solution as 
quickly and as reasonably as possible. We at WASA are firmly 
committed to doing this and welcome the collaboration of our 
partners, some of whom are here today.
    Thank you. I am prepared to answer any questions you may 
have.
    Senator Crapo. Thank you very much, Mr. Johnson.
    Dr. Lucey.

  STATEMENT OF DANIEL R. LUCEY, INTERIM CHIEF HEALTH OFFICER, 
           DISTRICT OF COLUMBIA DEPARTMENT OF HEALTH

    Dr. Lucey. Good afternoon.
    My name is Daniel Lucey. I am the interim chief medical 
officer for the DC Department of Health. In the next 5 minutes, 
prior to responding to your questions, I would like to 
summarize my background and list several key points about the 
lead issues in Washington, DC.
    I am a physician trained in adult medicine and infectious 
diseases with a Master's Degree in Public Health. After serving 
in the military as a physician, I joined the Public Health 
Service while working at the National Institutes of Health and 
the Food and Drug Administration.
    During 9/11 and the subsequent anthrax attacks, I was the 
Chairman of the Infectious Disease Service at the nearby 
Washington Hospital Center in DC and subsequently in 2002, was 
involved with the smallpox vaccination program and in 2003 with 
SARS, traveling to Hong Kong, working in a hospital in Toronto 
with patients with SARS, and in 2004, earlier this year with 
avian influenza.
    On February 10 of this year, I began work at the DC 
Department of Health with a focus on biodefense. On February 
13, 3 days later, I attended a Lead Task Force meeting. Every 
day since then, I have worked on lead issues. Although not a 
lead expert, I have approached learning about the lead issues 
through an intensive process much like learning about other 
previously unfamiliar to me diseases such as anthrax, SARS and 
avian influenza.
    On President's Day, Monday, February 16, I contacted the 
Director of the Centers for Disease Control and Prevention, Dr. 
Julie Gerberding, to request advice from lead experts at the 
CDC. Her response was immediate that day and since then, we 
have received outstanding CDC assistance. In fact, even today, 
there are CDC experts onsite with us at the Department of 
Health.
    On February 26, 2004, the city administrator, Mr. Robert 
Bob, instructed me to direct the Department of Health response 
to lead issues. Later that day, I completed and signed a health 
advisory letter from the Department of Health to the 
approximately 23,000 residences in DC with lead service lines. 
The letter is Attachment I and has been translated into six 
languages. The advisory contained recommendations about 
drinking water and measuring blood lead levels in persons most 
at risk for lead poisoning.
    In order to assess the health impact of increased lead 
concentrations in the water, to knowledge no such widespread 
health advisory on lead in drinking water has ever been issued 
in the United States. Our findings may be useful to other 
cities if they find increased lead concentrations in their 
drinking water.
    In order to provide blood lead level testing by the 
Department of Health starting on the 28th of February at DC 
General Hospital, we mobilized many persons within the 
Department of Health. In addition, on Monday, March 1, I 
contacted the U.S. Surgeon General, Vice Admiral Dr. Richard 
Carmona to request additional personnel assistance. He 
responded immediately that day and via Admiral Babb and the 
Commissioned Corps Readiness Force, provided a team of public 
health service officers over the next 4 weeks who worked very 
long hours with us in clinics all across the District of 
Columbia. They also went with us to several hundred homes of 
persons at high risk of lead poisoning in the District. On 
March 30, the DC Department of Health, the Commission Corps 
Readiness Force and the CDC published our preliminary findings 
on blood lead levels in the CDC's publication called 
``Morbidity and Mortality Weekly Report.''
    I would like to summarize six key points. First, none of 
the 201 persons we tested for blood lead levels who live in 
homes with the highest measured levels of lead in the drinking 
water, greater than 300 ppb, have had elevated blood lead 
levels defined as Senator Clinton said by 10 mpd for children 
and 25 mpd for adults.
    Second, from 2000 to 2003, the percentage of children less 
than 6 years of age with elevated blood lead levels continued 
to decline in the District of Columbia, both in homes with and 
homes without lead service lines. The percentage of children 
with blood lead levels greater than or equal to 5 mpd did not 
decline in homes with lead service lines although this percent 
did decline in homes without lead service lines.
    Third, only 2 of the initial 280, less than 1 percent, of 
children in home child care facilities with lead service lines 
have had elevated blood lead levels.
    Fourth, of the initial 4,106 persons who came to our 
clinics across the District of Columbia for free blood level 
testing in our laboratory, 1,277 were young children less than 
6, of which 16 had elevated blood lead levels. The initial 14 
children have been found to live in homes with dust and/or soil 
lead levels exceeding EPA and HUD guidelines. The homes of the 
other two children are currently being evaluated.
    Fifth, according to the CDC from 1976 to 1980, nearly 9 of 
10, that is 88.2 percent of children at that time age 1 to 5 
years of age and therefore now adults 24 to 28, had blood 
levels that today are considered elevated, namely at least 10 
mpd.
    Sixth, the EPA ``action level'' for lead in drinking water, 
15 ppb, is not a health-based recommendation. I would like to 
quote from the website that has been devoted to the Washington, 
DC area on the drinking water issue.

          ``The action level was not designed to measure health risks 
        from water represented by individual samples. Rather, it is a 
        statistical trigger that if exceeded requires more treatment, 
        public education and possibly lead service line replacement.''

    Thank you for your time and I would be pleased to respond 
to your questions.
    Senator Crapo. Thank you very much, Mr. Lucey.
    Mr. Jacobus.

  STATEMENT OF THOMAS P. JACOBUS, GENERAL MANAGER, WASHINGTON 
   AQUEDUCT, BALTIMORE DISTRICT, U.S. ARMY CORPS OF ENGINEERS

    Mr. Jacobus. Good afternoon.
    I am Tom Jacobus, the general manager of the Washington 
Aqueduct. Thank you for the opportunity to be here today.
    Washington Aqueduct, which is part of the Baltimore 
District of the U.S. Army Corps of Engineers, is a public water 
utility. We are regulated by the U.S. Environmental Protection 
Agency, Region III in Philadelphia. Washington Aqueduct 
provides potable water, not just to the District of Columbia 
Water and Sewer Authority, but also to Arlington County, VA and 
the city of Fall Church's service area and Virginia as well. 
All funds for the operation and capital improvements for the 
Washington Aqueduct come from its customers. The provisions of 
the Safe Drinking Water Act and its associated regulations are 
the basis for all operations concerning the production, storage 
and transmission of the drinking water produced and sold by 
Washington Aqueduct to its wholesale customers. The primary 
objective of the treatment process is to produce and deliver 
water to the tap that is free of contaminants and pleasant to 
drink. To achieve that objective, we do three things 
simultaneously. We kill harmful bacteria, we remove organic and 
inorganic contaminants and we provide optimal corrosion 
control. Corrosion control treatment is designed to reduce lead 
and copper leaching into drinking water and to keep the 
concentrations below the action level in accordance with the 
lead and copper rule.
    For many years we have accomplished that by the use of lime 
to adjust the pH of the water, but the recent sampling in the 
District of Columbia has resulted in unexpectedly high lead 
levels. Therefore, the corrosion control treatment needs to be 
reevaluated based on intensive analysis of current operations 
and the use of analytical models. Our team of engineers and 
scientists has recommended adding a phosphate-based corrosion 
inhibitor to the treatment process. We anticipate that EPA will 
approve this change by May 1 so that by June 1 we can apply a 
new chemistry to a portion of the distribution system.
    The full system application will begin by September 1. Our 
cost estimates for the work are $925,000 for research and 
engineering analysis and laboratory studies; $250,000 for the 
partial system application and $3.1 million for interim 
facilities for full scale application. The additional chemical 
costs will be about $1 million per year. While it will take 
several months to measure the effects, we have confidence that 
this change will be effective in reducing the lead leaching.
    I have one additional point I think is important to mention 
as we move forward. Washington Aqueduct and its wholesale 
customers have standing financial and technical working groups 
that regularly address ongoing operations and evaluate capital 
improvements. Based on our experience in the last 8 weeks, we 
see opportunities to improve data sharing among the customers 
pertaining to lead and copper corrosion. We intend to take the 
necessary steps to do that.
    This concludes my introductory remarks. I will be happy to 
respond to your questions.
    Senator Crapo. Thank you very much, Mr. Jacobus.
    I will begin with questions. We are going to do 5 minute 
rounds but we will do a number of rounds so that all the 
Senators have an opportunity to get out their questions.
    My first question is for you, Mr. Grumbles. You mentioned 
the national review you are conducting right now on lead. Can 
you tell me what this review has already revealed about how the 
rule on lead is performing, how it is working and how it is 
being complied with?
    Mr. Grumbles. So far, what we have done is reviewed the 
data that we have in the SDWIS. What we have found is that only 
4 of 199 systems serving more than 50,000 people have exceeded 
the 15 ppb action level since 2000. One of those was the 
District of Columbia. All of the systems except the District 
are now back below the action level. For systems serving 
between 3,300 and 50,000 people, 56 of the 1,761 systems have 
exceeded the action level since 2000 and only 14 reported to 
exceed the level since 2002.
    I want you to know, Mr. Chairman, that we are not 
comfortable with the amount of data we have received to date. 
One of the things that is part of our national compliance 
review is to write to and encourage the States to provide more 
information on compliance pursuant to the Safe Drinking Water 
Act and the Lead and Copper Rule. The point is that while so 
far the numbers are indicating to us through the SDWIS Program 
that it is not a crisis, we do need to get more information 
from the systems. I think only 22 percent of them have provided 
that information and there are several States, 23, who have not 
provided that information on the 90th percentile reporting.
    Senator Crapo. So this is preliminary information which is 
certainly not complete at this point.
    Mr. Grumbles. That is correct.
    Senator Crapo. This question is for either you, Mr. 
Grumbles or Mr. Welsh. I would like to go into the action level 
and exactly what it means. Dr. Lucey quoted it in his 
testimony. That quote in the EPA's statement is that,

          ``The action level was not designed to measure health risks 
        from water represented by individual samples. Rather, it is a 
        statistical trigger that if exceeded requires more treatment, 
        public education and possibly lead service line replacement.''

    Whichever of you feels most qualified to respond, explain 
what does it mean when we identify that an action level has 
been exceeded?
    Mr. Grumbles. I think what Dr. Lucey has said is an 
important point. The action level is not health based in the 
sense of an maximum contaminant level or MCL. When it was 
established, when the number 15 ppb was established, there were 
health factors taken into account. There were also feasibility 
factors in terms of what steps could be taken after that was 
reached. The analysis in the preamble to the 1991 rule 
describes how health factors were considered.
    It triggers actions, specific requirements for optimizing 
corrosion control, for carrying out additional monitoring and 
for doing a very specific, detailed, public education or public 
notification process. It also requires at the end of that 
process, if you are still exceeding that 15 ppb, a specific 
lead service line replacement study and program replacing 7 
percent of your lead service lines a year.
    Senator Crapo. If I understand correctly, please be sure 
you correct me if I am incorrect, the level and the action 
level has been set at such a point that when it is triggered, 
there is still time for an effective response if there is a 
response forthcoming to avoid a serious health risk? Is that 
correct?
    Mr. Grumbles. That is correct. There are dozens of cities 
and towns across the country that have exceeded that 15 ppb. 
The good news is from the data we have, most of those cities or 
towns have reduced the action level and we are finding it is 
not exceeding it in those cities and towns but again, I want to 
caveat that one of the lessons we are learning from this 
experience is that the decisions we make and the determinations 
of compliance are only as good as the amount of data and 
sampling that we have.
    Senator Crapo. Thank you. I see my first 5 minutes are up. 
We will turn to Senator Jeffords now.
    Senator Jeffords. Thank you.
    I have been frequently told by parents if I had only known, 
I would have taken precautions. I want to ask each of the 
witnesses to tell me how you are responding to this question, 
what explanation are you giving parents of children who were 
unnecessarily exposed to lead in their drinking water and what 
steps are you taking to regain the trust of the citizens of 
Washington, DC?
    Let me give you my own personal experience. We moved here 
20 some years ago. I, being a macho man, drank this water and 
my wife came down with the kids and said, ``no, we are going to 
get bottled water to make sure the kids get good water''. We 
did that. Then the other day I said, ``do you test the bottled 
water'' and I found out no. I wonder if we are doing anything 
about the options to make sure when I go out and pay good money 
for bottled water, is that healthy or do you know?
    Mr. Grumbles. Two points. One is in 2002, EPA recognized 
that the success of the Lead and Copper Rule depends on the 
ability to communicate effectively the timely and accurate 
information to the citizens of the community, so we developed a 
Lead Public Education Guidebook, a guidance document, because 
of the importance of communicating on that front.
    With respect to bottled water, as you know the 1996 
amendments to the Safe Drinking Water Act set up a framework 
where the Food and Drug Administration regulates the quality of 
the bottled water industry and to the extent EPA has 
established maximum contaminant levels under the Safe Drinking 
Water Act, the FDA is required to impose a standard on the 
bottled water industry. I believe I understand that for lead, 
the FDA has established a 5 ppb standard for bottled water.
    I think your point about ensuring consumer confidence in 
the country is a key one. The 1996 amendments to the Act which 
establishes the consumer confidence reports, the value of which 
continues to be realized over and over again because it is the 
public citizens, the mothers, the parents, the families who are 
actually in the best position to monitor the success of the 
implementation of the Lead and Copper Rule. Obviously the 
regulatory agencies, EPA, is entrusted and has that 
responsibility but the consumer confidence reports and the 
public education components of the Lead and Cooper Rule are 
critical to avoiding situations like we find ourselves in 
today.
    Senator Jeffords. Is there any requirement that the bottled 
water has to let you know what is in it?
    Mr. Grumbles. I honestly don't know what the requirements 
are on the bottled water industry. I know the Food and Drug 
Administration has that statutory responsibility.
    Senator Jeffords. I understand there aren't, but I just 
wanted to know.
    Mr. Grumbles. From an EPA perspective, we have an interest 
just like you in understanding and in being able to provide an 
answer to that question. We will commit to doing that.
    Senator Jeffords. Thank you, Mr. Chairman.
    Senator Crapo. Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    I would like to ask each one of you to answer two questions 
briefly for me. No. 1, looking backward, what mistake did you 
or your agency make in handling this matter? No. 2, looking 
forward, what is the one thing that you believe should be done 
in order to remedy the situation we find ourselves in? Why 
don't we start with Mr. Jacobus?
    Mr. Jacobus. We have a wholesale/retail relationship with 
our customers. Every day we have great visibility over the 
bacteriological content of the water throughout all three 
distribution systems--Arlington, Falls Church service area, and 
the District of Columbia. We test the water in our laboratory 
from samples at the plant, samples from the distribution 
system, either that we take ourselves or are brought to us for 
35,000-40,000 tests a year. We have great visibility on the 
bacteriological and the chemical contaminants in the water 
leaving the treatment plants, disinfection byproduct rule 
compliance, all of that.
    The mistake, to answer your question, is that we did not 
have the same visibility for the lead and copper samples. The 
samples are taken in a different way. They are taken throughout 
a period of the year. It is not a go/no-go on each individual 
sample. So we did not have all the samples collected at our 
organization; they were at different locations in two different 
jurisdictions under the State of Virginia's Health Department 
and EPA's regulatory responsibilities for the District of 
Columbia Water and Sewer Authority.
    We had the ability and we will take the initiative to bring 
that data together so that we can help all our customers and 
give them the benefit of our systemwide look. Even though every 
day, we paid attention to the optimal corrosion control 
treatment and that the water leaving the plant was at the 
specification for what we had agreed in our scientific-based 
study with EPA of how to treat the water and we were getting 
anecdotal evidence occasionally of a high reading. It wasn't 
until the spring of 2003 when EPA, reacting to WASA's results 
in 2001 and 2002, said we need to open this and start looking, 
so we started down that road.
    We did not have perfect knowledge of the big picture. We 
can get that knowledge even though it is regulatory, but 
because we think it is a responsible thing to do. I hope that 
answers your question.
    Senator Clinton. It certainly does and I appreciate that. 
Perhaps it would help if it were required by regulation so that 
at least all the players, all the stakeholders are at the 
table, but I appreciate that very much.
    Dr. Lucey.
    Dr. Lucey. Looking back, again, I have been here since 
February 10 but nevertheless, I think looking back what we 
might have done differently was to have the type of face-to-
face, verbal and phone interactions within the Department of 
Health, with EPA and with WASA and with Washington Aqueduct to 
discuss the issue about the action level has been exceeded. 
What does that mean? Is that a health-based risk or is it not? 
It is not, but could there be health implications? Yes, there 
could be. How are we going to answer that question? For me it 
is a clinical or medical approach and I think the folks that 
initially heard about the elevated water lead concentrations 
within the Department of Health were not the clinical and 
medical folks.
    As you know, there is new leadership now in the DC 
Department of Health. The top two people are no longer in the 
Department of Health as of two Fridays ago and I think the new 
interim leadership is very, very strong. That is one 
recommendation I have made to the new leadership, to have more 
involvement within the Department of Health of the clinical and 
non-clinical individuals.
    As far as looking forward, I think although there are many 
things that could be done to try to remedy this situation and 
any others developed in the future, I think a major one is to 
have the types of interactions we have had for the past couple 
months within the Department of Health and outside with EPA, 
with WASA, with Washington Aqueduct in terms of discussion of 
what is the best advice we can do and how we can best 
communicate that to the public?
    For example, briefly, how to prioritize lead service line 
replacements if that is what is going to happen, as we have 
heard it is on an accelerated basis. In my opinion, it is very 
important not only for the Department of Health to be involved 
in that decisionmaking but to work with the new clinical team 
coming on board with WASA from George Washington University to 
work directly with EPA in the formulation of the prioritization 
of lead service line replacement, as well as with the 
Department of Transportation and everyone else who needs to be 
involved. Do that right now from the beginning and we are doing 
that.
    Senator Clinton. Mr. Johnson.
    Mr. Johnson. Obviously hindsight is 20/20 and as I look 
back over this issue and consider mistakes that were made, I 
think probably the one that is most resounding was our focus on 
trying to comply with Federal regulations as opposed to looking 
at a broader picture in terms of where our customers were, what 
they were thinking and the need to get information to them 
perhaps sooner.
    Early on in this process, we were only working with a small 
sample base of 50 homes in the District and did not have a 
clear fix on what that meant for the broader district. I felt, 
and it was my decision, I assume responsibility for it, that at 
that point, it was not appropriate to raise a flag and begin to 
alarm people in the District about a problem we were having. As 
you know, we went forward and did a broader base of sampling 
than has ever been done in the United States of America. That 
showed some results that were concerning to us. We didn't know 
what the results meant, we are not the medical experts, not the 
regulatory experts. We think we got that information to them in 
a timely fashion and we believe with all sincerity we did make 
all the efforts that were required and I won't go through the 
list of things in front of me to comply with Federal 
regulations.
    An audit subsequently conducted by EPA suggested that there 
were some technical issues we may not have meant requirements 
and we will go back and respond to those over the next 21 days. 
I think that would be the mistake. I think we should have been 
focused more on the community in the District of Columbia than 
we were on the regulators but if you are regulated, you have to 
meet certain other requirements.
    As we go forward, I think the two points made by both Dr. 
Lucey and Mr. Jacobus are very valid. I think there needs to be 
a more formalized relationship established between the District 
of Columbia Water and Sewer Authority, the District's Health 
Department in order for us to grab these issues early on in the 
process and be able to have a stronger collaborative 
relationship. We had focused on the relationship between 
Aqueduct and their customers in Virginia who are also partners 
of ours in that business relationship. We began, when this 
issue first came up, to start looking at the water. I think we 
probably could have pursued that as another mistake. We 
probably could have pursued that more aggressively when the 
first 50 samples came back to take a look at that the 
production side of it and the chemistry of the water.
    As we go forward I think that kind of collaborative 
relationship is very important and I really think the District 
ought to look at the possibility of having primacy in this 
area. The USEPA has primacy in two jurisdictions for water 
distribution systems, the District of Columbia and I believe in 
Wyoming, so there are different relationships that get 
established with the regulatory bodies when you are working 
with a local entity that has a better sense of what is 
happening in that community and how that community needs to 
respond.
    I am sorry for being so long-winded but that is a very 
important question.
    Mr. Welsh. I believe when there is an exceedance of the 
action level, the spirit of the Lead and Copper Rule is to make 
sure that any of the citizens who might be exposed to a higher 
level of lead understand that fully, know that they might be 
exposed and have good information in their hands about how to 
reduce their exposure to lead. That goal is clearly what was 
not met in this instance. As Jerry mentioned, WASA took actions 
to get information into peoples' hands and in our review, we 
determined that some of the specific requirements weren't met 
fully, but the larger issue is that the information that was 
put out wasn't really getting home to the folks who needed to 
have that information so they fully understood it was important 
to them, they should pay attention and follow the directions 
put in there so they would know what they were exposed to and 
understand how to limit their exposure.
    Looking backward, we weren't aggressive enough, we weren't 
thorough enough and didn't find those deficiencies soon enough, 
both in the letter of what was required under the rule but also 
in that larger question of even if the language is put out 
there and made available in documents, is it a message that is 
getting home to folks and are they really understanding it.
    Going forward, we want to change our review procedures in 
the region so that we do not only a thorough job of checking 
the letter of compliance with the Lead and Copper Rule but that 
we also take the time to make the judgment about whether that 
message is being received, much in the way marketing folks do 
when their commercials and advertisements go out, they can 
measure in the public whether that message is being received.
    So we have changed our operating procedure so that it is 
not just the technical person in the Drinking Water Branch who 
reviews the reports for whether they have complied with the 
rule, but that we also call in the communications expertise 
that we have available in the region as well as if necessary to 
do contracts for folks on the outside who are experts in the 
area of communications to make sure not only in the future that 
the reg is fulfilled, but that also the message is being 
effective and that we measure out in the public do you folks 
who need to know this know? That is what we would like to do 
going forward.
    Mr. Grumbles. I couldn't have said it better. From the 
national perspective, the EPA does want to also acknowledge 
that it is not just following the letter of the rule, it is the 
spirit of the rule and that is partly our responsibility too, 
to be proactive and help oversee that not just the letter, but 
the spirit, the public education and other aspects of the Lead 
and Copper Rule are followed. That is certainly one of our 
objectives, acting proactively.
    The other one is this whole issue of simultaneous 
compliance. Providing drinking water to the public can be a 
tricky balancing act, given various regulations and 
requirements. We plan to have a workshop in May with national 
experts. You have the Disinfection Byproduct Rule, you have the 
Lead and Copper Rule. How do you ensure it is all working 
together and there are not unintended consequences?
    Thank you.
    Senator Crapo. Let me proceed a little further. As many of 
you probably know, yesterday, Senator Jeffords and I and Mayor 
Williams and several others joined some of the constituents 
here in Washington, DC and discussed with them their concerns. 
One of the concerns they raised was that under the testing 
procedures, it was difficult for them as individuals in 
individual homes to find out the results of the tests on their 
own homes. Until certain statistical levels had been reached, 
individual findings for individual homes didn't trigger a 
response.
    First of all, is that true? Is that the way the system 
works, an individual or family can have a test in their home 
and not be able to find out the results of those tests or not 
be able to get effective action on the basis of one home 
getting a negative test or a test that exceeds the limits?
    Mr. Johnson. I assume that question is for me?
    Senator Crapo. Yes.
    Mr. Johnson. I would respond that when we started doing the 
testing we had what we thought was an effective approach for 
getting test kits out to people, getting them back and it was 
sort of a Cadillac service where we delivered them by FedEx, we 
went by and picked them up physically, took them to the lab and 
had them sampled.
    When we started moving into tens of thousands of tests as 
opposed to a couple hundred, we simply did not change the 
system rapidly enough and there were some delays in getting 
tests back to people. I would concede that. I think we have a 
very effective approach for doing that now and have corrected 
that. As this problem has evolved because there is no road map 
or blueprint, we have had to change things and learn as we have 
gone along. I think there are very effective measures now for 
getting those tests results back and we generally guarantee 
them within about 30 days. Usually it is about a 3 to 3\1/2\ 
week turnaround in reality.
    With respect to explaining what they meant, we at the Water 
and Sewer Authority simply did not have the capacity to explain 
what they meant. I was around when the Lead and Copper Rule was 
done working in water utility back in the late 1980s and early 
1990s when that rule was put in place. I knew there was not a 
health-based standard for that, so we were not capable of 
explaining what the health impacts are, what this elevated 
level meant. All we could do was get something back to the 
person and explain to them you are over the action level which 
is in the 90th percentile of that 15 ppb and would have relied 
on health experts to provide that kind of followup and 
information to the customer.
    Senator Crapo. So if I understand, you have a system in 
place now where within 30 days an individual who has their home 
tested, can get their results back for that home. Is that true 
about not only the response testing, but also the standard 
routine samples of 50 homes that are done on an ongoing basis?
    Mr. Johnson. Because we have exceeded the trigger level, we 
have one group of homes that are regulatory samples and we 
treat those separately from the ones we are doing upon demand 
and request. The regulatory sample set is 100 in the spring and 
100 in the fall and they are being managed in a totally 
different process than the ones we are doing as random tests or 
tests upon demand.
    Senator Crapo. Are the people in the regulatory sample 
notified about how their homes are qualified?
    Mr. Johnson. Yes, sir. They are.
    Senator Crapo. So everyone, whether they are in the demand 
or the regulatory test is getting the notice as to what the 
results are for their home within the 30 days?
    Mr. Johnson. Yes, sir, that is correct.
    Senator Crapo. Thank you.
    Another issue that came up yesterday, you indicated you had 
already distributed about 27,000 filters. Those filters are 
distributed on the basis of those who are identified as having 
a lead pipe delivery system to their home, correct?
    Mr. Johnson. That is correct, sir.
    Senator Crapo. One concern that was raised yesterday is 
that there are something like 37,000 homes for which there are 
no records as to what the delivery pipes consist of. The people 
in that category are not able to get a filter. They don't know 
whether they have a lead pipe distribution system and they are 
not able to get a filter or a support from WASA in terms of 
dealing with what they perceive to be a lead problem.
    What is in place to help those who fall in that category of 
the 37,000 homes for which we don't have information?
    Mr. Johnson. We have been working for a couple of months in 
an effort to try to clean up some historical records where 
information has never been compiled before in the District of 
Columbia with respect to service pipes. We have a period of 
time where everything was recorded, we know the plumber paid a 
dollar to make the tap connection, what the material was and 
who the plumber was. We have some records that only show a date 
that it was done. We had to go through what existed manually 
and after going through those, we found about 21,000 as opposed 
to the 37,000, I would like to correct that number and I am not 
sure how 37,000 got created some time ago, it is about 21,000. 
We are notifying those people by a letter that has already been 
translated into the standard six languages and those letters 
will be going out to those residents either late this week or 
early next week, along with a postage-paid return card asking 
them to send that to us and we will get a water test kit out to 
them on a priority basis so they can test their water and 
determine if they have high lead levels.
    There are a number of those addresses that have been 
compiled in those historical records that simply some of them 
don't exist anymore. If you have been living in Washington for 
a while, you know there has been a great deal of redevelopment. 
These records go back a good ways in time. Some have changed 
their use. There are a number of different circumstances. We 
are unable, except to go out on the street, to identify those. 
We think this is the most efficient way.
    Anyone who shows an elevated level in the second draw of 
that test will automatically be mailed a filter with all of the 
instructions. We think having a two-part process is the most 
efficient and effective way of pursuing that.
    Senator Crapo. One last quick followup. Is it possible, 
under the system you now have in place, for any resident of the 
District who may feel your records are inaccurate or they fall 
in the category of homes where there is no information or are 
just really concerned about this issue, for them to request a 
test kit, have the test conducted and if the test shows their 
home has high levels, get a filter?
    Mr. Johnson. Yes, sir.
    Senator Crapo. So any resident of the District has that 
right?
    Mr. Johnson. Yes, sir. We have set aside resources to do a 
number of tests, something in excess of $2 million and are 
prepared to handle it. If we get an onslaught and a heavy 
volume, we can't do it but we would urge those persons with 
lead service lines to be the first priority. We do know many of 
our records are very, very accurate. Anything that was built 
after 1950 is not likely to have a lead service line because 
those lead service lines were outlawed after that time. We feel 
comfortable with anything that came during that period.
    If there is something other than a 2 inch going into a 
house, we are 99 percent certain that would not be a lead 
service line because they just didn't make them much larger 
than 2 inch--we aren't aware that they main service lines 
larger than 2 inches. We think it is a single family 
residential phenomena that we are working with. In the case of 
apartment buildings, anything that is a fourplex or better is 
going to have something larger than a 2 inch line. So there are 
a number of things we can do to eliminate certain numbers.
    If you notice, we have 130,000 customers in the District 
and the numbers we have talked about in terms of lead is 
somewhere around 23,000 that we feel fairly comfortable with 
and we have this other group. The others, we are fairly 
certainly, are not lead service lines.
    Senator Crapo. Thank you.
    Senator Jeffords.
    Senator Jeffords. Mr. Grumbles, your answer to Senator 
Crapo's question about the 15 ppb standard, you described the 
evolution of that standard. Can you describe why the EPA set 
the maximum contaminant level goal which is a health-based 
standard at zero?
    Mr. Grumbles. Senator, I can. When we regulate contaminants 
such as lead under the Safe Drinking Water Act, we start with 
the process of a maximum contaminant level goal. For lead there 
is no safe level, certainly no safe level we can point to and 
say with a margin of safety that there would not be some 
adverse health effect. So we did establish zero as the MCLG for 
lead.
    Senator Jeffords. As I mentioned in my opening statement, I 
have asked the Senate Health, Education and Labor and Pensions 
Committee--which I formerly chaired--to hold a hearing on 
childhood lead poisoning. I know we are not spending an 
extended time today discussing children's blood lead levels but 
I have one question for you on that.
    The Centers for Disease Control Advisory Committee on 
Childhood Lead Poisoning Prevention is currently undertaking a 
review of its blood lead level standard to 10 mpd. Recent 
findings published in the April 17, 2003 edition of the New 
England Journal of Medicine show that blood lead levels below 
the standard of 10 are linked with declines in IQ. The study 
also shows that relative reduction of IQ is greater at lower 
concentrations of lead than at higher concentrations. These 
findings suggest that even low levels of lead can have 
devastating effects on children. I ask that this study be 
included in the record.
    Senator Crapo. Without objection.
    [The referenced document follows:]

    [GRAPHIC] [TIFF OMITTED] T4604.036
    
    [GRAPHIC] [TIFF OMITTED] T4604.037
    
    [GRAPHIC] [TIFF OMITTED] T4604.038
    
    [GRAPHIC] [TIFF OMITTED] T4604.039
    
    [GRAPHIC] [TIFF OMITTED] T4604.040
    
    [GRAPHIC] [TIFF OMITTED] T4604.041
    
    [GRAPHIC] [TIFF OMITTED] T4604.042
    
    [GRAPHIC] [TIFF OMITTED] T4604.043
    
    [GRAPHIC] [TIFF OMITTED] T4604.044
    
    [GRAPHIC] [TIFF OMITTED] T4604.045
    
    [GRAPHIC] [TIFF OMITTED] T4604.046
    
    [GRAPHIC] [TIFF OMITTED] T4604.047
    
    [GRAPHIC] [TIFF OMITTED] T4604.048
    
    [GRAPHIC] [TIFF OMITTED] T4604.049
    
    [GRAPHIC] [TIFF OMITTED] T4604.050
    
    [GRAPHIC] [TIFF OMITTED] T4604.051
    
    [GRAPHIC] [TIFF OMITTED] T4604.052
    
    [GRAPHIC] [TIFF OMITTED] T4604.053
    
    [GRAPHIC] [TIFF OMITTED] T4604.054
    
    [GRAPHIC] [TIFF OMITTED] T4604.055
    
    [GRAPHIC] [TIFF OMITTED] T4604.056
    
    [GRAPHIC] [TIFF OMITTED] T4604.057
    
    Senator Jeffords. New research also shows that there may be 
an identifiable link between childhood lead exposure and 
educational achievement and social behavior. I ask unanimous 
consent to include several articles on this subject by Dr. 
Herbert Needleman.
    [The referenced document follows:]

    [GRAPHIC] [TIFF OMITTED] T4604.058
    
    [GRAPHIC] [TIFF OMITTED] T4604.059
    
    [GRAPHIC] [TIFF OMITTED] T4604.060
    
    [GRAPHIC] [TIFF OMITTED] T4604.061
    
    [GRAPHIC] [TIFF OMITTED] T4604.062
    
    [GRAPHIC] [TIFF OMITTED] T4604.063
    
    [GRAPHIC] [TIFF OMITTED] T4604.064
    
    Senator Jeffords. I ask unanimous consent that a report by 
the CDC Advisory Committee be included in the record.
    Senator Crapo. Without objection.
    [The referenced document follows:]

    [GRAPHIC] [TIFF OMITTED] T4604.065
    
    [GRAPHIC] [TIFF OMITTED] T4604.066
    
    [GRAPHIC] [TIFF OMITTED] T4604.067
    
    [GRAPHIC] [TIFF OMITTED] T4604.068
    
    [GRAPHIC] [TIFF OMITTED] T4604.069
    
    [GRAPHIC] [TIFF OMITTED] T4604.070
    
    [GRAPHIC] [TIFF OMITTED] T4604.071
    
    [GRAPHIC] [TIFF OMITTED] T4604.072
    
    [GRAPHIC] [TIFF OMITTED] T4604.073
    
    [GRAPHIC] [TIFF OMITTED] T4604.074
    
    Senator Jeffords. The Heavy People 2010 Initiative of CDC 
calls for the elimination of childhood lead poisoning by 2010, 
yet the CDC website provides three reasons why blood levels 
should not be reduced. It states that it is difficult to 
measure blood lead level concentrations below 10. I ask 
unanimous consent to include in the record a paper by Herbert 
Needleman which refutes this claim and describes the technology 
advances that have lowered the least observable effect level 
until it approaches zero.
    Senator Crapo. Without objection.
    [The referenced document follows:]

    [GRAPHIC] [TIFF OMITTED] T4604.075
    
    [GRAPHIC] [TIFF OMITTED] T4604.076
    
    [GRAPHIC] [TIFF OMITTED] T4604.077
    
    [GRAPHIC] [TIFF OMITTED] T4604.078
    
    [GRAPHIC] [TIFF OMITTED] T4604.079
    
    [GRAPHIC] [TIFF OMITTED] T4604.080
    
    [GRAPHIC] [TIFF OMITTED] T4604.081
    
    [GRAPHIC] [TIFF OMITTED] T4604.082
    
    [GRAPHIC] [TIFF OMITTED] T4604.083
    
    [GRAPHIC] [TIFF OMITTED] T4604.084
    
    [GRAPHIC] [TIFF OMITTED] T4604.085
    
    [GRAPHIC] [TIFF OMITTED] T4604.086
    
    [GRAPHIC] [TIFF OMITTED] T4604.087
    
    [GRAPHIC] [TIFF OMITTED] T4604.088
    
    [GRAPHIC] [TIFF OMITTED] T4604.089
    
    [GRAPHIC] [TIFF OMITTED] T4604.090
    
    [GRAPHIC] [TIFF OMITTED] T4604.091
    
    Senator Jeffords. The CDC website also states that no 
clinical inventions can reduce blood lead levels below 10 and 
that there is no evidence of a threshold below which adverse 
health effects are not experienced. Then the CDC draws a 
conclusion that any effort to reduce the standard would provide 
uncertain benefits, even though there appears to be ample 
evidence that no levels of lead in the blood is safe. This 
website appears to completely ignore the fact that blood lead 
poisoning is preventable and that in places like Washington, 
DC, the standard is used as a determining factor for which 
families receive assistance from the DC Department of Health.
    The CDC identifies two focus areas to combat lead 
poisoning, lead paint and lead end products. There is no 
mention of lead drinking water. Given the apparent consensus 
that there is no level of lead exposure that is safe, this 
situation is not understandable. I can't understand it. The 
EPA's own website indicates that the agency estimates that 20 
percent of childhood lead poisoning is due to exposure through 
drinking water. The agency set the maximum containment level 
for lead in drinking water at zero because that was the only 
level where no adverse effects will be experienced. I ask 
unanimous consent that the relevant CDC and EPA websites be 
included in the record also.
    Senator Crapo. Without objection.
    [The referenced document follows:]

    [GRAPHIC] [TIFF OMITTED] T4604.237
    
    [GRAPHIC] [TIFF OMITTED] T4604.238
    
    [GRAPHIC] [TIFF OMITTED] T4604.239
    
    [GRAPHIC] [TIFF OMITTED] T4604.240
    
    Senator Jeffords. Finally, what has EPA done to coordinate 
with CDC on its elevation of the blood lead level standard to 
ensure that it is reflective of the science consensus on this 
issue, on the CDC's plan to combat lead poisoning and on the 
Healthy People 2010 goal of eliminating lead poisoning by 2010? 
Do you believe the lead exposure in children can be eliminated 
in this country without addressing lead in the drinking water 
problems and the plumbing factors?
    Mr. Grumbles. Senator, I can appreciate your interest and 
your leadership on this issue in terms of reducing exposure to 
lead in drinking water, particularly to children. I would say 
on the first part of the question about the relationship with 
CDC, we have been working with CDC, we certainly have 
established very close working relationships with them in the 
context of responding to this situation here in the District.
    With respect to the overall question of the No. 10 in 
measuring blood lead levels and the safety of that, it is one 
of the items that we intend to discuss and explore and review 
the scientific literature you have as we go about looking at 
what is the existing guidance and what is the existing 
regulation because we do share your interest in the most 
important bottom line and that is, what is the impact on human 
health. How much lead in the drinking water is too much? We 
welcome that and look forward to working with you on that.
    Senator Jeffords. I look forward to working with you and 
communicating with you.
    Mr. Welsh. May I mention something we are doing locally, 
not on the national scale but in Philadelphia in Region III we 
piloted a program called Lead Safe Babies where we worked with 
the National Nursing Centers Consortium to actually have health 
professionals who go out into homes to talk to mothers and 
families about the possible sources of exposure to lead that 
exists in their homes. We thought that was very successful in 
Philadelphia and we are expanding that funding and it will be 
called Lead Safe DC, to work with the DC Department of Health 
not to supplant but to augment efforts they are doing to get 
better information actually into the hands of people in their 
homes about what their exposures to lead might be so that we 
can take a look at the holistic issue of lead exposure, paint, 
dust, soil, as well as drinking water. We felt that was very 
successful in Philadelphia and are happy to expand that to DC 
to try to help improve the public's knowledge about those 
risks.
    Senator Crapo. Senator Clinton.
    Senator Clinton. Mr. Johnson, I want to make sure I 
understood your comment at the end of the previous question 
from the Chairman. This is, in your view, primarily a single 
family home problem, not a multiple unit problem?
    Mr. Johnson. That is correct, Senator.
    Senator Clinton. One thing I think might be worth 
considering on the part of the DC Government, since there is 
some confusion about the number of service lines that are of 
unknown composition and I think the historical record problem 
is such that we may never get to the bottom of that, it might 
be worth considering some action that would provide filters for 
families in these categories of uncertainty or even go to the 
extent of permitting a family to purchase this filter and 
attach the receipt to their property tax return and deduct it 
from their costs. I think something needs to be done to take 
action more quickly and to restore confidence.
    The confusion that now exists over how many lead service 
lines there are and how many unknown composition lines there 
are and whether people are going to get tested and after they 
get tested, how soon they can get a filter, there might be a 
way to short circuit that and go ahead and absorb the cost now. 
We can argue later about whether the EPA and the Federal 
Government should help to reimburse since we have primary 
responsibility, but at least move to get as many filters 
installed as quickly as possible.
    I live in the District, my house was built in 1950, so I am 
right on the cusp and I have had an ongoing dispute about 
whether we do or do not have lead service lines but we have 
discovered that we have lead lines in the house. So even if I 
have an unknown composition line coming from the street, once 
it gets into the house, I have lead lines. So I think there are 
perhaps several ways you could short circuit this and also 
restore some confidence and provide some reassurance.
    Finally, with respect to the overall review that I 
understand the EPA may be engaged in, Mr. Grumbles and Mr. 
Welsh, I would appreciate your looking at the level of testing 
that is required. In New York City it falls into a system 
serving more than 100,000 households and we have 8 million 
people living in New York City. In order to meet that standard, 
we test 100 households and that is sufficient but, there are 
more than 100 neighborhoods. Some are single family 
neighborhoods, some are duplex neighborhoods, some are 
apartment neighborhoods, some are public housing neighborhoods. 
We have as many different kinds of housing as you can find 
anywhere in the country.
    As you are going through this review, I want you to look at 
the level of testing that is adequate for large systems, 
particularly a system as large as New York and in light of the 
problem we have had in DC, you think the regulations which 
allow systems to test every 3 years for lead are adequately 
protective. We only test 100 sites every 3 years. Given what we 
are finding out, given the fact we are changing the makeup of 
the chemicals put into the water, we need to be checking on 
this more frequently. I appreciate Mr. Jacobus' comment that we 
need to make it more transparent so that people know what is 
going on so we can immediately bring people together to 
respond.
    This is a matter of such great concern to all of us, the 
quality of our drinking water, I share Senator Jeffords' 
concern about bottled water. Based on my review of the FDA, 
there is not very much testing and not very much regulation. A 
lot of people are spending literally hundreds of dollars a year 
to buy bottled water which may or may not be better or safer 
than what comes out of their tap.
    We need to find out. People need information to make their 
own judgments. We need some kind of transparency that provides 
us information so that a concerned mother, a concerned pregnant 
woman, a concerned anybody can go somewhere, a website, a 
hotline and find out what he or she needs to find out.
    Finally, Mr. Chairman, unfortunately I can't stay for the 
next panel buy I want to thank Gloria Borland and Jody Lanard 
and Dr. Best. I read their testimony. I highly recommend that 
WASA and everyone else read Dr. Lanard's testimony about risk 
communication. In fact, I think everybody in any position of 
public responsibility should read his testimony. It provides a 
very useful guideline about how to deal with crisis situation, 
some of which is counterintuitive. The immediate response is, 
we don't want to panic people, we want to give people 
reassurance. I ran into this with the World Trade Center. We 
got into a big problem because EPA and the White House didn't 
want to tell people that we had more particulates and problems 
in the air around Ground Zero than they wanted us to know, so 
we didn't have the urgency that would have convinced a lot of 
the workers and volunteers at Ground Zero to wear that 
protective equipment.
    I think given the high level of risk that we live with in 
the world today, risk communication is central and it is 
counterintuitive because I think the natural human feeling when 
you are in a position of responsibility and you take it 
seriously is I don't want people to panic. Given the world 
today, it may be better to err on the side of more rather than 
less information. We have a lot of very mature, very active 
people who then can draw their own judgments.
    One of the things I face all the time at Ground Zero now is 
construction workers, firefighters and others who say if they 
had told me, I would have left the mask on. Well, they were 
kind of told it was dangerous, they could smell it was 
dangerous but the EPA was saying it was OK. This is the 
conflict and I appreciate the conflict, but I think we need to 
get to a point where we level with people, we provide 
information transparently and I think we have to look at the 
laws and regulations because if we can't provide safe drinking 
water in our Nation's capital, that is a terrible indictment of 
all of us, particularly given the fact that the Federal 
Government oversees DC for better or worse, it is our 
responsibility.
    Thank you so much for holding this hearing, Mr. Chairman.
    Senator Crapo. Thank you, Senator.
    I would like to ask a couple more questions. Mr. Welsh, the 
first is for you. My question is, based on the work of the 
Technical Expert Working Group, how would you describe the 
status of the options we have for long term solutions at this 
point?
    Mr. Welsh. The Technical Working Group is working hard to 
identify what actually caused the change in corrosion and to 
run through what the possible fixes are to that. In fact, we 
recently received an update of the Technical Working Group. 
They did a desktop analysis and got a contractor's report back 
just last week with a recommended treatment option. The full 
Technical Expert Working Group is going to be considering that 
report and by April 15, they will be recommending a treatment 
option to EPA.
    When we receive that recommendation, we would like to take 
the opportunity to talk to the public and review that 
information with the public and get their input but we are 
trying to move as quickly as we can. It is in everyone's 
interest to bring about a solution as quickly as possible. So 
we are encouraged by the work the Technical Group has been able 
to do. They have forwarded this report with a recommended 
treatment option and we hope by May 1, we will be able to 
approve the selected treatment option.
    The schedule we are on would call for that treatment 
option, once it is identified, to be tested in a limited part 
of the system beginning June 1. Our schedule was for full 
system implementation if all of the studies that are ongoing at 
the same time that we do that confirm that it is going to be 
effective and the correct solution, to go systemwide with that 
by September 1.
    In addition to the Technical Expert Working Group, we have 
also had an independent peer review group of experts look at 
the same work and based on some of their comments, we are 
hopeful we may be able to accelerate the date for that full 
system implementation. So we are encouraged that we are moving 
toward the correct answer, but no final determination has been 
made yet as to what the correct treatment option will be, but 
we are getting close to that day.
    Senator Crapo. Thank you and we will look with great 
interest on that report as well to see what direction we should 
take.
    I have two more quick questions. One, Dr. Lucey, is for 
you. I am looking at the summarized points you gave. In your 
summaries in the first couple of points, it indicates to me 
that a number of children in homes with identified elevated 
lead levels in their water were tested but a very low 
percentage of them, according to these tests, had elevated 
blood lead levels. Is that correct?
    Dr. Lucey. Yes, sir, that's correct.
    Senator Crapo. Then my question is I think the obvious one. 
Why? Wouldn't we have expected higher blood lead levels in 
these children?
    Dr. Lucey. Because of the lead in the water?
    Senator Crapo. Because of the lead in the water?
    Dr. Lucey. I think that is the essential question from a 
public health point of view. That is really why the Department 
of Health sent the letter on February 26 to the 23,000 homes 
that I signed with an abundance of caution that we should offer 
blood level testing because this has never been done before in 
the United States, it is widespread blood testing to assess the 
health impact of lead in the water, increased amounts of lead 
in the water. It is not in the textbooks. There is no clear 
correlation between a concentration of lead in the water and 
the concentration of lead in the blood.
    Senator Crapo. Is that because of a question of whether it 
is, I have heard the word bioavailable in the body when it is 
consumed by water?
    Dr. Lucey. That is part of it. It also depends on the age 
as Senator Clinton mentioned in terms of a child absorbing and 
retaining more lead than an adult. That is why children are 
most at risk, particularly young children with developing 
nervous systems where lead act to the nervous system like 
calcium and that is bad for the nervous system of the child.
    Senator Crapo. So we don't actually have the data 
foundation or whatever to make scientific conclusions at this 
point?
    Dr. Lucey. Scientific answers through a series of test 
hypotheses, get results and those studies have to be confirmed 
or refuted. So that is what I think we are contributing here in 
the District both for the District and for the country if other 
cities find elevated lead concentrations in the water. That is 
why I think it is very good the EPA is involved with the 
national perspective and also the Centers for Disease Control 
as I mentioned has been very involved with us onsite here today 
and multiple other times. The lead expert, Dr. Mary Jean Brown, 
has been up to visit with us. Dr. Gerberding, the Director of 
the CDC, has been very supportive.
    I should say though that as I have tried to emphasize in 
the multiple press conferences we have had and multiple 
community meetings that Mr. Johnson mentioned, the way I look 
at this is in terms of the scientific data, these are pieces in 
the puzzle. One piece of the puzzle is the homes that have the 
highest levels of lead, more than 300 ppb. We went to those 
homes because we were afraid folks in those homes weren't 
coming to us to get their blood tested, so we didn't have the 
results. We found that none of 201 people had elevated blood 
levels.
    The other very high risk group is the young kids, young 
children who live in day care facilities, who have lead service 
pipes. So we went to those facilities, provided the filter, the 
consent form for the parents to sign. If they signed it, we 
came back within a few days or a week to draw blood. Two of the 
children out of 280, less than 1 percent, have had elevated 
blood lead levels. These are two parts of the picture.
    Another part of the picture is the approximately 4,500 
people who have come to see us but there is another important 
part of the puzzle. In addition to the study that was published 
in the Centers for Disease Control Morbidity/Mortality Report 
on March 30, and that is Children's National Medical Center 
here in the District measures blood lead levels. They are 
currently in the process of doing a comparison looking at blood 
lead levels over the last 10 years. It is independent of the 
Department of Health but they have invited us to participate in 
the planning and we did on March 17. That is another part of 
the analysis that I think Dr. Best will refer to. The results 
aren't back yet.
    I am trying to emphasize it is important to put together 
all the parts of the puzzle to make sure they are all 
consistent.
    Senator Crapo. You are working to expand the parts of the 
puzzle that we have to look at?
    Dr. Lucey. Yes, sir.
    Senator Crapo. The last question I have is for you, Mr. 
Jacobus, and that is, in addition to the changes in procedure 
that you described, I am aware that residents are now receiving 
notice of a flushing program that involves changes at the 
aqueduct. Could you explain how that all fits into this issue?
    Mr. Jacobus. Yes, sir. To some extent, it does not fit at 
all but in another way it does. Let me be specific.
    The distribution system is made up of pipes of all 
different sizes, there are cast iron pipes, there are steel 
pipes, there are concrete pipes. The pipes are not sterile, 
there can be sediment in them from lime that settles out, the 
pipes can have rust on the inside of them, oxidation from that, 
so it is good management practice every spring to open fire 
hydrants in the distribution system and push water through the 
lines and essentially clean and blow out the lines. That 
removes the debris and sort of cleans up the inside of the 
pipe.
    If you were to go inside a pipe and run your hand along it, 
you might feel what we would call biofilm. That could be a 
harboring location for bacterial growth in the pipe. The 
disinfectant in the pipe in the water, the chlorine-based 
disinfectant that is put into the distribution system to 
protect the water all the way to the tap, and the water can 
stay in the distribution system 3 or 4 days before it is 
consumed, so it is important to have that disinfectant residual 
there, the bacteria that might be out there, and we are 
measuring for those all the time, but the bacteria we might 
find out there if you are using a chloramine-based disinfectant 
as your secondary disinfectant, it is standard and common 
industry practice in the springtime after the roads would not 
freeze, to switch the disinfectant for a few weeks back to free 
corine rather than the corine ammonia complex. That kind of 
confuses the bacteria, shocks the system and that in 
conjunction with the flushing process cleans the system and 
gives good distribution system maintenance for the rest of the 
year, especially for the summer months when bacterial growth 
could be prompted by the temperature. That would be a normal 
practice.
    Since we changed to chloramine, we have been doing that. We 
did that in 2002 and 2003, are doing it again in 2004. I say 
we, I mean we in conjunction with all of our wholesale customer 
partners.
    When we go to a phosphate-based inhibitor as an additional 
chemical to go after the lead leaching problems in the lead 
service pipes, we know from other cities' experience that when 
you change the chemistry on the distribution system, you might 
get some reaction inside the pipes. With the pipes being as 
clean and as blown out if you will as possible, that will help 
make the corrosion inhibitor not have any secondary effects 
like creating red water which would be rusty effects.
    So it is the chloramine disinfectant change and back and 
forth and the flushing as a standard practice but it blends 
very nicely into what we are about to do in June and then the 
full system in September.
    Senator Crapo. Thank you.
    Senator Jeffords.
    Senator Jeffords. Dr. Lucey, using 10 mpd as a standard, 
your testimony provides several data points indicating 
relatively small numbers of children had what you define as 
``elevated'' blood lead levels. How do you define ``elevated'' 
and how did you select that number?
    Dr. Lucey. As you noted, the Centers for Disease Control 
has used that number of 10 mpd for children under the age of 6 
but also children from the ages of 6 to 15 and also for women 
who are pregnant and nursing because the primary concern is 
with the unborn baby or the newborn baby. The CDC refers to 
that level as a level of concern or the definition of an 
elevated blood level. For an adult, it is a higher value, 25 
mpd. So it is really a national guideline.
    Senator Jeffords. I have already mentioned the April 17, 
2003 study which shows harmful effect from blood levels well 
below 10. Based on that information, do you feel it is 
appropriate to ignore children and families with blood level 
test results above zero but below 10?
    Dr. Lucey. I am aware of that paper. Dr. Lamphere is in 
Cincinnati and was the senior author. He is a well-respected 
person in the research community with regard to lead. I think 
that was a very important paper last April in the New England 
Journal of Medicine. I think it needs to be corroborated like 
anything in medicine. Its findings need to be duplicated to 
show they are reproducible but I know that is a very important 
finding.
    At this time, I have been in contact regularly with the 
Centers for Disease Control with regard to whether that level 
is going to be changed--the 10 mpd--or not anytime soon. To the 
best of my knowledge it is not at this time. I think, as in 
most things in medicine, there is a state of knowledge today 
and then there is what the state of knowledge or the standard 
practice might be in the future. Sometimes it is clear which 
way things are going and sometimes it is not so clear.
    If I could mention briefly, perhaps to illustrate even 
better your point, I mentioned in point No. 5 that in the 
United States 1976-1980, in Attachment 5, 88.2 percent, 9 out 
of 10 children in the United States who were then 1-5 years of 
age, now 24-28 years of age, had blood lead levels of 10 mpd or 
higher. How could that be acceptable? At that time the level of 
concern was much higher, 40 mpd. I think that provides some 
historical context. I am not saying what happened then was good 
or not compared to now but it is some historical context.
    Senator Jeffords. Mr. Johnson, I have a couple questions 
for you.
    In placing lead service lines in WASA and moving the 
location of the meter, and if so, how is it affecting the link 
to the service line that you are replacing and the associated 
costs?
    Mr. Johnson. If I understand your question, you are asking 
if we are removing the service line--what is the differential 
in the cost of moving the service line for the meter versus 
another location?
    Senator Jeffords. Yes.
    Mr. Johnson. Currently the cost or the EPA requirement has 
us to remove the service line that we have control or 
responsibility for. The District of Columbia law defines that 
as being that portion of the service line in public space. 
Frequently the terminus of where public space might exist where 
the meter is may be a very different point. So the Health 
Department expressed some concern about cutting the line at 
that point and then adding the copper line to it and suggested 
that we go directly to the first joint which would be the 
meter. We agreed and think that is a much better practice 
because you don't get particulate lead in that system.
    The cost of doing a service line in public space, we have 
estimated at an average of about somewhere between $10,000-
$14,000 per service line. That is because we have to do 
substantial rebuilding of the street and the roadway system 
when we do the excavation to meet the District's standards. The 
total cost we have estimated for doing all the service lines is 
about $350 million in public space and we believe and estimate 
for the cost of going on the other side of that meter and 
getting the portion that is in the private space which would 
normally be the responsibility of the homeowner to average 
about $2,000-$3,000. Because we think the preference again is 
to go to that threaded joint which would frequently be inside 
the foundation wall or in the building itself, we think that 
cost is probably going to average around $3,500.
    Senator Jeffords. Recently WASA undertook a program to 
replace aging water meters. Can you describe the program for 
me? Indicate if you installed lead-free water meters and 
indicate if WASA uses lead-free parts when replacing parts 
through its system.
    Mr. Johnson. That is somewhat of a technical question, 
Senator but I will attempt to answer it on the basis of what I 
understand the case to be.
    The water meters we installed are considered by EPA and are 
characterized as lead-free meters. As I understand it, most 
metal components of things in this universe have some small 
portion of lead in them. You will find some of your metal 
faucets and brass parts and the like will have some metal in 
them but this classification of lead-free takes it down to a 
level where if water is moving through it, typically it does 
not leach and doesn't create a problem. So we replaced all the 
meters in the system.
    Meters have not changed a great deal over time, so the 
technology is basically the same. We added a piece of 
technology to it so that we could read the meters remotely 
using a cell phone technology so we can read the meters without 
having someone to physically go on the street every day.
    The question has been raised in removing those meters and 
changing them, why didn't you look down in the hole and see 
whether you had a lead service line. The answer to that is the 
meters are mounted on something called a riser. That is a 
device that comes from the service line, coming from the main 
as well as the line coming from the house and literally is a 
riser the meter is mounted in, so you don't really have a 
chance to expose the full line.
    In response to one of your earlier questions, we are doing 
a series of dig ups in cases where we have undetermined service 
lines and trying to explore those and see what is actually 
there when we don't have good information.
    Senator Jeffords. I would join the Chairman's request that 
you grant us the privilege of having you sitting here while we 
have the next panel.
    Mr. Johnson. I will certainly do that, sir.
    Senator Crapo. With that, we would like to excuse this 
panel. We want to thank you all for your attendance today and 
for your attention to this issue. There very well may be 
questions from Senators who were not able to get here or 
further questions from those of us who were here. We would ask 
you to be very responsive to us if we forward those questions 
to you in writing.
    Thank you very much. This panel is excused and we will call 
our second panel.
    Our second panel consists of Gloria Borland, who is a 
member of the Dupont Circle Parents; Jody Lanard who is a Risk 
Communication consultant; and Dana Best, director, Smoke Free 
Homes Project, medical director, Healthy Generations Program, 
and assistant professor, George Washington University School of 
Medicine and Health Sciences with the Children's National 
Medical Center.
    Senator Jeffords. If I can take a moment to give Dr. Dana 
Best from the Children's National Medical Center a special 
welcome. During my time as Chairman of the Health, Education, 
Labor and Pensions Committee, Dr. Best worked for me as a 
Fellow. It is nice to see you here again. She did her residency 
there and is from my home State. I am so pleased to have you 
here now.
    Dr. Best. Thank you very much. I am thrilled to be here. To 
bad it is about such a nasty topic.
    Senator Crapo. Thank you. Ladies, we appreciate your coming 
and participating with us in our second panel. Were all of you 
here when I gave my strong lecture about paying attention to 
the clock. We do appreciate your doing that because it does 
give us the opportunity with the limited time we have to engage 
in some dialog. Again, I encourage you to try to pay attention 
to that clock and stick to the 5 minutes to summarize your 
written testimony. Your written testimony is a part of the full 
record. We have already read it and I believe every Senator 
will read it before the week is out.
    Ms. Borland, are you ready to start?

       STATEMENT OF GLORIA BORLAND, DUPONT CIRCLE PARENTS

    Ms. Borland. I want to thank all the Senators on the 
committee and also all the parents that are here today. I am 
here representing Dupont Circle Parents. I am a mom to a 22 
month-old girl who has lead in her blood at twice the national 
average.
    We parents are angry and full of anxiety because we don't 
know what the long term implications of lead poisoning in our 
water will have on our children, brain damage, lower IQ, 
behavioral problems, and I will defer to the experts who will 
be speaking next on that topic.
    There are three points I want to make but in the interest 
of time, I would like to start with the third point first. The 
problems with our water here in DC are so huge, the cost to 
solve the problem is very expensive, the organization managing 
it right now is so dysfunctional that the only answer is to put 
WASA under Federal leadership in our opinion. Only under 
Federal Government control will you be able to restore the 
trust we parents need in our water system.
    Drastic action? Yes, but look at the victims. Look at all 
the young children here in the audience and out in the hallway. 
See our babies, see their faces and that is why we are asking 
for Federal receivership to make sure they are safe.
    I want to give you a couple of examples of communication. 
First of all, communication and trust must go hand in hand. I 
am sure if the Washington Post's David Nakamura had not exposed 
this scandal, our young children today on April 7 would still 
be drinking leaded water and WASA would still be hiding this 
crisis from us.
    Communicating is not rocket science. It is the easiest and 
simplest thing to do when there is leadership and an 
organization willing to do it. The problem is not in the 
process of communication, the problem lies in deception. They 
deceived us. They tried to hide extraordinarily high levels of 
lead poison in our water supply thus putting our young children 
at risk. The EPA and the Army Corps of Engineers went along 
with this deception in violation of their Federal oversight 
responsibilities.
    How was this crisis communicated to us? For most DC parents 
of young children, our day of infamy was Saturday, January 31, 
2004 when we read the headline of the Washington Post that 
morning and we were hit with the shocking bomb that our 
infants, toddlers and young children had been secretly poisoned 
by the lead in the drinking water in our homes.
    Lead in young children lowers their IQs and the experts can 
go into all that. I was pregnant in 2001 and 2002 when the high 
lead levels first became noticed by WASA. The right and legal 
thing for WASA to do was to issue an emergency warning to the 
public and to obstetricians and pediatricians to warn their 
patients not to drink tap water. It does not matter that WASA 
hadn't identified the source of the problem; that kind of 
research could take months, even years. In the interest of 
public safety, you issue the warning to the public to take the 
precaution first and take the time and the money and the 
resources to figure out the cause.
    It is just like when a fireman sees a house burning, their 
first priority is to save lives. Put the fire out, then they 
figure out what caused the blaze. WASA got it backward. Because 
they got it backward, they wanted to figure out the cause of 
the lead crisis first and that was putting our babies' lives at 
risk. All WASA had to do was warn me and other mothers, don't 
drink your water without a filter or buy bottled water. All 
they had to do was warn me. When I learned about the lead in 
the water, I wanted to cry. I had been so careful. I even gave 
up coffee, for God's sake and I hear about lead in our water.
    My daughter attends a very good pre-school day care center 
in Dupont Circle. There are 77 students and the building was 
built in 1989 so it is a modern building. For their national 
accreditation, there was no problem when the water was tested. 
Lat year, WASA dug up the streets and it caused $2,000 worth of 
damage in the center but more importantly, when this crisis 
broke, the executive director tested the water and in the 
building some of the fountains had 3,100 ppb and 5,900 ppb.
    When I saw the letter she sent to the parents, I thought it 
was a typo, thousands not like 15 ppb which is the threshold 
but thousands, almost 6,000 ppb in the drinking fountain and 77 
students at one of the best day care centers in the city? As of 
today, no one from WASA has contacted the director of our day 
care center. She has not received a phone call or letter. All 
this talk about reaching out to day care centers is baloney. 
The day care center at their own expense immediately went to 
bottle water and you can see.
    Most parents have been perplexed as to why an entity 
entrusted with public safety would lie and then cover up their 
lies. What is their motive? When I spoke over the weekend to my 
very wise friend, Joe Louis Ruffin III, father of a 3-year-old 
boy living in Chevy Chase, I asked, how could this happen. Joe 
said, ``WASA wanted to protect their bond ratings. 
Communicating the truth would have brought their assets down''.
    So this is like Enron. Enron was only about money, this is 
about money, bond ratings, but the consequences here, the 
innocent victims are the lives of our next generation.
    I want you, Senators, to see the victims--our young 
children. When bond ratings get in the way of public safety, 
look into the faces of our babies, see the photos on display, 
look around the room. When bond ratings get more important than 
our babies' brain development, their nervous system and IQ, we 
have a serious problems.
    Here are some stories from parents all over the city. This 
is Paul McKay, co-founder of www.purewaterdc.com and his son. 
He is the one that launched the website.
    This is Theresa Brown who lives in LeDroit Park. This is 
her daughter, London, who is 1 years old. Theresa told me on 
Friday, I feel completely and utterly betrayed. They have a 
responsibility to the citizens of the city, especially to those 
young babies and children who are completely defenseless. You 
cannot put a price on brain damage. How about if we 
deliberately caused brain impairment to their kids or grandkids 
and see how they liked it.
    This is from Denise Senecal, a Dupont Circle mom. Can 
anyone at WASA assure me that my son will not suffer harmful 
effects from this exposure of lead?
    This is from Desa Sealy Ruffin, wife of Joe who I mentioned 
earlier. Desa told me on Friday, I can only say I think the 
District, WASA and EPA have all broken a real fundamental 
covenant with the citizens in the District of Columbia and I no 
longer trust them to do anything. I think the three agencies 
conspired to keep us in the dark. They should be facing 
criminal charges.
    This is from Valerie Jablow, a mother on Capitol Hill. She 
says her son likes to go to the libraries, the public pool, 
stores, restaurants in our neighborhood and she is not sure how 
the water will be when she goes out with her child in the 
neighborhood.
    This is Parker. Parker is 16 months old. His father, 
Terrance sent me this on Sunday. He said, his son, Parker, was 
adopted and thus was bottle fed water and formula as a toddler. 
Early this year they learned that his first lead screening 
resulted in very high elevated levels of lead in his blood.
    This is Ronnette Bristol who lives in northeast DC in an 
apartment building. She has four kids and says, ``We are buying 
lots of bottled water until someone can come out and test our 
apartment building.''
    This is Lyubov Gurjeva originally from Russia. She told me, 
I never believed DC water was safe to drink. This is from 
someone from Russia.
    This is Xin Chen and they were notified by WASA that they 
had lead service lines. She has an infant, a newborn, and a 3-
year old. She says, ``I don't trust them, I don't trust their 
test results. No trust at all with every parent I spoke to.''
    Same thing with Maria DePaul and her husband, Ethan, who 
live on the Hill, the same thing. Her husband said, ``WASA will 
find legal loopholes so they do not have to help you out''.
    Many parents complained about the cost of buying expensive 
filters and bottled water. People don't mind buying bottled 
water in an emergency for a couple of days or couple of weeks, 
but when a couple of weeks turns into a couple of months with 
still no end in sight, people are beginning to feel the 
financial burden of buying bottled water for every day use.
    You talk about how to restore trust. My feeling and that of 
other parents is that day of infamy is outrage. We expected our 
elected leaders in the District to quickly step in, fire the 
managers at WASA and respond with swift action to fix our water 
crisis. Instead, they didn't. I hope the EPA and Army Corps 
leaders remember the faces of our young babies when they carry 
out their daily oversight duties from now on.
    The seat of the problem here is management culture 
instilled by Jerry Johnson, Mike Marcotte and board chairman, 
Glenn Gersten. To restore trust, do what is done in the private 
sector, remove managers for extremely poor judgment and failed 
performance and put in new management. These are the necessary 
first steps toward restoring trust with the parents here in the 
District of Columbia. New managers are now in place like Enron, 
Adelphia and Worldcom and Gersten is a Wall Street attorney so 
he understands why you need to clean house in order to restore 
public confidence in an institution.
    We know our Mayor is asking the Federal Government for more 
money to solve this problem. I don't think it makes sense to 
put good money in the hands of bad managers. The problems and 
dysfunction at WASA are so huge, they require Federal 
intervention. We parents encourage the U.S. Senate to institute 
its powers to begin the process of putting WASA under Federal 
control, Federal receivership. A new management team and new 
board of directors needs to be put in place to work on solving 
this lead crisis. We need to make sure the Army Corps and the 
EPA are listening to our demands for better communication, a 
two-way dialog with the public they are entrusted to serve.
    Yes, we need Federal help and Federal dollars to solve this 
crisis, but that goes hand in hand with new management and 
Federal control of the system until our water is deemed 
drinkable again.
    Thank you.
    Senator Crapo. Thank you, Ms. Borland.
    Before we go to Dr. Lanard, I want to correct an oversight 
of mine. Earlier I should have noted that we have with us Mr. 
Paul Strauss, who is the U.S. Shadow Senator for the District 
of Columbia who has also submitted testimony and was also with 
us yesterday as we met with local residents. Mr. Strauss, I 
apologize for my oversight at the beginning in acknowledging 
your presence here.
    Dr. Lanard.

 STATEMENT OF JODY LANARD, M.D., RISK COMMUNICATION CONSULTANT

    Dr. Lanard. I will use part of my 5 minutes to make one 
comment about Ms. Borland's magnificent statement on behalf of 
the stakeholders. The desire to fire everybody and start anew 
is very understandable but I have seen in my work with other 
officials who have really screwed up communication that 
sometimes the reformed sinner who has learned the hard way 
becomes one of the best managers and officials I have ever 
seen. Their attention is focused on the issue they have screwed 
up more than anybody who is going to come in and start anew. So 
I hope maybe you will cut them a little slack and notice if 
they ever start to learn to do it the way you hope they will. I 
don't know whether they will or not but I am hopeful they could 
learn.
    I am Jody Lanard, a risk communication specialist from 
Princeton, NJ. Thank you, Senator Crapo, for inviting me here 
today.
    My written testimony includes a list of 25 communication 
strategies that underlie my critique of WASA's handling of this 
issue. If I run out of time, I invite you to ask me during the 
question period to give you some examples of really wonderful 
risk communication practices from other officials and other 
issues.
    Some of the communication strategies that WASA should pay 
attention to are, and these are very counter intuitive, as 
Senator Clinton said, ``Don't over reassure people'', err on 
the alarming side (which in this case would have meant 
informing early, not waiting for a red flag but hoisting the 
yellow flag, giving people a heads up even before you know what 
is going on), acknowledging uncertainty. The general public, 
and even I when I am outside my own field, think other people 
know much more in their field than they actually do. The public 
thinks doctors know much more than they do. We all think 
officials know much more than they do, and officials collude 
with this by being so paternal sometimes and by over-reassuring 
us,
    Go out of your way to acknowledge uncertainty and break the 
cycle of being so over reassuring and then having us be shocked 
when you tell us later, ``We are learning new and interesting 
things every day.''
    I am going to cut to the chase and tell you the whole list 
of 25 is in my written testimony. The two other most important 
things are: No. 1, not to aim for zero fear. The public is much 
more resilient than you think. I am working on this with 
several different groups and trying to persuade them that panic 
is very rare. Anxiety happens, even a little bit of hysteria 
happens, but we are very resilient. Look at how the people in 
Washington reacted after the Pentagon was attacked. People were 
not panicking, people were bearing it. They felt panicky but 
they were not actually panicking. And, No. 2, in this case, 
most of all, if any of these officials want to be rehabilitated 
in the eyes of their citizens, they have to acknowledge all the 
errors, deficiencies, mistakes and misjudgments they made and 
they have to apologize for them a hundred times more than they 
think they need to. It is not for them to say when it is time 
to put this behind us. So they should wallow in their apologies 
until people get sick of hearing them. First they have to 
understand more about what they need to apologize for.
    I am as upset as everybody else about WASA not notifying 
people early when those first 53 houses were found to have high 
lead levels, surprising high lead levels. Fifty percent of 
those houses had high lead levels, but in the brochure where 
WASA tried to tell everybody about this, or they think they 
tried to tell everybody about this, they say, ``Some houses had 
high lead levels.'' They didn't say, ``Fifty percent of the 
sample that year had high lead levels.'' So it came across as 
minimizing.
    I am going to give you an analysis of this brochure for as 
long as I can get it in to explain how they worked really hard 
not to scare people, but unfortunately they were allying with 
peoples' apathy instead of trying to find a way to get their 
attention.
    The brochure WASA put out in October 2002, which they cite 
to say they were not trying to hide the lead problem from the 
public, was entitled, ``The District of Columbia Water and 
Sewer Authority and the District of Columbia Department of 
Health Acknowledge Lead Awareness Week and Its Impacts on Your 
Health.'' The purpose of the brochure is to acknowledge Lead 
Awareness Week. There is this awareness week, that awareness 
week, every week there is some awareness week. This did not 
look like a warning, even a very subtle warning.
    The brochure has absolutely excellent educational content 
but it only weakly signals to the public that there are new 
reasons to take this issue seriously. The title makes it sound 
like the PR Department decided to use National Lead Awareness 
Week as a news peg for sending out good information about what 
to do about lead. It has a pretty picture of water on the 
cover, it has a smiling pregnant woman on the second page and 
it is not until you get to the third page that they say really 
low down, some homes in the community have lead levels above 
the EPA action levels. By the time a reader gets to that 
sentence, the context of the brochure suggests that ``some 
homes'' are very few and ``above the EPA action level'' is only 
a little above. The cheerful informative tone of the preceding 
pages in the context of the celebratory title of the brochure 
does not signal ``Do something, this is a surprising change in 
our findings. Take this seriously.'' It is as if Paul Revere, 
and I will tell you this in risk communication terms, announced 
in celebration of National Freedom Awareness Week. ``There is 
no need to panic, but some British are coming: Hey, meet me at 
the old North Bridge.'' I hope that is not too irreverent for a 
committee hearing.
    Senator Crapo. I think we can handle it.
    Dr. Lanard. Good. You are resilient, I know that.
    The two main things that WASA did wrong, one before the 
story broke, the other after the story broke. Before the story 
broke, other than not announcing the story themselves and 
helping the public get ready for this problem, they tried to 
use facts to attack apathy. Using facts alone is not a good way 
to attack apathy. I think I will go on to the next point 
because I think I have made it there.
    I want to give you an example of what WASA could have said 
instead of this. I would like someone at WASA to say,

          ``I am so sorry to tell you that we are finding a lot of 
        unexpected high lead levels in water coming out of the taps in 
        our 53 sample homes this year, 26 out of 53 is half. We don't 
        know yet why this is happening; we don't know yet whether any 
        people, especially children have increased blood levels because 
        of this; we don't even know all the recommendations we want to 
        make to you but because we feel you deserve to get this 
        information quickly, we will give you some preliminary, 
        precautionary recommendations. We will be learning things over 
        the next weeks that we will wish we had known months ago. We 
        may make mistakes or retract things we have already said.''

    This is called anticipatory guidance, warning people about 
what might happen.

          ``We may make mistakes. New information is going to come in 
        but we are committed to sharing this with you early. We know 
        you will be worried. We share that worry and we will bear this 
        together and get through it.''

    This would have expressed confidence in the public and that 
is a compliment the public might well have returned along with 
its appropriate anger at WASA and its anxiety. Telling the 
public you don't think they can handle bad news is insulting, 
it is patronizing and it generates mistrust. Now, I hope in the 
questions you will ask me for some really good examples.
    Senator Crapo. Thank you, Dr. Lanard.
    Dr. Best.

   STATEMENT OF DANA BEST, M.D., DIRECTOR, SMOKE FREE HOMES 
    PROJECT; MEDICAL DIRECTOR, HEALTHY GENERATIONS PROGRAM; 
  ASSISTANT PROFESSOR, GEORGE WASHINGTON UNIVERSITY SCHOOL OF 
 MEDICINE AND HEALTH SCIENCES; AND CHILDREN'S NATIONAL MEDICAL 
                             CENTER

    Dr. Best. Thank you for providing this opportunity to 
discuss the harms of lead poisoning in children.
    I am a pediatrician and preventive medicine physician with 
expertise in pediatric environmental health from Children's 
Hospital. The Children's system provides primary care for 
thousands of DC children, particularly those of low 
socioeconomic status.
    The history of lead provides some interesting background 
for today's hearing. Lead's utility has been recognized for 
thousands of years. The dangers of exposure to lead have been 
recognized almost as long. Unfortunately, the two primary 
sources of lead in our environment, leaded gas and lead in 
paint, were not banned until decades after reports of harm from 
their use. While the impact of leaded gas has declined 
significantly since its banning, lead paint continues to be the 
primary source of lead poisoning today.
    Because of the number of homes that still contain lead 
paint, discriminating between lead poisoning from lead paint 
and from lead contaminated water is difficult, particularly 
since many of the homes with lead pipes also have lead paint.
    The focus on children and lead poisoning is because 
children are more likely to ingest lead than adults and because 
they are undergoing critical periods of development at the same 
time they are ingesting lead. Toddlers put everything in their 
mouths, including lead laden soil and paint chips. They live 
closer to the floor where the lead dust settles. They breathe 
faster, eat and drink more per body weight and absorb lead more 
efficiently than adults. Their rapid growth means their bones 
absorb calcium at a higher rate than adults and since lead is 
similar enough to calcium it can be stored in bone resulting in 
lifelong stores of lead in some cases. These stores can 
contribute to the lead poisoning of the next generation when 
pregnant and breast feeding women release lead into their blood 
stream during their pregnancy or the nursing period. Lead 
crosses the placenta and is readily incorporated into breast 
milk.
    There are many effects of lead poisoning from death to 
subtle but significant changes in cognition and behavior. No 
study has determined a lead level below which an effect is not 
seen. Even at levels under 10 mcg/dl, the current action level 
in children, IQ scores have been shown to decline four to five 
points. That loss of four to five points can mean the 
difference between normal and subnormal intelligence and the 
ability to function independently. Other studies have 
demonstrated similar effects, some even under 5 mcg/dl.
    The behavior changes associated with lead exposure include 
increased distractibility, decreased reaction time, poor 
organizational skills, Attention Deficit Hyperactivity Disorder 
and poor classroom performance. Unfortunately no treatment has 
been shown to reverse the lifelong effects of lead poisoning 
and the primary treatment for severe lead poisoning has been 
implicated in decreasing IQ itself. Many studies have shown 
persistent cognitive and behavioral effects long after lead 
levels have dropped to those considered low. Prevention, not 
treatment, is the only solution to lead poisoning.
    In the District, lead poisoning is part of the larger 
picture of children's health risks. Many of the lead poisoned 
children are the same children living in poverty, exposed to 
tobacco smoke and without health insurance, all conditions 
which can add to the impact of lead poisoning. The recent CDC 
report of lead levels in DC residents indicated that the long 
term decline in children's lead levels halted in the year 2000 
when chloramines were added to the water. This disturbing 
indication needs to be confirmed. At Children's we have begun 
an analysis of the last 10 years of lead tests performed in our 
laboratory. We will look at the average lead level, noting any 
changes, and look for associations between lead levels and 
household water supply, lead paint in the home, insurance 
status and other potential influences. This study is an 
extremely high priority and we will inform Congress and the 
District of Columbia of our results as soon as they are 
available.
    There is no safe level of lead. Prevention is the only 
solution. There is no way to place a dollar value on the harm 
from lead poisoning of DC children, no matter the source, 
water, paint or otherwise. The harms of lead poisoning have 
been known for thousands of years, with many missed 
opportunities to remove lead from the environment in a timely 
fashion. We should not add the District of Columbia to this 
history.
    All potential lead sources should be eliminated including 
reduction of lead concentrations in drinking water to below the 
EPA action level. This is the law. The children of the District 
of Columbia deserve this and nothing less.
    Thank you.
    Senator Crapo. Thank you very much.
    Ms. Borland, I would like to start with you. I was very 
interested in the example you gave of the day care center which 
if I understand you correctly, it was constructed in 1989 and 
in the initial tests of the water, there was no problem.
    Ms. Borland. Right.
    Senator Crapo. And then there was some kind of construction 
in the streets?
    Ms. Borland. Last year is what the director said. My 
daughter just started in June, so I don't know all the history 
but it was last year.
    Senator Crapo. There was some kind of construction. 
Presumably it had to do with the water delivery system and then 
very high levels of lead were found in the water. You may not 
know the answer to this but I was curious about that because of 
the earlier testimony, that we tend to think that the earlier 
dates when we stopped using lead pipes were safe for buildings. 
Do you know whether that level of high lead in the water has 
maintained and whether they have continued testing and it 
stayed high or did it spike?
    Ms. Borland. They had a private firm test it about 2 or 3 
days after the story broke. I don't know if they have tested it 
since but they immediately went to bottled water.
    Senator Crapo. I am sure we can have our authorities check 
that facility because obviously if that kind of dynamic can 
happen at a facility constructed in 1989, that indicates there 
may be a potential risk issue there that we are not paying 
attention to which gets back to some of the questions I was 
asking earlier to the first panel about whether anybody can ask 
for a test to be made and if that shows a high lead level in 
the water regardless whether the home fits into a category that 
would be considered at risk, then they can get the necessary 
response to address the issue.
    You also indicate in your testimony that you feel the 
Federal regulations seem to be in place for communicating with 
the public but the regulations were simply not followed and the 
protections in place were ignored by WASA, correct?
    Ms. Borland. I am not an expert on legislation and you can 
probably put in new legislation that you have to have a public 
press release immediately but if the managers don't want to 
follow that, it is the leadership integrity, if it is not 
there, it is not going to happen, the final loophole. It is our 
opinion that it is a management structure problem, not the 
process but a management problem of the people involved and 
lack of integrity.
    Senator Crapo. Thank you.
    Dr. Lanard, you asked me to ask you for some examples. Do 
you want to give us a few?
    Dr. Lanard. These are examples I love. I much prefer to 
teach by good examples than by bad examples. These are some 
imitatable examples from real live experts. Jerry Johnson and 
Glen Gerstell had been quoted as saying they believe in using 
facts to overcome fears to educate the public. I hope some of 
these examples will convince them to use even the scary facts 
and to go beyond the facts to help people bear their fears, 
because that is part of the job as Rudy Giuliani showed on 
September 11.
    The first two examples are from State epidemiologist Jeff 
Engel in North Carolina. In June 2003, North Carolina had its 
only confirmed SARS patient, one of only eight confirmed SARS 
patient in the United States. Dr. Engel responded with a series 
of news conferences. At one, a reporter asked if all the news 
coverage had the potential to cause more hysteria and fear. The 
reporter asked this kind of hopefully; reporters like hysteria.
    Dr. Engel replied,

          ``We need to involve our community in all aspects of public 
        health. Certainly a disease like SARS, so new, so frightening, 
        should instill fear. Fear is an appropriate response, for me as 
        a public health physician, for everyone in the community. We 
        need to transfer that fear into positive energy and keep the 
        facts in front of the hysteria. SARS is a new disease, it 
        spreads person to person, it can kill. That is newsworthy.''

    I am trying to prove that is not an accidental kind of 
statement. That is a decision he made to make that kind of 
statement.
    Two months later, he made essentially the same kind of 
statement about Eastern Equine Encephalitis of which there had 
been less than one case a year in North Carolina. He said,

          ``The State has only documented 12 or 13 infections since 
        1964, the most in one year was 3 in 1989. Nevertheless, fear is 
        appropriate. My God, here you have a mosquito that can kill. 
        What we are trying to do through you guys, the media, is to use 
        that fear in a positive way.''

    Dr. Engel told me 2 days later that the local Wal-Mart sold 
out of insect repellant right after that news conference. So he 
generated preparedness, not panic.
    My final two stories are from Julie Gerberding, the master 
of the universe at risk communication. She did not start out as 
the master of the universe during anthrax. In fact, I am not 
sure she was allowed to say very much during anthrax. She 
learned risk communication by the time SARS came along. This is 
also to prove it is learnable. She was asked early on whether 
SARS could be bioterrorism. She answered, ``while we have lots 
of reasons to think the SARS outbreaks are not due to 
terrorism, we are keeping an open mind and being vigilant.'' 
Many other officials were asked the exact same question and 
answered, ``There is no evidence of a terrorist attack.'' They 
didn't say the other half. So Dr. Gerberding's version is 
paradoxically more reassuring. We know she is actually paying 
attention to the possibility of terrorism. Later in the SARS 
outbreak, she reassured us and cautioned us at the same time. 
``Although we haven't seen community transmission of SARS, we 
are not out of the woods yet.'' So she reassured them in the 
first half and cautioned them in the second half.
    When people hear these kinds of examples, these real life 
ones or the ones I make up when I am trying to tell officials 
how they should have said it, they say to me, ``aren't some 
people naturally inclined to do good crisis communication or is 
this something you can really learn?'' I usually answer by 
telling them this final story.
    One day during SARS, there was a really weird newspaper 
article quoting an astrobiologist from Wales that SARS and 
other viruses might come from outer space on meteor dust. It 
had to be a very quiet day on the SARS front when the 
newspapers had space for this. At a CDC telebriefing, CNN's 
reporter Miriam Falco, a very professional reporter, said, 
``Dr. Gerberding, I just have to ask you about this outer space 
thing. I am embarrassed but what do you think?'' Dr. Gerberding 
answered with a wicked twinkle in her eye but an absolutely 
straight face, ``Although we have no evidence that SARS is from 
outer space, we are keeping an open mind.''
    [Laughter.]
    Dr. Lanard. So crisis communication is learnable. That is 
one of my main messages to you.
    Senator Crapo. Thank you very much, Doctor. My time is up 
so I will turn to Senator Jeffords for his questions.
    Senator Jeffords. I don't mean to start with you right 
away.
    Dr. Lanard. I gave away all my good examples.
    Senator Crapo. And they were good.
    Senator Jeffords. In 1986, lead was discovered in drinking 
water in the Palisades section of Washington, DC. Residents 
were quoted as saying ``The runaround has been unbelievable. No 
one in the bureaucracy has even begun to take this seriously.'' 
The Director of Water for the city stated, ``Premature to 
contact residents throughout the city before the city developed 
a plan to handle and finance free testing.''
    I ask unanimous consent to insert several newspaper 
articles on this topic into the record.
    Senator Crapo. Without objection.
    [The referenced document follows:]

    [GRAPHIC] [TIFF OMITTED] T4604.092
    
    [GRAPHIC] [TIFF OMITTED] T4604.093
    
    [GRAPHIC] [TIFF OMITTED] T4604.094
    
    [GRAPHIC] [TIFF OMITTED] T4604.095
    
    [GRAPHIC] [TIFF OMITTED] T4604.096
    
    [GRAPHIC] [TIFF OMITTED] T4604.097
    
    [GRAPHIC] [TIFF OMITTED] T4604.098
    
    [GRAPHIC] [TIFF OMITTED] T4604.099
    
    [GRAPHIC] [TIFF OMITTED] T4604.100
    
    Senator Jeffords. Given this repetitive failure, what 
recommendations do you have for how to improve the situation?
    Dr. Lanard. I have one very concrete recommendation I am 
very pleased to pass on to you. After the CDC had its 
communication problems during anthrax, that focused their minds 
and they developed an extremely intense risk communication 
training program which they have now packaged into a CD-ROM and 
a series of roaming 3-, 4-, and 5-day trainings. People can use 
this training program, local agencies can use it. It is called 
``Crisis and Emergency Risk Communication.'' I helped my 
husband, Peter Sandman, work on it for 18 months. They also 
hired some of the other top risk communication people in the 
world. They paid us good money, it is all there now and belongs 
to the people of the United States. We don't get any more money 
if people use it. We just get the satisfaction of seeing people 
learn it. ``Crisis and Emergency Risk Communication, CD 
Cynergy'' is available from the CDC. They will also come and 
give seminars at agencies. The actual CD-ROM costs like nothing 
and the seminars are very cheap. They are run by extremely 
experienced, unfortunately experienced because of hard lessons, 
CDC personnel.
    One of my main lessons is to take a little training. It is 
the cheapest training you can get because it has already been 
paid for.
    Senator Jeffords. Ms. Borland, I want to thank you again 
for testifying before the committee. I want to thank Senator 
Crapo for agreeing to allow a DC resident to speak today.
    Gloria, if there were three or four actions you could have 
the government agencies immediately take that were represented 
here today, what would they be?
    Ms. Borland. Again, because the problem is so huge, people 
still don't know where the lead pipes are. It is a huge 
problem. The costs are going to be enormous, the receivership. 
You need to really clean house and start over. It really needs 
to have that outside management come in, outside people and 
just that drastic action. That will instill the trust that is 
needed here in the District of Columbia from parents.
    Senator Jeffords. Dr. Best, Dr. Lucey implies in his 
testimony that there is not a problem with the elevated blood 
levels citywide based on the voluntary testing program that has 
been conducted. Can you give me your evaluation of the adequacy 
of the set of self-selected samples to determine the extent of 
citywide problems?
    Dr. Best. I want to first emphasize that Children's is 
working closely with the Department of Health and would like to 
continue to do so.
    From statistical soundness, however, a self-selected sample 
is not representative of any population, including the sample 
that Children's has which goes back for 10 years. That is not a 
representative sample. The only way to do a representative 
sample is to pick out a grid and use your random number 
generator to pull out an appropriate number of houses and find 
an appropriate number of children.
    On the other hand that is very expensive and these are data 
we have here in our pockets so to speak, which we can produce 
quickly. To generate the data that would be truly 
representative we would need several years and probably $1 
million.
    Senator Jeffords. Dr. Best, what other factors, 
environmental or social for example, might compound the 
negative health effects of lead exposure in children?
    Dr. Best. If you are trying to overcome a small drop in IQ, 
outside of preventing the drop, the best thing you can do is 
provide the most enriching environment you can possibly 
provide. Unfortunately this is where one of those socioeconomic 
strata define themselves. Those of us who are educated and are 
more affluent can provide those environments without having to 
completely demolish our lives.
    Many of our children in DC, however, do not have those 
advantages. Sixty percent of children in DC live in poverty or 
some huge number. Those children do not have the opportunity to 
go to the best day care center in the city. They often have to 
attend poorly maintained, poorly funded schools. Their parents 
may need to work two or three jobs if they are lucky to have 
two parents at home. Those parents are not reading to them 
every day, those are the advantages that we as more affluent 
people have over the other families. You can't buy that.
    Senator Jeffords. Is there an acceptable level for lead 
concentrations?
    Dr. Best. No.
    Senator Jeffords. Is there a safe level?
    Dr. Best. No.
    Senator Jeffords. CDC notes on their website that there is 
no level at which adverse effects are not expected and that 
aiming for lower standards would be arbitrary and provide 
uncertain benefits. Can you comment on that assessment?
    Dr. Best. Since the first article that noted a loss of IQ 
in children subjected to levels lower than 10 which was the 
first really strong article in 2000, there has been a big 
discussion about whether or not the CDC should lower their 
level of 10. Even the CDC doesn't call that level a threshold 
level. It is a level above which you need to take some action 
to educate the family, to make sure they understand the harms 
and the need for action, good risk communication.
    CDC's point is that when they wrote that, testing is not 
accurate below 10 mcg/dl. I suggest strongly now that is no 
longer true. We have instruments at Children's Hospital that 
can measure with a great deal of specificity levels below 5 and 
in fact, we would consider a level of 1 or higher to be an 
accurate level.
    However, that still doesn't excuse this misleading 
indicator. When I tell parents your child has a lead level of 3 
and they say, ``Oh, is that OK?'' I have to say we are not 
going to take any action because there is nothing we can do. We 
don't have a treatment for low lead levels. we don't have a 
treatment until your lead level gets up to 45 mcg/dl. Then that 
treatment, as I stated in my testimony, can actually reduce 
your IQ as well.
    The only thing we can do is prevent and the CDC argued in 
that article that they are advocating prevention. I am not sure 
that is the right approach. I think we should lower the level 
at which we start doing this increased education. I think that 
should be zero.
    Senator Jeffords. I guess I don't quite understand why?
    Dr. Best. Because if your child has a measurable lead 
level, you should be doing what you can to reduce exposure to 
that child.
    Senator Jeffords. I think that is what ought to happen.
    Dr. Best. You should be figuring out whether you have lead 
paint in your house, doing the appropriate abatement procedures 
for lead paint which is not necessarily removing the paint. It 
is covering up paint that is chipping, wiping down surfaces so 
your toddler doesn't go eating all the dust in the house, 
checking the water supply so you can make sure that is not 
contributing to the source and checking the dirt around your 
house where children play.
    Senator Jeffords. Thank you all. I am sure the Chairman 
agrees with me we have had wonderful testimony and very helpful 
to us.
    Senator Crapo. Thank you, Senator Jeffords.
    I have one more question and Dr. Best, it is for you as 
well and kind of follows the same line that Senator Jeffords 
has been pursuing just now. That is, I understand the point 
about self-selected testing and so forth. However, I am still 
perplexed a little as I look at the numbers that were reported 
here by Dr. Lucey--that of the 201 persons who were measured, 
who lived in homes with the highest levels of lead in the 
drinking water, which was 300 ppb or more, none had elevated 
blood levels and the same kind of things came through in a 
number of other different ways of singling out even though they 
were self-selected, singling out those who had been drinking 
water.
    Dr. Best. That 300 sample would not be self-selected 
because they looked at the water first and then went back and 
looked.
    Senator Crapo. That is the point I was getting at. When you 
analyze it that way, they wouldn't really be self-selected, 
would they?
    Dr. Best. Not that sample but it is still not 
representative of the DC population as a whole.
    Senator Crapo. I understand that.
    Dr. Best. It is only representative of the houses tested.
    Senator Crapo. Clearly if you are trying to get a sample of 
the DC population as a whole, but if you are trying to look at 
the question of what is the impact on the blood level of 
drinking water that has lead in it, wouldn't those numbers tell 
us something?
    Dr. Best. What they tell us is that in a sample of 300 
cases where children--how old were the children?
    Senator Crapo. It doesn't say in this report here.
    Dr. Best. They were under six I think.
    Dr. Lucey. Can I comment?
    Senator Crapo. Certainly.
    Dr. Lucey. This is everyone. We went out to their homes.
    Senator Crapo. This is not just children?
    Dr. Best. Is this adults as well?
    Dr. Lucey. Yes.
    Dr. Best. That is even a more important point because 
children absorb lead more efficiently than adults, so if you 
have a sample with any adults in it, then you skew it to the 
lower end of the lead levels because they are not as efficient.
    Senator Crapo. When we talk about issues like paint or fuel 
or dust or water, have there been sufficient studies in the 
country to rank those risks?
    Dr. Best. No. That is only because we haven't had a history 
like we have in DC. One of the good outcomes of this I hope is 
a better understanding of lead and water and how it is ingested 
and absorbed by children. Hopefully we will find that it does 
not make a large contribution to lead poisoning of children. It 
is still not safe. There is no way I can say that it is safe 
and I am sure there is no one else who will admit they think it 
is safe.
    Senator Crapo. Certainly.
    First of all, we have gone over some so both Senator 
Jeffords and myself are late to other important 
responsibilities, so we are going to have to wrap up now. 
Unfortunately I don't know if you will be able to stick around 
afterwards, Senator Jeffords. I am going to have to rush to get 
to another responsibility.
    I did want to thank all of you for coming. Ms. Borland, I 
met with some of the residents whose pictures you have shown 
there today and listened to their stories in person. You raise 
very, very important points and actually put a very human face 
on this issue. I think that is very helpful.
    Dr. Best, your scientific knowledge and Dr. Lanard, your 
scientific knowledge and your suggestions are both very helpful 
to us as well as the information we received from the other 
panelists. I did note, Dr. Lanard, when somebody says to me, 
``I have no evidence of such and such'', I am left wondering 
whether they have studied it or whether they are going to. If 
somebody says, ``we have no evidence but it is a concern and we 
will be looking at it'', I can see how that leaves you with a 
much more comforting feeling. Those very simple and sometimes 
counter intuitive points are very helpful for us in 
communication. We appreciate that.
    At this point, I am going to conclude the hearing. Again, I 
want to thank all our witnesses today. I want to thank all the 
people of the community here in Washington, DC and others 
involved who have brought this to our attention and who are 
continuing to work with us. This panel will continue its 
oversight responsibilities and will continue to work with all 
the appropriate authorities to make sure we identify the 
problem, get immediate solutions put into place for those at 
risk and then move forward to deal with the question of what 
caused it, how can we solve that and resolve the issue so we 
can safely drink our water here in Washington, DC.
    Both Senator Jeffords and I have noted to each other as we 
have talked, we both live here in Washington, DC.
    Senator Jeffords. I got my home in 1970. It was constructed 
in like 1812.
    Senator Crapo. My home was constructed in 1890. So we are 
way on the other side of that scale.
    We really do appreciate your attention and concern today, 
all of you.
    This hearing will be adjourned but our focus on this issue 
is certainly not ended.
    Thank you.
    [Whereupon, at 5:23 p.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]

  Statement of Hon. Bob Graham, U.S. Senator from the State of Florida

    Mr. Chairman, thank you for calling this hearing today. I share the 
concerns of the families here today, as well as everyone who lives in 
DC, about the condition of the water supply in our Nation's capital and 
throughout the United States. We have all observed the recent finger 
pointing of the relevant agencies, but today is about sorting through 
the rhetoric, getting some answers, and finding some real solutions for 
DC residents. The dangerous effects of lead are well documented. Major 
government agencies from the Centers for Disease Control and Prevention 
(CDC) to the Environmental Protection Agency (EPA) agree that lead in 
drinking water can cause a variety of adverse health effects, 
particularly dangerous for children under 6.
    Despite this risk, the responsible agencies failed to inform the 
public about the lead problem in a timely or appropriate manner. The 
District of Columbia's Water and Sewer Authority (WASA) and the EPA 
first became aware of the lead problem in 2002. WASA, however, failed 
to notify homeowners of the problem until more than a year later, at a 
public meeting in November 2003. Even when announcing the meeting, WASA 
officials neglected to tell citizens the gathering would be discussing 
the lead issue. This long-delayed public education program has 
essentially failed failed to provide district residents with timely or 
thorough information.
    Another issue is the role of the EPA in this situation. EPA has a 
primary oversight role over WASA and is responsible for the lead 
testing programs. We must ask, is there a problem with the testing 
standards issued by EPA that delayed this result? Additionally, are the 
current EPA water composition standards safe for the varying water 
infrastructure of this Nation? Is it possible that these standards need 
revisiting?
    The first panel of this hearing, comprised of EPA and WASA 
officials, will have an opportunity to address these issues. I look 
forward to hearing their suggestions for next steps for information 
gathering, providing that information to the public, and most 
importantly, a strategy to solve the lead problem.
    Today, we will also hear from witnesses who live in the district. I 
am interested to get their perspectives on how the exchange of 
information can be improved. What were the mistakes and how are they 
going to be fixed?
    It seems incredible during this day and age, with all the 
technologies available, that we are having problems communicating. WASA 
must improve its public communication program. How should this be done? 
What role will the EPA and the Department of Health play in this 
process? We need to know what the new strategy will be.
    The health and safety of the community is second only to its faith 
in those in power to provide them with useful and updated information. 
I want to make sure that we learn from these mistakes and not repeat 
them during the next phases of fixing the problem.
    Thank you again for conducting this hearing. I look forward to 
hearing the testimony from our witnesses.

                               __________

 Statement of Paul Strauss, U.S. Senator (Shadow), District of Columbia

    Subcommittee Chairman Crapo, Ranking Member Jeffords, and others on 
this subcommittee, as the elected United States Senator for the 
District of Columbia, and the father of two little girls, I would like 
to express my deepest concern about the safety of our region's drinking 
water. Because of the potential health problems for local residents, it 
is imperative that this issue is promptly addressed.
    I particularly want to thank you Chairman Crapo, and Senator 
Jeffords for taking the time yesterday, to join me and my Mayor at a 
very moving meeting with local residents right here in the community. 
It was extraordinary that some of the most influential members of the 
U.S. Senate sat down in a living room with ordinary residents of the 
District of Columbia to hear their concerns. This gesture has set a 
productive tone for these hearings, and demonstrated a level of 
personal concern on your part, which makes me hopeful that meaningful 
solutions are truly on the way.
    District of Columbia's problems have had an anti-home rule 
sentiment. They tend to have a limited focus that examines only the 
failures of our local officials. This is not what this situation calls 
for. It is instead time for full cooperation and support to 
appropriately address this emerging problem. I want to emphasize that 
there is a need for real solutions, not finger pointing.
    When it is appropriate to do so, DC residents are more than capable 
of criticizing the response of their own government. We do not need the 
assistance of Congress when it comes to complaining, we need your help 
to solve this problem. Gratuitous District bashing will not help, and 
neither will new restrictions on our local autonomy.
    The DC Water and Sewer Authority has estimated that 23,000 homes 
have lead lines and more than 5,000 homes have water with lead levels 
exceeding the Federal limit. As it is well known, lead disrupts 
production of hemoglobin, which leads to anemia, can cause cognitive 
problems, affects kidneys, which can lead to hypertension and even 
renal failure. Lead is considered to be one of the top environmental 
health dangers for children 6 and under due to the future health risks 
that can arise from its exposure. In pregnant women, lead crosses into 
the placenta and is absorbed by the fetus.
    While the District's response to this problem has been far from 
perfect, the Mayor is quickly moving in a new direction. It is 
important to remember that the majority of these service lines were 
installed not by our elected home-rule government, but placed at a time 
when it was Congress itself that had actual control over the District 
of Columbia. A more significant reality is that DC is not unique when 
it comes to this problem. This is a national problem, a problem that we 
have to find real solutions for. The unfortunate truth is that the 
municipal drinking water in DC is probably not appreciably worse than 
the water in many other areas of the United States. It has been 
estimated that the costs for the needed improvements on a national 
level could exceed one trillion dollars. None of our States and 
localities can afford this kind of effort without Federal financial 
assistance. I urge the members of this committee to work with your 
colleagues on the Appropriation's committees to see that the resources 
needed will be made available.
    In conclusion, I would like to thank the subcommittee for holding 
this important hearing. I particularly would like to thank Senator 
Crapo for his commitment to leave this hearing record open so that DC 
residents, despite their lack of equal representation in the U.S. 
Senate, can at least place written statements in the record. This will 
at a minimum permit their concerns to be documented and hopefully 
addressed. If you have not already done so, I would like to include 
with this statement a petition signed by over 600 of my constituents 
who are urging actions on this issue. My office intends to followup 
with those other constituents of mine who wanted to attend today's 
hearing, but are not able to. Finally, I would like to thank Regina 
Szymanska and Paola Nava, of my staff for their assistance in preparing 
this statement. I look forward to further hearings on this topic, and 
I'm happy to respond to any requests for additional information that 
you or any member of this subcommittee may have.

                               __________

  Statement of Benjamin H. Grumbles, Acting Assistant Administrator, 
            Office of Water, Environmental Protection Agency

    Good afternoon, Mr. Chairman and Members of the Committee. I am 
Benjamin Grumbles, Acting Assistant Administrator for Water at the 
United States Environmental Protection Agency (EPA). I welcome this 
opportunity to discuss the issue of lead in drinking water, the 
specific situation related to elevated lead levels in the District of 
Columbia's (DC's) drinking water, and actions that EPA is taking at the 
national level to address the matter.

                    LEAD AS A PUBLIC HEALTH CONCERN

    EPA places a high priority on reducing exposure to lead. This 
contaminant has been found to have serious health effects, particularly 
for children. Health effects may include delays in normal physical and 
mental development in infants and young children; slight deficits in 
the attention span hearing, and learning abilities of children; and, 
high blood pressure in some adults (which may lead to kidney disease 
and increased chance of stroke). But pregnant women and children are 
our primary concern. The Centers for Disease Control and Prevention 
(CDC) has identified a blood lead level of 10 micrograms per deciliter 
as the level of concern for lead in children.
    Lead exposure in young children has been dramatically reduced over 
the last two decades. According to a 2003 CDC report [Surveillance for 
Elevated Blood Lead Levels Among Children--United States, 1997-2001. 
Centers for Disease Control and Prevention. Surveillance Summaries, 
September 12, 2003. MMWR 2003:52 (No. SS-10)], 88 percent of children 
between the ages of 1 to 5 were estimated to have blood lead levels 
that exceeded 10  g/dl for the period between 1976-1980. By 1999-2000, 
this estimate had decreased to approximately 2 percent. This decrease 
is largely due to the 1973 EPA regulation to phaseout lead in gasoline 
between 1973 and 1995, and to the reduction in the number of homes with 
lead-based paint from 64 million in 1990 to 38 million in 2000. Some 
decline was also a result of EPA regulations reducing lead levels in 
drinking water and banning lead from paint. Other reasons include bans 
on lead in food and beverage containers and reductions in lead in 
industrial emissions, consumer goods, hazardous waste, and other 
sources. There are several EPA programs that continue to be successful 
in reducing the public's exposure to lead in the environment.
    The most common source of lead exposure for children today is lead 
in paint in older housing and the contaminated dust and soil it 
generates. [see Risk Analysis to Support Standards for Lead in Paint, 
Dust and Soil (EPA 747-R-97-006, June 1998] This is primarily from 
housing built in the 1950s and homes with pre-1978 paint. Several 
Federal programs and surveillance and prevention programs at the State 
and local level continue to work toward reducing exposure to lead. In 
addition, EPA works with Federal agencies--mainly the Departments of 
Housing and Urban Development, Health and Human Services, and Justice 
through the President's Task Force on Environmental Health Risks and 
Safety Risks to Children--on implementing a Federal strategy to 
virtually eliminate childhood lead poisoning.

                         LEAD IN DRINKING WATER

    Although the greatest risks are related to paint, lead in drinking 
water can also pose a risk to human health. As indicated in EPA's 
public education language for the Lead and Copper Rule, approximately 
20 percent of a person's exposure to lead can come from drinking water. 
The level of exposure can be greater for children and infants, 
particularly when tap water is used to mix juices and formula. EPA has 
set a maximum contaminant level goal of zero for lead in drinking water 
and has taken several actions over the last 20 years to reduce lead in 
drinking water. The 1986 Amendments to the Safe Drinking Water Act 
(SDWA) effectively banned the new use of lead solder and leaded pipes 
from public water supply systems and plumbing, and limited faucets and 
other brass plumbing components to no more than 8 percent lead. To 
address lead in schools, the Lead Contamination Control Act (LCCA) of 
1988 recalled drinking water coolers with lead-lined water reservoir 
tanks, and banned new drinking water coolers with lead parts. The 1986 
SDWA Amendments also directed EPA to revise its regulations for lead 
and copper in drinking water.
    An interim standard for lead in drinking water of 50 micrograms per 
liter, or parts per billion (ppb), had been established in 1975. 
Sampling of customer taps was not required to demonstrate compliance 
with this standard. In 1988, the Agency proposed revisions to the 
standard and issued a final standard in 1991. The revised standard 
significantly changed the regulatory framework. Unlike most 
contaminants, lead is not generally introduced to drinking water 
supplies from the source water. The primary sources of lead in drinking 
water are from lead pipe, lead-based solder used to connect pipe in 
plumbing systems, and brass plumbing fixtures that contain lead. 
Setting a standard for water leaving the treatment plant fails to 
capture the extent of lead leaching in the distribution system and 
household plumbing.
    EPA requires public water suppliers to meet the regulations 
governing treated water quality distributed via the public water 
system. The regulations do not require homeowners to replace their 
plumbing systems if they contain lead. To reduce consumers' lead 
exposure from tap water, EPA used its available authorities to require 
public water suppliers to treat their water to make it as non-corrosive 
as possible to metals in their customers' plumbing systems. These 
treatment requirements were issued in EPA's Lead and Copper Rule (LCR) 
on June 7, 1991.
    The rule requires systems to optimize corrosion control to prevent 
lead and copper from leaching into drinking water. Large systems 
serving more than 50,000 people were required to conduct studies of 
corrosion control and to install the State-approved optimal corrosion 
control treatment by January 1, 1997. Small and medium sized systems 
are required to optimize corrosion control when monitoring at the 
consumer taps shows action is necessary.
    To assure corrosion control treatment technique requirements are 
effective in protecting public health, the rule also established an 
Action Level (AL) of 15 ppb for lead in drinking water. Systems are 
required to monitor a specific number of customer taps, according to 
the size of the system. If lead concentrations exceed 15 ppb in more 
than 10 percent of the taps sampled, the system must undertake a number 
of additional actions to control corrosion and to inform the public 
about steps they should take to protect their health. The rule was 
subsequently revised in 2000 to modify monitoring, reporting and public 
education requirements, but the basic framework, including the action 
level, was not changed.
    The LCR has four main functions: (1) require water suppliers to 
optimize their treatment system to control corrosion in customers' 
plumbing; (2) determine tap water levels of lead and copper for 
customers who have lead service lines or lead-based solder in their 
plumbing system; (3) rule out the source water as a source of 
significant lead levels; and, (4) if action levels are exceeded, 
require the suppliers to educate their customers about lead and suggest 
actions they can take to reduce their exposure to lead through public 
notices and public education programs. If a water system, after 
installing and optimizing corrosion control treatment, continues to 
fail to meet the lead action level, it must begin replacing the lead 
service lines under its ownership.
    Although we are currently seeing problems in the District, the LCR 
has proven to be successful in reducing levels of lead in drinking 
water. Following issuance of the rule in 1991, EPA required medium and 
large systems to conduct initial rounds of monitoring by December 1992. 
The results from the first round of sampling for large systems (serving 
more than 50,000) conducted in 1991 showed that 130 of 660 exceeded the 
action level of 15 ppb. We recently reviewed Consumer Confidence 
Reports for 109 of the systems that were on the list and found that 
only 9 were above the action level within the last few years (one of 
which was DC). Thus it would appear that the actions taken by systems 
to reduce corrosion through appropriate treatment have significantly 
reduced the public's exposure to lead in drinking water. However, even 
though we have had success in reducing exposure, we must remain 
vigilant to ensure that treatment continues to control corrosion and 
that information on potential risks is communicated to the public.

                      THE CURRENT SITUATION IN DC

    In the District of Columbia, WASA failed to achieve the intended 
objectives of the the regulatory framework that EPA established. Within 
the last few years lead concentrations have increased significantly. 
Public education efforts were not effective in reaching the people who 
needed to know about the problem or in conveying the risks posed to 
some customers by elevated levels of lead in the water.
    The provision of safe drinking water is not an easy task. Treatment 
processes must be balanced to address multiple risks. EPA has developed 
guidance to assist systems in achieving simultaneous compliance with 
different standards to, for example, balance treatment processes 
between the need to control corrosion within a system and also avoid 
harmful byproducts that can result from disinfection processes. As 
Regional Administrator Welsh will describe, EPA is working with WASA 
and the Washington Aqueduct, managed by the U.S. Army Corps of 
Engineers, which supplies water to WASA, to determine if changes in 
treatment processes to reduce disinfection byproducts resulted in 
elevated lead levels. The situation in DC appears to be unique. In 
surveying States and regions, we have not identified a systemic problem 
of increasing lead concentrations in tap monitoring conducted by public 
water systems. However, we will continue to investigate this matter in 
the weeks ahead.

                 ACTIONS UNDERTAKEN BY EPA HEADQUARTERS

    This event is a reminder of what we take for granted--that we can 
turn on our faucets, whenever we want, to draw a glass of clean, safe 
water. I also see it as indicative of the challenges in managing the 
Nation's water infrastructure. We face the possibility of interruptions 
in service quality and public health protection as a result of 
deterioration of aging infrastructure or outdated components, such as 
the lead service lines serving older homes in the District. This will 
require significant levels of coordination on the part of local, State 
and Federal Governments, and an understanding of the true investment 
needs on the part of customers.
    With respect to the situation here in DC, I fully understand the 
concerns that congressional Members and committees and city leaders 
have regarding timely and effective public notification. EPA is 
reviewing the actions taken by all parties to ensure that we use the 
lessons learned to prevent such an event from taking place in the 
future--here in DC and in other communities across the Nation.
    Staff from my program and EPA's Office of Research and Development 
are currently working closely with the Region to provide technical 
assistance and are participating on the Technical Expert Working Group 
(TEWG) evaluating potential technical solutions to elevated lead 
levels. I directed staff to convene a peer review panel that is 
conducting an independent review of the TEWG's Action Plan released on 
March 10 and which will also review subsequent reports. Staff are also 
participating in a review of WASA's public education material and are 
working with the Region on communication issues in the District.
    As the head of the national water program, I have undertaken a 
number of actions to address the specific issue of lead in drinking 
water from a national perspective.
    All of us want to ensure that the Nation's school children are not 
exposed to elevated lead levels in their drinking water. While States 
and schools may have acted immediately to remove harmful lead lined 
coolers in accordance with the 1988 Lead Contamination Control Act, 
lead solder and plumbing fixtures can still contain low levels of lead. 
States and schools should continue to monitor their water outlets to 
ensure that children are protected using EPA's recommended protocol for 
testing water in schools for lead. On March 18 I sent letters to every 
State's Director of Health and Environmental Agencies seeking their 
help in understanding and facilitating State and local efforts to 
monitor for lead in school drinking water. We want to know if 
additional guidance might help States and local governments conduct 
more comprehensive monitoring in schools and day care facilities.
    I am also working with our enforcement and regional drinking water 
program managers to embark on a thorough review of compliance with and 
implementation of the Lead and Copper Rule. Our initial focus is to 
ensure that EPA has complete and accurate information on the Lead and 
Copper Rule in its Safe Drinking Water Information System. States were 
required to report specific results of monitoring (i.e., 90th 
percentile lead levels) to EPA for systems serving populations greater 
than 3,300 people beginning in 2002. On March 25, I sent a memorandum 
to Regional Administrators asking them to work with the States to 
ensure that all available information is loaded into the data system by 
the end of June.
    With more complete information, we will be able to work in 
consultation with enforcement and regional staff to assess national 
compliance and implementation. Our review will attempt to answer three 
questions: (1) Is this a national problem? Does a large percent of the 
population receive water that exceeds the lead action level? Do a large 
number of systems fail to meet the lead action level? (2) How well has 
the rule worked to reduce lead levels in systems over the past 12 
years, particularly in systems that had demonstrated high lead levels 
in the initial rounds of sampling? (3) Is the rule being effectively 
implemented today, particularly with respect to monitoring and public 
education requirements?
    We expect this analysis to continue throughout the year and will 
release interim reports as results become available. Part of the 
analysis will include a review of the existing requirements of the rule 
and associated guidance. To help the Agency obtain additional 
information from experts, we have scheduled workshops in May to discuss 
sampling protocols for the rule and utility experiences in managing 
simultaneous compliance with multiple drinking water rules. Workshops 
on additional subjects may be scheduled later in the year.
    The compliance review, expert workshops and other efforts underway 
will help us to determine whether it is appropriate to develop 
additional training or guidance or make changes as part of our review 
of existing regulations. Our immediate goal is to ensure that systems 
and States have the information they need today to fully and 
effectively implement the rule and minimize risks to public health.
    Mr. Chairman, this reminds us all of the importance of 
communication--especially with the public. To maintain public health 
and confidence, information communicated to the public must not only be 
accurate, but timely, relevant and understandable. While I believe that 
communication efforts on the part of the Region, the District's 
Department of Health and WASA have improved, there is still much to be 
done to ensure that the city's residents are aware of the steps they 
can take to protect their health. As you will hear from Mr. Welsh, the 
Region is completing a thorough review of WASA's and the Aqueduct's 
activities to determine if any violations of environmental law have 
occurred. EPA will take the appropriate steps to protect public health, 
both by enforcing existing regulations and by using its additional 
authorities to address imminent and substantial threats to public 
health, as appropriate.
    We will work closely with the Region, our public service partners 
and concerned citizens to investigate the situation in DC and to review 
implementation of the rule nationwide. EPA wants to ensure that 
citizens across the country are confident in the safety of their 
drinking water.
    Thank you for the opportunity to testify this afternoon. I am 
pleased to answer any questions you may have.

                               __________

    Statement of Donald Welsh, Director, Region III, Environmental 
                  Protection Agency, Philadelphia, PA

    Good afternoon, Mr. Chairman and Members of the Subcommittee. I am 
Donald Welsh, Regional Administrator for Region III of the United 
States Environmental Protection Agency (EPA). Thank you for the 
opportunity to appear before you today to discuss the important issue 
of lead in the tap water of District of Columbia residents, and the 
steps EPA and other agencies are taking to resolve the problem on a 
short-and long-term basis.
    Elevated levels of lead in the environment, whether in drinking 
water or lead paint, can pose significant risks to health--particularly 
to pregnant women and young children. Reducing exposure to all sources 
of lead is vital to protecting the health of our citizens.
    It is unacceptable to us that many families in the District 
continue to live with fear and uncertainty over the quality of the 
water they drink. At EPA, we will not be satisfied until all aspects of 
this problem are resolved. There is no higher priority for my office 
than to work with the city to protect residents.
    To that end, EPA and the District of Columbia have directed--and 
are closely monitoring--a series of interim measures to ensure that 
residents have safe drinking water and proper precautionary guidance. 
At the same time, a multi-agency Technical Expert Working Group is 
acting as quickly as possible to identify and correct the cause of the 
elevated lead levels.
    The city and EPA have had regular meetings and conversations to 
monitor progress and to ensure necessary actions are being taken. While 
we are satisfied at this point that the District of Columbia Water and 
Sewer Authority (WASA) is taking the required steps to deal with the 
immediate threat to public health, EPA reserves the right to use 
enforcement authorities to compel action if necessary.
    Among a host of immediate steps being taken to safeguard public 
health, WASA is delivering certified water filters to occupants in the 
estimated 23,000 homes and businesses with lead service lines, and 
conducting additional tap water sampling to fully identify the extent 
of the problem in the District. There also are expanded outreach 
efforts underway to ensure residents have essential information to 
protect themselves and their families. Details of these and other 
actions will be provided later in this testimony.

                HISTORY AND EXTENT OF THE PROBLEM IN DC

    In the District of Columbia, the regulatory framework established 
in EPA's 1991 Lead and Copper Rule (LCR) did not achieve key aspects of 
its intended objectives. The LCR requires systems to optimize corrosion 
control to prevent lead and copper from leaching into drinking water. 
To assure corrosion control is effective, the rule establishes an 
action level of 15 parts per billion for lead in drinking water. If 
lead concentrations exceed the action level in more than 10 percent of 
the taps sampled, the system must intensify tap water sampling and 
undertake a number of additional actions to control corrosion and to 
educate the public about steps they should take to protect their 
health. If the problem is not abated, the system must also begin a lead 
service line replacement program.
    Within the last couple of years in the District of Columbia, lead 
concentrations in tap water in many homes increased well above the 15 
parts per billion action level. In addition, public education efforts 
were ineffective and, we believe, not fully compliant in all instances 
with EPA rules.
    By way of background, two public water systems are responsible for 
complying with provisions of the LCR in the District. The Washington 
Aqueduct owns and operates two water treatment plants which provide 
finished drinking water to WASA, as well as to Arlington County and the 
city of Falls Church in Virginia. The Aqueduct is responsible for all 
corrosion control treatment for its three customer systems. WASA, which 
distributes water from the Aqueduct to customers in the District, is 
responsible for monitoring lead and copper at its retail customers' 
taps. EPA's Region III office in Philadelphia has primary oversight and 
enforcement responsibility for public water systems in the District.
    The results of DC's required tap monitoring exceeded the 15 ppb 
action level for 10 percent of taps monitored during six of 15 
reporting periods since January 1992--three times prior to 1994 and 
three times since 2002.
    During the 1990s, several studies were conducted by WASA, the 
Aqueduct, and EPA to support identification of an optimal corrosion 
control treatment (OCCT) for the drinking water supplied by the 
Aqueduct. EPA gave the Aqueduct conditional OCCT approval in 1997 and, 
after reviewing results from several required reports, provided final 
approval in 2000. Later that year, the Aqueduct replaced its secondary 
disinfection treatment by converting from free chlorine to chloramines, 
primarily to ensure compliance with EPA's more stringent requirements 
to combat serious health consequences related to disinfection 
byproducts.
    The OCCT implemented by the Aqueduct appeared to be effective in 
minimizing lead levels until the sampling period between July 2001 and 
June 30, 2002. EPA received a final report from WASA on August 27, 2002 
indicating that the 90th percentile value had increased to 75 ppb 
during that period. The high level required that WASA conduct more 
frequent monitoring and carry out public education. The lead action 
level was also exceeded for subsequent monitoring periods in 2003, with 
90th percentile values at 40 ppb (January 1 to June 30, 2003) and 63 
ppb (July 1 to December 31, 2003).
    In 2003, EPA Region III worked through an EPA Headquarters' 
contractor to hire Professor Marc Edwards of Virginia Tech to help 
analyze the situation and make recommendations to assist the region in 
working with WASA. Professor Edwards' draft report delivered in October 
2003 provided key input to the evaluation of the problem during the 
fall of 2003 and continues to aid the expert technical team convened by 
EPA to identify the underlying causes for elevated lead levels.
    In addition to the stepped up monitoring, when WASA exceeded the 
action level, the authority was required to undertake a lead service 
line replacement program. The LCR requires that a system replace at 
least 7 percent of the lead service lines the system owns annually 
until all of the lines have been replaced, or until tap water 
monitoring indicates that its 90th percentile lead level is equal to or 
less than 15 ppb. If the sample for a service line shows a 
concentration below the action level, the line serving that house is 
considered to be replaced.
    Starting in March 2003, WASA began an expanded lead service line 
sampling program to determine the concentrations of lead contributed by 
individual lines. Region III received sampling results from this 
program on October 27, 2003. The information was reviewed by our 
technical staff with an eye toward determining how to address the 
underlying cause of the corrosion problem. The results indicated that 
385 lead service lines had been physically replaced and that an 
additional 1,241 lines were considered replaced because they had 
monitoring results below the 15 ppb action level. The report also 
indicated that 3,372 of 4,613 lead service lines tested through 
September 30, 2003 had lead levels that exceeded the lead action level. 
In many cases, lead levels from customer taps were very high, with 
levels above 300 ppb in nearly 3 percent of lines and above 100 ppb in 
18.5 percent of lines. Frequently, several months passed between when a 
sample was collected and information was provided to homeowners who 
participated in the expanded sampling program. In addition, the 
notifications were not effective in relaying to the customers the 
significance of the problem.

             INTERIM STEPS BEING TAKEN TO PROTECT RESIDENTS

    As indicated earlier, WASA and the District of Columbia government 
are undertaking a series of actions outlined by EPA to address the 
immediate public health threat posed by lead in drinking water. The 
actions include:
    <bullet> WASA will ensure delivery by April 10 of the NSF 
International-certified water filters and consumer instructions to 
occupants in homes and buildings with lead service lines. Periodic 
replacement of the filters also will be ensured.
    <bullet> Additional tap water sampling has begun in schools as part 
of a program to test a representative group of homes and other 
buildings that are not served by lead service lines to help determine 
the full scope of the problem. The city began the school testing 
program on March 27 based upon EPA's approval of the sampling protocol, 
and as of last Friday (April 2) WASA had anticipated the completion of 
sampling at approximately 150 schools. WASA has agreed by today (April 
7) to address EPA questions on the sampling plan for other facilities 
in the city so that we can authorize WASA to move forward on that 
initiative.
    <bullet> WASA has committed to an accelerated schedule for 
physically replacing lead service lines in the District. WASA has 
agreed to complete 1,615 actual service line replacements during the 
compliance period that ends September 30--a far greater pace than was 
met during the prior compliance period. As part of EPA's annual grants 
to the District, the agency is providing a total of $11.3 million to 
WASA for lead line replacement this year.
    <bullet> WASA is expediting notification to customers of the 
results of water sampling at their residences, committing to providing 
results in 30 days or less. WASA has stated that residents now receive 
a letter that provides more detail about their sampling results, and 
those with high lead levels are referred to the DC Department of 
Health.
    <bullet> As EPA, the District and WASA continue to expand outreach 
efforts to provide important information to consumers, WASA will 
provide to EPA for our review no later than today (April 7) an enhanced 
public education plan to satisfy a directive that communications on the 
lead issue convey the proper sense of urgency and concern for public 
health. The goal is to reach all sectors of the population in an 
effective way. WASA already has committed to a series of activities, 
including placing advertisements in ethnic and foreign language 
newspapers, developing and distributing public service announcements to 
radio stations, and taping a program this week on the District's cable 
channel that will be shown in a variety of venues. WASA also will 
continue to meet with various community groups and organizations.
    EPA is undertaking a compliance audit of WASA's lead service line 
and public education actions. In letters to WASA last week, EPA 
identifies instances in which requirements were apparently not met and, 
as part of the enforcement process, requires WASA to provide 
information and documentation to EPA responding to those findings. Once 
EPA receives the requested information, we will officially determine 
whether there have been violations and take the appropriate action.
    In a separate initiative, an internal EPA team is evaluating WASA's 
prior outreach efforts--a process to be completed by month's end that 
involves a review of materials, interviews with residents and public 
officials, and a survey of best practices from public water systems 
around the country.
    It is clear that WASA was ineffective in informing the public of 
the magnitude of the problem of lead in drinking water and in conveying 
the steps families and individuals should take to protect themselves. 
The spirit of the LCR encourages robust communication focused on the 
public's right to know. Mass media tools, including direct contact with 
media representatives, as is recommended in EPA guidance, were not used 
effectively.
    The Region is taking a critical look back at how it could have done 
a better job in its oversight of WASA. There will continue to be 
lessons learned that will benefit the agency in the future. We have 
revised our oversight procedures to assure that shortcomings in public 
outreach are identified earlier and corrected. We are more closely 
monitoring WASA's activities to ensure that system-wide notices 
effectively inform customers about the lead risk and we will ensure 
that information provided in WASA's next Consumer Confidence Report to 
customers is clear with respect to information about lead levels in 
drinking water.
    In addition to our collaborative efforts with the city, EPA has 
taken a number of actions to provide information to residents and 
others on the issue of lead in the District's drinking water.
    The Region has created a new program with the National Nursing 
Centers Consortium, called Lead Safe DC, at an initial cost of 
$100,000, to bring lead education information, home visits and blood 
level testing to District neighborhoods. The consortium is the Nation's 
only network of nurse-managed community healthcare centers, and has 
enjoyed great success with a similar lead information program with EPA 
in the city of Philadelphia.
    The Region has created a comprehensive Web site that includes 
advice for consumers, frequently asked questions, health effects 
information, and links to informational hotlines, WASA and the DC 
government. It can be accessed at www.epa.gov//dclead.
    EPA has dispatched community outreach specialists to provide 
information and get input on the lead issue from community groups and 
individual residents in the District. EPA has a National Safe Drinking 
Water Hotline, and the region is proactively providing consumer 
information to radio stations for use in the District. Nearly a dozen 
regional employees have volunteered to assist with translation to 
Spanish of written and broadcast materials.

       ACTIONS TO IDENTIFY AND CORRECT SOURCE OF HIGH LEAD LEVELS

    The Technical Expert Working Group from the public and private 
sectors is in the midst of its investigation to identify the cause of 
the elevated lead levels and present a solution as quickly as possible. 
The team already has met early milestones in the process. EPA is 
scheduled to receive a proposal by April 15 from the technical team for 
a water chemistry change to reduce corrosion while maintaining the 
optimum protection against other harmful contaminants that can be found 
in drinking water. The preliminary recommendation is to conduct a 
partial system test using orthophosphates at WASA's Fort Reno pumping 
station and thereafter, a full system test by feeding orthophosphates 
at the Dalecarlia and McMillan water treatment plants. Under the 
proposed timetable, the partial system test is currently planned for 
June 1, followed by full system implementation on or about September 1. 
To review the team's findings, EPA has formed an independent peer 
review group made up of experts who are not involved in the planning.
    Until the revised treatment process is in place and lead levels in 
tap water are reduced, all consumers are advised to follow appropriate 
tap flushing recommendations and to heed the District Department of 
Health's advisory that pregnant or nursing women and children under 6 
years of age who live in homes that have a lead service line should not 
drink unfiltered tap water.

                               CONCLUSION

    In closing, working closely with the District of Columbia, our 
public service partners and concerned citizens, we will continue to 
aggressively act to protect residents and resolve the lead problem. We 
are taking action to hasten the day when the citizens of the District 
of Columbia can once again be confident in the safety of their drinking 
water.
    Thank you for the opportunity to present this information this 
afternoon. I am pleased to answer any questions you may have.
                                 ______
                                 
 Responses by Donald Welsh to Additional Questions from Senator Inhofe

    Question 1. When did EPA first know of elevated lead levels in DC 
tap water?
    Response. DC exceeded the 15 ppb action level during three 
reporting periods between 1992 and 1994 before it installed corrosion 
control treatment (CCT). The CCT implemented by the U.S. Army Corps of 
Engineers Washington Aqueduct (Aqueduct), and given interim approval by 
EPA Region III in 1997 and final approval in 2000, appeared to be 
effective in minimizing lead levels until the reporting period between 
July l, 2001 and June 30, 2002. EPA received a final report from the DC 
Water and Sewer Authority (WASA) on August 27, 2002 indicating that the 
90th percentile value had increased to 75 ppb during that period. The 
high level required that WASA conduct more frequent monitoring every 6 
months. The lead action level was also exceeded for subsequent 
monitoring periods in 2003, with 90th percentile values of 40 ppb 
(January 1 to June 30, 2003) and 63 ppb (July 1 to December 31, 2003).

    Question 2. Has EPA identified any specific events or system 
changes that would have caused these high lead levels?
    Response. EPA is reviewing past reports and performance data 
related to how the water was treated and how water chemistry changed in 
the Aqueduct wholesale customer's distribution systems. The review will 
investigate several factors which could have affected pH within the 
distribution system or otherwise affected chemistry in such a manner so 
as to increase corrosion. The areas that will be reviewed include, but 
are not limited to:
    <bullet> the process change from chlorine to chloramine 
disinfection in November 2000 and potential impact of nitrification,
    <bullet> the potential impact of drought during the period 2001-
2002 on pH, comparing to changes observed in chemistry during the 
drought of 1998-99,
    <bullet> the effects of water distribution system maintenance and 
operation practices, and
    <bullet> the effects of corrosion control treatment management 
practices.
    The Technical Expert Working Group (TEWG), which includes 
contractors for EPA, WASA and the Aqueduct and staff from WASA, the 
Aqueduct and EPA's Region III Headquarters and Cincinnati offices is 
assessing the possibility that some or all of the above factors 
contributed to the failure of the approved optimal corrosion control 
treatment to keep lead concentrations below acceptable levels.

    Question 3. What actions did EPA initiate to determine the 
proximate cause of the higher lead levels?
    Response. Following notification of WASA's exceedance of the lead 
action level in August 2002, EPA met with WASA staff in September 2002 
to discuss activities that WASA needed to undertake to comply with the 
LCR. The main requirements were implementation of public education and 
lead service line replacement programs. WASA also agreed to resume full 
lead and copper tap sampling. EPA, WASA, and the Washington Aqueduct 
also discussed potential causes of the lead level changes and the need 
for a review of the corrosion control treatment process to determine 
what could have caused the lead action level exceedance and what could 
be done to correct it.
    In January 2003, EPA Region III began the process of conducting the 
review on the behalf of WASA and the Aqueduct. WASA later decided to 
engage its own contractor to conduct a similar review. EPA developed a 
work assignment to conduct the corrosion control review under the scope 
of an existing contract and circulated it to WASA, the Aqueduct, 
Arlington County and the city of Falls Church to ensure that the 
concerns of all parties involved would be addressed. Work began in May 
2003. WASA's contractor began working at about the same time. The 
Aqueduct assisted in this process by providing data and technical 
information required by the reviewers. In the fall of 2003, the 
contractors recommended that additional studies be conducted to better 
identify the cause of the lead action level exceedance so that the 
proper corrosion control treatment could be applied. WASA began 
implementing these studies in December 2003. Analyses of WASA's lead 
service line testing results in December 2003 found high lead levels 
which appear to be caused by the lead service lines.
    EPA and WASA continue to use their contractors to implement the 
planned studies, review the results, and recommend new corrosion 
control treatment. A Technical Expert Working Group (TEWG), which 
includes contractors for EPA, WASA and the Aqueduct and staff from 
WASA, the Aqueduct, EPA's Region III, Headquarters and Cincinnati 
offices, the District of Columbia Department of Health, and the Centers 
for Disease Control and Prevention has also been formed to more fully 
investigate the matter.

    Questions 4 and 5. What recommendations did Region 3 make to WASA 
or the Corps in terms of changes to the operations of the water system 
to mitigate for high lead levels?
    Did EPA recommend adding zinc orthophosphate, or another phosphate 
additive to the water?
    Response. In June 1994, the Aqueduct submitted a corrosion control 
treatment (CCT) study to EPA, in compliance with the requirements of 
the LCR for all large public water systems (serving more than 50,000 
people) which recommended that pH adjustment be used to control 
corrosion. In 1995, EPA engaged a contractor to conduct a sanitary 
survey of the District's drinking water storage and distribution 
system. EPA included a task to evaluate the CCT recommendation in the 
Aqueduct's corrosion treatment study. The sanitary survey recommended 
that additional consideration be given to the use of a phosphate 
corrosion inhibitor.
    In 1996, EPA engaged a contractor to review: (1) the Aqueduct's CCT 
study and recommendation, (2) observations and recommendations of the 
sanitary survey, and (3) additional data about the District's 
distribution system water quality, particularly with respect to the 
coliform bacteria problem the District had experienced over the 
previous few years. Because the contractor had concerns that a 
phosphate corrosion inhibitor might have adverse effects on water 
quality in an older water system such the District's, he recommended 
against use of a phosphate corrosion inhibitor. The contractor believed 
that it would be more appropriate for the Aqueduct to refine its pH 
adjustment so that it could maintain pH at a higher level.
    In 1997, EPA conditionally designated pH adjustment as the optimal 
corrosion control treatment (OCCT) for the Aqueduct. WASA conducted tap 
sampling during 1997 to 2001 and sample results did not exceed the lead 
action level. In 2000, EPA designated pH adjustment as the OCCT for the 
Aqueduct.
    With respect to the current elevated levels, EPA has been working 
with the Technical Expert Working Group to determine what changes 
should be made to the operation of the water system to reduce lead 
levels. Based on the recommendations of that group, Region III has 
approved an interim modification of the approved OCCT for the Aqueduct 
and WASA to allow for an initial application of a phosphate-based 
corrosion inhibitor. The April 30, 2004 approval letter from the Region 
to WASA and the Aqueduct, which outlines the process is available on 
the EPA web site at http://www.epa:gov/dclead/corrosion_letter_4-
30.pdf. If the trial application is successful and does not cause any 
other unanticipated treatment concerns, full system application could 
begin as early as mid-July.
                                 ______
                                 
Responses by Donald Welsh to Additional Questions from Senator Jeffords

    Question 1. What explanation are you giving to parents whose 
children were totally unnecessarily exposed to lead in their drinking 
water and what steps are you taking to regain the trust of the citizens 
of Washington, DC?
    Response. As Regional Administrator Welsh noted in testimony before 
the subcommittee, it is unacceptable to EPA that many families in the 
District are living with fear and uncertainty over the quality of the 
water they drink. The goals of the Federal requirements for the lead 
and copper rule are to ensure that the public is informed about 
potential risks and the steps they can take to minimize exposure. In 
its outreach efforts, WASA did not fulfill its responsibility to 
effectively inform all affected parties about a problem with their 
water. Notifications to individual residents were often not timely and 
did not achieve the goal of getting information to those who needed to 
know. Mass media tools were not used as effectively as they could have 
been. There should have been more widespread and urgent communication 
of the problem District-wide.
    In hindsight, EPA could have more quickly assessed the timeliness, 
effectiveness and impact of WASA's public notification program and more 
promptly directed WASA to correct its deficiencies. We have revised our 
oversight procedures to assure that any shortcomings in public outreach 
are identified early and corrected. We are also investigating potential 
violations of the regulatory requirements relating to public education.
    An EPA team has completed a report that reviewed the effectiveness 
of WASA's public education efforts. The report contains recommendations 
to enhance the effectiveness and delivery of public education under the 
lead and copper rule. It was transmitted to WASA on May 16, 2004. This 
report also included recommendations for EPA Region III to improve its 
oversight of WASA's public education program. We are more closely 
monitoring WASA's activities' to ensure that system-wide notices 
effectively inform customers about the lead risk and we will ensure 
that information provided in WASA's next Consumer Confidence Report to 
customers is clear with respect to information about lead levels in 
drinking water. WASA has been directed to submit an Enhanced Public 
Education Plan by May 21, 2004.
    We are also taking our own actions to provide information to the 
public. EPA Region III dispatched community outreach specialists to 
provide information and get input on the lead issue from community 
groups and individual residents in the District. We continue to provide 
information on our Regional and National web sites and the National 
Safe Drinking Water Hotline. We have provided public service 
announcements, in English and Spanish, to media outlets in the 
Washington, DC area and have held or participated in 10 public meetings 
since early February. We have also been meeting with a coalition of 
environmental and consumer groups--the Lead Emergency Action for the 
District (LEAD) coalition, to both hear their concerns and to identify 
how to better communicate with the general public.

    Question 2a. How was it that the EPA was able to identify these 
incidents of non-compliance [with respect to public education] 2 years 
after the fact but failed to identify them at the time they mattered 
most--when the public needed to have accurate information about the 
potential risks associated with lead contaminated drinking water?
    Response. The technical staff in EPA Region III were focused on 
solving the problem of elevated lead levels. Staff noted that, public 
education activities were undertaken by WASA, but did not conduct a 
detailed review of the public service announcement. After the lead 
problem was observed to be more widespread, additional staff were 
assigned to perform an audit of all of WASA's public education 
materials and actions. This group conducted an onsite file review of 
WASA's records in March, 2004. The review team identified several 
potential violations which were outlined in a March 31, 2004 ``show 
cause'' letter from the Region to WASA and an information request 
letter to determine if there are any additional violations. The audit 
is ongoing.
    As Regional Administrator Welsh mentioned in his testimony, 
standard procedures for handling and reviewing WASA's, as well as the 
Washington Aqueduct's compliance documentation have been revised. This 
was done to ensure that more detailed reviews of relevant materials are 
conducted by staff from the program office as well as the enforcement 
office. Public education materials will also be reviewed by those with 
experience in public outreach, writing and education to help ensure 
that WASA's outreach and education materials' are sufficient to gain 
the attention of customers so that they may take appropriate actions to 
reduce their exposure risks to lead or other contaminants.

    Question 2b. How can you provide this Committee and the American 
people with any true assurances that our environmental laws are being 
enforced given the Agency's record on enforcement of environmental laws 
under this Administration, and the Agency's performance on this DC lead 
issue?
    Response. EPA continues to work with our State partners to take 
appropriate steps to ensure that public health is protected. With 
respect to the provision of safe drinking water, this is accomplished 
by enforcing the Safe Drinking Water Act and its implementing 
regulations; including the use of EPA's authority under the Act to 
address situations that may present an imminent and substantial 
endangerment to public health. In fiscal year 2003 alone, EPA took 419 
formal enforcement actions to address noncompliance by public water 
systems. Over the past 6 years, EPA has taken more than 4,000 formal 
enforcement actions under the Safe Drinking Water Act (to address 
public water systems and underground injection control). EPA also uses 
compliance assistance where appropriate as a tool to address drinking 
water noncompliance. EPA remains committed to ensuring that clean safe 
drinking water is available to every person, every day, no matter where 
they are in the Nation.
    Regarding lead issues in particular, EPA's enforcement and 
compliance assurance program, in Headquarters and in the Regions, is 
actively participating in ongoing review of compliance with the Lead 
and Copper Rule. EPA Region III is working closely with the District of 
Columbia government to ensure that the Water and Sewer Authority takes 
appropriate actions to protect public health immediately and to ensure 
that their future actions are effective and meet both the intent and 
the letter of the regulations. If, at any time, EPA feels that the 
current intervention efforts are not working, Region III will issue an 
administrative action or take other appropriate action to enforce 
public health protections provided by our laws and regulations.

    Question 3. Can you describe how the WASA action plan was developed 
and is that a public document? What actions will EPA take if WASA 
diverts from the contents of the plan and what oversight is the Agency 
conducting to ensure that the plan is executed?
    Response. On March 4, 2004, EPA Region III issued a letter to the 
District of Columbia government listing ten actions that the Region 
believed were necessary to (1) reduce the public's risk of lead 
exposure, (2) improve the knowledge base on lead levels in tap water by 
conducting widespread testing and (3) improve the effectiveness of 
public education. The District's City Administrator's office 
transmitted a letter to WASA ordering that these ten actions be met and 
requiring that WASA submit plans to address each of the ten areas. 
Action plans were required to be submitted at different times depending 
on the action item to be addressed. WASA has developed and submitted 
each of the required plans. The Region and the District of Columbia 
have requested further clarification or more details on some of these 
plans. The letters and the plans are considered public documents and 
are available from EPA Region III's DC lead in drinking water website 
located at www.epa.gov/delead.

    Question 4. [Re: inaccurate testing instructions from WASA]. Can 
you comment on your assessment of the importance of providing residents 
with accurate testing instructions and a description of how you have 
corrected this problem?
    Response. EPA believes that it is critical that WASA provide 
accurate sampling instructions to residents. The data generated by this 
sampling is used to prioritize lead service line replacements, identify 
the people in the ``unknown service line'' category who should receive 
water filters and help inform residents about potential exposure. The 
data obtained from monitoring conducted using faulty sampling 
instructions distributed by WASA in early March 2004 is nearly useless 
for the purposes outlined above.
    Upon being alerted to errors in the testing instructions, EPA 
Region III staff sent e-mail messages on March 11, 2004 to the Deputy 
General Manager and to the water quality manager of WASA describing our 
concerns. These e-mail messages requested that WASA immediately correct 
the instructions, identify who received the incorrect instructions with 
their sampling kit and describe a plan to correct the problem. EPA 
Region III staff held a conference call with WASA's water quality 
manager the following day to discuss the instruction sheet and data 
generated with its use. Although the water quality manager was not 
involved in this effort, which was managed by a WASA contractor, he 
confirmed to EPA Region III staff that WASA would not use these data 
for any compliance purposes and that he would work with others within 
WASA to identify which residents received sampling kits with the faulty 
instructions and send out new kits. The water quality manager sent, via 
e-mail, the corrected version of the instruction sheet to review by the 
end of the day on March 12, 2004.
    On March 16, the Regional Administrator sent a letter documenting 
the previous correspondence between his staff and WASA and required 
that WASA report back to him on the number of people who had received 
sampling kits with faulty instructions. He also requested that WASA 
send out new kits to all persons so identified. WASA, in a March 24th 
letter to the Region, responded that more than 2,000 residents had 
received the faulty instructions and that new sampling kits with the 
corrected instructions would be shipped to all of them via UPS by March 
27th, with delivery to be completed by the end of the following week. 
WASA has since confirmed to the Region that this schedule was met.

    Question 5. [Re: Lead service line replacement only required for 
public portion]. I am interested in your views on whether public water 
systems or private homeowners should bear the responsibility for lead 
service line replacement?
    Response. Where corrosion control is effective, removal of a lead 
service line may be unnecessary. However, when removal of the line does 
become necessary, EPA believes that removing the entire service line is 
the most prudent approach to assure public health protection. However, 
current legal authorities are limited to requiring water utilities that 
enter into the lead service line replacement phase of the Lead and 
Copper Rule to replace only the portion of the line that is under their 
control. The rule does not, however, preclude a utility from replacing 
the private portion at no expense to the homeowners if they determine 
it is appropriate. Our regulations require a utility to notify property 
owners at least 45 days prior to partial line replacement and to offer 
to the homeowner the opportunity to replace the private portion of the 
line at the same time.
    The decision on who should pay for the private portion of the line 
replacement is a local, legal and policy decision. The Region knows of 
one instance where residents were required to replace their privately 
owned portion of the lead service line; at property owners' own 
expense. Because its source water chemistry poses challenges in 
implementing corrosion control treatment, Madison, Wisconsin began a 
program to replace all of the lead service lines in the city. The local 
government passed an ordinance that requires the property owner to 
replace their privately-owned portion of the service line, at the 
property owner's expense, when the water utility replaces the 
publically owned portion to ensure that all of the lead service lines 
are replaced on an accelerated schedule.
    Question 6. In 1986, lead was discovered in drinking water in the 
Palisades section of Washington, DC. Did anyone here refer to previous 
instances of lead contamination in the District when formulating a 
response plan? If so, please describe how you used this information, 
and if not, why not?
    Response. None of the staff working on this issue in EPA Region III 
were in the drinking water program in 1986. Our records for that time 
period have been archived or destroyed according to EPA records 
management protocols. As a result, current staff had no knowledge of 
the 1986 incidents related to lead in the tap water within the 
Palisades area of the District. The Regional Administrator has asked 
his staff to research this incident to determine if there are any 
lessons to be learned from it.
                                 ______
                                 
  Responses by Donald Welsh to Additional Questions from Senator Crapo

    Question 1. In testimony, you suggested that EPA would like to 
judge more accurately whether public messages are received about the 
risks of lead contamination in drinking water. You alluded to 
professional marketing practices for measuring the effectiveness of 
commercials and other advertisements. What measures such as this have 
you identified?
    Response. At the request of the Regional Administrator, EPA staff 
conducted a review of the education and outreach activities which 
occurred in response to elevated levels of lead in the District's 
drinking water during 2002 and 2003. The report is entitled 
``Recommendations for Improving the Washington DC Water and Sewer 
Authority Lead in Drinking Water Public Education Program.'' It was 
transmitted to WASA on May 6, 2004 and made available to the public 
through our Internet site.
    The review was undertaken to advise the Regional Administrator of 
potential areas for improvement by both WASA and EPA so that our 
agencies may implement the most effective outreach and education 
programs on the important issue of safe drinking water. The report was 
prepared by a team from various offices of EPA with expertise in 
drinking water on technical and regulatory issues, as well as outreach, 
education and risk communication. The report identified several steps 
that WASA can take to move toward more effective public education and 
outreach on the subject of lead in drinking water. In carrying out 
research for this report, we gathered input through interviews 
conducted with District of Columbia residents on their impressions of 
WASA's public education efforts and how best to reach them through a 
revamped education program.
    A major recommendation in this report was that, in addition to 
following mandatory requirements and making use of EPA guidance, WASA 
should hire internal or consultant expertise in the areas of marketing 
research and risk communications. This expertise is needed to help the 
utility in assessing the audience to be reached, making recommendations 
for design and content of materials to be used, as well as delivery 
methods. The authors also suggested that these consultants assist with 
conducting a communications audit, developing a strategic 
communications plan and creating a tracking/measurement tool to assess 
the effectiveness of education efforts. Additionally, use of an outside 
consultant may help at least partially address the trust factor 
mentioned by some of those interviewed.
    These recommendations should be viewed as a key input to WASA's 
continuing efforts to plan and carry out enhancements to drinking water 
education efforts both for regulatory compliance and ``beyond 
compliance'' efforts.
    In order to have a clear path for the future, we requested that 
WASA prepare an Enhanced Public Education Plan in one central document 
to be submitted to EPA by May 21, 2004. We suggested that the Enhanced 
Plan incorporate the input of the report, as well as other 
recommendations that have been made as an outcome of other reviews and 
internal WASA reviews.

    Question 2. What is the status of the Lead Safety DC program, which 
you mentioned in testimony? You described the program as an outgrowth 
of a pilot project in Philadelphia called Lead Safe Babies.
    Response. The Region has created a new program with the National 
Nursing Centers Consortium, called Lead Safe D.C., at an initial cost 
of $100,000, to bring lead education information, home visits and blood 
level testing to District neighborhoods. The consortium is the Nation's 
only network of nurse-managed community healthcare centers, and has 
enjoyed great success with a similar lead information program with EPA 
in the city of Philadelphia.
    The Lead Safe Babies (LSB) pilot served approximately 100 new/
pregnant mothers in North Philadelphia on the issues of lead poisoning 
prevention. The program consisted of an initial home visit where the 
care taker is given a pre-test knowledge questionnaire, and 
clarification and/or additional education is provided regarding lead 
poisoning prevention. The visit includes detailed education about 
preventing lead poisoning; including but not limited to, the importance 
of hand washing, washing toys, house cleaning for lead dust, avoiding 
peeling paint, and good nutrition. When the child is approximately 8 
months old, a second home visit is conducted where a post-test 
knowledge questionnaire is given to determine the knowledge retained by 
the care taker and to encourage initial blood lead testing for the 
child and each year subsequently until their sixth birthday. Due to the 
success of the pilot, another grant was awarded that expanded LSB to 
all of Philadelphia with an emphasis on high risk zip codes.
    In 2002, the LSB program was expanded to five additional counties 
in Pennsylvania and the NNCC conducted an analysis of the effectiveness 
of the LSB program so that the program could be improved and easily 
adopted by community organizations. The analysis of the program showed 
that the average blood lead levels of children in the LSB program were 
much lower than compared to the average blood lead level of children in 
the same census tracts. An analysis of the LSB Program shows that in 
the four participating health care centers, the average LSB blood lead 
level ranged from 3.7 micrograms per deciliter (ug/dL) to 9.5 ug/dL on 
the first test (at approximately 8 months of age) as compared to 
neighborhood averages (neighborhood where the centers are located) of 
16.56 ug/dL to 24.10 ug/dL. The second test is conducted at 2 years of 
age when children are more mobile and are at increased risk for 
exposure to lead. There were only two centers that had enough data from 
the second tests to show results which indicated that there was an 
average of 10 ug/dL to 10.75 ug/dL for LSB program children versus 
14.72 ug/dL to 15.42 ug/dl for the neighborhood.
    To date the LSB program has served over 1,100 at-risk infants. Last 
year, the Centers for Disease Control awarded the city of Philadelphia 
along with NNCC and its member nurse-managed facilities funding to 
continue in home visits to approximately 1250 mothers in the 
Philadelphia area. The LSB materials have also been translated into 
Spanish. We look forward to bringing the program to the District and 
hope to achieve similar levels of success.

    Question 3. You testified to the need for better teamwork if the 
Lead and Copper Rule is to be implemented effectively. Now that your 
agency and the other authorized agencies are working very closely in 
what has become a closely-scrutinized effort, what improvements in 
teamwork have you leanred? Also, how will you change routine procedures 
for working together to implement the Rule after the DC drinking water 
system returns below the action levels?
    Response. We learned that, internally, EPA can improve our 
oversight of the District's water supplies by better utilization of our 
resources and by involving expertise from elsewhere within the Agency. 
This expertise should be tapped even when monitored parameters are 
within acceptable ranges. As mentioned in previous testimony, internal 
procedures in EPA Region III have been changed so that data and 
compliance reports are reviewed and tracked by several technical staff 
rather than one program manager. Education and outreach materials are 
being reviewed by communications and public relations staff members.
    WASA has agreed to share their materials in draft form so that EPA 
can review outreach documents and offer suggestions not only on 
compliance with the regulations, but on clear, concise messages related 
to obtaining the public's attention. My staff have already begun the 
process of gathering input from State agency staff who deal with many 
public water supplies and have decades of experience in monitoring 
normal water supply operation parameters. We have improved our 
coordination and communication on drinking water issues with the 
District Department of Health, WASA, and the Aqueduct, and have 
committed to maintain this closer relationship. We have also learned 
how important it is to get local community groups involved early in any 
issue affecting the general public, whether it is EPA or WASA garnering 
their involvement.
                               __________
 Statement of Jerry N. Johnson, General Manager, District of Columbia 
               Water and Sewer Authority, Washington, DC

    Good afternoon, Chairman Crapo, Ranking Member Graham and other 
members of the Committee. Good afternoon, Chairman Crapo, Ranking 
Member Graham and other members of the Committee.
    Thank you for your invitation to the Authority to provide 
information to the Subcommittee on the exceedance in the District of 
Columbia of the action level under the Lead and Copper Rule.
    I am Jerry N. Johnson, General Manager of the District of Columbia 
Water and Sewer Authority, and I am accompanied by the Authority Chief 
Engineer and Deputy General Manager, Michael Marcotte.
    I know that you have many questions, so I will be very brief. 
Providing high quality services under the Safe Drinking Water Act for 
people who live in, work in and visit this city, has been, and 
continues to be our top priority.

                             WASA'S MISSION

    The Board of Directors only recently updated WASA's Strategic Plan 
for 2003 through 2005.
    WASA's vision of its future is to be the industry leader and 
environmental steward in providing excellent water service and 
wastewater collection and treatment services for all customers.
    The mission of WASA is to serve all it regional customers with 
superior service by operating reliable and cost effective water and 
wastewater services in accordance with best practices.
    Among our values are to be respectful and sensitive to the needs of 
our customers, ethical in professional and personal conduct, and 
committed to equity, trust and integrity in all that we do.
    In facing the current challenge, we pledge every effort to: (1) 
understand the phenomenon of increased levels of lead concentration in 
certain households; (2) allocate the necessary resources and work with 
the District government and our partner agencies to address the 
problem; (3) be candid with the public and with you about the 
information we have and about our plans.

               WASA'S HISTORY, GOVERNANCE, AND OPERATIONS

    The District of Columbia Water and Sewer Authority, or ``WASA'', 
was created as an independent agency of the District of Columbia in 
1996 following an extended period of disinvestments in the critical 
infrastructure serving the District and the diversion of over $80 
million in water and sewer ratepayer enterprise funds for unrelated 
expenditures.
    WASA is an independent, quasi-governmental regional entity that is 
governed by an eleven-member board of directors that is appointed by 
the Mayor of Washington, DC and confirmed by the District of Columbia 
Council. Six of the Board members, including its chairman, are District 
residents chosen by the Mayor. Five members, though named by the Mayor, 
are selected by the county executives from surrounding jurisdictions.
    WASA's Board has fiduciary responsibility for the Authority, which 
has independent bond authority and a ``double A'' bond rating. In 
fiscal year 2003, operating revenues totaled approximately $255 
million. Capital expenditures reached approximately $200 million for 
the year, and are part of a $1.8 billion 10-year capital reinvestment 
infrastructure program.
    WASA provides wastewater treatment services for the District of 
Columbia, and Montgomery and Prince George's Counties in Maryland, as 
well as portions of Loudon and Fairfax Counties in Virginia at Blue 
Plains, the largest advanced wastewater treatment plant in the world. 
WASA also operates the District of Columbia's 1800-mile storm water and 
wastewater collection systems.
    As you know, WASA purchases treated drinking water from the U.S. 
Army Corps of Engineers Washington Aqueduct for delivery through the 
District's 1300 mile distribution system to retail customers in the 
District of Columbia.

          DISTRICT HISTORY IN EXCEEDING THE LEAD & COPPER RULE

    Since 1991 when EPA promulgated the current Lead and Copper Rule, 
the District of Columbia, like other municipalities, routinely tested 
water for lead concentrations in a small number of homes.
    The District of Columbia exceeded the action level in the period 
1993-1994, and WASA's predecessor agency began taking steps to address 
the chemical makeup of the drinking water.
    The Washington Aqueduct implemented a corrosion control regime that 
alleviated the problem of lead leaching in 1994, and lead levels 
remained below the action level for several years. The EPA 
conditionally approved the corrosion control approach in 1997.
    When WASA began its operations in 1997, annual compliance testing 
from 1996 through 2001 indicated that DC did not exceed the action 
level. In fact, in 1999, the EPA offered, and WASA accepted, a reduced 
regular sampling program. As a consequence, the number of samples 
required for compliance monitoring was reduced to 50 households sampled 
annually.

                         THE RECENT EXCEEDANCE

    In May 2002, EPA approved the revised optimum corrosion control 
program.
    In August 2002, WASA provided the official notice to the EPA that 
for the first time since WASA was created, but the second time since 
1993-1994, water in the District exceeded what is now well known, but 
still sometimes misunderstood, the ``action level''.
    The action level is a regulatory trigger of 15 ppb that no more 
than 10 percent of the samples can exceed. The 50 samples taken in the 
District for that compliance period included 23 samples over 15 ppb.
    EPA then requires that a utility take three basic steps until there 
is a reduction in the number of samples that test above 15 ppb to fewer 
than 10 percent of the total: (1) begin a public education campaign to 
inform the public about lead as an environmental contaminant; (2) begin 
a program to replace or test 7 percent of the public section of the 
known inventory of lead service line pipes that take water from the 
public water mains to the individual properties; and (3) undertake 
immediate steps to achieve optimum corrosion control of the treated 
water.

    STEPS TAKEN TO COMPLY WITH THE LEAD AND COPPER RULE (2002-2003)

    WASA is a regulated utility, and it is accountable not only to the 
customers and broader public that we serve, but to the Board of 
Directors, and the Environmental Protection Agency. The District of 
Columbia Council also maintains legislative oversight over WASA.
    I believe the culture of this organization is one that is 
consistent with the mission statement I shared with you earlier. 
Clearly, there are also a number of entities to which we are 
accountable and which share this common interest.
    In this regulated environment, as in all others, every locality is 
in some respects unique. We've worked hard to make sure our regulators 
understand the specific operational challenges we confront. We share 
information, we ask questions, we seek guidance and instruction, and 
then we take what we understand to be appropriate action with the full 
knowledge of the regulator. Again, regulatory compliance is of 
paramount concern. We undertook a serious effort to ensure compliance 
under the Lead and Copper Rule in 2002. As a consequence, in:
    <bullet> August 2002--WASA determined/reports to EPA that action 
level was exceeded;
    <bullet> October 2002--DCWASA/DCDOH jointly release ``Living Lead 
Free in DC;'' Brochure is delivered to customers and editorial 
departments of Washington Post and Washington Times, as required (at 
this time, WASA was not issuing monthly bills);
    <bullet> October 2002--WASA releases Public Service Announcement 
raising awareness and encouraging testing;
    <bullet> June 2003--EPA approves first year of replacement program, 
but changes compliance date from 12/31/03 to 9/30/03;
    <bullet> June 2003--WASA's 2002 Drinking Water Quality Report 
includes information on lead monitoring and exceedance (language 
approved by EPA);
    <bullet> July-October 2003--WASA begins intensive sampling program 
to accompany the first 400 physical replacements undertaken within 
timeframe that was shortened by EPA;
    <bullet> August 2003--``What's on Tap'' Customer Newsletter 
contains focus on lead;
    <bullet> September 2003--Initial program year completed with 1615 
services replaced or cleared by sampling;
    <bullet> September 2003--``An Information Guide on Lead in Drinking 
Water'' developed by WASA and EPA and distributed by WASA in two 
languages (schools, clinics, libraries, ANC Chairs, DCDOH);
    <bullet> September 2003--WASA again releases public service 
announcement encouraging testing;
    <bullet> October 2003--Washington Post advertisement: ``WASA and 
EPA recommend that you have your water tested for lead''; and
    <bullet> December 2003--Meeting held by WASA to discuss projects 
funded by Safe Drinking Water Act, including lead replacement program.

                       OPTIMAL CORROSION CONTROL

    Apart from the gradual replacement program, and the public 
education program, reducing the corrosivity of treated water is a 
principal objective of a water utility once the action level has been 
exceeded. WASA, in conjunction with the Washington Aqueduct and the EPA 
has pursued this goal.
    Optimizing corrosion control in the treatment process has, and 
continues to be the critical next step in addressing this issue.
    I am very pleased to report that there has been measurable progress 
on that front. There is now a draft plan that is being circulated for a 
15-day comment period. Consensus on this draft plan will lead to 
concrete steps that can be taken in the treatment process within the 
next few months and into the fall.

    STEPS TAKEN BEYOND THE REQUIREMENTS OF THE LEAD AND COPPER RULE

    The Water and Sewer Authority, however, went beyond the 
requirements of the regulation, principally by working directly with 
customers. This effort resulted in our responding openly to many 
individual inquiries, but also to our responding to media inquiries, 
requests for participation in community meetings and to participation 
in some of the active community listserves. Specifically, in:
    <bullet> October 2002--Responded to media inquiries on the 
exceedance (Washington City Paper, article, ``The District Line--
Plumbing the Depths'');
    <bullet> October 2002--WASA notifies DCDOH that action level was 
exceeded;
    <bullet> January 2003--Lead Services Hotline begins--providing 
specific information to customers;
    <bullet> February 2003--Written communication to Mayor and all DC 
Council members advising of likelihood of constituent calls that result 
from lead replacements;
    <bullet> March 2003--WASA sends letter of notice of replacement 
program and an invitation to meet and discus with WASA (transportation 
provided) to Advisory Neighborhood Commissioner chairs and civic 
association leaders;
    <bullet> May 2003--WASA holds two community meetings on lead 
replacement program;
    <bullet> November/December 2003--Three neighborhood meetings held 
by DCWASA to discuss replacement program;
    <bullet> December 2003--Meeting held by WASA to discuss projects 
funded by Safe Drinking Water Act, including lead replacement program;
    <bullet> December 2003--Full summary of 2003 test results compiled 
by DCWASA; and
    <bullet> December 2003--WASA requests that DCDOH provide additional 
assistance.
    Starting in April 2003, between 14,000 and 15,000 WASA customers 
were contacted and solicited to participate in the sampling program to 
test the concentration of lead in the water at the tap. Sampling was 
undertaken by volunteers (residents), and no customers were forced to 
participate in the program.
    Initially the customers were contacted by mail. After an initial 
low response, customers were offered a $25 incentive to participate. 
From April 2003 through September 30, 2003, about 3200 customers were 
contacted by telephone. Approximately 11,000 sampling kits were sent to 
customers by Federal Express through September 2003.

   Lead Services Sampling Program 2003--Direct WASA Customer Contacts
                     [Direct WASA Customer Contacts]
------------------------------------------------------------------------

------------------------------------------------------------------------
Sample Letters/No Incentive................................      8,000
Sample Letter/Incentive ($25-$50)..........................      6,000
Phone Solicitation.........................................      3,200*
Sample Kits Shipped by Fed Ex..............................     11,000
Approx. Total Contacted....................................     14,800

   Total Samples..........................................      6,131
------------------------------------------------------------------------
* Partial overlap w/letters.

    By the end of 2003, WASA had also created a customer e-mail 
account, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bec9cfce8c8e8e8dfedaddc9dfcddf90ddd1d3">[email&#160;protected]</a>, for customers to make inquiries and 
express concerns. WASA also implemented extended call center hours in 
September 2003 to include Saturdays.

          MULTIPLE LEAD SERVICES REPLACEMENT PROGRAM INQUIRIES

    On March 4, 2004, the DCWASA Board of Directors announced that it 
has retained a law firm to investigate WASA's management of elevated 
lead level sampling and notification. The investigation will be 
conducted by Covington & Burling, an internationally recognized law 
firm headquartered in Washington, DC. Heading the investigation is 
Covington partner Eric H. Holder, Jr., the former U. S. Attorney for 
the District of Columbia and former Deputy Attorney General of the 
United States. The investigation is expected to be completed and 
results published in the first weeks of May.
    The other inquiries of which we are aware, include the:
    <bullet> U.S. General Accounting Office;
    <bullet> District of Columbia Office of the Inspector General;
    <bullet> District of Columbia Council Committee on Public Works and 
the Environment;
    <bullet> House Committee on Government Reform; and
    <bullet> House Energy and Commerce Subcommittee on Environment and 
Hazardous Materials.
    The Authority continues to believe that it took appropriate steps 
to comply with the Lead and Copper Rule. Our efforts took place as we 
continued our efforts to consult with the Environmental Protection 
Agency and the District of Columbia Department of Health.
    We have, none-the-less, been severely criticized by some public 
official and citizens. We acknowledge this criticism, and it is our 
obligation to listen and to understand.
    We await the outcome of each of these inquiries, and we are 
prepared, speaking on behalf of the management and the Board of 
Directors in this instance, take whatever actions are appropriate.

                     CONTINUING COMMUNITY OUTREACH

    Let me assure you, Mr. Chairman and every other member of this 
committee that with this, as on any other challenge this relatively 
young agency has been confronted with, we seek to learn from the past 
and continually improve our services.
    Building and maintaining public confidence in this vital service 
with which we have been entrusted on a continual basis must be an 
integral part of what we do.
    In the past 10 weeks:
    WASA has shipped filters to every residence that is believed based 
on our records to have a lead service line pipe. This latest step was 
undertaken in conjunction with the Environmental Protection Agency and 
Mayor Anthony Williams.
    WASA will also supply replacement cartridges.
    On Saturday, February 14th, working closely with the District of 
Columbia public schools we tested all of the District's public 
schools--an extra precaution even though we believe the pipes leading 
into the schools are lead free. WASA has trained DC Public School staff 
to conduct another round of public school tests which is underway.
    I recommended and the Board of Directors supported a decision to 
increase the number of lead service pipes in public space that we 
replace this year by more than 500. These physical replacements will be 
at properties with the highest concentrations and where a pregnant 
woman or where a child under the age of six lives.
    The Board approved a resolution and is distributing for public 
comment new steps it may take to address this issue in the long term. 
Two examples include the question of replacing lead service lines in 
public space with a timetable that goes beyond the requirements of the 
EPA's Lead and Copper Rule, and the difficult challenge of financing 
the replacement of service lines in private space.
    The Lead Services Hotline, a program that EPA did not require, was 
initiated in January 2003 to facilitate direct communications with our 
customers. Since February 5, we expanded with more personnel allowing 
us to staff the operation for 12 hours Monday through Friday and for 9 
hours on weekends. Since February 4, 2004 the Hotline received 45,746 
calls, and 6,233 e-mail messages. We have shipped over 19,000 test 
kits.
    A summary of the 2004 Sampling Program results is attached, for 
your information. We have now conducted a total of over 11,000 tests of 
water provided by our customers, and we are processing several thousand 
more results in a much-improved process that minimizes customer 
inconvenience.
    As you may know, Mayor Williams established and co-chairs with the 
DC Council Committee on Public Works and the Environment Chairman, 
Carol Schwartz, an Interagency Task Force. This body has been 
enormously helpful in coordinating the efforts of District agencies in 
response to this challenge.
    We have worked closely with the District of Columbia Emergency 
Management Agency and Department of Health. WASA is, for example, 
providing DC DOH with $1.5 million in expenses for the DOH blood lead-
level testing program and associated activities to improve their data 
processing systems. WASA has budgeted $1.7 million for WASA, DOH and 
other joint outreach/communications initiatives, excluding $1.5 million 
for expanded Lead Services Hotline command center operations.
    WASA is continuing our efforts to communicate effectively with our 
customers and the general public. We continue to update our web site, 
www.dcwasa.com, which is averaging over 1,700 visits daily. Our April 
customer newsletter, What's On Tap, includes information on lead, our 
flushing advice, as well as the annual distribution system citywide 
flushing program. This newsletter is distributed to between 125,00 and 
130,000 customers, and the March and April editions both focus on the 
lead issue.
    Since February, we sponsored about ten joint meetings with the 
Department of Health and the Washington Aqueduct all across the city. 
These meetings have been advertised and nearly 1,000 residents have 
attended these WASA sponsored events. WASA has also participated in 
many civic group meetings to discuss the lead issue.
    In early February, WASA sent over 300,000 letters in English and 
Spanish with information to every address in the District of Columbia. 
This letter included a DOH Fact Sheet, again in Spanish and English, 
general information on the subject of lead in water, as well as 
precautions for potentially affected properties. This letter was mailed 
in a specially printed envelope with a large letter message printed on 
the front (``Please Read: Important Lead Information'').

                        RECENT OUTREACH EFFORTS

    Our work continues as we speak, Mr. Chairman. The last two editions 
of the WASA customer newsletter, ``What's On Tap'' (March and April), 
have also been devoted to this issue.
    WASA is currently contacting by mail the residents that reside in 
homes that are believed served by a lead service line pipe. We are 
providing up to date information on service line pipe flushing. The 
letter also urges those that have not yet had their tap water tested to 
use our testing process at no cost to the individual customer.
    Similarly, we are contacting the residents who live in properties 
for which the WASA customer information system has no record for 
service line pipe material. As you may know, the only way to determine 
the service line pipe material with certainty at this time is to dig it 
up.
    Finally, WASA has also reached a preliminary agreement with the 
George Washington University School of Public Health Department of 
Environmental and Occupational Health to provide the Authority with 
assistance and advice on lead in drinking water issues.

         ADDRESSES WITH NO RECORD OF SERVICE LINE PIPE MATERIAL

    The Authority has been working to more carefully define and fine-
tune our initial inventory of properties that rely upon a lead service 
line pipe. You may know of the Weston Study, undertaken in 1990 by the 
District, and which was used by WASA and EPA to establish the initial 
inventory of addresses with likely lead service line pipes. WASA has 
accelerated efforts to gather all the information available to us on 
addresses that may be served by a lead pipe, but the Weston Study 
provides the only estimate of the overall number of lead service lines 
in the District.
    It is our continuing challenge to refine our information and the 
specific addresses that are most likely among those with lead services.
    There have been media reports that there are as many as 40,000 to 
50,000 addresses with no record of a pipe material. Those numbers are 
greatly exaggerated.
    WASA is now contacting by mail the approximately 21,000 customers 
at addresses for which we have no record of a pipe material. We are 
urging them to use our testing program to sample their tap water, 
recognizing that a number have already been sent test kits. We are also 
urging those residents to take the same precautions as residents with 
known lead service line pipes--following the flushing recommendations.
    WASA is also undertaking some test ``dig-ups'' where test results 
suggest the presence of a lead service line, and we are now developing 
an appropriate plan to provide filters to additional properties that 
are likely relying upon lead services, and we will work with these 
customers and the Task Force in the coming weeks on any related issues.
    On Friday, April 2, 2004, the Board of Directors approved a 
resolution that addresses future WASA policy with respect to the 
replacement of lead service lines, separate and apart from the EPA 
requirements. The Board has planned three community meetings in the 
next few weeks in order to obtain community comment on this topic.
    Earlier I mentioned the number of public meetings we have 
participated in and hosted. Since February, the Board has also 
conducted four media briefings. We appeared at the House Government 
Reform Committee hearing, four DC Council hearings, twice weekly 
Mayoral Press Briefings and three congressional staff briefings. As I 
hope you can see, the Water and Sewer Authority is actively engaged, we 
are continuing to learn, we are sharing information, and working hard 
to openly communicate in an environment that has been especially 
challenging.
    Each one of these appearances is another opportunity to share facts 
and improve public understanding of a fairly complex set of health, 
regulatory, engineering, chemistry and policy issues.
    On behalf of the Authority and its Board of Directors, I wish to 
express our appreciation for this Committee's interest and contribution 
to this effort.
    We will be happy to respond to any questions.
                                 ______
                                 
         Responses by Jerry N. Johnson to Additional Questions 
                         from Senator Jeffords

    Question 1. I have been frequently told by parents--If I had only 
known, I could have taken precautions. I want to ask each of the 
witnesses at the table to tell me how you are responding to this 
question--what explanation are you giving to parents whose children who 
were totally unnecessarily exposed to lead in their drinking water and 
what steps are you taking to regain the trust of the citizens of 
Washington, DC?
    Response. The Water and Sewer Authority's highest priority has been 
and continues to be to ensure that it delivers safe and high quality 
drinking water to residents and visitors to the District of Columbia. 
The Lead and Copper Rule of the Safe Drinking Water Act sets forth, in 
detail, the type and form of information that the EPA deemed 
appropriate to disseminate to the public. WASA followed the guidelines 
of the public education program set forth in the Lead and Copper Rule. 
In February of 2004 it became clear that the proscribed public 
education program did not reach all residents.
    Following is a summary of the type of information we continue to 
share with the public, particularly populations believed to be most 
susceptible to harmful lead exposure.
    In 2002, the results of EPA required annual compliance sample 
testing, indicated that the ``action level''--a regulatory trigger that 
informs water authorities that optimum corrosion control is not being 
achieved--had been exceeded. The data was provided in a timely manner 
to the Environmental Protection Agency as required under the Lead and 
Copper Rule. In fact, the information was provided informally 3 months 
prior to the end of the compliance reporting period. The DC Department 
of Health was also notified. The exceedance of the action level 
indicated that the Water and Sewer Authority should begin:
    <bullet> working with the EPA and the Washington Aqueduct to 
achieve optimum corrosion control (WASA is a customer of the Aqueduct--
buying water for retail distribution to consumers in the District of 
Columbia);
    <bullet> a program of public education about the hazards of 
environmental lead exposure from water and other sources;
    <bullet> a program to replace (or test to clear) 7 percent of the 
lead service line pipes in public space yearly until the action level 
was no longer exceeded, and;
    <bullet> implement an expanded compliance monitoring program.
    WASA worked with the District of Columbia Department of Health to 
develop and widely distribute a brochure that provided information to 
residents about the risks associated with environmental lead exposure, 
including lead concentrations in water. WASA also distributed public 
service announcements and prepared pamphlets in English and Spanish 
providing information to populations at greatest risk, including 
information on flushing, tap water testing, and other information; all 
in accordance with the proscribed EPA public education program. WASA 
conducted several informational meetings throughout 2003 designed to 
increase WASA's outreach.
    In 2004, WASA significantly expanded its outreach program. High-
level managers have attended countless public meetings, answering 
questions and disseminating information. WASA has been working with the 
media (including seeking many corrections) in an attempt to make sure 
correct and helpful information is published. WASA has written and 
submitted for publication articles and letters to the editor.
    WASA has continued its free testing program--any single-family 
residence in the District may have its water tested for lead 
concentrations. WASA has sent letters to all addresses believed to have 
a lead service line, encouraging participation in the sample testing 
program, and alerting them to the flushing procedures. Property owners 
for which we have no information on service line pipe material have 
also been contacted and provided the same information.
    WASA has distributed water filters to residences that we believe 
are likely to have a lead service line pipe. Any residence that 
participates in the sample test program with a test result that exceeds 
15 ppb will be sent a filter. WASA intends to continue its filter 
program until at least next spring.
    WASA has retained and is working with a national expert on 
corrosion control. WASA has participated in the Aqueduct's planning for 
a treatment approach to reduce the corrosivity of the water.
    Also in 2004, out of an abundance of caution, and before the blood 
level testing had yielded significant data, the Department of Health 
advised pregnant or nursing women and children under six with a lead 
service line to avoid drinking unfiltered water. The District of 
Columbia Department of Health has conducted over 5000 blood level 
tests, including over 1,500 tests of the targeted population. Thus far, 
the test results indicate that there has been no general increase in 
elevated blood levels in the population. Also, for those households 
that have undergone environmental assessments where a very limited 
number of individuals have been found to have registered elevated blood 
lead levels, other significant environmental exposures (paint and dust) 
exist.
    Consistent with Department of Health findings and conclusions 
announced to date, Dr. Tee Guidotti, Professor and Chair of the 
Department of Environmental and Occupational Health, School of Public 
Health and Health Services, and Director, Division of Occupational 
Medicine and Toxicology School of Medicine and Health Sciences, The 
George Washington University Medical Center, has advised the Water and 
Sewer Authority that children who already have a body burden of, BPb 
>10  g/dL are most susceptible to harm from heightened levels of lead. 
Dr. Guidotti has also indicated that:
    <bullet> Drinking water is at most a minor source of lead for 
children (seven percent of total exposure for toddlers, children aged 2 
years);
    <bullet> Concentration in water does not translate directly in BPb;
    <bullet> EPA's Integrated Exposure Uptake and BioKinetic Model 
predicted that BPb in infants exceeded 10  g/dL only when 100 percent 
of water consumed contained 100 ppb on a sustained basis; and
    <bullet> A discernable effect on BPb of children requires at least 
sustained levels of 300 ppb.
    WASA is moving forward with its lead line replacement program. By 
September 30, 2004, WASA will have physically replaced over 1,600 lead 
service line pipes in public space in the District. WASA's Board of 
Directors is considering a plan to increase the pace of the service 
line replacement--more than doubling the amount that will be replaced 
yearly.

    Question 2. I am pleased that WASA has hired a George Washington 
University toxicology team to advise the agency. Does this team contain 
anyone with pediatric experience on this team or anyone with risk 
communication experience and if not, why not? Will this group be a 
permanent part of WASA and what role with this group play in your day-
to-day operations?
    Response. Dr. Tee Guidotti is the Co-Director of the Mid-Atlantic 
Center for Children's Health and the Environment, a pediatric 
environmental health specialty unit. The team of professionals working 
with WASA from the George Washington University team also includes 
individuals with experience in risk communication. Members of the team 
participate in weekly meetings with WASA executive management. They 
also participate in select community and interagency meetings involving 
the local and Federal Government officials. The partnership with the 
University is on a contractual basis, and the Board of Director's has 
not yet determined that a permanent engagement is required.

    Question 3. WASA recently undertook a program to replace aging 
water meters. Can you describe this program for me, indicate if you 
installed lead-free water meters, and indicate if WASA uses lead-free 
parts when replacing parts throughout its system? In addition, have you 
cross-referenced your data for those homes with high lead levels and 
those that have received a new meter, and if so, what are your 
conclusions?
    Response. The meter replacement program installations total 110,047 
of 124,298 meters through March 2004. The meters are certified lead 
free by the manufacturer, consistent with EPA requirements. Any contact 
with the service line during the installation would be unusual. The 
installation of the meters does not require direct contact with the 
service line pipe because the old meters are removed from and the new 
meters are placed on a parabola-shaped meter ``setter'' that ties into 
either end of the service line pipe. Also, the fact that ten of the 25 
compliance samples taken in the first half of the compliance year 2001-
2002 exceeded 15 ppb clearly indicates that the meter replacement 
program is not related to the exceedance because this sampling was 
completed about 6 months before the meter replacement program began.

    Question 4. I know people who have homes with elevated lead levels, 
but not above 15 parts per billion. I know people who have homes with 
elevated lead levels well above 15 parts per billion who are not on 
your inventory of ``known lead service lines.'' Given what we know 
about the harmful effects of lead, what is WASA and the DC Department 
of Health doing to help those residents take appropriate health 
precautions?
    Response. The EPA has indicated that 15 ppb is not a maximum 
contaminant level (MCL) indicating the highest level of an contaminant 
that is allowed in drinking water, nor is it a maximum contaminant 
level goal (MCLG), the level of a contaminant in water below which 
there is no known or expected risk to health. Rather, it is a an 
``action level''. An action level is a concentration of a contaminant 
that, if exceeded, triggers actions a water system must undertake.
    Sample test results that exceed 15 ppb do not indicate that a 
service line pipe is necessarily made of lead, just as a test result 
that is below 15 ppb does not necessarily mean that a service line pipe 
is made of a non-lead material. WASA continues to work to provide 
accurate information, address public concern and to correct 
misinformation. For example:
    <bullet> Any resident who is concerned about lead water 
concentrations is encouraged to use a flushing protocol, and this 
information has been repeated on a monthly basis in the customer 
newsletters, frequent media briefings, and dozens of community 
meetings, hearings, and community newspaper ads.
    <bullet> Pregnant and nursing women and children under six have 
been advised to avoid drinking unfiltered water if they have reason to 
believe that they may have a lead service line.
    <bullet> WASA has directly and strongly encouraged households with 
a lead service line to participate in the sampling program.
    <bullet> Residences for which we have no record of a pipe material 
have been contacted directly, and encouraged to participate in the 
sampling program.
    <bullet> Despite the fact that 15 ppb is not a health standard, 
WASA is providing a filter and replacement cartridges to any residence 
that participates in the sampling program and tests above 15 ppb.
    <bullet> WASA has participated in over 24 community meetings.
    <bullet> WASA continues to share information with the public by 
seeking major electronic media interviews.

    Question 5. Under current regulations, public water systems are 
only responsible for replacing the portion of lead service lines in 
public ownership. In replacing lead service lines, is WASA moving the 
location of the meter, and if so, how is this affecting the length of 
the service line that you are replacing and the associated costs?
    Response. WASA is responsible for the maintenance, and replacement 
as necessary, of a service line pipe in public space. WASA is not 
routinely moving water meters as a part of the physical replacement of 
lead service line pipes, and the position of a meter does not affect 
our responsibility for maintaining the service line pipe that rests in 
public space.
    Occasionally, while undertaking other work, WASA determines that a 
meter is located in private space and some distance away from the 
property line. WASA repositions such meters from a private yard to an 
area closer to the property line (usually the sidewalk or ``tree box'') 
because it is a sound business practice and a matter of efficiency. 
This action helps avoid any potential conflict with a homeowner with 
respect to determining responsibility for any water usage (leaks) that 
occur on private property, regardless of the location of the meter. 
Repositioning the meter, when necessary, also allows WASA to conduct 
routine maintenance without entering private property.
    Through 2003, WASA's physical replacement program resulted in the 
removal of a lead service line pipe in public space, specifically from 
the water main in the street to the property line as is consistent with 
Federal and local requirements. However, recently WASA has replaced 
approximately 400 service lines from the water main up to the next 
threaded joint. This practice was adopted in conjunction with the 
Department of Health and the EPA, based on the known likelihood of a 
temporary spike in lead concentrations in tap water following the 
cutting and reattachment of an existing lead pipe at the property line 
and its reattachment to a copper pipe in public space. In order to 
avoid creating this temporary spike, WASA, pending a new finding by the 
Department of Health, will replace a service line from the water main 
to the next threaded joint, regardless of the placement of the meter.

    Question 6. In your cooperation with the other municipalities you 
serve or during the Washington Aqueduct Wholesale Customer Board 
Meetings, did you ever discuss with or notify those communities of the 
results of your lead testing?
    Response. The Water and Sewer Authority is the retail distributor 
of water to residents of the District of Columbia. WASA does not 
provide retail water services to suburban jurisdictions. The suburban 
jurisdictions, like WASA, are direct wholesale customers of the 
Washington Aqueduct. In the fall of 2002, following the trigger of the 
action level, there were discussions with EPA and the Aqueduct 
regarding a study of the optimal corrosion control methodology and why 
it was no longer being achieved.

    Question 7. Several weeks ago, I notified the EPA that several 
residents of the District had received inaccurate testing instructions 
from WASA. It seems to me that incorrect testing instructions could 
invalidate the entire sampling plan that WASA had in place before the 
lead was identified and the entire sampling plan that is ongoing to 
further evaluate the severity of the lead crisis in DC. Can each of you 
comment on your assessment of the importance of providing residents 
with accurate testing instructions and a description of how you have 
corrected this problem?
    Response. Clearly, it is important to provide clear instructions to 
ensure adherence to any testing protocol. The Lead and Copper Rule does 
not, and prior to your inquiry EPA did not provide specific direction 
with respect to the protocol or the instructions for the non-compliance 
sampling program. Because this is an important issue, WASA has modified 
these instructions in response to questions or concerns, including 
concerns expressed by non-compliance sampling program participants, in 
order to make them clearer and more understandable.
    Specifically, we have modified in conjunction with the EPA the 
instruction that you believe may have caused confusion has been 
modified. Participants who received that instruction sheet have been 
asked to submit new samples.
    With respect to the validity of the compliance sample tests, the 
instruction item about which your office inquired is relevant only to 
the second draw sample that is part of the free sampling program 
offered to District residents. It was not pertinent to the Lead and 
Copper Rule compliance sampling program in effect prior to or following 
the District's exceedance of the action level.
    In the current compliance year, the test results have been used to 
help determine the potential need to take steps to limit potential 
exposure. For example, any residence with a test result that exceeds 
the regulatory action level of 15 ppb receives a water filter and 
replacement cartridges.

    Question 8. Can you describe exactly why you believe that lead 
contamination in drinking water in apartment buildings is not a problem 
and what evidence you have to support that claim?
    Response. WASA's policy is to replace service lines for multi-
family units that are known to be lead as a high priority. However, 
WASA's best information is that larger multi-family properties are 
served by service line pipes that exceed 2 inches in diameter. Lead 
pipes are very malleable but have very thick-walled cylinders with 
small diameter interiors, and are therefore, a poor choice for uses 
that require the deliver of large amounts of water to a large multi-
family dwelling or commercial property.
    The principal concern for larger properties (those bigger than a 
single-family sized dwelling) are the internal plumbing components 
(lead solder in the plumbing or brass fixtures). WASA proposed a test 
plan to EPA that will test these assumptions. EPA approved the plan and 
WASA has begun implementation of the test plan.
    WASA discourages individual tenants from seeking to participate in 
the sampling program, but encourages owners or managers of multi-family 
units to have their water tested. When an investigation (CIS, Lead 
Information System, as-built plans or direct observation) indicates 
that the line is likely lead or was unknown, additional steps are 
taken. EPA protocols for water sample testing in such facilities are 
not the same as those for water utilities under the Lead and Copper 
Rule. However, WASA will provide a limited number of sample test kits 
in coordination with a building owner or property manager.

    Question 9. How is the Action Plan being made available to the 
public?
    Response. WASA has held 12 community meetings since February, and 
participated in as many civic, ANC and other community group meetings. 
The District of Columbia Department of Health and the Washington 
Aqueduct are usually also represented. WASA also attends Mayor Anthony 
Williams' press briefings that have routinely occurred twice weekly. 
The steps WASA is taking on the lead services program have also been 
noted in the General Manager's Monthly Report to the Board of Directors 
and Water and Sewer Authority press notices. Information is routinely 
updated on the Authority web site www.dcwasa.com. The lead services 
program is routinely on the agendas of the monthly meetings of the 
Board of Directors and the Board committee meetings, including 
operations, finance and budget and customer. These meetings are open to 
the public (calendars and agendas are published). WASA has issued 
public service announcements, and is preparing ads for publication in 
local community newspapers.

    Question 10. I know people who live on Capitol Hill in houses with 
elevated lead level, but not above 15 parts-per-billion. The 15 parts 
per billion is not a health-based standard. Are you providing filters 
to those homes with lead service lines with test results below 15, but 
above zero, and if not, why not?
    Response. WASA is not providing filters to residences with sample 
test results that do exceed 15 ppb. As you may know, lead 
concentrations below 2 ppb are not easily measured (non-detectable), 
and as you state, 15 ppb is a regulatory trigger, not a health 
standard. Fifteen (15) ppb is, therefore, not directly tied to a 
specific measure of exposure that is linked directly to health risk. 
Also, the second draw service line concentrations suggested in sample 
test results may not easily extrapolate into sustained rates of 
exposure noted by some public health experts when discussing risks of 
environmental lead exposure.
    WASA is providing a filter and replacement cartridges to sample 
program participants whose tap water sample tests exceed 15 ppb out of 
an abundance of caution and an effort to address public concerns.

    Question 11. I understand that you are also not providing filters 
to those residents whose homes have tested high for lead that are not 
in your data base of homes with a confirmed lead service line. Are you 
providing filters to those homes that are outside of this data base but 
have tested high for lead?
    Response. WASA is providing water filters and replacement 
cartridges to residences that participate in the sampling program whose 
test results exceed 15 ppb, regardless of the service line pipe 
material composition.

    Question 12. I understand that there is a lack of certainty about 
whether or not about 37,000 service lines are lead or not. What are you 
doing to eliminate this uncertainty and what are you doing to ensure 
that those residents take appropriate health precautions?
    Response. The 37,000 estimate reported in the media is inaccurate. 
WASA has no information on service line pipe material for approximately 
21,000 addresses. Based on experience gained from test pits and 
physical public space replacements that allowed actual physical 
observation of service line pipes in 2003, the initial inventory, based 
principally on the Weston Report, of likely lead service lines is 
accurate approximately 80 percent of the time (generally, of 100 
service lines identified as lead, 80 of the service lines are actually 
made of lead.) WASA does have other sources of information that provide 
some data on pipe material. The WASA customer information system 
includes a record of pipe material on most but not all of the customer 
accounts. This information, again based upon actual physical 
observation following an excavation, is accurate about 60 percent of 
the time.
    At this time, the only means of identifying service line pipe 
material with certainty remains direct observation. A WASA consultant 
is currently working to develop a technology that will permit WASA to 
more accurately identify/confirm service line pipe material without an 
excavation. This technology is being field tested over the next 6-12 
months. WASA is also investigating other approaches to help identify 
service line pipe material more efficiently.
    WASA has mailed letters to each of the properties for which we have 
no information on service line pipe material. Eve though we expect that 
a very small proportion of these addresses actually have lead service 
line pipes, we have provided to them the same precautionary information 
provided to residences with a lead service line. The letters invited 
these residences to participate in the water lead sampling program 
(post card requesting UPS delivery of the test kit). These residences 
will be sent a filter and replacement cartridges if test results exceed 
15 ppb.

    Question 13. Can you describe the progress WASA has made sending 
out water filters to lead-affected homes? How effective does WASA judge 
these filters to actually be in controlling lead exposure for its 
customers?
    Response. WASA completed the major program to distribute filters to 
all households believed to have a lead service line on April 6, 2004. 
About 300 of the filters could not be delivered despite a requirement 
that UPS attempt three deliveries at each address and obtain a 
signature receipt. Filter and replacement cartridge distribution 
continue consistent with a distribution plan already discussed.
    WASA provides filters that are certified by the National Sanitation 
Foundation to adequately address lead water concentrations of 150 ppb, 
as noted in the manufacturers' information accompanying the filters. 
WASA has provided additional instructions with the filters that 
reiterate the flushing instructions to which the Department of Health 
and the Environmental Protection Agency have agreed. The filters 
together with the proscribed flushing instructions that WASA includes 
in the packaging with the filters substantially reduce lead level 
concentrations.

    Question 14. One of the issues here is who bears the responsibility 
to replace lead service lines. Under current regulations, the homeowner 
bears the responsibility for the lead service lines between the meter 
and the house. This troubles me because it does not seem appropriate 
for the ability to pay for this pipe replacement to be the determining 
factor in who gets lead-free water. In addition, I know that the city 
bore some responsibility in knowingly selecting leaded pipes--I would 
like to submit Washington Post stories from 1893 and 1895 discussing 
the concerns over lead pipes and their impact on public health. It 
appears that over 100 years ago this city knew of the danger and 
continued to use lead pipes. I am interested in your views on whether 
public water systems or private homeowners should bear the 
responsibility for lead service line replacement?
    Response. WASA did not exist before 1996, and although its 
immediate predecessor, WASUA, was responsible for water distribution 
for many years, the division of responsibility between Federal and 
local authorities for this function has evolved over time.
    Today, WASA is responsible for maintaining the portion of a service 
line pipe that rests in public space. The Lead and Copper Rule requires 
that WASA replace only the portion of the service line pipe that rests 
in public space (specifically addressed in relatively recent local 
law). It is important to remember, however, that it is a property owner 
that constructs the water service line pipe that must pass through 
public space in order to tie a private residence to a public water 
main. There are local jurisdictions in the United States that do not 
require that the local public water utility exercise responsibility for 
this privately constructed and financed component of the infrastructure 
that serves only an individual property.
    WASA is an independent agency of the District of Columbia. The 
Mayor and Council of the District of Columbia exercise legislative 
oversight of the District of Columbia Water and Sewer Authority, and 
have established a very clear policy in this matter. Legislation 
recently introduced by District Council member Harold Brazil, would if 
approved, provide governmental assistance (general fund) to some 
homeowners in replacing lead service line pipes that rest on private 
property. The legislation includes income eligibility criteria that 
suggest that questions of equity in the allocation of public resources 
may be relevant to the discussion.
    With respect to the Lead and Copper Rule, careful and complete 
implementation of its provisions, regardless of whether the action 
level has been exceeded, will not guarantee lead free tap water. Full 
compliance with the provisions of the rule, regardless of whether the 
action level has been exceeded, should prompt a water system to seek 
and maintain optimum corrosion control treatment, or ``OCCT.'' OCCT is 
intended to minimize corrosion, and subsequent leaching into tap water 
from any pipe material.

    Question 15. In 1986, lead was discovered in drinking water in the 
Palisades section of Washington, DC. Residents were quoted as saying, 
``The runaround has been unbelievable. . . . No one in the bureaucracy 
has even begun to take this seriously.'' The Director of water for the 
city stated that it was, ``. . . premature to contact residents 
throughout the city'' before the city developed a plan to handle and 
finance increased testing. I ask unanimous consent to insert several 
newspaper articles on this topic into the record. I find it 
unbelievable that no one at this witness table learned anything from 
this previous experience. Did anyone here refer to previous instances 
of lead contamination in the District when formulating a response plan? 
If so, please describe how you used this information, and if not, why 
not?
    Response. After the fact, WASA management was aware of the issues 
that arose in 1986 (WASA did not exist until 1996.)
    In 2002, the Water and Sewer Authority and the EPA determined that 
for the compliance period that ended in 2002, the data from the 
compliance samples indicated that the ``action level''--a regulatory 
trigger that optimum corrosion control is not being achieved--had been 
exceeded. The data was provided in a timely manner to the Environmental 
Protection Agency as required under the Lead and Copper Rule. The DC 
Department of Health was also notified. The material provisions of the 
regulation, and the response by the EPA and local public health 
authorities did not indicate that the steps WASA had taken in 
implementing a lead services program under the Lead and Copper Rule 
were inappropriate. Specifically, the exceedance of the action level 
indicated that the Water and Sewer Authority should begin:
    <bullet> working with the EPA and the Washington Aqueduct to 
achieve optimum corrosion control;
    <bullet> a program of public education about the hazards of 
environmental lead exposure from water and other sources;
    <bullet> a program to replace (or test to clear) 7 percent of the 
lead service line pipes in public space yearly until the action level 
was no longer exceeded.
    Since January 2004, WASA's public education efforts have vastly 
expanded, but the newspaper articles to which you refer suggest that 
WASA's response to the exceedance in 2003 was very aggressive relative 
to those efforts undertaken in 1986. WASA's response was also 
undertaken in a different environment (OCCT plan approved by EPA in 
2002). The public education materials were shared with regulators in 
advance of publication, and in one instance, Living Lead Free In DC, 
was prepared in collaboration with the District Department of Health. 
WASA also, for example, responded to media inquiries (Washington City 
Paper, 10/18-24/2004), published a newspaper ad, participated in 
community meetings, and contacted several thousand residents by mail to 
solicit their participation in an expanded sampling program.

    Question 16. During the hearing, you mentioned that residents who 
receive filters would be provided with a 6-month supply. How many 
replacement filters does that include and what is the average cost of a 
6-month supply?
    Response. Two filter cartridges provide a 6-month supply (in excess 
of 80 gallons). The cost for two filter cartridges, including shipping, 
is approximately $22.

    Question 17. What priority system is WASA using to determine which 
homes will have lead service lines replaced first, and does that give 
consideration to the presence or absence of vulnerable populations such 
as pregnant women, infants, and children?
    Response. The physical replacement schedule of addresses in 2004 
was established in calendar 2003, and was based upon the initial 
inventory of lead service line pipes submitted to EPA. The sample data 
collected in 2003 had not been analyzed when the schedule for 
replacements in 2004 was developed. Among the important factors the 
Authority considered included the number of services per block in order 
to maximize the number of replacements that could be undertaken while 
causing as little disruption of residential traffic and parking 
patterns as possible.
    WASA has made provision for 500 ``priority'' physical replacements 
in 2004. These priority replacements of lead service line pipes in 
public space will target day care centers, residences with people 
having elevated blood lead levels, and also be based on the presence in 
a household of a member of the at risk populations (children under the 
age of six and women who are pregnant or nursing). This schedule of 
replacements will be selected in coordination with the Department of 
Health.

    Question 18. What priority system is WASA using to determine which 
homes will receive filters, and does that give consideration to the 
presence of absence of vulnerable populations such as pregnant women, 
infants, and children?
    Response. WASA is providing a filter and replacement cartridges to 
sample program participants whose tap water sample tests exceed 15 ppb 
out of an abundance of caution and an effort to address public 
concerns. Recall that the action level of 15 ppb is not directly tied 
to a specific measure of exposure that is linked directly to health 
risk. Also, the second draw service line concentrations suggested in 
sample test results may not easily extrapolate into sustained rates of 
exposure noted by some public health experts when discussing risks of 
environmental lead exposure.

    Question 19. What is the status of your water filter distribution? 
Have all 23,000 homes believed to have lead service lines received 
them? If not, when will all 23,000 homes receive them?
    Response. WASA completed distribution of filters to residences 
identified as likely having a lead service line pipe, and will provide 
replacement cartridges through next spring. WASA is also providing 
water filters and replacement cartridges to residences that participate 
in the sampling program whose test results exceed 15 ppb, regardless of 
the service line pipe material composition or the presence of a member 
of the target population.

    Question 20. How many of the homes tested that are not part of the 
23,000 homes with known lead service lines have tested above 15 parts 
per billion for lead?
    Response. For calendar 2004 through April 24, 10,526 property 
owners participated in the sample program. Of these, 7,266 of the 
addresses were identified as having a material other than lead. As you 
may know, the second draw sample is intended to capture the sample from 
water that has rested in the service line pipe for over 6 hours. Of 
these non-lead second draw samples:
    <bullet> 6,238 tested 0-15 ppb;
    <bullet> 642 samples tested >15-50 ppb;
    <bullet> 264 samples tested >50-100 ppb;
    <bullet> 85 samples tested >100-150 ppb;
    <bullet> 37 samples tested over 150 ppb.

    Question 21. During lead service line replacement, I understand 
that WASA is offering to also replace the homeowner's section of the 
lead service line at the homeowner's cost. One of the major benefits of 
this approach is that the entire lead service line is replaced AT THE 
SAME TIME. If a homeowner chooses to pay to have their portion of the 
lead service line replaced by WASA during replacement of the rest of 
the lead service line, are both portions replaced simultaneously? If 
not, why not, and how long are homeowners being asked to wait? Have you 
evaluated any health effects of not replacing them simultaneously given 
that it is commonly believed that replacing portions of lead service 
lines can actually increase lead levels for at least a short period of 
time?
    Response. If a homeowner chooses to pay for replacing the private 
side replacement (inclusive of responding to WASA's initial inquiry, 
acceptance of a contractor's estimate, entering into a contract within 
necessary timeframes) both portions are replaced simultaneously.
    The practice of cutting a lead service line in order to reattach it 
to copper pipe during the replacement of a lead service line pipe in 
public space is understood to result in temporarily elevated lead 
concentrations in tap water. Those elevated concentrations are 
understood to fall very dramatically following high water usage in the 
context of a proscribed program of customer flushing that follows the 
physical replacement. WASA relies upon the guidance of the EPA and the 
District of Columbia Department of Health with respect to the 
determination of any health effects, and we have suspended the practice 
of cutting lead pipes pending a determination from DOH.
                                 ______
                                 
  Response by Jerry Johnson to Additional Question from Senator Crapo

    Question. What training in risk communication have you implemented, 
and does it include the CD-based program available from the Centers for 
Disease Control called, CDCynergy: Emergency Risk Communication?
    You testified to the need for better teamwork if the Lead and 
Copper Rule is to be implemented effectively. Now that your agency and 
the other authorized agencies are working very closely in what has 
become a closely scrutinized effort, what improvements in teamwork have 
you learned? Also, how will you change routine procedures for working 
together to implement the Rule after the DC drinking water system 
returns below the Action Level?
    Response. WASA has not used the CD-based program, CDCynergy: 
Emergency Risk Communication.
    WASA has employed for a number of years Beverly Silverberg 
Communications, Inc. which has provided advice and training in crisis 
communications. WASA has also obtained the services of a team headed by 
Dr. Tee Guidotti, Professor and Chair of the Department of 
Environmental and Occupational Health, School of Public Health and 
Health Services, and Director, Division of Occupational Medicine and 
Toxicology School of Medicine and Health Sciences, the George 
Washington University Medical Center. Dr. Guidotti is also the Co-
Director of the Mid-Atlantic Center for Children's Health and the 
Environment, a pediatric environmental health specialty unit. The team 
of professionals working with WASA from the George Washington 
University also includes individuals with experience in risk 
communication.
    The audit being undertaken by EPA and other inquiries that are 
currently underway will provide important information with respect to 
improving communication and coordination among relevant agencies. One 
conclusion that we believe we share with EPA even at this relatively 
early stage is that both the relatively routine communications on this 
issue that have been relatively frequent but informal are made more 
structured and formal.

                               __________

  Statement of Daniel R. Lucey, Interim Chief Medical Health Officer, 
               District of Columbia Department of Health

    Good afternoon. My name is Daniel R. Lucey, MD, and I am the 
Interim Chief Medical Officer for the DC Department of Health. In the 
next 5 minutes, prior to responding to your questions, I would like to 
summarize my background and list several key points about the lead 
issues in Washington, DC.
    I am a physician trained in adult medicine and infectious diseases 
with a Masters degree in Public Health. After serving in the military 
as a physician I joined the U.S. Public Health Service while working at 
the National Institutes of Health and the Food and Drug Administration. 
During 9/11 and the subsequent anthrax attacks I was the Chairman of 
the Infectious Disease Service at the Washington Hospital Center in DC. 
In 2002 I was involved with the smallpox vaccination program, in 2003 
with SARS (traveling to Hong Kong and mainland China, and working in a 
hospital in Toronto), and in 2004 with avian influenza.
    On February 10, 2004 I began work at the DC Department of Health 
(DOH) with a focus on biodefense. On February 13th I attended a Lead 
Task Force meeting. Every day since then I have worked on lead issues. 
Although not a lead expert, I have approached learning about the lead 
issues through an intensive process, much like learning about other 
previously unfamiliar diseases such as anthrax, SARS, and avian 
influenza.
    On February 16th, I contacted the Director of the Centers for 
Disease Control and Prevention (CDC), Dr. Julie Gerberding, to request 
advice from lead experts at the CDC. Her response was immediate and 
outstanding. CDC assistance has been ongoing since that time.
    On February 26th, the City Administrator, Mr. Robert Bobb, 
instructed me to direct the Department of Health response to lead 
issues. Later that day I completed and signed a Health Advisory letter 
from the Department of Health to the approximately 23,000 residences in 
DC with lead service lines. (Attachment 1) The advisory contained 
recommendations about drinking water and measuring blood lead levels in 
persons most at risk for lead poisoning in order to assess the health 
impact of increased lead in the water. To our knowledge, no such 
widespread health advisory on lead in drinking water has ever been 
issued in the United States. Our findings may be useful to other cities 
that find increased lead concentrations in their drinking water.
    In order to provide blood lead level testing by the Department of 
Health, starting on February 28th at DC General Hospital, we mobilized 
many persons in the Department of Health. In addition, on March 1st, I 
contacted the U.S. Surgeon General, Dr. Carmona, to request personnel 
assistance. He responded immediately, and via Admiral Babb and the 
Commissioned Corps Readiness Force (CCRF), provided a team of Public 
Health Service officers over the next 4 weeks who worked long hours 
with us in clinics across DC. They also went to several hundred homes 
of persons at high risk of lead poisoning. On March 30th the DC DOH, 
CCRF and CDC published our preliminary results on blood lead levels in 
the CDC's Morbidity and Mortality Weekly Report (MMWR).
    To summarize key points:
    1. None of the 201 persons we tested who live in homes with the 
highest measured levels of lead in the drinking water (i.e. > 300 parts 
per billion (ppb)) had elevated blood lead levels. (Attachment 2 MMWR 
March 30, 2004).
    2. From 2000-2003 the percentage of children less than 6 years of 
age with elevated blood lead levels (* 10 mcg/dl) continued to decline 
in DC both in homes with and without lead service lines. The percent of 
children with blood lead levels * 5 mcg/dl did not decline in homes 
with lead service lines, although this percent did decline in homes 
without lead service lines. (Attachment 2 MMWR March 30, 2004).
    3. Only 2 of the initial 280 children in home childcare facilities 
with lead service lines had elevated blood lead levels (Attachment 3).
    4. Of the initial 4,106 persons who came to our clinics across DC 
for free blood lead level testing in our laboratory, 1,277 were young 
children < 6 years old, of whom 16 had elevated blood levels. The 
initial 14 children have been found to live in homes with dust and/or 
soil lead levels exceeding EPA/HUD guidelines. The homes of the other 2 
children are currently being evaluated. (Attachment 4).
    5. According to the CDC, from 1976-1980, nearly 9 of 10 (88.2 
percent) children 1-5 years old (adults now 24-28 years old) in the USA 
had blood lead levels that today are considered elevated, namely at 
least 10 micrograms/ deciliter (``* 10  g/dl''). (Attachment 5).
    6. The EPA ``action level'' for lead in drinking water of 15 parts 
per billion (or 0.015 mg/Liter) is not a health-based recommendation. 
According to the EPA:

          ``This action level was not designed to measure health risks 
        from water represented by individual samples. Rather, it is a 
        statistical trigger that, if exceeded, requires more treatment, 
        public education and possibly lead service line replacement''

(Attachment 6).
    Thank you for your time and I will be pleased to respond to your 
questions.

[GRAPHIC] [TIFF OMITTED] T4604.101

[GRAPHIC] [TIFF OMITTED] T4604.102

[GRAPHIC] [TIFF OMITTED] T4604.103

[GRAPHIC] [TIFF OMITTED] T4604.104

[GRAPHIC] [TIFF OMITTED] T4604.105

[GRAPHIC] [TIFF OMITTED] T4604.106

[GRAPHIC] [TIFF OMITTED] T4604.107

[GRAPHIC] [TIFF OMITTED] T4604.108

[GRAPHIC] [TIFF OMITTED] T4604.109

[GRAPHIC] [TIFF OMITTED] T4604.110

[GRAPHIC] [TIFF OMITTED] T4604.111

[GRAPHIC] [TIFF OMITTED] T4604.112

[GRAPHIC] [TIFF OMITTED] T4604.113

[GRAPHIC] [TIFF OMITTED] T4604.114

[GRAPHIC] [TIFF OMITTED] T4604.115

[GRAPHIC] [TIFF OMITTED] T4604.116

[GRAPHIC] [TIFF OMITTED] T4604.117

[GRAPHIC] [TIFF OMITTED] T4604.118

[GRAPHIC] [TIFF OMITTED] T4604.119

[GRAPHIC] [TIFF OMITTED] T4604.120

[GRAPHIC] [TIFF OMITTED] T4604.121

[GRAPHIC] [TIFF OMITTED] T4604.122

[GRAPHIC] [TIFF OMITTED] T4604.123

[GRAPHIC] [TIFF OMITTED] T4604.124

[GRAPHIC] [TIFF OMITTED] T4604.125

[GRAPHIC] [TIFF OMITTED] T4604.126

[GRAPHIC] [TIFF OMITTED] T4604.127

[GRAPHIC] [TIFF OMITTED] T4604.128

[GRAPHIC] [TIFF OMITTED] T4604.129

[GRAPHIC] [TIFF OMITTED] T4604.130

[GRAPHIC] [TIFF OMITTED] T4604.131

[GRAPHIC] [TIFF OMITTED] T4604.132

[GRAPHIC] [TIFF OMITTED] T4604.133

[GRAPHIC] [TIFF OMITTED] T4604.134

[GRAPHIC] [TIFF OMITTED] T4604.135

[GRAPHIC] [TIFF OMITTED] T4604.136

[GRAPHIC] [TIFF OMITTED] T4604.137

[GRAPHIC] [TIFF OMITTED] T4604.138

[GRAPHIC] [TIFF OMITTED] T4604.139

[GRAPHIC] [TIFF OMITTED] T4604.140

[GRAPHIC] [TIFF OMITTED] T4604.141

[GRAPHIC] [TIFF OMITTED] T4604.142

[GRAPHIC] [TIFF OMITTED] T4604.143

[GRAPHIC] [TIFF OMITTED] T4604.144

[GRAPHIC] [TIFF OMITTED] T4604.145

[GRAPHIC] [TIFF OMITTED] T4604.146

[GRAPHIC] [TIFF OMITTED] T4604.147

         Responses by Daniel R. Lucey to Additional Questions 
                         from Senator Jeffords

    Question 1. I have been frequently told by parents--If I 
had only known, I could have taken precautions. I want to ask 
each of the witnesses at the table to tell me how you are 
responding to this questions--what explanation are you giving 
to parents whose children were totally unnecessarily exposed to 
lead in their drinking water and what steps are you taking to 
regain the trust of the citizens of Washington, DC?
    Response. Yes, I have been asked the same questions at many 
of the DC-wide community meetings in which the Department of 
Health has participated. Since I only started working at the DC 
Department of Health on February 10, 2004, I cannot explain 
much of what happened in the Department of Health before that 
time, and I do not try to do so. Once I was designated on 
February 26th by the DC City Administrator, Deputy Mayor Robert 
Robb, to be the primary person at the DC Department of Health 
responsible for the lead-in-the-water issues then I emphasized 
what actions we are taking now, why we are taking these 
actions, and what the results are as we go forward together. I 
wrote and signed the February 26th letter to the approvimately 
23,000 persons with lead-service lines and therein made 
specific Public Health recommendations that to my knowledge had 
never been made before on this scale. I spoke with both the 
Director of the Centers for Disease Control and Prevention and 
with the U.S. Surgeon General to request the respective 
expertise that their organizations were willing to provide 
immediately to the residents of the District of Columbia.
    Efforts to regain trust included participating and 
answering questions in many community discussion groups across 
the city (please see attachment #8 in my April 7th testimony), 
speaking at many press conferences along with the Director of 
the DC Emergency Management Agency, DC Council members, the 
City Administrator, and with the Mayor. In addition we made 
multiple other educational efforts including the use of written 
pamphlets in multiple languages and significantly expanding 
lead-related information on our website. We worked with DC 
pediatric lead experts including those at Children's National 
Medical Center, Howard University Medical Center, Georgetown 
University Medical Center, and Georgetown University Medical 
Center. I also consulted with Obstetricians at Washington 
Hospital Center and with the American College of Obstetrics and 
Gynecology (ACOG) about lead issues.

    Question 2. I know people who have homes with elevated lead 
levels, but not above 15 parts per billion. I know people who 
have homes with elevated lead levels well above 15 parts per 
billion who are not on your inventory of ``known lead service 
lines.'' Given what we know about the harmful effects of lead, 
what is WASA and the DC Department of Health doing to help 
those residents take appropriate health precautions?
    Response. I am not sure I understand the first part of the 
question because 15 parts per billion (ppb) is the definition 
of a home with a lead level above the EPA action limit. Should 
I understand this first part of your question to refer to the 
issue I have sometimes been asked at DC community meetings 
about homes with lead service lines, but measurements of lead 
in their drinking water that are not above 15 ppb? If so, then 
I emphasize that the original letter I wrote and signed on 
February 26, 2004 was sent to all approximately 23,000 District 
residents who had lead service lines regardless of whether 
their water lead concentrations were measured above or below 15 
parts per billion. Free water filters to remove lead in the 
drinking water were given to everyone with a lead service line 
by WASA and free blood lead levels were offered by the DC 
Department of Health as specified in the February 26 letter. On 
the other hand, if you meant there are people ``with elevated 
lead levels'' in homes with water lead concentrations ``not 
above 15 parts per billion'' then I would reply that we provide 
the identical offer to everyone with an elevated blood lead 
level, namely a home environmental assessment to look for other 
sources of lead such as lead paint, or lead ceramics, or lead-
containing stained glass, or certain medications, cosmetics, 
candies or other potential sources of lead exposure. The DC 
Department of Health made that commitment to look for other 
sources of lead, including lead paint, on page two of our 
February 26, 2004 letter.
    Regarding homes with elevated lead concentrations over 15 
ppb, even if they are not listed by WASA as having a lead 
service line, then WASA provides them with a water filter to 
remove the lead. The DC Department of Health continues to offer 
free blood lead level testing at five (5) standing clinics in 
DC, including one at the Department of Health on 51 N Street, 
NE. Another one of these five clinics is at the former DC 
General Hospital outpatient urgent-care clinic that is open 7 
days a week, including evenings. A calendar for the month of 
May listing the locations and times of operation for these five 
clinics is attached as a document titled: District of Columbia 
Department of Health--Lead Blood Screening Schedule--May 2004.

    Question 3. Your testimony provides several data points 
indicating that relatively small numbers of children had what 
you define as ``elevated'' blood lead levels. How do you define 
``elevated'' and how did you select that number?
    Response. The DC Department of Health uses the same 
definition of an elevated blood lead level, or level of 
concern, as that provided by the Centers for Disease Control 
and Prevention (CDC), namely 10 micrograms/deciliter ( g/dl) or 
higher.

    Question 4. Based on the information in the April 17, 2003 
New England Journal of Medicine study regarding blood lead 
levels in children, do you feel it is appropriate to ignore 
children and families with blood lead level test results above 
0 but below 10?
    Response. As a physician and Department of Health official 
who has worked and published for years in both laboratory and 
clinical research, I appreciate the value of studies such as 
the one cited. In particular, when medical papers have passed 
the peer-review process that is required for publication in one 
of the very best medical journals in the world, such as the New 
England Journal of Medicine, they warrant our attention. All 
scientific studies, however, require independent confirmation 
studies. The CDC is certainly aware of the paper you have 
cited. We have consulted regularly with lead experts at the CDC 
on this specific issue. We recognize that historically the 
value defining an elevated blood lead level has been set much 
higher by the CDC, such as between 1976-1980 when the CDC 
reported that 9 of 10 children (88.2 percent) between the ages 
of 1-5 years had blood lead levels of 
10  g/dl or higher.

    Question 5. Can you describe in detail the testing program 
that the DC Department of Health has in place, any new testing 
programs that the Department has completed or has underway as a 
result of the lead in drinking water issue, and what your 
findings are?
    Response. During the time I worked as the interim Chief 
Medical Officer at the DC Department of Health, from February 
10-April 30 of this year, over 90 percent of my time was 
devoted to the lead-in-the-water issues, including development 
of the blood testing program. I am glad to summarize those 
testing programs. We established an Incident Command Structure 
for all lead-in-the-water issues (see attachment #14 in my 
April 7th testimony for the specific command structure 
details). In addition please find attached a table titled 
``Blood Lead Level Screening Results'' with total results for 
5,293 persons who have been tested at the DC Department of 
Health laboratory through our screening program as of May 6, 
2004. The results include the fact that 37 children, two 
nursing mothers, and zero pregnant women have had an elevated 
blood lead levels. Of the 37 children, 13 live in homes with 
lead service lines and 24 do not. With one exception still 
under investigation, all homes of children and nursing mothers 
with elevated blood have shown lead dust and/or soil levels 
that exceed EPA and HUD guidelines. This environmental work on 
lead has been supervised by Lynette Stokes, Ph.D. at the DC 
Department of Health.
    Also, please find attached a color graph that plots blood 
lead levels for 1,924 persons who are less than the age of 6, 
or women who are pregnant or nursing. The lowest measurable 
value in our laboratory assay is 1  g/dl. The number of people 
at each value of blood lead level decreases at each blood lead 
level from 1  g/dl to 9  g/dl, with the mean (average) value 
being 3.0  g/dl.
    Since May 1st, Thomas Calhoun, M.D., is the physician 
responsible for lead-in-the-water issues at the DC Department 
of Health. I have consulted with him about the new testing 
programs since May 1st. There are now five (5) DC clinics where 
free blood lead level testing is provided. In addition, Dr. 
Calhoun has worked with a 6th site, at Children's National 
Medical Center, to offer free blood lead level testing to young 
persons at DC schools where elevated water lead concentrations 
were found. Dr. Calhoun is coordinating a program whereby the 
DC Department of Health will go visit these DC schools and 
offer free blood lead level testing to children under 6 years 
of age starting the week of May 17th. The April 29th letter 
that I wrote regarding water lead levels in DC schools, as well 
as the letter of February 26th, is posted with other lead-
related information on our web site at www.dchealth.dc.gov.

    Question 6. Your testimony implies that there is not a 
problem with elevated blood lead levels in children due to 
drinking water exposure. I believe you are basing that 
conclusion on the results of the voluntary testing program 
conducted in the city. I have read critiques indicating that it 
is impossible to judge the presence of a city-wide trend 
depending only on self-selected samples. Dr. Best also raised 
concerns with this approach during our discussions on the 
second panel.
    During that panel, Senator Crapo and I both asked questions 
about your test results and the apparent conclusion that the 
people you have tested that were exposed to high lead levels do 
not show, in an overwhelming proportion, high blood lead 
levels. In our discussions with Dr. Best on this topic, you 
indicated that the majority of the people you tested were 
adults. Children, of course, are at the greatest risk of lead 
poisoning due to the higher rate at which they retain lead in 
their bloodstream when compared to adults.
    Please explain how the Department of Health can draw 
conclusions about the severity of the issue at hand when they 
appear to be based only on self-selected, voluntary blood 
tests, or an evaluation of a primarily adult population which 
we know has a lower retention rate for lead in the body? Do you 
have any plans to conduct more widespread testing?
    Response. In addition to the many clinics we set up all 
across the District for voluntary blood lead level testing 
since February 28th, we also went directly to the homes of two 
populations of people we considered potentially at high risk 
for lead toxicity. These two groups are persons living in homes 
with the highest levels of lead in their drinking water (> 300 
parts per billion) and very young children in childcare 
facilities with lead-service lines. My April 7th testimony 
(attachment #2) provided data showing that none of 201 persons 
tested in homes with > 300 ppb of lead in their water had 
elevated blood lead levels as we published with the CDC in 
their March 30th Morbidity and Mortality Weekly Report (MMWR) 
Dispatch. In addition, in the same April 7th testimony 
(attachment #3) I included data showing that only 2 of 280 of 
the young children in these DC childcare facilities had 
elevated blood lead levels. These two specific outreach efforts 
are combined with the open blood lead testing program where 
adults are tested as well as children, an effort that now 
includes 1,752 children less than 6 years of age. Finally, we 
do plan to test more children under the age of 6 years, 
starting May 17-21, in DC schools where elevated levels of lead 
were reported on April 29th.

    Question 7. In 1986, lead was discovered in drinking water 
in the Palisades section of Washington, DC. Residents were 
quoted as saying, ``The runaround has been unbelievable . . . 
No one in the bureaucracy has even begun to take this 
seriously.'' The Director of water for the city stated that it 
was, ``. . . premature to contact residents throughout the 
city'' before the city developed a plan to handle and finance 
increased testing. I ask unanimous consent to insert several 
newspaper articles on this topic into the record. I find it 
unbelievable that no one at this witness table learned anything 
from this previous experience. Did anyone here refer to 
previous instances of lead contamination in the District when 
formulating a response plan? If so, please describe how you 
used this information, and if not, why not?
    Response. When I started working this February 10th at the 
DC Department of Health I was not aware of the 1986 events at 
the Palisades. My immediate impression at the time was that as 
the Incident Commander for the Department of Health, to 
response to the crisis I needed to learn as much as possible 
about lead issues and take rapid action by offering free blood 
lead level testing. The then Director of the Department of 
Health, and his highest Deputy, were replaced by March 26th, 
2004.

           Responses by Daniel Lucey to Additional Questions 
                           from Senator Crapo

    Question 1. You testified to the need for better teamwork 
if the Lead and Copper Rule is to be implemented effectively. 
Now that your agency and the other authorized agencies are 
working very closely in what has become a closely scrutinized 
effort, what improvements in teamwork have you learned? Also, 
how will you change routine procedures for working together to 
implement the Rule after the DC drinking water system returns 
below the Action Level?
    Response. The exchange of information, and the critique of 
that information, has significantly improved both within the 
Department of Health and between other involved organizations 
as of February 2004. Medical aspects of the Department of 
Health have been better coordinated with the engineering 
aspects of the lead-in-the-water issues. Moreover, direct 
interaction between the DC Department of Health and the 
Environmental Protection Agency (EPA) has increased 
substantially, including on the Public Health and medical 
issues. This is an important change that needs to continue as 
part of routine procedures going forward.

[GRAPHIC] [TIFF OMITTED] T4604.148

[GRAPHIC] [TIFF OMITTED] T4604.149

[GRAPHIC] [TIFF OMITTED] T4604.150

 Statement of Thomas P. Jacobus, General Manager, Washington Aqueduct, 
            Baltimore District, U.S. Army Corps of Engineers

    Good Morning, Chairman Crapo and Members of the Committee. 
I am Tom Jacobus, the general manager of Washington Aqueduct. 
Thank you for the opportunity to be here today.
    Washington Aqueduct, which is a part of the Baltimore 
District of the U.S. Army Corps of Engineers, is a public water 
utility. We are regulated by the United States Environmental 
Protection Agency's Region 3 in Philadelphia.
    Washington Aqueduct provides potable water not just to the 
District of Columbia Water and Sewer Authority, but also to 
Arlington County, Virginia and the city of Falls Church in 
Virginia as well. All funds for the operations and capital 
improvements at Washington Aqueduct come from its customers.
    The provisions of the Safe Drinking Water Act and its 
associated regulations are the basis for all operations 
concerning the production, storage, and transmission of the 
drinking water produced and sold by Washington Aqueduct to its 
wholesale customers.
    The Potomac River is the source of all water treated by 
Washington Aqueduct at its Dalecarlia and McMillan treatment 
plants. The treatment consists of chemically induced 
sedimentation using aluminum sulfate as the coagulant; 
filtration in dual media sand and anthracite coal filters; and 
disinfection using chlorine as the primary disinfectant and 
chloramines as a secondary disinfectant.
    The primary objective of the treatment process is to 
produce and deliver water to the tap that is free of 
contaminants and pleasant to drink.
    Three processes are simultaneously occurring to achieve 
that objective. First, organic and inorganic contaminants are 
removed during treatment. Then the water is disinfected so 
microorganisms that may have been in the raw water are killed. 
A disinfectant is carried along in the water (chloramine in 
this case) so that if the water encounters any bacteria in the 
distribution system or the building plumbing, the bacteria will 
be killed. Finally, the drinking water chemistry is adjusted as 
it leaves the treatment plants to make it less corrosive to the 
metals it will encounter in the distribution system and 
building plumbing.
    The Washington Aqueduct's corrosion control has been 
accomplished by the use of lime to adjust the pH of the water. 
Tests done in conjunction with the promulgation of the Lead and 
Copper Rule and reported to EPA in 1994 demonstrated that pH 
control would be sufficient to achieve Optimal Corrosion 
Control Treatment for Washington Aqueduct's customers. In the 
years since it was first proposed, there has been a continuing 
involvement with EPA to refine the Washington Aqueduct's 
Optimal Corrosion Control Treatment and report on our ability 
to meet the pH targets.
    However, the District of Columbia Water And Sewer 
Authority's sampling in accordance with the Lead and Copper 
Rule in the District of Columbia in 2001 and 2002 and the most 
recent intensive sampling in 2003 of water that has resided in 
lead service lines indicate that Washington Aqueduct must take 
immediate steps to adjust its optimal corrosion control 
treatment so that different results are achieved in the 
District of Columbia water distribution system.
    To address this issue EPA Region 3, the District of 
Columbia Water and Sewer Authority and Washington Aqueduct's 
other wholesale customers in Virginia, the District of Columbia 
Department of Health, and Washington Aqueduct have formed a 
Technical Expert Working Group and developed an action plan to 
address the lead issue. I have attached a copy of the action 
plan dated March 10, 2004, as an enclosure to this testimony. A 
peer review panel appointed by U.S. EPA is reviewing this plan 
and their recommendations will be incorporated in a subsequent 
update.
    In addition, teams have been formed to address production 
operations, distribution system operations, and risk 
communication to the public. Representatives of different 
agencies lead each of these teams. EPA leads the risk 
communications team; the District of Columbia Water and Sewer 
Authority leads the distribution system operations team; and 
Washington Aqueduct leads the production operations team. 
Representatives of all of the agencies participate on all of 
the teams. These teams will make a recommendation to be adopted 
by the technical expert working group that will result in a 
treatment change. While the exact type and dosage will be 
determined in the next couple of weeks as a result of the 
ongoing scientific analysis, it appears that the use of a 
phosphate-based corrosion inhibitor will be adopted.
    Current plans are to begin a partial system application of 
a revised optimal corrosion control treatment this June 
followed by a full system application by September. There is 
optimism that this change will be effective in reducing the 
lead leaching, but it will take several months to measure the 
effects. Laboratory studies will be ongoing for many months in 
parallel with the revised treatment that may be used to further 
refine the change in treatment.
    I would like to address the role of the Washington Aqueduct 
Wholesale Customer Board as it pertains to water treatment 
decisions. The Wholesale Customer Board governs the Washington 
Aqueduct's financial and strategic planning. The Board is 
comprised of the general manager of the District of Columbia 
Water and Sewer Authority, the Arlington County manager and 
Falls Church city manager. As part of the Board's oversight, 
there are technical committees that meet to evaluate 
engineering and financial operations throughout the year.
    The board and the committees have worked very effectively 
to address difficult issues such as a new solids management 
strategy to meet a new discharge permit and to develop a 
disinfectant strategy to meet changes to the Disinfection 
Byproducts Rule. Based on what we have learned in the last 8 
weeks, we will add corrosion control management as a permanent 
agenda item, just like we do now with filtered water turbidity, 
Total Coliform Rule compliance and Disinfection Byproduct Rule 
compliance. By doing this we will have a procedure in place for 
the Washington Aqueduct customers to share lead and copper 
data.
    As the general manager of Washington Aqueduct, I intend to 
take two other actions. First I will make an adjustment to the 
structure of the Washington Aqueduct organization to integrate 
an existing water quality office and the capability of our 
plant operations branch, including our water quality 
laboratory. Second, I will ask our customers to participate in 
more frequent and more structured meetings that will improve an 
ongoing information loop involving them and our water quality 
office.
    In the other two important treatment areas I mentioned 
earlier (i.e., disinfection and contaminant removal) we have 
worked very effectively with our customers to know at all times 
what the conditions are at the treatment plants and in their 
distribution systems and to implement systems responses on 
their behalf. The experience of the last several weeks 
concerning the application of the lead and copper rule 
indicates we need to give the third element (i.e., corrosion 
control) the same visibility.
    I am confident Washington Aqueduct working with its 
customers and EPA can accomplish that.
    Thank you again for the opportunity to be here today. I 
will be happy answer your questions.

[GRAPHIC] [TIFF OMITTED] T4604.151

[GRAPHIC] [TIFF OMITTED] T4604.152

[GRAPHIC] [TIFF OMITTED] T4604.153

[GRAPHIC] [TIFF OMITTED] T4604.154

[GRAPHIC] [TIFF OMITTED] T4604.155

[GRAPHIC] [TIFF OMITTED] T4604.156

[GRAPHIC] [TIFF OMITTED] T4604.157

[GRAPHIC] [TIFF OMITTED] T4604.158

[GRAPHIC] [TIFF OMITTED] T4604.159

[GRAPHIC] [TIFF OMITTED] T4604.160

[GRAPHIC] [TIFF OMITTED] T4604.161

[GRAPHIC] [TIFF OMITTED] T4604.162

[GRAPHIC] [TIFF OMITTED] T4604.163

[GRAPHIC] [TIFF OMITTED] T4604.164

[GRAPHIC] [TIFF OMITTED] T4604.165

[GRAPHIC] [TIFF OMITTED] T4604.166

[GRAPHIC] [TIFF OMITTED] T4604.167

[GRAPHIC] [TIFF OMITTED] T4604.168

        Responses by Thomas P. Jacobus to Additional Questions 
                          from Senator Inhofe

    Question 1. How much would it cost to add zinc orthophosphate to 
the water produced at the Washington Aqueduct on a per household basis?
    Response. Since our testimony on April 7, we have continued to 
develop the design and refine our cost estimates. We now expect that 
the engineering and construction costs to implement the addition of 
zinc orthophosphate and to conduct studies involving pipe loops made 
from lead service lines taken from the District of Columbia 
distribution system will be approximately $3,000,000. Since this 
corrosion inhibitor is a new chemical not previously used, its cost 
will have to be added to our chemical supply budget. We expect to pay 
in the range of an additional $1,100,000 per year to add zinc 
orthophosphate to the treatment process. Washington Aqueduct is a 
wholesaler that serves approximately 1,000,000 people in our service 
area of the District of Columbia, Arlington County and Falls Church. We 
do not bill on a household basis and are unable to provide costs on 
that basis.

    Question 2. With respect to the addition of other forms of 
phosphate, does zinc add a secondary anti-corrosive or protective 
property that would be beneficial for a system such as Washington's?
    Response. Initially the Technical Expert Working Group made up of 
representatives of the District of Colombia Water and Sewer Authority, 
Washington Aqueduct, Virginia customers of Washington Aqueduct, the 
United States Environmental Protection Agency, and the District of 
Columbia Department of Health recommended phosphoric acid as the 
corrosion inhibitor. EPA organized an Independent Peer Review panel 
consisting of nationally renowned experts on corrosion control who had 
direct experience with similar situations. Members of the peer review 
panel suggested that the zinc orthophosphate might work more quickly to 
passivate the lead service lines and solder joints and brass and bronze 
fixtures. Both phosphoric acid (commonly known as orthophosphate) and 
zinc orthophosphate operate similarly and we would expect both to work. 
Since, however, the reduction of lead concentration in tap water is of 
utmost concern, we chose to take the advice of this panel and selected 
the zinc orthophosphate as the corrosion inhibitor to be used.

    Question 3. How quickly could the Corps implement the addition of 
zinc-orthophosphate?
    Response. We plan to do a partial system application in a small 
portion of the District of Columbia distribution system starting June 
1, 2004 followed by a full system application on or about July 15, 
2004.

    Question 4. Do you know of any water systems that have had a 
problem with elevated lead levels after they began adding zinc 
orthophosphate?
    Response. Because the chemistry of the water inside the pipes of 
the distribution system is complex and it is influenced by the nature 
of the source water, it is not possible to make a firm prediction of 
how soon the passivation will occur and lead levels will decrease. 
Consultants working with Washington Aqueduct have reported that in some 
cases there might be a slight increase in lead levels before the 
eventual decrease begins. In most cases, after 6 to 18 months, 
utilities saw a decrease in lead concentrations after the addition of 
zinc orthophosphate. This reduction was eventually sufficient for those 
systems to be in compliance with the Lead and Copper Rule's action 
level at the 90th percentile.
                                 ______
                                 
        Responses by Thomas P. Jacobus to Additional Questions 
                         from Senator Jeffords

    Question 1. I have been frequently told by parents--If I had only 
known, I could have taken precautions. I want to ask each of the 
witnesses at the table to tell me how you are responding to this 
question--what explanation are you giving to parents whose children who 
were totally unnecessarily exposed to lead in their drinking water and 
what steps are you taking to regain the trust of the citizens of 
Washington, DC?
    Response. Washington Aqueduct is a wholesaler of water and does not 
deal directly with the citizens in its service areas in the District of 
Columbia or Virginia unless it does so in conjunction with the 
appropriate water utility officials. Certainly in this current 
situation that has been widely reported and discussed since February, 
Washington Aqueduct has accompanied the District of Columbia Water and 
Sewer Authority along with the District's Department of Health to many 
public meetings to explain exactly the nature of the problem and the 
interim and longer-term actions being taken to protect public health. 
We believe that the public's trust will be gained on an individual-by-
individual basis once they understand what caused the elevated levels 
to occur and the steps we are taking to change the water chemistry and 
the time that we expect to take. Through a variety of means (e.g., 
pubic meetings, City Council hearings, information sent directly to 
households as well as doing the science and engineering to make the 
chemistry changes at the treatment plants) we are fully involved and 
committed to rebuilding that trust.

    Question 2. In 1986, lead was discovered in drinking water in the 
Palisades section of Washington, DC. Residents were quoted as saying, 
``The runaround has been unbelievable. . . . No one in the bureaucracy 
has even begun to take this seriously.'' The Director of water for the 
city stated it was, ``. . . premature to contact residents throughout 
the city'' before the city developed a plan to handle and finance 
increased testing. I ask unanimous consent to insert several newspaper 
articles on this topic into the record. I find it unbelievable that no 
one at this witness table learned anything from that previous 
experience. Did anyone here refer to previous instances of lead 
contamination in the District when formulating a response plan? If so, 
please describe how you used this information, and if not, why not?
    Response. The Lead and Copper Rule, which went into effect in 1991, 
was designed to overcome the situation you described in the Palisades 
in 1986. In meeting the requirement of that rule, Washington Aqueduct 
includes corrosion control treatment as an integral part of its overall 
treatment process. That treatment, referred to as Optimal Corrosion 
Control Treatment (OCCT) was approved by the United States 
Environmental Protection Agency Region 3, with the expectation, based 
on scientific analysis conducted by Washington Aqueduct and reported to 
EPA, that lead concentrations in tap water would be below the action 
level in accordance with the rule. In the current situation with 
elevated levels beyond the permissible action level the Washington 
Aqueduct's response plan on the treatment side has been to reevaluate 
OCCT. In so doing Washington Aqueduct is working with EPA and its 
wholesale customers and consultants. The response has been rapid and 
targeted on the problem at hand. We expect that the partial system 
application of revised chemistry will begin in a portion of the 
District of Columbia's distribution system on June 1, 2004 with the 
full system application to begin on or about July 15, 2004.
                                 ______
                                 
        Responses by Thomas P. Jacobus to Additional Questions 
                           from Senator Crapo

    Question 1. You testified to the need for better teamwork if the 
Lead and Copper Rule is to be implemented effectively. Now that your 
agency and the other authorized agencies are working very closely on 
what has become a closely scrutinized effort, what improvements in 
teamwork have you learned? Also, how will you change routine procedures 
for working together to implement the Rule after the DC drinking water 
system returns below the Action Level?
    Response. We have had a very strong working relationship internal 
to the Washington Aqueduct organization as well as with technical and 
management officials representing our Wholesale Customers. It is 
designed to quickly react to situations in the treatment process or 
within the distribution system that could cause a violation of a 
regulatory threshold. But compliance with the Lead and Copper Rule is 
not measured by a single event or exceedance as are other rules 
promulgated under the Safe Drinking Water Act. Therefore we now realize 
that we need to schedule regular periodic meetings to evaluate 
specifically the effectiveness of our corrosion control treatment and 
ask the customers to share their distribution sampling data with us at 
the same time they send it to their regulatory agencies. This will 
allow all four entities, Washington Aqueduct, the District of Columbia 
Water and Sewer Authority, Arlington County and Falls Church, to 
understand trends in each other's jurisdictions. Since there is no 
chemical difference in the water produced by Washington Aqueduct as it 
goes to all customers, we need to be prepared to make adjustments that 
are appropriate and effective in each of the systems.

                               __________

           Statement of Gloria Borland, Dupont Circle Parents

    I am here because I am the Mother of a 22 month-old girl, who has 
lead in her blood at twice the national average. I have been a DC 
resident for 22 years and a homeowner in Dupont Circle for 15 years. 
Most of the people you see here in the audience today are DC parents 
worried about lead from the water harming their young children.
    Your letter asked me to tell you what we parents believe ``would be 
the most effective way for government to communicate and respond to the 
sort of information that is now slowly coming to light.'' Also, what do 
we parents ``suggest the DC government must do to reinstate the trust 
of the citizens in their water supply?''
    First of all, communication and trust--those two must go hand in 
hand.
    I'm sure if the Washington Post's David Nakamura had not exposed 
this scandal, our young children today on April 7 would still be 
drinking leaded water. And WASA would still be hiding this crisis from 
us.
    Communicating is not rocket science, it is the easiest and simplest 
thing to do when there is leadership in an organization willing to do 
it. The problem is not in ``the process'' of communication, the problem 
lies in deception. WASA leaders wanted to operate under the radar 
screen.
    WASA has a public relations department right below the chain of 
command of their General Manager. WASA managers, lawyers, and board of 
directors made the decision to not communicate truthfully, to cover up 
and manipulate for years. They deceived us. They tried to hide 
extraordinarily high levels of lead poison in our water supply, thus 
putting our young children at risk. The EPA and the Army Corps of 
Engineers went along with this deception, in violation of their Federal 
oversight responsibilities.
    How was this crisis communicated?
    For most DC parents of young children, our day of infamy was 
Saturday, January 31, 2004, when we read the headline of the Washington 
Post that morning and were hit with the shocking bomb that our infants, 
toddlers and young children have been secretly poisoned by lead in the 
drinking water in our homes.
    We discovered that lead in the water can stunt fetus' and young 
children's growth and mental development, and cause learning 
disabilities. Formula-fed infants my get as much as 40 to 60 percent of 
their lead exposure from water. Lead in young children lowers their IQ. 
Lead has a negative effect on children's ability to learn--lowers 
average IQ 5-15 percent depending on severity and length of exposure. 
When lead enters the brain of a child, it causes long-term learning and 
behavioral problems. Once the baby's brain has been damaged by lead, it 
is irreversible. Lead can remain in the child's body for decades.
    I was pregnant in 2001 and 2002 when high lead levels first became 
noticed by WASA. The right and legal thing for WASA to do was to issue 
an emergency warning to the public, and to obstetricians and 
pediatricians to warn their patients not to drink tap water. It does 
not matter if WASA hadn't identified the source; that kind of research 
could take months, even years. In the interest of public safety, you 
issue the warning to the public to take the precaution, and then you 
take the time and spend the resources to figure out the cause. When 
firemen see a house burning, their first priority is to save peoples 
lives, put the fire out, then they begin their investigation into the 
cause of the blaze. WASA got it backward. They wanted to figure out the 
cause of the lead crisis first, before trying to save our babies' 
lives.
    All WASA had to do was warn me and other mothers, don't drink your 
water without a filter or buy bottled water. I had a PUR water filter 
back when I was pregnant. But I wasn't diligent about changing the 
cartridge all the time. Like most Moms, we drank plenty of water, we 
were so very careful about everything. I nursed my baby, but I also 
gave her formula with tap water. When I learned about lead in the 
water, I wanted to cry. I had been so careful, I even gave up coffee 
for Gods sake, and now I hear about the lead!

[GRAPHIC] [TIFF OMITTED] T4604.169


[GRAPHIC] [TIFF OMITTED] T4604.170


    My daughter attends a very good pre-school and day care center in 
Dupont Circle. The Early Childhood Development Center has an enrollment 
of 65 students from infants to 4 year-olds and is run by the First 
Baptist Church at 16th and O Streets N.W. When the building was built 
in 1989, as part of receiving its national accreditation, they had an 
outside firm test the water. There was no harmful levels of lead in 
their water and the center passed with flying colors.
    Last year, WASA tore up the street next to the center and changed 
or repaired some pipes. WASA did their construction work without 
warning and without cooperation with the center. The staff came to work 
the next day and found the gymnasium floors had been flooded; the mats 
had to be replaced costing the day care center $2,000. WASA's work 
caused a classroom toilet to back up feces, and that room had to be 
steam cleaned at the center's own expense.

[GRAPHIC] [TIFF OMITTED] T4604.171

[GRAPHIC] [TIFF OMITTED] T4604.172


    When this current lead crisis in the water broke, the center's 
executive director Helen Henderson did the responsible thing and called 
back the same private firm to re-test the water in the day care center. 
Some of the sinks and water fountains had high levels of lead at 3,100 
parts per billion and 5,900 parts per billion. When I saw the letter 
Mrs. Henderson sent to all the parents with the water test results, I 
thought there must have been a typo. This was not 15 parts per billion, 
the legal threshold for high lead levels, but in the thousands!!! I 
couldn't believe the lead in their water almost reached 6,000 ppb!
    The center immediately went to bottled water. Brita water filters 
remove lead up to 150 ppb--filters don't work when lead is in the 
thousands.
    As of Monday April 5, no one from WASA has contacted Mrs. 
Henderson, nor has anyone from the District government sent her a 
letter or even made a phone call. Since this crisis broke, no one from 
WASA or the District has offered to help her. All this talk of the city 
reaching out to day care centers is baloney.
    I know there is some controversy on what are safe numbers: 15 ppb, 
is it too low, is it too high? I saw the Fox News Channel story last 
week that the push by environmentalists to crack down on chlorine 
caused DC lead problems. While scientists can still debate what are 
proper lead levels in water, there can be no doubt that 5,900 ppb is an 
emergency! Especially at a Day Care center with 65 young children.
          how could this have happened to our young children?
    Most parents have been perplexed as to why an entity entrusted with 
public safety would lie, and then cover up their lies; what is their 
motive? When I spoke over the weekend to my very wise friend Joe Louis 
Ruffm, III father of a 3-year-old boy, living in Chevy Chase, DC. Joe 
said WASA wanted to protect their bond rating. Communicating the truth 
would have brought their assets down.
    So this is like Enron! Enron was only about money. This is about 
money, bond ratings. But the consequences here, the innocent victims 
are the lives of our next generation.
    I want you Senators to see the victims--our young children, when 
bond ratings get in the way of public safety. Look into the faces of 
our babies (see the photos on display): they paid the price for 
managers who decided bond ratings were more important than our babies 
brain development, their nervous system and their IQ.

[GRAPHIC] [TIFF OMITTED] T4604.173

                          STORIES FROM PARENTS

    Here are some stores from parents all over the city. This lead 
water crisis has a dramatic impact on every parent of young children. 
To prove that this is wide spread, there is a petition with over 1,000 
signatures from DC parents being presented to the Senate today.
    When the lead crisis erupted, parents quickly responded by signing 
a petition on www.purewaterdc.com, that demanded the city take 
immediate action to restore safety in our water system. The petition 
also called for the firing of WASA managers and the reinstatement of 
the whistle-blower, Seema Bhat. The petition was a way for parents to 
fight back and to let our officials know we were outraged. Over 1,000 
signatures were added in just 2 weeks.

[GRAPHIC] [TIFF OMITTED] T4604.174


    Theresa Brown lives in LeDroit Park, right near Howard University. 
She says,

          ``I am the mom of London, she just turned one last week. I am 
        outraged, and would like to know if any of the WASA officials 
        had wives, daughters, daughters-in-law, sisters who were 
        pregnant or had young children during this heinous cover-up and 
        how they feel about allowing their families to be exposed. And 
        if they don't have relatives or loved ones at risk, then 
        perhaps that explains their ineptitude.
          I feel completely and utterly betrayed. They have a 
        responsibility to the citizens of this city, especially to 
        those young babies and children who are completely defenseless. 
        You cannot put a price on brain damage . . . how about if we 
        deliberately caused brain impairment to their kids or grandkids 
        and see how they like it?''

        [GRAPHIC] [TIFF OMITTED] T4604.175
        

    I am writing to express my anger that my family, particularly my 
two children aged 7 and 3, has been drinking and cooking using 
contaminated water for an unknown length of time, and that WASA 
officials knew of this problem but did not inform us. It is 
unconscionable that these officials allowed families to expose their 
babies and young children to lead. Over the past 4 years, my son has 
been exposed to lead contamination in utero, through breastfeeding, 
through his formula, and now through even the drinking fountains at his 
daycare. Can anyone at WASA assure me that my son will not suffer 
harmful effects from this exposure?

[GRAPHIC] [TIFF OMITTED] T4604.176


    Desa Sealy Ruffin (wife of Joe, who is mentioned earlier) lives in 
Chevy Chase, DC. She says,

          ``I have been so mad that I haven't really been able to speak 
        all that much. I can only say that I think the District, WASA 
        and EPA have all broken a really fundamental covenant with the 
        citizens in the District of Columbia and I now no longer trust 
        them to do anything. I think they are evil or as a Jamaican 
        friend put it so aptly, wicked. I know a friend was horrified 
        because she was pregnant during this whole thing. The fact that 
        the head of WASA didn't want to spend the money to replace the 
        lead service lines burns me up beyond belief. I think that the 
        3 agencies conspired to keep us in the dark. They should be 
        facing criminal charges.''

        [GRAPHIC] [TIFF OMITTED] T4604.177
        

    Valerie Jablow, mother of Charlie Horn, lives on Capitol Hill and 
she says,

          ``I live in a city that is full of taps dispensing water with 
        high lead levels. My son drinks water from his daycare every 
        day of the week, and they don't know what the lead levels there 
        are. Similarly, we like to go to the libraries, the public 
        pool, stores, and restaurants in our neighborhood all the 
        time--and who knows if the water they dispense is full of lead 
        and thus unsafe to drink? In a few years my son will go to the 
        public school a few blocks from our house--in addition to 
        wondering about the quality of his education, I now will have 
        to worry about the quality of the water he drinks while 
        there.''

        [GRAPHIC] [TIFF OMITTED] T4604.178
        

    Terrance Heath is father to 16-month old Parker, living in Logan 
Circle. Terrance says,

          ``I am writing to express my outrage at the discovery that my 
        family, and particularly our 16 month old son, have been 
        drinking and cooking with water potentially contaminated with 
        lead: I am dismayed because after 10 years as a DC resident it 
        never occurred to me that my family actually lives in a city 
        where we cannot or should not drink the water; I am outraged 
        because I found out about this potential contamination not from 
        WASA, but from the Washington Post. Our son is adopted, and 
        thus was bottle fed (water mixed with formula) as an infant, 
        and as a toddler. Early this year we learned that his first 
        lead screening result indicated elevated lead level.
          As a DC resident and parent, I have no faith in WASA 
        officials to make decisions for the benefit of my family's 
        health. I believe that oversight is clearly needed, since WASA 
        officials cannot be trusted to do their jobs. Beyond that, I 
        believe that those responsible at WASA should be held 
        accountable for the harm that has resulted or may result from 
        their decisions. There can be no excusing the decision to put 
        our children at risk.''

        [GRAPHIC] [TIFF OMITTED] T4604.179
        

    Ronnette Bristol, lives in Northeast DC in an apartment building. 
She has 4 children ranging in age from 3 to 9, and just found out that 
her building has not been tested for lead. She says, ``we are buying 
lots of bottled water, until we can get someone to come out and test 
our apartment building.''
    Ronnette is very worried about the quality of water in her 
apartment and she wants her children to have the cleanest and safest 
water possible.

[GRAPHIC] [TIFF OMITTED] T4604.180


    Lyubov Gurjeva is originally from Russia. She says,

          ``I never believed DC water was safe to drink. When I arrived 
        in DC 2 years ago friends told me that there had been numerous 
        problems earlier. But the fact that the situation has been bad 
        for a long time does not make it more acceptable. I am glad 
        this matter has attracted so much public attention this time. 
        We need safer water for DC.''

        [GRAPHIC] [TIFF OMITTED] T4604.181
        

    Dupont resident Xin Chen and her husband Brett Sylvester were 
informed by WASA last August that they had a lead service line and told 
to test their water. They submitted two sets of water samples for 
testing on August 15, 2003. They never received their test results. 
When,

          ``the lead story broke out, every time we talked to them on 
        their hotline, we got different answers. Sometimes they told us 
        they lost our samples. Sometimes they said our results were OK 
        but they couldn't give them to us on the phone, sometimes they 
        simply said we should re-test. We've just had the most 
        unpleasant experience with WASA. I don't trust them and I don't 
        trust their test results''

                         (No picture provided)

    Maria DePaul and her husband Ethan Premysler live on Capitol Hill. 
They have a 3-year-old son and they are expecting the birth of their 
second child any day now. Their son has elevated lead levels in his 
blood. They have an exposed basement and they clearly see a lead water 
main. Maria and Ethan examined their pipes and believe it is an old 
lead line. When they called WASA, they were told their house was 
classified with a copper line and not a lead line. Maria and Ethan 
called numerous times to argue that they did indeed have a lead line 
and that WASA's records were wrong. WASA would not budge. Maria and 
Ethan requested that WASA send someone over to take a look, and see 
that they indeed had lead pipes, but WASA refused. Ethan says he is 
completely frustrated, ``you are completely on your own, we called so 
many times, so many times, so many times. WASA will find legal loop 
holes so they do not have to help you out.''
    Many parents complained about the cost of buying expensive filters 
and bottled water. People don't mind buying bottled water in an 
emergency for a couple days or a couple weeks. But when a couple weeks 
turns into a couple months, with still no end in sight, people are 
beginning to feel the financial burden of buying bottled drinking water 
for every day use. When parents heard that WASA managers now want to 
raise rates 5 percent, they were aghast at the absurdity of the 
request. This move clearly shows WASA managers still don't get it.

                          HOW TO RESTORE TRUST

    My feeling and that of other parents since that day of infamy is 
outrage! We expected our elected leaders in the District to quickly 
step in, fire the managers at WASA and respond with swift action to fix 
our water crisis. That. would have been a rightful first step on the 
long journey of restoring trust with the citizenry. Instead our 
District government leaders made the political decision to protect WASA 
managers, and engage in a finger-pointing game directed at everyone 
else. EPA and Army Corps of Engineers were supposed to be looking out 
for our interest by being the watch dog over WASA. Instead it appears 
they looked the other way and our children today have to suffer the 
consequences. I hope EPA and Army Corps leaders remember the faces of 
our babies when they carry out their daily oversight duties.
    Senators, the Federal regulations you already have in place for 
communicating to the public, I think are fine. The problem here was not 
a failure of process, but a problem of cover up, fire anyone on staff 
who become a whistle-blower, perhaps to protect their bond ratings.
    When I hear Jerry Johnson say ``In hindsight, maybe we should've 
done more to inform people,'' my blood boils. The pat answer prepared 
by lawyers and PR people are not going; to fool the thousand families 
who signed that petition. We are not stupid. We know your bond ratings 
were more important to you than having our babies get lead in their 
nervous system.
    Senators, we are not soccer Moms, or NASCAR Dads, we are a new 
demographic.
    We are urban by choice. We're smart, we're parents with young 
children and because of our children we are involved in our 
neighborhood communities. We understand the need for companies to make 
a profit. Many of us own stocks and bonds for our children's 529 
college plans. But when you endanger the lives of our babies, we are 
going to fight back with incredible force.
    WASA, Don't think by hiring an outside health consultant, we will 
go away satisfied. We know a PR stunt when we see one. This just 
reinforces the premise that current managers don't possess the 
mandatory basic knowledge of ``what is safe water to drink,'' and thus 
they have no business working in the water industry.
    The seed of the problem here is a management culture instilled by 
Jerry Johnson, Mike Marcotte and board chairman Glenn Gersten. To 
restore trust, do what is done in the private sector, remove managers 
for extremely poor judgment, failed performance, and put in new 
management. These are the necessary first step toward restoring trust. 
New managers are now in place at Enron, Adelphia and Worldcom. Gersten 
is a Wall Street attorney, so he understands why old board members at 
the NYSE had to be replaced in order to restore public confidence in 
the institution. Martha Stewart maybe going to jail for covering up her 
lie. This management cover up has caused more damage to the public than 
Martha: they put the lives of our young babies at terrible risk.
    We know our mayor is asking the Federal Government for more money 
to solve this problem. I don't think it makes sense to put good money 
in the hands of bad managers.
    Drastic action needs to take place to restore safety in our water 
supply. I am an entrepreneur and believe in the free enterprise system. 
So I don't say this lightly. Most of the parents that signed the 
petition presented to you today also believe in the private markets. We 
don't normally seek government help for every little problem. But the 
problems and dysfunction at WASA are so huge, they require Federal 
intervention.
    We parents encourage the U.S. Senate to institute its powers to 
begin the process of putting WASA under Federal control, Federal 
receivership. A new management team and new board of directors needs to 
be put in place to work on solving this lead crisis. And we need to 
make sure the Army Corps and EPA are listening to our demands for 
better communication, a two-way dialog with the public they are 
entrusted to serve.
    Yes, we need Federal help and Federal dollars to solve this crisis, 
but that goes hand-in-hand with new management and Federal control of 
the system, until our water is deemed drinkable again.
    Thank you.

(In addition to raising her daughter, Gloria Borland is also a media 
entrepreneur. She is currently developing a new national television 
series profiling women entrepreneurs called ``She's the CEO'' 
www.sheceo.com. Gloria was born in Kodiak, Alaska, raised in Honolulu, 
Hawaii and chooses to live in the Nation's Capitol.)
                                 ______
                                 
Response by Gloria Borland to Additional Question from Senator Jeffords

    Question. If there were three or four actions you could have the 
government agencies immediately take that were present here today (at 
the hearing), what would they be?
    Response. (1) Immediately fire the top leadership of WASA; (2) 
Publicly develop a lead removal process that's transparent; and (3) 
Have DC water certified by an independent authority every year--very 
important.

                                 ______
                                 
         Response by Christopher McKeon to Additional Question 
                         from Senator Jeffords

    Question. If there were three or four actions you could have the 
government agencies immediately take that were present here today (at 
the hearing), what would they be?
    Response. No one at WASA has been reprimanded, fined, demoted, or 
fired because of what happened with DC's water. Ditto for EPA. Ditto 
for Army Corps. They all had something to do directly with the lead 
crisis. But that level of unaccountability is unacceptable: what if 
this hadn't been lead but something more immediately harmful? So here 
is what needs to happen, in the order it needs to happen in:
    (1) The EPA, working with the DC Department of Health, needs to put 
new people in charge at WASA. Now.
    (2) Army Corps of Engineers needs to get folks from the community--
not just elected officials, or WASA people, but regular folks--involved 
with their decision making in regard to the District's water. More 
specifically, citizens of DC need to be in on *every* decision that 
Army Corps makes in regard to our water, and they need to have a voice 
there equal to that of WASA and the army corps itself.
    (3) The EPA Region 3 office is too far away to deal effectively 
with DC's water. EPA should form a new office here in the District to 
have oversight over District water. Given our role not only as the 
Nation's Capital but also as a major tourist destination for people 
from all over the world, Washington, DC deserves to have real oversight 
over its water, not a half-hearted rubber stamping of every WASA 
decision, as shown in the lead crisis.
    Ok, that's my two cents' worth--thanks Gloria. Let me know what 
transpires.

                                 ______
                                 
Response by Valerie Jablow to Additional Question from Senator Jeffords

    Question. If there were three or four actions you could have the 
government agencies immediately take that were present here today (at 
the hearing), what would they be?
    Response. (1) EPA: More stringent notification requirements for 
water contamination, i.e., a one-page letter listing the actual 
contamination level; and the changes in the so-called acceptable 
contamination levels to better protect women and children. Public 
notification would be triggered at these lower levels; Changes in the 
testing guidelines which allowed WASA to replace higher lead water 
samples with lower lead samples. (2) DC Department of Health: better 
monitoring and enforcement of environmental hazards related to children 
and daycares. For example, we are required to provide lead testing data 
on our children's health forms but this data is not being analyzed or 
tracked to understand potential problems.
    The DC Department of Health should be responsible for informing 
parents and offering testing services on a much wider basis than was 
actually done.
    There should also be significant monitoring of (and penalties for 
non-compliance) public utilities providing services to daycare centers 
and schools--i.e. no mobile lead testing unit was sent to FBC, no one 
seems concerned about putting FBC on a priority list, and WASA should 
have tested (and be planning to replace) the piping and water systems 
at daycare centers and schools first.
    Lastly, I just want to reiterate the issue that parents now have a 
lack of confidence in WASA and their management, and would like to see 
another agency or entity monitoring this situation to ensure that 
decisions and improvements are made moving forward.

    Statement of Jody Lanard, M.D., Risk Communication Consultant, 
                             Princeton, NJ

    Senator Crapo and Members of the Subcommittee:
    Thank you so much for asking me to testify about needed 
improvements in public communications regarding the detection of lead 
in Washington DC water.
    I am Jody Lanard, a psychiatrist from Princeton, New Jersey, 
specializing for almost 20 years in the rapidly evolving field of risk 
communication. My own contributions are mostly in the crisis 
communication branch of the field. I work independently, with my 
husband Peter Sandman, a former academic who is one of the early 
founders of risk communication. My biography and c.v. follow the 
testimony.
    Here is a list of the crisis communication strategies which 
underlie my critique of WASA's communications with the public. Expanded 
descriptions of these strategies, references to articles from which 
they were derived, and references to case studies using (or failing to 
use) these strategies are appended at the end of this statement.
     1. Don't over-reassure.
     2. Put reassuring information in subordinate clauses.
     3. Err on the alarming side.
     4. Acknowledge uncertainty.
     5. Share dilemmas.
     6. Acknowledge opinion diversity.
     7. Be willing to speculate.
     8. Don't overdiagnose or overplan for panic.
     9. Don't aim for zero fear.
    10. Don't forget emotions other than fear.
    11. Don't ridicule the public's emotions.
    12. Legitimize people's fears.
    13. Tolerate early over-reactions.
    14. Establish your own humanity.
    15. Tell people what to expect.
    16. Offer people things to do.
    17. Let people choose their own actions.
    18. Ask more of people.
    19. Acknowledge errors, deficiencies, and misbehaviors.
    20. Apologize often for errors, deficiencies, and misbehaviors.
    21. Be explicit about ``anchoring frames.''
    22. Be explicit about changes in official opinion, prediction, or 
policy.
    23. Don't lie, and don't tell half-truths.
    24. Aim for total candor and transparency.
    25. Be careful with risk comparisons.

(Adapted from Sandman and Lanard's crisis communication articles)

    I'm going to tell you about some good and bad risk communication 
practices, and give you my critique of the DC Water and Sewage 
Authority's public communications. But first, here's my bottom line: 
for the most part, WASA did fairly typical, rather ordinary, well-
intentioned public relations-oriented communication--as most agencies 
are inclined to do, despite the fact that it regularly backfires. My 
colleague Peter Sandman and I like to call this, only half-joking, a 
``knee-jerk under-reaction,'' as a way of turning the tables on 
officials who often feel the public responds to scary new situations 
with ``knee-jerk over-reactions.'' Sometimes investigation reveals a 
genuine intentional cover-up, but much more often, the communication 
strategy is based on false beliefs:
    <bullet> about how the public learns new information,
    <bullet> about responsible early speculation,
    <bullet> about how much anxiety the public can bear,
    <bullet> about how reassuring to be in the face of uncertainty.
    For instance, WASA's outrage-inducing delay in informing the public 
was rationalized by WASA officials in at least two conventional ways: 
the desire to have ``complete'' information before releasing it, and 
the desire to prevent public panic. WASA's communication practices are 
misguided approaches when used in uncertain, potentially scary 
situations. It is painful to watch agencies walk over the public 
relations cliff in a crisis communication situation, especially given 
what other agencies, such as the Centers for Disease Control, have 
worked so hard to learn and to distill into easily accessible nearly 
free training programs.
    The U.S. EPA was one of the first agencies to take the new field of 
risk communication seriously, publishing articles about it when it 
barely had a name, starting in the mid 1980s. And the American 
Waterworks Association put out a risk communication training video in 
1992, entitled ``Public Involvement: a Better Response to People's 
Concerns About Water Quality,'' subtitled: ``an interview with Peter 
Sandman on how water providers can translate risk communication 
concepts into mechanisms to build effective relationships with the 
public.'' So risk communication is not a new concept in environmental 
and water management. But each new generation of managers discovers it 
anew--often as a result of botching a crisis.
    What WASA did was, unfortunately, common every-day bad risk 
communication. I have had no access to internal agency documents or 
communications, so if there was deliberate self-serving intent to hide 
important information from the public, I do not know it. But officials' 
public comments so far suggest only that WASA was unskilled in the 
difficult, counter-intuitive strategies of crisis communication--and 
despite the ramping up of crisis communication planning and training 
since September 11, this is extremely common.

                           RISK COMMUNICATION

    My analysis of WASA's communication rests partly on Sandman's re-
definition of risk, drawing on the risk perception work of Slovic, 
Fischoff, and others, that states: Risk = Hazard + Outrage. This notion 
was first published in the EPA Journal in 1987. The rest of my analysis 
is informed by the crisis communication work I and others have done 
since September 11, 2001.
    Health and safety workers usually define risk as ``probability 
times magnitude''--How bad is the worst case? How likely is it to 
happen? The public--including the experts when they are at home--mostly 
see ``risk'' in terms of what Sandman calls ``outrage factors,'' and 
others more recently call ``fear'' or ``dread'' factors: Is this hazard 
being imposed on me voluntarily? Do I have control over it? Is it 
industrial, or is it natural? Can I trust the people who are managing 
the hazard? Have they been open and honest with me? Do they show 
concern for my worries? Does the hazard effect particularly vulnerable 
populations, like children? Does it disproportionately fall on 
oppressed and powerless groups? Is it particularly dreaded, like cancer 
or AIDS?
    On most risks, most of the time, people are apathetic or in denial. 
That was the starting position of most of the Washington DC population 
about lead, in October 2002 when WASA first widely released information 
about elevated lead levels in some homes' water. Normally, you can't 
easily scare people about such hazards as obesity, high blood pressure, 
not wearing seatbelts, not wearing condoms--or lead poisoning. So when 
people suddenly get upset about a risk they have long been ignoring, 
there are usually new ``outrage factors'' (or ``fear factors'') driving 
the reaction.
    The main problems with WASA's communication about lead in the water 
were: initially, trying to attack apathy with information alone, and 
without scaring anyone; and later, neglecting public outrage--
especially its outrage at them, the official sponsor of the outrage.

1. Trying to attack apathy with information alone
    Trying to attack apathy--let me define this as a profound lack of 
outrage--with information alone--especially information that doesn't 
signal a change in a familiar situation--is a big reason for 
communication failure when people are not upset about a potentially 
serious risk. This is what WASA failed to factor in, in its October 
2002 Lead Awareness Week brochure. WASA cites this brochure to 
demonstrate that it did not try to hide the lead problem from the 
public--and technically they didn't hide it. And they did send notices 
to the actual homes which tested high for lead in the water. But they 
did not signal that it was a potential problem for the public at large.
    WASA's brochure was entitled, ``The District of Columbia Water and 
Sewer Authority and the District of Columbia Department of Health 
Acknowledge National Lead Awareness Week and Its Impacts on Your 
Health. Living Lead-Free in DC.'' The explicit purpose of the brochure, 
based on its title, was to acknowledge National Lead Awareness Week.
    This brochure has excellent educational content. But it only weakly 
signals to the public that there are new reasons to take this 
information seriously. The title makes it sound like the PR department 
decided to use ``National Lead Awareness Week'' as a news peg for 
sending out information about what to do about lead--major lead sources 
like paint and dust; less significant sources like lead in the water. 
Pretty picture of water on the cover. A smiling pregnant woman holding 
a glass of water on page 2. Low down on page 3 comes this sentence:

          ``However, in the annual monitoring period ending June 30, 
        2002, the lead results indicate that although most homes have 
        very low levels of lead in their drinking water, some homes in 
        the community have lead levels above the EPA action level of 15 
        parts per billion.''

    By the time a reader gets to this sentence, the context of the 
brochure suggests that ``some homes'' are very few, and ``above the EPA 
action level'' is only a little above. The cheerful, informative tone 
of the preceding pages, in context with the celebratory title of the 
brochure, does not signal, ``DO something! This is a surprising change 
in our findings! Take this seriously!''
    The next mention of the actual water problem is at the bottom of 
page 7: ``Despite our best efforts mentioned earlier to control water 
corrosivity and remove lead from the water supply, lead levels in some 
homes or buildings can be high.'' CAN be high? Didn't they know? How 
many homes or buildings so far? HOW high? You cannot tell from the 
brochure. But on January 31, the Washington Post reported that ``some 
homes'' meant 4,075 homes, and ``how high?''--2,287 homes were above 50 
parts per billion, way over the EPA action level. A much scarier way 
for the public to find this out. Yes, public anxiety would have 
increased at any point that they heard about this, and public anger 
too; but WASA lost the opportunity to help the public cope with its 
anxiety, and WASA generated much more anger, by letting the story break 
unexpectedly. Feeling blindsided gets translated into a belief that the 
hazard is much more serious: this is a very robust finding in risk 
communication research.
    I can understand WASA's reluctance to lay out this information 
explicitly early on. On March 2, The Washington Times wrote that WASA 
General Manager Jerry Johnson ``wanted more comprehensive analysis of 
the test data before unnecessarily alarming the public.'' Well, they 
still don't know the full extent of the problem. They still do not know 
if many people, especially, children, have been affected. They wouldn't 
even get much of a hint until March 30, when the CDC published a small 
amount of mostly reassuring data. It's hard to tell people bad news, 
and then add, ``Not only that, but we don't know how bad, and we don't 
know what it means, or what to do!''
    But an official at WASA trained in crisis communication could have 
shared the anguish of this uncertainty with the public:

          ``I'm so sorry to tell you that we're finding a lot of 
        unexpected high lead levels in water coming out of the taps in 
        lots of homes. We don't know yet why this is happening. We 
        don't know yet whether any people, especially children, have 
        increased blood lead levels because of this. We don't even know 
        all the recommendations we want to make to you, because we feel 
        you deserve to know this information quickly, so we'll just 
        give you some preliminary precautionary recommendations. We'll 
        be learning things over the next weeks that we'll wish we had 
        known months ago. We may make mistakes, or retract things we've 
        already said, or change our minds as new information and 
        guidance come in. But we're committed to sharing this with you 
        early. We know you'll be worried; we share that worry; and we 
        will bear this together and get through it.''

    This would have expressed confidence in the public--a compliment 
the public might well have returned, along with its appropriate anger 
at you, and its anxiety. You can't skip the part where they are angry 
at you, you can only manage it better. But telling the public you don't 
think they can handle bad news--``we didn't want to panic people''--is 
insulting, patronizing, and it generates mistrust.
    The third mention of an actual problem is on page 10.

          ``WASA's recent Lead and Copper Program hosted 53 volunteers 
        who have single-family residences that are served by either 
        lead services, internal lead plumbing or copper pipes with lead 
        solder installed after 1982. During WASA's last sampling 
        program in the summer of 2001 and June 2002, some of these 
        homes tested above 15 ppb. In the District of Columbia, there 
        are approximately 130,000 water service lines and 20,000 of 
        these are lead services.''

    As an imaginary recipient of this brochure, I react to this 
thinking:

          ``Well, if they knew this in the summer of 2001 and in June 
        of 2002, and they are only telling me now in the context of 
        acknowledging National Lead Awareness Issue, and they are not 
        mentioning how elevated the levels were, this must be not be 
        very important new information.''

    You cannot tell if officials are even a little worried about a 
developing situation. I'd love to know data about how many people 
responded to this brochure by testing their water, or testing their 
houses for lead, or screening their children. It was a very good 
brochure in terms of what to do if you are worried about lead, which 
many people should be. It just didn't give readers a new reason to do 
it, if they were not worried about lead to start with.
    In my Mandarin Chinese classes at Princeton University, we learned 
a little word that you put at the end of a sentence to signal, ``New 
situation! Not business as usual!'' The word is ``le.'' There is no 
``le'' in the brochure. Terrific information. Lots of action people can 
and should take. But no alarm bells, just business as usual.

2. Neglecting public outrage--especially outrage at ``you'', the 
        official sponsor of the outrage
    Neglecting or disparaging the public's outrage is one of the main 
problems in poor risk communication when people are already angry or 
upset.
    By February 5, WASA and other officials were sounding defensive--
the beginning of their own knee-jerk reaction to the public's outcry 
over the story. Spokesman Johnnie Hemphill insisted,

          ``We certainly didn't do anything to hide this information. . 
        . . we have done everything we were supposed to, from beginning 
        to end . . . It's clearly a challenge for WASA and homeowners, 
        but it isn't a crisis.''

    Not recognizing and acknowledging that this was indeed a crisis--a 
crisis of public confidence and fear--was insulting to the public. Not 
as bad as ``There's no need to panic,'' but still disrespectful. 
Hemphill was leaning on the technical side of hazard versus outrage--
the actual effort to assess and mitigate the lead hazard. If the 
October brochure suggested that WASA did not know how to send a signal 
to apathetic people that a new problem had arisen, WASA statements 
after January 31 revealed that they didn't know how to listen or talk 
to angry people either.
    Since I have watched many good officials do this wrong and then 
learn, I am probably more sympathetic to how hard it is, how counter-
intuitive it is, to engage in compassionate, responsive, human crisis 
communication when people are attacking you! You feel like a good 
person, engaged in thankless tasks with inadequate resources; you feel 
like you've been trying to get people to take lead seriously forever 
and suddenly they are accusing you of not taking it seriously! And you 
get defensive. (I just illustrated a risk communication strategy called 
``telling people stories about themselves,'' very useful when trying to 
get through to angry worried people.) Hemphill's reactions are as 
natural as the public's reactions. I hope I can help some of the people 
who are angry at WASA to understand this, just as I hope I can help 
WASA see that they genuinely did a lot of communication things wrong, 
and made public outrage and fear much worse than it could have been, 
and that there are learnable strategies for doing it better.
    On February 13, in a letter to its customers, WASA General Manager 
Jerry Johnson sounded like he was minimizing the extent of the 
potential problem:

          ``There are about 130,000 water service pipes in the 
        District. . . . The vast majority of those are not lead service 
        pipes. Our initial efforts are concentrating on the relatively 
        small percentage of our customers served by lead service lines. 
        . . . 23,000 homes . . .'' That's about 18 percent of the 
        homes. I'm sure that doesn't sound relatively small to WASA 
        when they try to figure out a budget for mitigating all those 
        lead service lines, and it doesn't sound relatively small to 
        the public when they live in a neighborhood served by lots of 
        these lines. So Johnson sounds defensive, like he's minimizing 
        the problem. In a world where we don't want a single child to 
        be damaged by lead, it sounds callous and uncaring to refer to 
        23,000 homes as ``a relatively small percentage.'' I will bet 
        that Jerry Johnson is not actually callous and uncaring, but in 
        his defensive posture, he sounded that way.
    In the same letter, Jerry Johnson says that the houses served by 
lead service lines ``may have increased levels of lead in their tap 
water.'' He certainly must mean that all of those houses are at risk--
which is the right message. But he still isn't saying how many houses 
he already knows have elevated lead in the water. And in the next 
paragraph he discusses how in spring and summer of 2002, ``samples 
indicated that some households experienced increased lead levels above 
the [EPA] `action level' ''. The indefinite words--``may have,'' ``some 
households,'' ``increased lead levels''--all sound evasive, and are 
likely to evoke both alarm about the extent of the exposure, and anger 
about an attempt to minimize it. Can you imagine the U.S. Postal 
Service saying, ``Out of the billions and billions of letters mailed 
every day, we have found `some letters' which contain anthrax spores'' 
? Or the U.S. CDC saying, ``We have found `some patients' with SARS'' ? 
The crisis--not the hazard crisis, but the outrage crisis, the crisis 
in confidence--was in full swing by February 13, and WASA was still 
doing mostly public relations, trying to reassure.
    We have come up with a concept called the Risk Communication 
Seesaw. If you--the official--sit on the over-reassuring, minimizing 
side of the seesaw, I--the public or your critics--will heavily sit on 
the alarming side. If you sit more toward the fulcrum, and share some 
of my fears, and validate my anger, and openly acknowledge the 
worrisome news while also giving me information that is hopeful or 
reassuring, I will put it in perspective better, I will feel less 
patronized, I will bear my worries better, and paradoxically I will 
blame you less--after I get through telling you how angry I am! You 
can't skip that step with the public.
    Now I heard that WASA held a lot of public hearings where they let 
people yell at them. This is excellent crisis management. But most of 
the quotes I've read of officials responding at those meetings sound 
defensive, bureaucratic, and technocratic. The public gave you outrage 
and you gave them back hazard. I'm not saying to respond only to the 
outrage--you have to address the hazard, but you are in no danger of 
forgetting to do that. But bend over backward to acknowledge and 
validate people's feelings, show some of your own anguish, express your 
wishes that you had responded differently, express your regrets, 
express your hopes about managing the problem, ask people even more for 
their ideas and for their help, tell them stories about what other 
members of the public have told you (and I do not mean complimentary 
stories)--these are all ways officials can let the public feel they 
have been heard and even understood. Learn how to apologize--

          ``I'm so sorry we didn't break this story months ago, so 
        people would have been spared months of drinking so much leaded 
        water. I'm so sorry we tried to deal with this ourselves 
        instead of involving the public early, so people could take 
        their own precautions sooner.''

    Using good risk communication, Johnson could have written to his 
customers:

          ``I have been appalled for months that about 4,000 houses--
        out of about 6,000 tested--had elevated lead in their water. 
        That's about 66 percent! We can only guess that about the same 
        percentage of the rest of the houses served by lead service 
        lines may have elevated levels too. Even though most of 
        districts homes are not served by lead lines, there are 23,000 
        homes I am worried about until we find out if they have 
        elevated lead too. I wish I could tell you not to worry while I 
        work on this problem. But it's your drinking water, and of 
        course you have a right to be worried.''

    Two other examples of neglecting outrage:
    On February 19, WASA posted an alert on its website entitled, 
``Lead Service Line Flushing Clarification,'' outlining a change in 
previous guidelines for how long to let taps run before drinking the 
water. The recommendation increased in an alarming direction--from 
``one or 2 minutes'' to ``10 minutes to protect against high levels of 
lead in drinking water.'' Why the first recommendation was now seen to 
be inadequate is not clear; issues on this recommendation between WASA 
and EPA are not clear; but they are not my focus when reading this 
``clarification.''
    The word ``clarification'' is odd: the previous recommendation was 
clear, and the new recommendation is equally clear. The new 
recommendation isn't a clarification, it is a change. A revision. The 
old recommendation may or may not have been an error. The new 
recommendation may be based on evolving knowledge, or a re-thinking of 
old knowledge. But a clarification it isn't. Tell us what it is!
    This alert notice let people know that the precautions they thought 
were adequate for quite a while had not been adequate, and therefore 
they had been exposing themselves to more hazard than they thought. 
This is upsetting! WASA's alert, while clearly for the purpose of 
telling people the new recommendation, could have added a couple lines 
of regret that the new recommendation hadn't been made sooner, and an 
acknowledgment that it is frustrating and upsetting for people to find 
that their precautions had been inadequate.
    Dr. Vicki Freimuth, who was director of communications for the CDC 
during the anthrax attacks and the SARS outbreak, describes how during 
anthrax, evolving knowledge was perceived as mistakes--and that this 
was largely because of failure to acknowledge uncertainty all along. 
Several important risk communication strategies to reduce public alarm 
in response to changing information are:
    <bullet> use anticipatory guidance: warn people that information 
and recommendations are likely to change as we learn more, or have more 
time to analyze what we already know, or consult with more experts; 
warn people (regretfully!) that some of what we know will turn out 
wrong.
    <bullet> acknowledge uncertainty all along.
    <bullet> show your own humanity: express the wish that you knew 
more, and that you didn't have to put the public through anxiety-
provoking changes.
    While some of these techniques can raise anxiety at first, they 
also let you share the public's worry, and help them bear it, rather 
than trying to squelch the public's worries and leaving them alone with 
their fears.
    My last example of WASA ignoring public outrage and fear comes from 
a statement by Glenn S. Gerstell, Board Chairman of WASA, on about 
February 27. In this statement, Gerstell says he is ``pleased'' that 
nearly 99 percent of school water samples are below the EPA action 
level, and he is ``pleased'' that WASA has caught up with its backlog 
of voicemails. ``Pleased'' is a PR kind of word. I'd vote for 
``relieved.'' This is a minor quibble, but I use it to illustrate that 
PR and crisis communication are different. Gerstell also wrote that he 
and other top officials ``have conducted numerous media interviews to 
communicate facts and findings as we get them.'' Separate from my 
comment that the ``facts'' very often did not include numbers of houses 
affected, or degree of lead elevation, I want to point out that this 
view of communication--communicating facts to the public--is probably 
less than half of good crisis communication. Listening to the public, 
acknowledging human feelings--your own and the public's--is a very 
large part of what makes crisis communication work when people are 
angry and afraid.

3. Some examples of spectacular risk communication from other crises
    WASA General Manager Jerry Johnson has been quoted as saying he 
believes in using ``facts to overcome fears'' to educate the public. I 
hope I can convince him to use even the scary-sounding facts, and to go 
beyond the facts and help people bear their fears. It is part of the 
job, as Mayor Guiliani demonstrated so magnificently on September 11, 
and as superb risk communicators in public health do.
    Here are some examples of very good risk communication, which 
illustrate validating public emotion, acknowledging uncertainty, using 
anticipatory guidance, showing your own humanity, and not prematurely 
over-reassuring people.
    In June 2003, North Carolina had its only confirmed SARS patient. 
State Epidemiologist Jeff Engel responded with a series of news 
conferences. At one of them, a reporter asked if all the news coverage 
had the potential to cause more hysteria and fear. Dr. Engel replied:

          ``We need to involve our community in all aspects of public 
        health. Certainly a disease like SARS, so new, so frightening, 
        should instill fear. Fear is an appropriate response for me as 
        a public health physician, for everyone in the community. We 
        need to transfer that fear into positive energy, and keep the 
        facts out in front of hysteria. . . . I think [the media's] 
        response is appropriate. This is a new disease, it spreads 
        person to person, it can kill, it has a high case-fatality 
        rate. That is newsworthy!''

    Two months later, Dr. Engel made essentially the same empathic 
statement about Eastern Equine Encephalitis (EEE). Here he is in the 
August 24, 2003 Fayetteville Observer:
    Dr. Jeff Engel, a State epidemiologist with Health and Human 
Services, said the State has documented ``only 12 or 13 human 
infections since 1964.'' The most in one year was three in 1989. . . .
    Though human infections are rare, Engel emphasized precautions.
    ``Fear is appropriate. I mean, my God, here you have a mosquito 
that can kill,'' Engel said. ``What we are trying to do through you 
guys, the media, is use that fear in a positive way. We are trying to 
get information out there.''
    The local Wal-Mart sold out of insect repellant after the EEE news 
conference. Dr. Engel generated preparedness, not panic.
    On March 14, 2003, 2 days after the World Health Organisation 
issued a rare global alert, WHO spokesman Dick Thompson said:

          ``With relatively few SARS deaths, one might think we are 
        overreacting but when you don't know the cause, when it strikes 
        hospital staff, and moves at jet speed . . . until we can get a 
        grip on it, I don't see how it will slow down . . . It's highly 
        contagious. It's bad.''

    And one of the best risk communicators I know, CDC Director Dr. 
Julie Gerberding, often acknowledges uncertainty, and balances 
reassuring information with caution, by putting the reassurance in a 
subordinate clause. This shows what we mean by balancing on the fulcrum 
of the risk communication seesaw.
    Early in the SARS outbreaks Dr. Gerberding was asked if SARS could 
be bioterrorism. She answered, ``While we have lots of reasons to think 
that the SARS outbreaks are not due to terrorism, we're keeping an open 
mind and being vigilant.'' Other officials said only the first half: 
``There is no evidence of a terrorist attack.'' Dr. Gerberding's 
version is paradoxically more reassuring; we know she is still looking, 
just in case.
    Later in the SARS outbreak, Dr. Gerberding reassured us and 
cautioned us at the same time, saying, ``Although we haven't seen 
community transmission of SARS, we're not out of the woods yet.''
    Sometimes, when people hear my examples, or my re-writes of what I 
think officials should have said, they ask me, ``Well, aren't some 
people just naturally inclined to do crisis communication well? Is it 
really something you can learn and practice?'' I usually answer by 
telling them my favorite Julie Gerberding story:
    One day during SARS, there had been a really weird newspaper 
article quoting an astrobiologist from Wales that SARS and other 
viruses might come from outer space, on meteor dust. (It had to be a 
very quiet day on the SARS front when newspapers had space for this 
strange notion.) At a CDC telebriefing, CNN's Miriam Falco said, ``Dr. 
G., I just have to ask you about this outer space thing. What do you 
think?'' Dr. G. answered, with a wicked twinkle in her eyes, ``Although 
we have no evidence that SARS is from outer space, we're keeping an 
open mind.'' The reporters in the room roared with laughter--in 
recognition of her signature way of acknowledging uncertainty and not 
over-reassuring.
    Crisis communication is hard, but learn-able. As a field, it is a 
moving target; we are learning and trying out new strategies all the 
time, and seeing what works--and what doesn't work. I'm not sure if 
WASA officials can learn it, but I am hopeful they can. Some of what I 
recommend may backfire on you too--and I will feel terrible when that 
happens. Some of it may turn out wrong. I wish I knew everything there 
was to know about crisis communication, and I wish it was easier to 
learn.
    So even though WASA officials think they are doing good 
communication, I hope they will be keeping an open mind as they 
consider other ways. And even though many in the public think that WASA 
did egregious communication (the closest I come to agreeing with that 
is the delay in informing the general public), I think WASA mostly did 
ordinary conventional ``bad'' risk communication. And this applies to 
me too: Even though I think WASA's communication mistakes are pretty 
run-of-the-mill, I will be keeping an open mind as I learn more about 
how they actually managed the lead crisis.
    Thank you.

                               __________

   Statement of Dana Best, M.D., M.P.H., Director, Smoke Free Homes 
   Project, Medical Director, Healthy Generations Program, Assistant 
 Professor, George Washington University School of Medicine and Health 
              Sciences, Children's National Medical Center
    Lead's Effects on Children, Pregnant Women, and Nursing Mothers

    Thank you for the opportunity to present testimony to you today 
regarding the effects of lead on children, pregnant women and nursing 
mothers. I am a board-certified pediatrician and preventive medicine 
physician, with expertise in pediatric environmental health. I hope 
that I can provide the committee with some useful and important 
information about lead, lead poisoning, and current research on the 
topic.
    Children's Hospital is a 279-bed pediatric inpatient facility 
located in the District of Columbia. For more than 130 years, 
Children's has served as the only provider dedicated exclusively to the 
care of infants, children, and adolescents in this region. It is our 
mission to be preeminent in providing health care services that enhance 
the well-being of children regionally, nationally, and internationally. 
The Children's system includes a network of nine primary care health 
centers located throughout the city, and a number of pediatric 
practices throughout the region, providing stable medical homes for 
thousands of children. We operate numerous regional outpatient 
specialty centers in Maryland and Virginia, providing access to high 
quality specialty care in the communities we serve. We are proud to be 
the region's only Level I pediatric trauma center. Children's Hospital 
serves as the Department of Pediatrics for George Washington University 
School of Medicine and Health Sciences, and runs a highly respected 
pediatric residency program, providing education and experience to the 
next generation of pediatricians, pediatric subspecialists, and 
pediatric researchers. We conduct significant research within the 
Children's Research Institute, with funding from the National 
Institutes of Health, the Health Resources Services Administration, the 
Department of Defense, the U.S. Environmental Protection Agency, and 
many other public and private funders.

                    INTRODUCTION AND A BRIEF HISTORY

    Lead is a bluish-white metal of atomic number 82. Its isotopes are 
the end products of each of the three series of naturally occurring 
radioactive elements. It is soft, malleable, and resistant to 
corrosion, which makes it ideal for use in plumbing, pottery, tools, 
etc. Alloys of lead include pewter and lead solder.\1\
    Use in ancient Rome. Lead pipes used as drains from the Roman baths 
and bearing the insignia of Roman emperors, are still in service.\1\ 
Debate over the contribution of lead poisoning to the fall of the Roman 
Empire persists, but it is generally accepted that lead was widely used 
in plumbing, pottery, and cooking vessels. One potential source of lead 
poisoning in Roman times was the practice of boiling unfermented grape 
juice in lead pots. The resulting sugar and lead-laden syrup was added 
to wine to improve taste. The Romans recognized that lead was harmful, 
and identified the dangers of breathing fumes from lead furnaces and 
drinking water from the areas of lead mines; the connection of lead 
cooking vessels to lead poisoning is less well-described.\2\
    Use in gasoline. Tetraethyl lead, the ``antiknock'' compound in 
leaded gasoline, was first described in 1854. In 1921, the emerging 
auto industry found it to be an effective, inexpensive gasoline 
additive that reduced engine ``knock'', a pernicious problem. Even in 
1921 the poisonous effects of lead ingestion had been described and 
many public health authorities warned against this use of tetraethyl 
lead, particularly since other effective anti-knock gasoline additives 
were available. Nevertheless, due to cost reasons, tetraethyl lead was 
used. In 1922 the U.S. Public Health Service warned of the dangers of 
leaded fuel, and the scientific community added further concerns. In 
1923, Thomas Midgley, the primary proponent of leaded fuel, suffered 
from acute lead poisoning and several workers at plants that made 
tetraethyl lead died.
    In 1926, a committee appointed by the U.S. Surgeon General to 
review the harms of tetraethyl lead called for regulation of the 
product and for further studies funded by Congress. Those studies were 
never funded and never performed. Further evidence of the harms of lead 
continued to be published, but leaded gasoline was not phased out until 
1986, and lead-containing motor fuel additives were not banned until 
1996.\3\ This belated public health success resulted in a significant 
drop in the blood lead levels of U.S. children: in 1976, when the 
standards were implemented, the average blood lead level in children 
was 15 mcg/dl; in 1991, those levels had dropped to 3.6 mcg/dl.\1\
    Use in paint.\4\ Lead has been used for centuries to make paint 
whiter, last longer, and cover better. The harm from lead in paint to 
children was first noted in the English literature in 1887.\5\ In 1904, 
child lead poisoning was linked to lead-based paints,\6\ and as a 
result, many countries began banning lead-based interior paints. Lead 
continued to be used in paints in the U.S., however, including paint 
used on cribs. In 1914 the death of a Baltimore boy due to lead 
poisoning from chewing on his crib railing was described, and other 
cases continued to be reported.<SUP>7,}8</SUP> In 1992 the League of 
Nations banned lead-containing interior paint but the United States did 
not adopt the ban. In 1943 it was reported that eating lead-containing 
paint chips causes physical, neurological, behavior, learning and 
intelligence problems in children. Finally, in 1971, the Lead-Based 
Paint Poisoning Prevention Act was passed and finally implemented in 
1977. As a result of these delays in banning leaded paint, many U.S. 
homes still contain lead paint. With the banning of leaded fuel, lead 
paint is now the primary source of childhood lead poisoning in the U.S.
    Lead in water. Federal regulation of drinking water quality began 
in 1914, when standards for bacteriological levels were set; lead as a 
water contaminant was not regulated until much later, in 1962.\9\ Most 
of the lead in water comes from industrial releases, urban runoff, and 
atmospheric deposits. While these sources of environmental lead are 
small, in comparison to other sources such as leaded gasoline, they can 
be significant, depending on water conditions. pH, grounding of 
household electrical systems to plumbing, and water additives can 
increase the leaching of lead from pipes and increase the solubility of 
the leached lead.\3\ In most cities in the U.S., lead in tap water is 
due to the corrosion of lead-containing materials, such as lead pipes, 
in water distribution systems and household plumbing.\10\ In terms of 
lead in water as a source of childhood lead poisoning, discussions of 
oral lead ingestion do not separate dust sources or paint chips from 
lead in the water supply, making it extremely difficult to discriminate 
between lead poisoning from household paint and lead poisoning from 
lead-contaminated water supplies. It is highly likely that lead-
contaminated water can contribute to lead poisoning of children. 
However, no studies of lead in water as the sole source of 
environmental lead were found.
    Lead in other sources. Other sources of lead include cosmetics 
(such as kohl), folk remedies, pottery, cans with lead-soldered seams, 
contaminated vitamins, and herbal remedies. In communities in which 
lead smelters or other industrial applications of lead exist, special 
attention should be paid to contaminated air, water, and workers' 
clothing. Anyone who works with lead should change clothing and shoes 
and shower before leaving work. Lead soldiers, hand-made munitions, and 
other hobbies can be a source of lead. Vinyl mini blinds were 
identified as a source of lead and removed from the market in 1996. 
(See Appendix 1)

        LEAD POISONING, OR, ``THERE ARE NO SAFE LEVELS OF LEAD''

    Critical periods in human development.\11\ The developing embryo, 
fetus, and child are growing and changing rapidly. If, during this 
rapid period of change, the fetus or child is exposed to a poison of 
some kind, development can be deranged. These ``critical windows of 
exposure'' are specific periods of development during which the embryo 
or fetus is undergoing some process, such as the development of arms 
and legs between days 22-36 of pregnancy, when thalidomide damages 
their development.<SUP>12,}13</SUP> There are many other examples of 
this effect, including tobacco smoke and behavioral effects, and 
alcohol and fetal alcohol syndrome. The critical period associated with 
harm from lead poisoning is brain and nervous system development, which 
begins in early pregnancy and continues until at least age 3 years. 
Since different parts of the nervous system are responsible for 
different functions, and since these different nervous system parts 
develop at different times, the timing of lead exposure can lead to 
different effects.\14\
    Differences between children and adults. Children's behaviors 
expose them to more lead dust through hand-to-mouth exploration, 
greater exposure to potentially lead-laden soil, and closer contact 
with lead dust and paint chips on the floor. Children also absorb lead 
more efficiently than adults through their digestive systems: children 
absorb 40-50 percent of ingested lead while adults only absorb 10-15 
percent.\15\ In addition to greater absorption of lead from the 
digestive tract, the bones of infants and children are absorbing 
calcium at a high rate as they grow. Lead is chemically similar enough 
to calcium that it can be stored in bone, to be released gradually into 
the blood stream, providing an ``internal source'' of lead 
poisoning.\16\ There is similar evidence that lead and iron can occupy 
the same molecular sites, contributing to anemia and providing another 
``internal source'' of lead. Another significant difference between 
children and adults is in the rate of their metabolisms. Children have 
significantly faster metabolisms, which means that they breathe faster 
and ingest proportionately more food and water.\16\ This difference 
means that in similar environments, children are exposed to a greater 
extent to contaminants. For example, the average infant drinks 5 oz of 
breast milk or formula per kilogram of body weight, an amount 
approximately equivalent to 20 liters of fluid for an adult. If formula 
is reconstituted using lead-contaminated tap water, that infant will 
receive a significant dose of lead. Similarly, breast milk can be 
contaminated with lead if the mother's primary source of water is lead-
contaminated.
    The disease of lead poisoning is also different in children than in 
adults. (See Figure 1.) In adults, many of the effects are reversible, 
such as peripheral neuropathies (a loss of sensation or increased 
sensitivity in the arms or legs); in children, effects persist 
throughout their life, even after chelation (the drug treatment for 
severe lead poisoning). Because of these differences, our understanding 
of lead poisoning in adults cannot be extrapolated to children.

[GRAPHIC] [TIFF OMITTED] T4604.182


    Lead's effects on children. The effects of lead poisoning differ 
depending on many factors: dose, acuity or chronicity of poisoning, 
gender, age, nutritional status, the presence or absence of an 
enriching environment, developmental assets and supports, other 
toxicants in the body, and genetics. Lead levels typically peak around 
age 2 years, when normally developing children undergo a major change 
in dendrite<SUP>*</SUP> connections. This time-related association 
between peak lead levels and major brain development leads to the 
theory that lead interferes with this critical process.
---------------------------------------------------------------------------
    \*\ A dendrite is a part of a nerve cell that conducts nerve 
impulses sent by adjacent nerve cells towards the body of the recipient 
nerve. During early brain development, many more connections between 
nerves develop than exist in adult brains. Many of theses connections 
disappear as the child grows. Many experts believe that this 
``surplus'' of nerve connections makes it possible for the brains of 
children to develop functions as they are needed, and also lead to the 
improved recovery of children, compared to adults, from any brain 
damage that occurs.
---------------------------------------------------------------------------
    When studied in the laboratory, lead has been shown to alter basic 
nervous system functions, such as calcium modulated signaling, even at 
very low concentrations. Other effects of lead include interference 
with the synthesis of heme molecules (the oxygen-carrying molecules in 
red blood cells), leading to anemia, which has also been shown to 
affect intelligence. One study of lead levels in African American and 
Mexican American girls suggests that environmental exposure to very 
small amounts of lead (3 mcg/dl) can delay growth and puberty.\17\ This 
study contributes to the growing literature on environmental toxins and 
effects on human endocrine (hormonal) systems. Lead has also been shown 
to damage kidneys.\18\
    The effects of lead poisoning on neurocognitive skills have been 
identified since at least 1966. Canfield\19\ showed that at even very 
low blood lead levels, children's IQ scores were negatively affected. 
This study also showed that the effects on IQ were proportionately 
greater at lower levels than at higher levels. (See Figure 2.)

    Figure 2. IQ as a Function of Lifetime Average Blood Lead 
Concentration.\19\

[GRAPHIC] [TIFF OMITTED] T4604.183


    A 4-5 point decrease in IQ can mean the difference between normal 
and sub-normal intelligence and the ability to function independently; 
over the long term, it can mean a significant decline in the average 
intelligence of the affected population. Many other studies have 
demonstrated similar effects of blood lead levels under 10 mcg/dl; some 
have shown effects under 5 mcg/dl.\20\
    Behavior and psychosocial effects. In addition to effects on IQ, 
distractibility, decreased reaction time,\21\ poor organizational 
skills, hyperactivity (including ADHD, or Attention Deficit 
Hyperactivity Disorder), and poor classroom 
performance<SUP>22,}23</SUP> have been linked to lead poisoning. These 
effects have been recognized since at least 1976.\24\ The Port 
Pirie<SUP><dagger></SUP> Cohort Study, a prospective study of the 
association of lifetime lead levels and emotional, behavioral, and 
cognitive effects, repeatedly showed significant, permanent, declines 
in cognition, behavior problems, and emotional problems that persisted 
throughout childhood to at least age 11-13 years.\25\
---------------------------------------------------------------------------
    \<dagger>\ Port Pirie, Australia, is the home of a lead smelter. A 
group of children born and raised in Port Pirie were studied from birth 
through age 11-13 years for the effects of lead poisoning.
---------------------------------------------------------------------------
    Long-term effects. Chronic exposure to lead has been linked to 
cerebrovascular and kidney disease, more often seen in adults. Lead has 
been linked to cancers in persons with lifetime lead exposures above 15 
ppb in water.\10\
    At higher levels.\11\ Fortunately, clinical lead toxicity, meaning 
patients that present with symptoms of lead poisoning such as 
headaches, abdominal pain, loss of appetite, constipation, clumsiness, 
agitation, decreased activity, or somnolence is increasingly rare. 
These symptoms indicate central nervous system involvement that can 
rapidly proceed to vomiting, stupor, convulsions, encephalopathy, and 
death. These symptoms typically present in children with blood lead 
levels higher than 60 mcg/dl. Anyone with these symptoms should be 
treated for a life-threatening emergency.

               LEAD IN PREGNANT WOMEN AND NURSING MOTHERS

    Because lead is chemically similar to calcium, it is incorporated 
into bone, which can result in a significant accumulation of lead in 
bones. If, during pregnancy and breastfeeding, maternal intake of 
calcium is not sufficient, these stores of lead and calcium are 
mobilized to supply calcium to the growing fetus and produce human 
milk.<SUP>26,}27</SUP> Lead in maternal blood easily crosses the 
placenta,\28\ resulting in lead exposure of the fetus, and is readily 
incorporated into breast milk, leading to lead-contaminated breast 
milk.<SUP>29,}30 </SUP>The long-term effects of these exposures are 
difficult to quantitate in an environment in which many other sources 
of lead exist. However, one study of breastfed infants linked maternal 
lead stores to decreased weight gain in the first month of life,\30\ 
and a second concluded that the primary source of lead in infants under 
age 6 months is dietary, including breast milk and formula.\31\ These 
studies are particularly relevant to the situation in the District of 
Columbia. At very high levels of maternal lead, pregnancy loss has been 
reported.\12\

                      TREATMENT OF LEAD POISONING

    The treatment of lead poisoning in children has been described in 
the CDC's document ``Managing Elevated Blood Lead Levels Among Young 
Children.''\32\ Unfortunately, no treatment for lead poisoning in 
children has been shown to reverse the long-term neurocognitive and 
behavioral effects,\33\ and the primary treatment for significant lead 
poisoning, chelation with succimer,<SUP>=</SUP> has been implicated as 
causing a small decrease in IQ.\34\ Many studies have shown persistent 
cognitive and be-
havioral effects long after blood lead levels have dropped to levels 
considered 
``low.''<SUP>25,}35,}36</SUP> Prevention of lead poisoning is the only 
solution to this disease.
---------------------------------------------------------------------------
    \=\ Succimer, or dimercaptosuccinic acid, is an oral treatment for 
chelation of lead in children. It tastes and smells like rotten eggs, 
making the treatment difficult to administer for children and 
caregivers alike.
---------------------------------------------------------------------------
    COMPARING THE RISK OF LEAD POISONING TO OTHER CHILD HEALTH RISKS

    The CDC estimated that in 2000, there were 454,000 children in the 
U.S. with blood lead concentrations higher than 10 mcg/dl. Depending on 
the quality of these children's environments, we can estimate that each 
of these children lost at least 4-5 IQ points, and a significant 
proportion suffer from hyperactivity, behavioral and learning 
difficulties, and other long-term effects of lead poisoning. Comparing 
these losses to other child health risks is difficult, for there is no 
way to measure or place a value on how a person's life would be if they 
had not been exposed. In terms of the overall health of children in the 
District of Columbia, the following comparisons can be made:


------------------------------------------------------------------------
                                       Year of    Percent of DC Children
        Preventable Condition          Estimate          Affected
------------------------------------------------------------------------
Blood lead level greater than or          2002   3.8 percent of children
 equal to 10 mcg/dl.                              tested at Children's
                                                  hospital; average
                                                  level 3 mcg/dl\37\
Exposure to environmental tobacco         2002   46 percent\38\
 smoke.                                           (compared to 38
                                                  percent
                                                  nationwide)\39\
Children living in poverty..........      2003   29 percent (compared to
                                                  17 percent
                                                  nationwide)\40\
Children without health insurance...      2003   12 percent (compared to
                                                  12 percent
                                                  nationwide)\40\
Children living in the Spring Valley/     2002   zero\41\
  American University area whose
 hair had higher levels of arsenic
 than the general population.
------------------------------------------------------------------------

    While these figures seem reassuring at first look, with ``only'' 
3.8 percent of District children having a lead level 10 mcg/dl or 
higher, the reader should remember that even at values of 5 mcg/dl or 
lower neurocognitive and behavioral effects have been documented. Many 
of the children whose lead levels are 10 mcg/dl or higher are the same 
children living in poverty, exposed to environmental tobacco smoke, 
and/or without health insurance. These conditions add to the effects of 
lead poisoning; for poverty reduces educational opportunities, 
environmental tobacco smoke exposure has adverse effects on health, 
intelligence, and behavior, and lack of health insurance reduces access 
to the health care that might assist families in reducing lead 
poisoning and other harmful environmental exposures.

                   COMPARATIVE RISK BY SOURCE OF LEAD

    Since the banning of leaded fuel, lead paint has become the primary 
source of lead poisoning in the United States. While lead in water has 
been described, the proportion of lead ingested via water versus lead 
dust and other sources from lead paint has not been determined. 
Unfortunately, lead pipes are found in the same older homes in which 
lead paint is found, making it extremely difficult to separate the 
contribution of each source. Since there is no level of lead considered 
to be without negative effect, and since the population most at risk 
from lead poisoning is the same population that suffers from poor 
nutrition, inadequate schools, lack of developmental enrichment, and 
other consequences of poverty, our responsibility is to remove any and 
all sources of lead poisoning from these children's environments. The 
harms of lead have been known for thousands of years; with many missed 
opportunities to remove lead from the environment due to cost concerns. 
There is no way to place a dollar value on the harm from lead poisoning 
to children in this city, as well as to children throughout the U.S. 
and the world, no matter what source, water or paint.

                            TESTING FOR LEAD

    The standard procedure in most laboratories for testing lead in 
body fluids is the electrothermal atomization atomic absorption 
spectrophotometry assay. This method replaces less sensitive methods 
such as the free erythrocyte protoporphyrin, erythrocyte porphyrin, or 
zinc protoporphyrin tests.\32\ There are newer products on the market 
for testing lead levels in body fluids at this time; the sensitivity, 
specificity, and validity of these methods have not yet been completely 
determined, particularly at low levels of lead. Testing of hair, 
fingernails, and teeth should not be done because they are subject of 
external contamination, making test results uninterpretable.\32\ On 
occasion, an abdominal radiograph (``X-ray'') is useful for determining 
if a child has a significant amount of chipped paint in his or her 
digestive tract. If present, the paint chips can be removed. 
Radiographs of bones looking for ``lead lines'' are not useful.\32\ A 
new technique, K X-ray fluorescence, is entering the field of lead 
research. This instrument measures long-term lead deposits as densities 
in bone, similar to measurements of bone density for the diagnosis of 
osteoporosis.\42\ There are consumer test kits for lead in paint,\43\ 
and many professional lead testing services exist. Reliability of test 
results varies considerably, so consumers should follow guidelines such 
as those from the Consumer Product Safety Commission in testing for 
lead, selection of a method of abatement if lead paint exists, and 
careful abatement procedures. See Appendix B.

            RESEARCH AND LEAD IN DISTRICT OF COLUMBIA WATER

    On March 30, 2004, the Centers for Disease Control and Prevention 
published a report on blood lead levels in residents of homes with 
elevated lead in tap water in the District of Columbia. This study 
indicated that a long-term decline in the blood lead levels of children 
living in homes with lead service lines had halted in 2000, the year 
chloramines were added to water in the District of Columbia. While 
there are several limitations to this study, primarily due to the speed 
with which it was performed, the results are disturbing. The CDC 
recommends that public health interventions focus on eliminating lead 
exposures in children, and that lead concentrations in drinking water 
be below the EPA action level of 15 ppb.\44\
    Children's has begun an analysis of the last 10 years of lead test 
results performed in our laboratory. We will look at the average lead 
level during the 10-year period, noting any changes in the average. We 
will also look for associations between lead levels in the children 
tested and lead levels in household water supply, the presence of lead 
paint in the home, insurance status, and other potential influences. 
This study is an extremely high priority; we will inform Congress and 
the District of Columbia of our results as soon as they are available.

                                SUMMARY

    The children of the District of Columbia deserve a safe environment 
in which to grow and develop into adults contributing to DC's future. 
The effect of lead poisoning, even at levels not yet considered to be 
``poisonous,'' is to reduce the potential of yet another generation of 
children. There is no way to place a value on this loss of potential; 
however, we do know that the loss of IQ points and changes in behavior 
are measurable and significant. We also know that the resources 
available to many of the District's children are fragmented, in some 
instances non-existent, and rarely adequate to the challenges presented 
by poverty, race and ethnicity, and violence found in this city. This 
combination sentences the District's children to yet another generation 
of poverty and poor health. The law says lead levels higher than 15 ppb 
need to be abated. The children deserve this.
    Thank you for this opportunity to inform you about lead and 
children, pregnant women and breastfeeding women. I am available for 
questions today or in the future.
                                 ______
                                 
 Appendix A.--News from U.S. Consumer Product Safety Commission Office 
of Information and Public Affairs, Washington, DC 20207, June 25, 1996, 

                             Release 96-150

        CPSC FINDS LEAD POISONING HAZARD FOR YOUNG CHILDREN IN 
                       IMPORTED VINYL MINIBLINDS

    Washington, DC.--After testing and analyzing imported vinyl 
miniblinds, the U.S. Consumer Product Safety Commission (CPSC) has 
determined that some of these blinds can present a lead poisoning 
hazard for young children. Twenty-five million non-glossy, vinyl 
miniblinds that have lead added to stabilize the plastic in the blinds 
are imported each year from China, Taiwan, Mexico, and Indonesia.
    CPSC found that over time the plastic deteriorates from exposure to 
sunlight and heat to form lead dust on the surface of the blind. The 
amount of lead dust that formed from the deterioration varied from 
blind to blind.
    In homes where children ages 6 and younger may be present, CPSC 
recommends that consumers remove these vinyl miniblinds. Young children 
can ingest lead by wiping their hands on the blinds and then putting 
their hands in their mouths. Adults and families with older children 
generally are not at risk because they are not likely to ingest lead 
dust from the blinds. Lead poisoning in children is associated with 
behavioral problems, learning disabilities, hearing problems, and 
growth retardation. CPSC found that in some blinds, the levels of lead 
in the dust was so high that a child ingesting dust from less than one 
square inch of blind a day for about 15 to 30 days could result in 
blood levels at or above the 10 microgram per deciliter amount CPSC 
considers dangerous for young children.
    ``Some of the vinyl blinds had a level of lead in the dust that 
would not be considered a health hazard, while others had very high 
levels,'' said CPSC Chairman Ann Brown. ``Since consumers cannot 
determine the amount of lead in the dust on their blinds, parents with 
young children should remove these vinyl miniblinds from their homes.''
    CPSC asked the Window Covering Safety Council, which represents the 
industry, to immediately change the way it produces vinyl miniblinds by 
removing the lead added to stabilize the plastic in these blinds. 
Manufacturers have made the change and new miniblinds without added 
lead should appear on store shelves beginning around July 1 and should 
be widely available over the next 90 days.
    Stores will sell the new vinyl blinds packaged in cartons 
indicating that the blinds are made without added lead. The cartons may 
have labeling such as ``new formulation,'' ``nonleaded formula,'' ``no 
lead added,'' or ``new! non-leaded vinyl formulation.'' New blinds 
without lead should sell in the same price range as the old blinds at 
about $5 to $10 each. CPSC recommends that consumers with young 
children remove old vinyl miniblinds from their homes and replace them 
with new miniblinds made without added lead or with alternative window 
coverings. Washing the blinds does not prevent the vinyl blinds from 
deteriorating, which produces lead dust on the surface.
    The Arizona and North Carolina Departments of Health first alerted 
CPSC to the problem of lead in vinyl miniblinds. CPSC tested the 
imported vinyl miniblinds for lead at its laboratory. The laboratories 
of NASA's Goddard Space Flight Center and the Army's Aberdeen Test 
Center used electron microscope technology to confirm that as the 
plastic in the blinds deteriorated, dust formed on the surface of the 
blind slats. This testing also established that the dust came from the 
blinds and not from another source. CPSC laboratory tests confirmed 
that this dust contained lead.
    ``This lead poisoning is mainly a hazard for children ages 6 and 
younger,'' said Chairman Brown. ``Adults and older children generally 
are not at risk because they are not likely to ingest lead dust from 
the blinds.''
                                 ______
                                 
 Appendix B.--Consumer Product Safety Commission--What You Should Know 
  About Lead Based Paint in Your Home: Safety Alert CPSC Document 5054

     Lead-based paint is hazardous to your health. Lead-based paint is 
a major source of lead poisoning for children and can also affect 
adults. In children, lead poisoning can cause irreversible brain damage 
and can impair mental functioning. It can retard mental and physical 
development and reduce attention span. It can also retard fetal 
development even at extremely low levels of lead. In adults, it can 
cause irritability, poor muscle coordination, and nerve damage to the 
sense organs and nerves controlling the body. Lead poisoning may also 
cause problems with reproduction (such as a decreased sperm count). It 
may also increase blood pressure. Thus, young children, fetuses, 
infants, and adults with high blood pressure are the most vulnerable to 
the effects of lead.
    Children should be screened for lead poisoning. In communities 
where the houses are old and deteriorating, take advantage of available 
screening programs offered by local health departments and have 
children checked regularly to see if they are suffering from lead 
poisoning. Because the early symptoms of lead poisoning are easy to 
confuse with other illnesses, it is difficult to diagnose lead 
poisoning without medical testing. Early symptoms may include 
persistent tiredness, irritability, loss of appetite, stomach 
discomfort, reduced attention span, insomnia, and constipation. Failure 
to treat children in the early stages can cause long-term or permanent 
health damage.
    The current blood lead level which defines lead poisoning is 10 
micrograms of lead per deciliter of blood. However, since poisoning may 
occur at lower levels than previously thought, various Federal agencies 
are considering whether this level should be lowered further so that 
lead poisoning prevention programs will have the latest information on 
testing children for lead poisoning.
    Consumers can be exposed to lead from paint. Eating paint chips is 
one way young children are exposed to lead. It is not the most common 
way that consumers, in general, are exposed to lead. Ingesting and 
inhaling lead dust that is created as lead-based paint ``chalks,'' 
chips, or peels from deteriorated surfaces can expose consumers to 
lead. Walking on small paint chips found on the floor, or opening and 
closing a painted frame window, can also create lead dust. Other 
sources of lead include deposits that may be present in homes after 
years of use of leaded gasoline and from industrial sources like 
smelting. Consumers can also generate lead dust by sanding lead-based 
paint or by scraping or heating lead-based paint.
    Lead dust can settle on floors, walls, and furniture. Under these 
conditions, children can ingest lead dust from hand-to-mouth contact or 
in food. Settled lead dust can re-enter the air through cleaning, such 
as sweeping or vacuuming, or by movement of people throughout the 
house.
    Older homes may contain lead based paint. Lead was used as a 
pigment and drying agent in ``alkyd'' oil based paint. ``Latex'' water 
based paints generally have not contained lead. About two-thirds of the 
homes built before 1940 and one-half of the homes built from 1940 to 
1960 contain heavily-leaded paint. Some homes built after 1960 also 
contain heavily-leaded paint. It may be on any interior or exterior 
surface, particularly on woodwork, doors, and windows. In 1978, the 
U.S. Consumer Product Safety Commission lowered the legal maximum lead 
content in most kinds of paint to 0.06 percent (a trace amount). 
Consider having the paint in homes constructed before the 1980s tested 
for lead before renovating or if the paint or underlying surface is 
deteriorating. This is particularly important if infants, children, or 
pregnant women are present.
    Consumers can have paint tested for lead. There are do-it-yourself 
kits available. However, the U.S. Consumer Product Safety Commission 
has not evaluated any of these kits. One home test kit uses sodium 
sulfide solution. This procedure requires you to place a drop of sodium 
sulfide solution on a paint chip. The paint chip slowly turns darker if 
lead is present. There are problems with this test, however. Other 
metals may cause false positive results, and resins in the paint may 
prevent the sulfide from causing the paint chip to change color. Thus, 
the presence of lead may not be correctly indicated. In addition the 
darkening may be detected only on very light-colored paint.
    Another in-home test requires a trained professional who can 
operate the equipment safely. This test uses X-ray fluorescence to 
determine if the paint contains lead. Although the test can be done in 
your home, it should be done only by professionals trained by the 
equipment manufacturer or who have passed a State or local government 
training course, since the equipment contains radioactive materials. In 
addition, in some tests, the method has not been reliable.
    Consumers may choose to have a testing laboratory test a paint 
sample for lead. Lab testing is considered more reliable than other 
methods. Lab tests may cost from $20 to $50 per sample. To have the lab 
test for lead paint, consumers may:
    <bullet> Get sample containers from the lab or use re-sealable 
plastic bags. Label the containers or bags with the consumer's name and 
the location in the house from which each paint sample was taken. 
Several samples should be taken from each affected room (see HUD 
Guidelines discussed below).
    <bullet> Use a sharp knife to cut through the edges of the sample 
paint. The lab should tell you the size of the sample needed. It will 
probably be about 2 inches by 2 inches.
    <bullet> Lift off the paint with a clean putty knife and put it 
into the container. Be sure to take a sample of all layers of paint, 
since only the lower layers may contain lead. Do not include any of the 
underlying wood, plaster, metal, and brick.
    <bullet> Wipe the surface and any paint dust with a wet cloth or 
paper towel and discard the cloth or towel.
    The U.S. Department of Housing and Urban Development (HUD) 
recommends that action to reduce exposure should be taken when the lead 
in paint is greater than 0.5 percent by lab testing or greater than 1.0 
milligrams per square centimeter by X-ray fluorescence. Action is 
especially important when paint is deteriorating or when infants, 
children, or pregnant women are present. Consumers can reduce exposure 
to lead-based paint.
    If you have lead-based paint, you should take steps to reduce your 
exposure to lead. You can:
    <bullet> Have the painted item replaced. You can replace a door or 
other easily removed item if you can do it without creating lead dust. 
Items that are difficult to remove should be replaced by professionals 
who will control and contain lead dust.
    <bullet> Cover the lead-based paint. You can spray the surface with 
a sealant or cover it with gypsum wallboard. However, painting over 
lead-based paint with non-lead paint is not a long-term solution. Even 
though the lead-based paint may be covered by non-lead paint, the lead-
based paint may continue to loosen from the surface below and create 
lead dust. The new paint may also partially mix with the lead-based 
paint, and lead dust will be released when the new paint begins to 
deteriorate.
    <bullet> Have the lead-based paint removed. Have professionals 
trained in removing lead-based paint do this work. Each of the paint-
removal methods (sandpaper, scrapers, chemicals, sandblasters, and 
torches or heat guns) can produce lead fumes or dust. Fumes or dust can 
become airborne and be inhaled or ingested. Wet methods help reduce the 
amount of lead dust. Removing moldings, trim, window sills, and other 
painted surfaces for professional paint stripping outside the home may 
also create dust. Be sure the professionals contain the lead dust. Wet-
wipe all surfaces to remove any dust or paint chips. Wet-clean the area 
before re-entry.
    <bullet> You can remove a small amount of lead-based paint if you 
can avoid creating any dust. Make sure the surface is less than about 
one square foot (such as a window sill). Any job larger than about one 
square foot should be done by professionals. Make sure you can use a 
wet method (such as a liquid paint stripper).
    <bullet> 4. Reduce lead dust exposure. You can periodically wet mop 
and wipe surfaces and floors with a high phosphorous (at least 5 
percent) cleaning solution. Wear waterproof gloves to prevent skin 
irritation. Avoid activities that will disturb or damage lead based 
paint and create dust. This is a preventive measure and is not an 
alternative to replacement or removal.
    <bullet> Professionals are available to remove, replace, or cover 
lead-based paint.
    <bullet> Contact your State and local health departments lead 
poisoning prevention programs and housing authorities for information 
about testing labs and contractors who can safely remove lead-based 
paint.
    <bullet> The U.S. Department of Housing and Urban Development (HUD) 
prepared guidelines for removing lead-based paint which were published 
in the Federal Register, April 18, 1990, page 1455614614. Ask 
contractors about their qualifications, experience removing lead-based 
paint, and plans to follow these guidelines.
    <bullet> Consumers should keep children and other occupants 
(especially infants, pregnant women, and adults with high blood 
pressure) out of the work area until the job is completed.
    <bullet> Consumers should remove all food and eating utensils from 
the work area.
    <bullet> Contractors should remove all furniture, carpets, and 
drapes and seal the work area from the rest of the house. The 
contractor also should cover and seal the floor unless lead paint is to 
be removed from the floor.
    <bullet> Contractors should assure that workers wear respirators 
designed to avoid inhaling lead.
    <bullet> Contractors should not allow eating or drinking in the 
work area. Contractors should cover and seal all cabinets and food 
contact surfaces.
    <bullet> Contractors should dispose of clothing worn in the room 
after working. Workers should not wear work clothing in other areas of 
the house. The contractor should launder work clothes separately.
    <bullet> Contractors should cleanup debris using special vacuum 
cleaners with HEPA (high efficiency particulate air) filters and should 
use a wet mop after vacuuming.
    <bullet> Contractors should dispose of lead-based paint waste and 
contaminated materials in accordance with State and local regulations.
    Government officials and health professionals continue to develop 
advice about removing lead-based paint. Watch for future publications 
by government agencies, health departments, and other groups concerned 
with lead-paint removal and prevention of lead poisoning.

                               References

    1.  http://www.webelements.com/webelements/elements/text/Pb/
key.html. Accessed March 31, 2004.
    2.  http://itsa.ucsf.edu/snlrc/encyclopaedia_romana/wine/
leadpoisoning.html. Accessed March 31, 2004.
    3. Agency for Toxic Substances and Disease Registry PHS, U.S. 
Department of Health and Human Services, Toxicological Profile for 
Lead. Atlanta, GA: Agency for Toxic Substances and Disease Registry; 
1999.
    4. Markowitz G, Rosner D. ``Cater to the children``: the role of 
the lead industry in a public health tragedy, 1900-1955. Am J Public 
Health. Jan 2000;90(1):36-46.
    5. Stewart MD. Notes on some obscure cases of poisoning by lead 
chromate manifested chiefly by encephalopathy. Medical News. 
1887;1:676-681.
    6. Gibson JL. A plea for painted railings and painted walls of 
rooms as the source of lead poisoning amongst Queensland children. 
Australian Med Gaz. 1904:149-153.
    7. Thomas HM, Blackfan KD. Recurrent meningitis, due to lead in a 
child of 5 years. Am J Dis Child. 1914;8:377-380.
    8. Kitman JL. Timeline: 8,500 Years of Lead--79 Years of Leaded 
Gasoline. The Nation; 2000.
    9. United State Environmental Protection Agency. 25 Years of the 
Safe Drinking Water Act: History and Trends: U.S. Environmental 
Protection Agency; 1999.
    10. http://www.epa.gov/safewater/dwh/t-ioc/lead.html. Accessed 
April 2, 2004.
    11. Etzel RA, Balk SJ, eds. Pediatric Environmental Health. 2d ed. 
Elk Grove Village, IL: American Academy of Pediatrics; 2003.
    12. Brent R. Environmental causes of human congenital 
malformations: the pediatrician's role in dealing with these complex 
clinical problems caused by a multiplicity of environmental and genetic 
factors. Pediatrics. 2004;113(4 (Supplement)):957-968.
    13. Sadler TW. Langman's Medical Embryology. 6th ed. Baltimore, MD: 
Williams & Wilkins; 1990.
    14. Mendola P, Selevan SG, Gutter S, Rice D. Environmental factors 
associated with a spectrum of neurodevelopmental deficits. Ment Retard 
Dev Disabil Res Rev. 2002;8(3):188-197.
    15. United State Environmental Protection Agency. Review of the 
National Ambient Air Quality Standards for Lead: Exposure Analysis 
Methodology and Validation. Washington, DC: Air Quality Management 
Division, Office of Air Quality Planning and Standards, U.S. 
Environmental Protection Agency.; 1989.
    16. Plunkett LM TD, Rodricks JV,. Differences between adults and 
children affecting exposure assessment. In: Guzelian PS HC, Olin SS, 
ed. Similarities and Differences Between Children and Adults: 
Implications for Risk Assessment. Washington, DC: ILSI Press; 1992:79-
94.
    17. Selevan SG, Rice DC, Hogan KA, Euling SY, Pfahles-Hutchens A, 
Bethel J. Blood lead concentration and delayed puberty in girls. N Engl 
J Med. Apr 17 2003;348(16):1527-1536.
    18. Solhaug M, Bolger P, Jose P. The developing kidney and 
environmental toxins. Pediatrics. 2004;113(4 (Supplement)):1084-1091.
    19. Canfield RL, Henderson CR, Jr., Cory-Slechta DA, Cox C, Jusko 
TA, Lanphear BP. Intellectual impairment in children with blood lead 
concentrations below 10 microg per deciliter. N Engl J Med. Apr 17 
2003;348(16):1517-1526.
    20. Bellinger D. Lead. Pediatrics. 2004;113(4 (Supplement)):1016-
1022.
    21. Hunter J, Urbanowicz MA, Yule W, Lansdown R. Automated testing 
of reaction time and its association with lead in children. Int Arch 
Occup Environ Health. 1985;57(1):27-34.
    22. Thomson GO, Raab GM, Hepburn WS, Hunter R, Fulton M, Laxen DP. 
Blood-lead levels and children's behaviour--results from the Edinburgh 
Lead Study. J Child Psychol Psychiatry. Jul 1989;30(4):515-528.
    23. Fulton M, Raab G, Thomson G, Laxen D, Hunter R, Hepburn W. 
Influence of blood lead on the ability and attainment of children in 
Edinburgh. Lancet. May 30 1987;1(8544):1221-1226.
    24. Needleman HL, Gunnoe C, Leviton A, et al. Deficits in 
psychologic and classroom performance of children with elevated dentine 
lead levels. N Engl J Med. Mar 29 1979;300(13):689-695.
    25. Burns JM, Baghurst PA, Sawyer MG, McMichael AJ, Tong SL. 
Lifetime low-level exposure to environmental lead and children's 
emotional and behavioral development at ages 11-13 years. The Port 
Pirie Cohort Study. Am J Epidemiol. Apr 15 1999;149(8):740-749.
    26. Gulson BL, Jameson CW, Mahaffey KR, Mizon KJ, Korsch MJ, 
Vimpani G. Pregnancy increases mobilization of lead from maternal 
skeleton. J Lab Clin Med. Jul 1997;130(1):51-62.
    27. Gulson BL, Mahaffey KR, Jameson CW, et al. Mobilization of lead 
from the skeleton during the postnatal period is larger than during 
pregnancy. J Lab Clin Med. Apr 1998;131(4):324-329.
    28. Goyer RA. Transplacental transport of lead. Environ Health 
Perspect. Nov 1990;89:101-105.
    29. Gulson BL, Jameson CW, Mahaffey KR, et al. Relationships of 
lead in breast milk to lead in blood, urine, and diet of the infant and 
mother. Environ Health Perspect. Oct 1998;106(10):667-674.
    30. Sanin LH, Gonzalez-Cossio T, Romieu I, et al. Effect of 
Maternal Lead Burden on Infant Weight and Weight Gain at One Month of 
Age Among Breastfed Infants. Pediatrics. May 1, 2001 2001;107(5):1016-
1023.
    31. Gulson BL, Mizon KJ, Palmer JM, et al. Longitudinal study of 
daily intake and excretion of lead in newly born infants. Environ Res. 
Mar 2001;85(3):232-245.
    32. Centers for Disease Control and Prevention. Managing Elevated 
Blood Lead Levels Among Young Children: Recommendations from the 
Advisory Committee on Childhood Lead Poisoning Prevention. Atlanta, GA: 
Centers for Disease Control and Prevention.; 2002.
    33. Liu X, Dietrich KN, Radcliffe J, Ragan NB, Rhoads GG, Rogan WJ. 
Do children with falling blood lead levels have improved cognition? 
Pediatrics. Oct 2002;110(4):787-791.
    34. Rogan WJ, Dietrich KN, Ware JH, et al. The effect of chelation 
therapy with succimer on neuropsychological development in children 
exposed to lead. N Engl J Med. May 10 2001;344(19):1421-1426.
    35. Tong S, Baghurst PA, Sawyer MG, Burns J, McMichael AJ. 
Declining blood lead levels and changes in cognitive function during 
childhood: the Port Pirie Cohort Study. Jama. Dec 9 1998;280(22):1915-
1919.
    36. Lanphear BP, Dietrich K, Auinger P, Cox C. Cognitive deficits 
associated with blood lead concentrations <10 microg/dL in U.S. 
children and adolescents. Public Health Rep. Nov-Dec 2000;115(6):521-
529.
    37. Soldin O, Pezzullo J, Hanak B, Miller M, Soldin S. Changing 
trends in the epidemiology of pediatric lead exposure: 
interrelationship of blood lead and ZPP concentrations and a comparison 
to the U.S. population. Ther. Drug Monitor. 2003;25:415-420.
    38. Moon RY. Personal communication. May 18, 2002.
    39. Gergen P, Fowler J, Maurer K, Davis W, Overpeck M. The burden 
of envi-
ronmental tobacco smoke exposure on the respiratory health of children 
2 
months through 5 years of age in the United States: Third National 
Health and 
Nutrition Examination Survey, 1988 to 1994. Pediatrics. 
1998;101(2):http://www.pediatrics.org/cgi/content/full/101/102/e108.
    40.  http:/ /aecf.org/cgi-bin/kc.cgi?action = profile&area = 
District + of + Columbia. Accessed April 4, 2004.
    41. http://www.atsdr.cdc.goc/statefactsheets/sfs-dc.pdf. Accessed 
April 4, 2004.
    42. Todd AC, McNeill FE, Fowler BA. In vivo X-ray fluorescence of 
lead in bone. Environ Res. Dec 1992;59(2):326-335.
    43. Meyers P. Cranky Consumer: Scouring the Home for Lead Paint. 
The Wall Street Journal. Tuesday, March 30, 2004 2004:D2.
    44. Centers for Disease Control and Prevention. Blood lead levels 
in residents of homes with elevated lead in tap water--District of 
Columbia, 2004. MMWR. March 30, 2004 2004;53:1-3.
                                 ______
                                 
   Response by Dana Best to Additional Question from Senator Jeffords

    Question. Do you believe that lead poisoning in children can be 
completely eliminated in this country without addressing lead in 
drinking water?
    Response. No. However, lead in drinking water is not the primary 
source of lead--lead paint is. Abatement of lead paint in homes and 
other settings in which children spend time should be our first 
priority. Abatement of lead in drinking water should be pursued 
simultaneously because of the potential scope of impact on entire 
populations. Information on lead abatement in homes can be found at:
    <bullet> The Office of Lead Hazard Control of the U.S. Department 
of Housing and Urban Development (HUD) publishes Lead Paint Safety--A 
Field Guide for Painting, Home Maintenance and Renovation Work. This 
booklet can be ordered by calling 1-800-424-5323 or by downloading from 
www.hud.gov/lea/leahome.html. HUD also offers a one-hour, web-based 
training course on visual inspection of paint at www.hud.gov/lea/
lbptraining.html.
    <bullet> The Center for National Lead-Safe Housing provides 
information about safe home repair at www.leadsafehousing.org/html/
tech_assistance.htm.
    <bullet> The Alliance to End Childhood Lead Poisoning provides 
information about safe home repair at www.aeclp.org/painting/
index.html.
                                 ______
                                 
   Responses by Dana Best to Additional Questions from Senator Crapo

    Question 1. When a patient at Children's Hospital is found to have 
lead in his or her bloodstream, what typically happens to address this 
problem? Do organizations or agencies other than the Hospital become 
involved?
    Response. All lead levels are reported to the DC Department of 
Health by Children's laboratory staff. The DC Department of Health 
typically makes a home visit when a blood lead level is 15 mcg/dl or 
higher, to suggest abatement, determine the source of the exposure, 
etc. For further details about these visits, please contact the DC 
Department of Health.
    If a child has a lead level higher than 10 mcg/dl, the 
recommendations of the Advisory Committee on Childhood Lead Poisoning 
Prevention are usually followed. These recommendations can be found at: 
http://www.cdc.gov/nceh/lead/CaseManagement/caseManage_main.htm.
    The following table is from page 41 of that document:

                                         Blood Lead Level (BLL) (mcg/dL)
----------------------------------------------------------------------------------------------------------------
              10-14                      15-19               20-44               45-69                >70
----------------------------------------------------------------------------------------------------------------
Lead education..................  Lead education....  Lead education....  Lead education....  Hospitalize and
Dietary.........................  Dietary...........  Dietary...........  Dietary...........   commence
Environmental...................  Environmental.....  Environmental.....  Environmental.....   chelation
                                                                                               therapy.
Follow-up blood lead monitoring.  Follow-up blood     Follow-up blood     Follow-up blood     Proceed according
                                   lead monitoring.    lead monitoring.    lead monitoring.    to actions for 20-
                                  Proceed according   Complete history    Complete history     44 mcg/dL.
                                   to actions for 20-  and physical exam.  and physical exam.
                                   44 mcg/dl if:.     Lab work;.........  Lab work:.........
                                  A follow-up Bll is  Hemoglobin or       Hemaoglobin or
                                   in this range at    hematocrit.         hematocrit.
                                   least 3 months     Iron status.......  Iron status.......
                                   after initial        ................  FEP or ZPP........
                                   venous test.       Environmental       Environmental
                                    ................   investigation.      investigation.
                                    or                Lead hazard         Lead hazard
                                  BLLs increase.....   reduction.          reduction.
                                                      Neurodevelopmental  Neurodevelopmental
                                                       monitoring.         monitoring.
                                                      Abdominal X-ray     Abdominal X-ray
                                                       (if particulate     with bowel
                                                       lead ingestion is   decontamination
                                                       suspected) with     if indicated
                                                       bowel              Chelation therapy.
                                                       decontamination
                                                       if indicated.

----------------------------------------------------------------------------------------------------------------

    The following actions are NOT recommended at any blood lead level:
    <bullet> Searching for gingival lead lines
    <bullet> Testing of neurophysiologic function
    <bullet> Evaluation of renal function (except during chelation with 
EDTA)
    <bullet> Testing of hair, teeth, or fingernails for lead
    <bullet> Radiographic imaging of long bones
    <bullet> X-ray fluorescence of long bones

    Question 2. Recognizing that cases vary in their particulars, what 
important examples can you provide of atypical treatment situations?
    Response. There are bizarre cases in which the recommendations do 
not apply. For instance, there was a patient here at Children's who had 
been shot by a ``stray'' bullet at age 3. Since the bullet lodged near 
the child's spinal column, it could not be removed. At age 10 the child 
was still undergoing regular chelation due to chronically elevated lead 
levels. (This case illustrates two of our city's major problems.)

                               __________

    Statement of Erik D. Olson, Senior Attorney, Natural Resources 
                            Defense Council

    Thank you for the opportunity to submit this testimony. I am Erik 
D. Olson, a Senior Attorney with the Natural Resources Defense Council 
(NRDC), a national non-profit public interest organization dedicated to 
protecting public health and the environment, with over 500,000 
members. I am Chair of the Campaign for Safe and Affordable Drinking 
Water, an alliance of over 300 medical, public health, nursing, 
consumer, environmental, and other groups working to improve drinking 
water protection. I also serve on the steering committee of a new 
organization called Lead Emergency Action for the District (LEAD), a 
coalition of local and national civic groups, environmental, consumer, 
medical, and other organizations and citizens urging a stronger public 
response to the DC lead crisis. I testify today only on behalf of NRDC.
    The drinking water lead crisis in Washington DC poses serious 
public health risks to thousands of residents of the national capital 
area, and casts a dark shadow of doubt over the ability, resources, or 
will of Federal and local officials to fulfill their duty to protect 
our health. Preliminary data released by the Centers for Disease 
Control and Prevention recently found that there are reasons to be 
concerned about lead in DC tap water. While severe acute lead poisoning 
due to drinking water was not found, blood lead levels in DC children 
who drink water in homes served with lead lines did not decrease, 
whereas they did decrease in children served by non-lead lines. This 
suggested to health experts that lead in tap water is likely 
contributing to higher blood lead levels in some children in the 
District. Because of deficiencies in the DC blood lead monitoring 
program design, and because blood lead levels begin to drop fairly 
shortly after exposure is stopped (with time much of the lead deposits 
in bone and tissues), it is quite possible that more serious problems 
were not detected. Mary Jean Brown, the lead poison prevention chief at 
the CDC and a co-author of the report said in releasing the report 
that,

          ``there is no safe level of lead . . . Even a small 
        contribution, especially in small children, is not something 
        that we want to happen. . . . We don't want to increase the 
        blood lead levels of those individuals by even 1 microgram if 
        it can be prevented.''

    See Avram Goldstein, ``Blood Lead Levels Affected by 
Disinfectant,'' Washington Post, March 31, 2004, available online at 
http://www.washingtonpost.com/wp-dyn/articles/A37404-2004Mar30.html and 
CDC study at http://www.cdc.gov/mmwr/preview/mmwrhtml/mm53d330al.htm.
    It is important to note that new data published in major medical 
journals the past few years show that even at levels below 10  g/dl in 
blood, lead has been linked to reduced cognitive function in children, 
and surprisingly, the most significant effects are seen at levels below 
10  g/dl. See CDC Advisory Committee on Childhood Lead Poisoning 
Prevention, Evidence of Health Effects of Blood Lead Level <10  g/dl, 
available online at http://www.cdc.gov/nceh/lead/ACCLPP/meetingMinutes/
lessThan 10MtgMAR04.pdf.
    The U.S. Environmental Protection Agency (EPA) has the primary 
responsibility for protecting drinking water only in Washington DC, 
Wyoming, and a few U.S. territories. EPA has failed to fulfill its 
obligation to aggressively oversee the safety of DC's water supply, to 
ensure that the public is fully apprised of the health threats posed by 
our drinking water, and to enforce the law.
    This raises important questions about the adequacy of EPA's 
drinking water program not only for the Nation's Capital, but also for 
the whole Nation. The U.S. Army Corps of Engineers' Washington Aqueduct 
Division (the Corps) has failed to treat the water it delivers to DC 
and neighboring Northern Virginia communities sufficiently to assure 
that the water is not corrosive, in order to reduce lead contamination. 
The DC Water and Sewer Authority (WASA) has failed to act promptly or 
adequately on the lead contamination crisis, and has repeatedly 
confused and mislead the public about the lead problem. To date, the 
local and Federal response has been far too slow and manifestly 
inadequate. The Nation's capital's water supply should be the best in 
the world, an international model. Instead, it is among the worst big 
city supplies in the Nation.
    It should not be assumed that Washington is the only city in the 
U.S. affected by lead or other important tap water problems. We are now 
learning of lead problems in Northern Virginia, and there are several 
other cities have struggled with lead contamination in recent years, 
including:
    <bullet> Seattle, Washington (19 ppb 90th percentile lead according 
to Annual Consumer Confidence Report (CCR) issued in 2003, citing 1997 
data).
    <bullet> Portland, Oregon (17 ppb 90th percentile according to CCR 
issued in 2003)
    <bullet> St. Paul, Minnesota (45 ppb 90th percentile in 1996, 
reportedly brought down through treatment to 25 ppb in 1999, 20 ppb in 
2000, and I 1 ppb in 2003).
    <bullet> Bangor, Maine (6-8 ppb 90th percentile from 1993-1999, 
increased to ``15 ppb'' in 2001 after switch to chloramines and 
subsequent nitrification problem; reportedly reduced since then after 
additional treatment-compliance issue boiled down to 1 ppb in one home 
out of 38 tested).
    <bullet> Madison, Wisconsin (22.2 ppb 90th percentile lead level, 
city is now doing lead service line replacement, according to February 
2004 report available online at http://www.ci.madison.wi.us/water/
Report%20PhaseII%2OS.pdf).
    <bullet> Greater Boston, Massachusetts communities (most recent 
Mass. Water Resource Authority's 2003 CCR reports system-wide 
(consolidated) 90''' percentile lead level has dropped from 65 ppb in 
1992 to 11 ppb in 2002, but MWRA's 2001 CCR reported, on a community-
by-community basis, that 13 Boston area communities substantially 
exceeded the 90th percentile level. It is unclear why MWRA stopped 
reporting these community-by community data in its annual CCRs 
thereafter.)
    <bullet> Newark, New Jersey (2001 90th percentile in Wanaque system 
was 24 ppb and 13 ppb in Pequannock system; 2002 level reportedly 
changed to 12 and 14, respectively, with new corrosion treatment).
    <bullet> New York City (2002 and 2001 90th percentile levels 
reported in CCR at 15 ppb, with levels up to 3,555 ppb in 2001; 
compliance issue boils down to 1 ppb in one home out of 107 tested in 
all of NYC).
    <bullet> Oneida, New York (2002 CCR reported 19 ppb 90th percentile 
level, reportedly doing lead service line replacement).
    As several of these examples highlight, there are opportunities to 
``game'' the system by slightly altering the monitoring program. Though 
there is evidence that this may have happened in Washington DC, we are 
not aware of any evidence of this elsewhere, though the temptation 
could be large, and the lack of serious EPA oversight makes detection 
of such problems unlikely. If the compliance of a system serving 
millions of people boils down to less than 1 ppb measured at one or a 
few homes out of about 100 tested, this raises significant issues.
    Many other cities have had similar lead problems to those noted 
above. However, incredibly EPA maintains no accurate up-to-date 
national information on this issue. Some of these cities will assert 
that they are now in compliance with EPA's lead action level despite 
recent documented problems, but EPA has done little to aggressively 
ensure that this is correct.
    School systems in many cities across the country including in 
Seattle, Boston, Baltimore, Philadelphia, Montgomery County, Maryland, 
and many others have found serious lead contamination problems, but 
often have been slow to inform parents and resolve the problem. Many 
other States and school systems have entirely failed to comply with the 
Lead Contamination Control Act of 1988s' mandate to test school water 
for lead and replace coolers that serve lead-contaminated water. EPA 
and many States have done a poor job of assuring that the EPA lead 
rule, and the school testing and cooler programs are fully implemented.
    The EPA Inspector General has recently issued a stinging report 
finding that EPA's national drinking water data base mandated by 
Congress and EPA rules is woefully incomplete and out of date, and that 
EPA has repeatedly mislead the public about drinking water quality and 
compliance because violations are seriously underreported.\1\ EPA has 
acknowledged that there are major problems with State reporting of all 
violations and specific lead levels to EPA--indeed, NRDC has learned 
that fully 20 States have not been reporting any required information 
on lead rule compliance, contrary to EPA rules. Yet EPA has has failed 
to crack down on States that are not complying with Federal reporting 
rules, making effective Federal tracking, oversight, and enforcement 
impossible. Moreover, the Washington crisis and experience in other 
cities highlight that the EPA lead rule and public education 
requirements are manifestly inadequate and almost designed to be 
difficult to enforce.
---------------------------------------------------------------------------
    \1\ EPA Inspector General, ``EPA Claims to Meet Drinking Water 
Quality Goals Despite Persistent Data Quality Shortcomings,'' Report 
2004-P-0008, available online at www.epa.gov/reports/2004/20040305-
2004-P-0008.pdf.
---------------------------------------------------------------------------
    Below, we summarize some key problems with the response to the lead 
crisis, and the actions that need to be taken to resolve the problem 
locally and to avoid possible repetition of the problem nationally:
    EPA. The EPA bears a special responsibility for addressing the DC 
water crisis, since EPA has primary responsibility for drinking water 
protection only in Washington, DC and Wyoming. EPA must take emergency 
enforcement action against WASA and the Corps. EPA's recent notice of 
violation issued to WASA was extremely long in coming. EPA's deals with 
WASA and the Corps lack the clarity, detail, and enforceability that 
are needed to assure this problem is promptly resolved. Only years 
after the alleged violations, of which EPA was well aware, and only 
after a barrage of 2 months of adverse publicity, did EPA take this 
feeble action of issuing an NOV. An emergency enforcement order should 
be issued that would not only mandate immediate actions to deal in the 
short-term with the lead crisis, but should also require a 
comprehensive top-to-bottom third party review of both WASA and Corps 
operations.
    EPA has failed to ensure prompt and accurate public education and 
reporting on lead problems, and there are substantial questions about 
whether EPA adequately oversaw WASA's lead monitoring and sample 
invalidations. EPA failed to promptly and adequately review, or to 
insist upon the updating the Corps' corrosion control program. It is 
unclear whether EPA insisted upon an adequate and accurate materials 
survey, and EPA reportedly allowed WASA to avoid lead service line 
replacement by taking advantage of a regulatory loophole.
    EPA has been slow to force WASA to redo its manifestly invalid and 
misleading school testing, or to mandate testing of day care centers or 
private schools. The EPA lead rule itself, which is drafted in a way 
that makes it extremely difficult to enforce, needs to be substantially 
strengthened. In addition, as noted above, EPA's data reporting systems 
are woefully inadequate, to the point that EPA management cannot 
accurately and timely answer simple questions such as ``which public 
water systems are above the lead action level and which are replacing 
lead service lines?'' EPA also has done little to ensure that school 
testing for lead has been carried out nationally, perhaps in part due 
to a court ruling casting doubt on the program (Acorn v. Edwards, 81 
F.3d 1387 (5h Cir. 1996)). EPA's inspection and enforcement program for 
drinking water has always been weak, but has gotten demonstrably worse 
during the Bush Administration, as is shown in graphs a the end of this 
testimony.
    Army Corps of Engineers. The Corps has failed to ensure that its 
water is adequately treated to reduce its corrosivity and to thereby 
reduce lead levels in Washington and the Northern Virginia suburbs that 
it serves. The Corps has repeatedly responded to water quality problems 
by adopting the cheapest and often least effective band-aid solutions. 
Instead of using orthophosphate or other sophisticated corrosion 
inhibiters as recommended as best by its consultants, the Corps chose 
to simply adjust water pH with lime, a cheaper and apparently less 
effective alternative.
    Instead of moving toward advanced treatment such as granular 
activated carbon filters and UV light or ozone disinfection, or 
membranes to reduce cancer-causing (and possibly miscarriage and birth 
defect-inducing) disinfection byproducts, and to more effectively 
remove the dangerous parasite Cryptosporidium and other contaminants, 
the Corps opted for the cheapest and least effective choice. It simply 
added ammonia to its chlorine to make chloramines. The switch to 
chloramines did slightly reduce chlorination byproduct levels, but also 
appears to have increased corrosivity of the water and therefore 
increased lead problems. It should be noted that contrary to the 
inaccurate assertions of some critics, the EPA rules setting new limits 
on disinfection byproducts were not the result of wild environmental 
extremists, but were negotiated by a diverse regulatory negotiating 
committee over a several-year period. The committee included major 
water utility trade associations, chlorine manufacturers, health 
departments, public health.experts, States, local officials, and 
environmentalists (see 1998 agreement in principle at http://
www.ena.gov/safewater/mdbp/mdbpagre.html).
    WASA. WASA's response to the lead crisis has been slow, plagued by 
misleading statements to the public and even to senior DC officials, 
and often characterized by missteps and at best grudging compliance 
with EPA rules. Whether it is the alleged firing of a WASA employee for 
reporting lead problems to EPA, or the failure to notify customers with 
high lead levels for many months after samples were taken, or the 
failure to effectively notify the Mayor, City Council, and all city 
residents of the extensive and serious lead problem until the 
Washington Post broke the story, WASA has a lot to answer for. EPA has 
recently listed six alleged violations of Federal regulations that may 
have contributed to the lack of public knowledge. See EPA Non 
Compliance Letter to WASA, dated March 31, 2004, available online at 
http://www.epa.gov/dclead/johnson-letter2.htm.
    WASA's conflicting advice to customers (such as a February 9 letter 
to all customers telling them to flush their water for 15-30 seconds, 
followed by a public announcement a few days later to flush lead lines 
for 10 minutes, followed a few days later by a recommendation that 
pregnant women and children under six served by lead service lines 
should use a filter) has confused and justifiably outraged citizens. 
WASA's invalid and misleading testing of city schools, in which 
virtually all samples were taken after water was flushed for 10 minutes 
(with the likely effect of reducing or eliminating lead levels), 
necessitates a re-conducting of a valid school and day care testing 
program. At the mayor's and EPA's insistence, WASA has now said it will 
do additional school testing.
    In addition, it appears that WASA's partial lead service line 
replacement program may be making matters worse, increasing lead levels 
in some homes' water. Since local and Federal authorities have approved 
and encouraged the use of lead service lines in DC for over 100 years, 
we believe that WASA should fully remove all of the lead service lines 
at its expense (with Federal assistance, see ``Congress'' below), 
instead of stopping at the property line. A comprehensive third-party 
public review of WASA's lead program and all water quality operations 
also is desperately needed.
    Congress. We urge Congress to help DC and EPA to fund the response 
to the lead crisis, including lead service line replacement and 
upgrades to the DC and Corps water infrastructure. Congress also should 
respond to the national water infrastructure problem through national 
legislation and increased appropriations. In addition, Congress should 
vigorously oversee EPA's drinking water program, including its national 
implementation of the lead rule and its enforcement and data collection 
programs. Members of this Committee should urge their colleagues on the 
Appropriations Committee to increase funding for EPA drinking water 
programs, and particularly for drinking water enforcement. We also urge 
Congress to insist that EPA take emergency enforcement action against 
WASA and the Corps, as discussed below.
    Specifically, among the actions that we believe Congress should 
take to address problems raised by the lead crisis are:
    <bullet>  Water Infrastructure or Grants/Trust Fund Legislation
        <bullet>  Congress should substantially increase the Safe 
        Drinking Water State Revolving Fund authorization and 
        appropriations (now funded at $850M; authorization of $1B 
        expired in 2003).
        <bullet>  Congress should adopt broad water infrastructure bill 
        and/or water infrastructure trust fund legislation.
        <bullet>  Congress should adopt targeted legislation for lead 
        rule compliance/lead service line replacement and filters for 
        DC residents at least, since the Federal Government approved 
        and oversaw the installation of the lead lines.
        <bullet>  The Corps of Engineers should pay for DC lead service 
        line replacement since Corps built the system, and operates the 
        treatment plant that is providing corrosive water. Also, 
        Federal agents (federally appointed Commissioners and 
        engineers) approved and sometimes required lead service lines 
        in DC.
        <bullet>  Congress should adopt new legislation that provides 
        grants to needy water systems, like Reid-Ensign bill (S. 503, 
        107th Congress).
    <bullet> Fix Lead Pipe and Fixtures provision in the SDWA
        <bullet>  Congress should redefine ``Lead Free'' in SDWA 
        Sec. 1417(d) to mean really lead free (i.e. no lead added, and 
        no more that 0.1 or 0.25 percent incidental lead--as required 
        by L.A., Bangor, Maine, etc.).
        <bullet>  Congress should fix the public notice provisions in 
        SDWA Sec. 1417(a)(2), which clearly have been inadequate (as 
        shown by the DC experience).
    <bullet> Fix the SDWA lead in schools and day care provisions (SDWA 
Sec. Sec. 1461-1463)
        <bullet>  Congress should redefine lead free in the Lead 
        Contamination Control Act (LCCA), which added SDWA Sec. 1461, 
        to mean really lead free (0.1 percent or 0.25 percent, see 
        above).
        <bullet>  Congress should order an EPA review of Sec. 1462 
        implementation and effectiveness of lead fountain recall 
        provision in all States.
        <bullet>  Congress should clarify Sec. Sec. 1461-63 to 
        eliminate any constitutionality doubts raised by Acorn v. 
        Edwards, 81 F.3d 1387 (5th Cir. 1996).
        <bullet>  Congress should require ongoing retesting of all 
        schools and day care centers in light of Acorn and widespread 
        non-compliance, and new info on lead leaching.
    <bullet> Fix the EPA Lead Rule & Associated Regulations
        <bullet>  Adopt a 10 or 15 ppb MCL at the tap. There was an MCL 
        (50 ppb) until 1991.
        <bullet>  As a clearly second-best alternative, the rule needs 
        serious overhaul:
                <bullet>  Require immediate review of corrosion control 
                programs for systems that make treatment changes, and 
                also require review periodically;
                <bullet>  Change monitoring requirements so systems 
                cannot go for years without testing, and to clarify and 
                strengthen test methods, site selection, and number of 
                tests (50 or 100 per city are not enough);
                <bullet>  Strengthen/overhaul public education and 
                public notice requirements in 40 CFR 141.85 which are 
                obviously inadequate;
                <bullet>  Require full lead service line replacement, 
                or at a minimum require that water systems that 
                approved, authorized, or required use of lead service 
                lines to replace those lines if they are contributing 
                to lead over action level;
                <bullet>  Require in-home certified filters to be 
                provided to high-risk people who have high lead levels, 
                with water system-supplied maintenance in accordance 
                with 40 CFR 141.100;
                <bullet>  Eliminate the loophole that allows systems to 
                count homes tested at below 15 ppb as is their lead 
                service lines were replaced in implementing the 7 
                percent/year lead service line replacement provision;
                <bullet>  Require an overhaul/upgrade of EPA's 
                compliance & data tracking.
    <bullet> Fix the Consumer Confidence Report & Right to Know 
Requirements
        <bullet>  WASA's report said on the cover ``Your Drinking Water 
        is Safe'' and buried the facts. No one knew of the problem. 
        Similar problems have been ocumented for water systems across 
        the country. EPA's right to know and consumer confidence report 
        rules need to be overhauled & strengthened.
    <bullet> Fix SDWA Standards Provisions
        <bullet>  Congress should require that standards to protect 
        pregnant women, children, vulnerable people.
        <bullet>  Congress should overhaul the new contaminant 
        selection & 6 year standard review provisions. These provisions 
        have been complete failures since 1996.

                         EPA'S RESPONSIBILITIES

    EPA has known, at least since the mid-1990s, that lead 
contamination of tap water is a significant issue in Washington, and 
that the public was ill-informed about the problem. In 1995-1996, in 
response to a Freedom of Information Act request, NRDC learned that 
many homes across the city had lead levels well in excess of the EPA 
Action Level, and that those homeowners had not been informed of the 
contamination. The Washington Post ran a story about the issue in April 
1996. Meanwhile, the Corps' filed its corrosion control plan with EPA, 
and EPA substantially delayed in its approval, well beyond the legal 
deadline. Finally, EPA apparently simply accepted the Corps' plan to 
use only pH adjustment, rather than requiring the Corps to further 
study-or use orthophosphate or other more sophisticated corrosion 
inhibiters recommended by some consultants. When the Corps later 
switched to chloramines as a disinfectant, EPA made the serious mistake 
of not insisting upon a full review of the corrosion control plan in 
light of the apparently more corrosive disinfectant.
    Even when the lead Action Level was exceeded in Washington in 2001, 
EPA required no changes in corrosion control, went along with WASA's 
plan to replace only a small number of lead service lines, and did not 
insist that WASA conduct an effective public education program. There 
also are substantial unresolved questions about whether EPA allowed 
WASA to ``invalidate'' lead samples and avoid an exceedence of the 
Action Level, as alleged by a former WASA employee who was reportedly 
fired for informing EPA of the lead problem. Additionally, while EPA 
has issued a notice of violation recently to WASA for failing to comply 
with public notification and public education rules, EPA has never 
challenged the adequacy of WASA's water quality reports sent to all 
consumers in June 2003 boldly proclaiming that ``YOUR DRINKING WATER IS 
SAFE,'' despite the exceedence of the lead Action Level.
    Moreover, while EPA enforcement of the Safe Drinking Water Act 
(SDWA) has never been strong, this testimony documents that nationally, 
it has substantially dropped off since President Bush took office (see 
Figures at the end of this testimony). EPA's drinking water 
inspections, administrative penalty orders, administrative penalties, 
and other measures of enforcement activity generally have taken a 
substantial downturn in the past 3 years. We understand there is only 
one EPA staffer in EPA's Washington enforcement office dedicated to 
drinking water enforcement (though there are pieces of a few others who 
spend small amounts of time on drinking water enforcement), and that 
the dedicated drinking water enforcement staffing in the EPA's regions 
is small and dwindling. This enforcement downturn may have contributed 
to the lack of action in this case, compared to a far more vigorous EPA 
enforcement response to previous DC water crises in 1993-1994 and 1995-
1996. There is a serious need for a major infusion of resources and a 
will to enforce in EPA's drinking water and enforcement programs.
    The only solution to the DC water crisis is for EPA to initiate a 
full civil and criminal investigation, and to immediately issue 
emergency administrative orders to WASA and the Corps. The orders 
should mandate that they address the multitude of problems with their 
response to the lead crisis and other water quality problems, including 
enforceable deadlines for:
    (1) expedited, valid testing of all schools and day care centers;
    (2) expanded testing of multiple family and single family homes and 
apartments beyond those with lead service lines;
    (3) reissued accurate, understandable notices to consumers of lead 
levels, health risks, and options to avoid lead;
    (4) professional installation and maintenance of certified filters 
for homes with lead service lines or high lead levels in their water, 
and that have young children, pregnant women, women who expect they may 
become pregnant, and other high risk individuals;
    (5) an aggressive, honest, ongoing public education campaign 
developed with public input;
    (6) a comprehensive third-party review of all available records and 
archives to determine whether the DC materials survey correctly 
identifies all locations where lead components were used;
    (7) an expedited third-party review of the Corps' corrosion control 
and disinfection byproduct control strategy, with mandatory 
implementation of solutions by specified dates certain; and
    (8) a top-to-bottom third party expert review of WASA and the 
Corps' water quality, source water, and overall performance, including 
a detailed review of their implementation of past consultant 
recommendations, Comprehensive Performance Evaluations, and sanitary 
surveys, and recommendations for long-term compliance with current and 
upcoming rules and water quality objectives. The review should seek 
public input and should be published.

(See LEAD coalition recommendations below for a more detailed 
discussion of the terms of possible orders). Finally, EPA must overhaul 
its lead rule, and its overall and substantially better fund its 
drinking water and enforcement program's oversight, sampling, data 
collection, and legal enforcement to ensure that this or other similar 
problems are not repeated in other cities around the country.

             THE ARMY CORPS OF ENGINEERS' RESPONSIBILITIES

    The Corps has repeatedly opted for the cheapest, easiest way out of 
water quality problems, even if the ``solution'' is manifestly 
inadequate. Thus, instead of following consultants' advice to consider 
aggressive and sophisticated corrosion inhibiters such as 
orthophosphates to reduce lead problems, the Corps chose merely to 
adjust pH. Instead of addressing the underlying problem creating the 
high chlorination byproduct contamination of city water by installing 
advanced treatment such as activated carbon and ozone or UV 
disinfection, or membranes, the Corps opted for a cheap ``band-aid'' 
solution of using chloramines alone, apparently exacerbating the 
corrosion problem with our water. As noted above, EPA should 
immediately issue an emergency order to the Corps requiring: (1) a 
comprehensive and public third party expert review of the Corps' 
corrosion control and water treatment problems; (2) enforceable 
deadlines for completion of the review and implementation of recommend 
solutions; and (3) a longer-term top-to-bottom third party review, with 
public input, of the Corps' water quality and treatment.

         DC WATER AND SEWER AUTHORITY'S (WASA) RESPONSIBILITIES

    WASA has bungled its response to the DC lead problem. In addition 
to violating EPA rules, WASA's public education and public notice 
efforts have been conflicting, confusing, misleading, and manifestly 
woefully inadequate. The direct notices provided to customers whose 
water was tested and confirmed to be highly contaminated was misleading 
and failed to provide any sense of health risk or urgency. The WASA 
water quality reports issued to the public proclaiming that ``YOUR 
DRINKING WATER IS SAFE,'' despite evidence to the contrary, was highly 
misleading, as were a variety of other WASA public communications. 
WASA's changing advice on how long and whether to flush tap water, and 
whether filters are necessary, has confused the public.
    WASA's program testing about 750 samples from over 150 city 
schools' fountains and faucets was fundamentally flawed and either 
completely inept or intentionally misleading. WASA admits that contrary 
to standard EPA regulatory protocol and standard scientific practice, 
they ran the water for 10 minutes before taking school samples, thereby 
likely substantially reducing lead levels in the samples. No child runs 
water for 10 minutes before drinking it. WASA's press conference 
portraying the results as demonstrating that there is no lead problem 
in DC schools was highly misleading and likely false. The Mayor and EPA 
have now told WASA to redo this testing. It should be done for all 
school and day care center faucets and fountains used by children for 
consumption.
    In addition, there are serious unanswered questions about when WASA 
first learned of the lead problem, whether WASA ``invalidated'' lead 
samples to avoid exceeding the Action Level, and whether WASA fired an 
employee allegedly for notifying EPA of water quality problems (as has 
been found by a U.S. Department of Labor whistleblower review). It is 
also unclear whether the city's materials survey (intended to identify 
lead components in the system) adequately documents where lead service 
lines and high risk homes are located. The WASA lead sampling plan and 
monitoring program clearly are inadequate, since to date they have not 
sought to document the extent of the lead problem in homes not served 
by lead service lines.
    WASA's lead service line replacement program is insufficiently 
aggressive and will not promptly resolve the city's lead problems. In 
addition to the slow pace of replacement (at WASA's current rate, it 
will take about 15 years to complete), it also is becoming apparent 
that partial lead service line replacement (leaving the lead line on 
the homeowner's property in place) may actually make lead problems 
worse. Partial service line replacement can exacerbate lead problems by 
shaking loose lead particles during and after the replacement process, 
and by creating galvanic corrosion (similar to a battery) caused when 
two pipes made of different metal are connected. We believe that WASA 
should pay for--with Federal assistance--full lead service line 
replacements.
    A long history of problems with the operation and maintenance of 
the DC water distribution system, including past city-wide boil water 
alerts during the microbial crises in 1993-1994 and 1995-1996, and 
WASA's inability or unwillingness to candidly inform customers and 
apparently even senior city officials about water quality problems 
makes clear the need for EPA to issue an emergency order mandating a 
comprehensive top-to-bottom third party expert review of WASA's water 
quality and operations, with public input and public release of the 
fmdings, and a schedule for implementation of the recommendations.

                  HISTORY OF RECENT LEAD CRISIS IN DC

    On Saturday January 31, 2004, residents of the Nation's Capitol 
picked up their morning papers and were stunned to learn that thousands 
of homes' drinking water in the District was seriously contaminated 
with lead. Officials at the DC Water and Sewer Authority (WASA) and at 
the U.S. Environmental Protection Agency (EPA) had known about the lead 
problem for over a year, and probably longer, but had failed to 
effectively notify the public about the problem. The Mayor, City 
Council, Members of Congress, and the general public were caught by 
surprise that over 4,000 of 6,000 homes whose water WASA tested was 
contaminated with lead at levels above EPA's action level-the safety 
level at which Federal rules require prompt action to reduce lead 
levels. There has been over a month of front-page stories, saturation 
TV and radio coverage, hostile City Council hearings, public outrage, 
and repeated (albeit often conflicting) WASA public statements that 
there was no serious health threat. Finally, WASA recommended on 
February 25 that pregnant women and children under age six whose homes 
were served by lead service lines should not drink city water, fueling 
further public concern, confusion, and outrage that WASA and EPA had 
known about the health threat for so long and never previously told 
pregnant women and parents of young children not to drink the water.
    WASA also held a press conference in late February to announce that 
school drinking water was safe, based upon testing of over 750 
fountains and faucets in DC schools. It then came out that the results 
were seriously misleading because in almost all cases, WASA flushed the 
water lines for 10 minutes, likely removing most lead from the water, 
contrary to EPA rules and all scientific protocols for lead testing. No 
child stands at a fountain flushing water for 10 minutes before taking 
a drink. WASA refused to retest DC school drinking water, or to 
comprehensively test day care centers, posing a serious health risk to 
DC school and preschool children, until ordered to do so by the Mayor 
and EPA.
    Now we are learning that it appears that similar problems may be 
plaguing Northern Virginia communities that also receive their water 
from the U.S. Army Corps of Engineers' Washington Aqueduct Division 
(the Corps). The Corps changed its disinfection practice to use 
chloramines in 2000, a switch many experts believe may account for 
increased corrosivity of the water and therefore more lead leaching 
into tap water. Chloramines are a ``band-aid'' that modestly reduce 
cancer-causing chlorination byproducts, but only a switch to modern 
water treatment technologies such as granular activated carbon plus UV 
light or ozone disinfection will actually solve both the chlorination 
byproduct problem.
    The February 25 ``don't drink the water'' advice, though necessary, 
is woefully inadequate. Citizens are infuriated that they have been 
mislead and given conflicting advice. District leaders announced, as 
this scandal erupted in early February, that they would name an 
``independent'' blue ribbon panel to investigate. However, this was 
followed days later by an announcement of a panel consisting entirely 
of WASA and other District government officials, with no independent 
experts and no citizens, environmentalists, or consumer 
representatives. The District government's retreat from its promise 
that there would be an independent review showed a lack of commitment 
to swiftly resolve this serious health problem or to get to the bottom 
of why WASA continues to fail in its duty to protect the public.
    The decisions to approve the use of lead service lines were made 
with the explicit approval and oversight of Federal officials, who were 
overseeing the construction of the city's water lines and supply. There 
had been a vigorous public debate about the safety of lead service 
lines stretching back to the 1890s, yet Federal officials who ran the 
city supply decided to use lead lines. Thus, the Federal Government 
bears some culpability for the problem.

                               CONCLUSION

    We urge members of this Committee to consider the legislative and 
oversight recommendations noted above. Without changes in applicable 
statutory provisions, and aggressive Congressional oversight, it is 
likely that problems like those in Washington, DC could happen in many 
cities and towns across the country. Public health protection requires 
increased vigilance by EPA, Congress, health authorities, and water 
utility professionals, and increased public awareness.
                                 ______
                                 
                               APPENDIX A

                    LEAD COALITION'S RECOMMENDATIONS

    Lead Emergency Action for the District (LEAD), a coalition of local 
and national health, environmental, and other citizen organizations of 
which NRDC is a member, recommended the following actions in February; 
only part of a few of these recommendations have been carried out:
    1. The U.S. Environmental Protection Agency (EPA) has the 
responsibility to immediately take enforcement action against WASA to 
ensure our health is protected, and should initiate a full criminal and 
civil enforcement investigation.
    The EPA has primary responsibility for overseeing the safety of the 
District's drinking water supply. Unlike its vigorous actions to 
resolve microbiological threats a decade ago, the agency has shirked 
its responsibility in response to the recent lead problem. The EPA 
should immediately initiate an enforcement action under its emergency 
order authority (which allows the EPA to enforce when there is an 
imminent health threat, requiring no finding of a violation of law), 
and should initiate a parallel criminal and civil enforcement 
investigation. The EPA order should mandate several specific actions, 
including enforceable deadlines for:
    (1) Expedited, valid testing of all schools and day care centers, 
both first draw and flush samples.
    (2) Expanded testing of homes beyond those with lead service lines. 
WASA should arrange free water lead tests for all DC residents. (This 
is what the New York City Department of Environmental Protection has 
been doing for more than 10 years.) Notice of these free lead tests 
should be drafted in consultation with EPA and the public, and should 
note the health implications of elevated lead levels in water and the 
threat from lead paint in DC
    (3) Reissued accurate, understandable notices to consumers of lead 
levels, health risks, and options to avoid lead, by mail and through 
broadcast media. WASA should be required to immediately notify all DC 
households whether they are believed to have lead service lines or not, 
what the risks are, and should arrange for free lead testing of any tap 
water on request. Notices similar to those recently sent to lead 
service line customers should be sent to customers who are not believed 
to have lead service lines noting that there still may be a risk of 
lead contamination, and offering to arrange for free lead testing.
    (4) Professional installation and maintenance of certified filters 
for homes with lead service lines or high lead levels in their water, 
and that have young children, pregnant women, women who expect they may 
become pregnant, and other high risk individuals.
    (5) An aggressive, honest, ongoing public education campaign 
developed with public input. This should include several specific 
requirements, such as:
    a. WASA should send all DC residents a detailed city-wide map of 
all areas with known or suspected lead service lines with accompanying 
health and other explanations.
    b. WASA must acknowledge the public's right to know and issue a 
city-wide map of lead levels detected on a detailed map, and should 
provide real time monitoring results for lead and all contaminants 
found in its water.
    c. WASA must notify any home with a lead service line that has been 
found to have excessive lead in an appropriate water test that it is 
eligible for free lead service line replacement, and the schedule for 
replacement. The notice should also note whether WASA is responsible 
for only part of the service line replacement or full service line 
replacement under DC law.
    d. EPA and WASA must issue notices that publicly recommend that 
those pregnant women, or parents of young children, with lead service 
lines or whose water lead levels are in excess of EPA's Action Level 
(or some other reasonable safety level), should obtain blood screening 
for lead for their children. This is not an emergency that would 
require going to the emergency room, but it is a matter of importance, 
and blood tests for lead levels should be provided by the DC Department 
of Health.
    (6) A comprehensive third-party review of all available records and 
archives to determine whether the DC materials survey correctly 
identifies all locations where lead components were used;
    (7) An expedited third-party review of the Corps' corrosion control 
and disinfection byproduct control strategy, with mandatory 
implementation of solutions by specified dates certain; and
    (8) A top-to-bottom third party expert review of WASA and the 
Corps' water quality, source water, and overall performance, including 
a detailed review of their implementation of past consultant 
recommendations, Comprehensive Performance Evaluations, and sanitary 
surveys, and recommendations for long-term compliance with current and 
upcoming rules and water quality objectives. The review should seek 
public input and should be published.
    2. EPA should immediately take enforcement action against the Army 
Corps of Engineers' Washington Aqueduct and order it to aggressively 
treat the water to reduce lead leaching.
    The EPA's 1991 lead and copper regulations require the Washington 
Aqueduct to treat our water in order to reduce its corrosivity; less 
corrosive water should mean less lead leaching from pipes. While the 
Corps and WASA do have a corrosion control program (albeit one that 
reportedly was reviewed by the EPA far later than envisioned by the 
1991 rules), it is obvious that it must be critically examined and 
improved. Recent changes in water treatment at the Washington Aqueduct 
(apparently made after the corrosion control plan went into effect), 
aimed at reducing disinfection byproducts, may have altered the 
chemistry of the city's water. An urgent independent review of the 
corrosion control plan is warranted, with EPA-ordered steps to 
implement recommended actions. Deadlines should be established for 
completion of the review and implementation of its recommendations, and 
the results should be made public as soon as they are completed. When 
WASA was constituted, it entered into a governance agreement with the 
city of Falls Church and Arlington County over Washington Aqueduct, 
with oversight over expenses and actions. WASA and other customers 
should long ago have insisted upon improvements in the Washington 
Aqueduct's corrosion control program.
    3. WASA must re-conduct its testing of District school water to be 
sure that all drinking water fountains and all faucets used for 
consumption in District schools and day care centers are tested--both 
first draw and flushed samples--within 2 weeks.
    WASA's recent water test results were highly misleading because 
more than 97 percent of the samples taken were from faucets and 
fountains flushed for 10 minutes. Since no student flushes a fountain 
for 10 minutes before taking a drink, flushing water for a test sample 
would create misleading samples and test results. (Flushing often will 
reduce or eliminate lead levels in large buildings.) Since infants and 
young children are most vulnerable to lead poisoning, schools and day 
care centers should be top priorities for testing.
    4. EPA and Congress should help WASA and the DC government fund 
home treatment units or bottled water for pregnant women and infants 
under age 6 in households that have lead service lines or lead in the 
drinking water at levels above the EPA action level.
    There are likely thousands of pregnant women and young children 
under the age of 6 who are drinking tap water that contains lead at 
levels higher than 15 parts per billion, EPA's action level. These 
people need a safe alternative water supply until the problem has been 
resolved. The DC government, EPA and Congress should fund alternative 
water supplies for high-risk water drinkers. Bottled water is not 
necessarily any safer than tap water unless it is independently tested 
and confirmed to be pure, and many filters are not independently 
certified to remove the levels of lead found in many DC homes' water. 
Therefore, EPA should assist residents by assuring that any alternative 
water supply (such as bottled water) is indeed free of lead and other 
harmful contaminants, or that a filter is independently certified (see 
www.nsf.org) to take care of lead. It should be noted that NSF 
certifies only that lead levels up to 150 ppb will be reduced to below 
10 ppb; there is no guarantee for reducing levels above 150 ppb. 
Finally, it is critical that WASA and other officials involved ensure 
that there is a followup program for maintenance of filters, since 
poorly maintained filters can fail to remove lead or even make 
contamination worse.
    5. WASA should expedite replacement of lead service lines, and the 
City Council should review policies on replacement of the homeowner's 
portion of the line.
    Under EPA's lead and copper rule, WASA reportedly has begun to 
implement its obligation to replace 7 percent of the District's lead 
service lines (or to test and clear homes served by lead service lines 
as containing less than 15 ppb lead in their water) each year. At this 
pace it will take nearly 15 years--until about 2018--for WASA to 
replace all the city's lead service lines. In the meantime, thousands 
of pregnant women, infants and children could be consuming water with 
excessive lead levels. We strongly urge that the lead service line 
replacement program be aggressively expedited. A schedule should be 
published, with objective criteria for which lines will be replaced 
first (presumably based primarily upon replacement of those lines 
posing the greatest public health risk first). Federal and city general 
funds should be set aside for this program to augment promised rate 
increases on our water bills. WASA customers should not foot the entire 
bill, since the decisions to approve the use of lead service lines were 
made with the explicit approval and oversight of Federal officials who 
were overseeing the construction of the city's water lines and supply. 
There was a vigorous public debate about the safety of lead service 
lines stretching back to the 1890s, yet Federal officials who ran the 
city supply decided to use lead lines. District officials also should 
consider using the city's multimillion dollar rainy-day fund to help 
pay for service line replacements.
    In addition, the City Council should review WASA's and the city's 
policy about lead service line replacement for the portions of the line 
that are supposedly owned by homeowners. Evidence is mounting that 
partial lead service line replacement often will not solve the problem, 
and actually can make lead levels worse by shaking loose lead in the 
pipes and causing galvanic corrosion that may exacerbate lead problems.
    Under recent EPA rule changes, it is apparently up to the City 
Council to determine how much of the service line should be replaced by 
WASA. In 1991, EPA originally required full lead service line 
replacement unless the water utility could prove that it did not 
control part of the line, in which case it was to replace only that 
portion that the utility controlled. After being sued successfully by a 
water industry group, the EPA changed the rules to provide that it is 
largely a question of local law what portion of the lead service line 
is the responsibility of the water utility. We believe that it is only 
fair that since many of the lead service lines were installed from the 
1890s through the 1940s under the direction, approval and control of 
the District and Federal officials, those authorities should be 
responsible for replacing them, not homeowners. The cost to homeowners 
of their portion of lead service line replacement could be thousands of 
dollars, but it is far more efficient and cost-effective to replace the 
entire service line at once, rather than digging up yards twice. This 
is a question that deserves a full public airing by the City Council.
    6. The City Council should create a permanent citizen water board 
for water to oversee WASA and the Washington Aqueduct, to address 
longstanding problems with DC's water supply.
    In 1996, the Natural Resources Defense Council (NRDC), Clean Water 
Action (CWA), and the DC Area Water Consumers Organized for Protection 
(DC Water COPs) issued a report, based in large part on city and 
Federal records obtained under the Freedom of Information Act. That 
report found serious ongoing problems with the District's water, and 
identified likely problems that could occur in the future. Among the 
current and future problems noted were lead contamination, bacteria and 
parasites, cloudiness (turbidity) in the water--which may indicate poor 
filtration and can interfere with disinfection--and disinfection 
byproducts that cause cancer and may cause birth defects and 
miscarriages. The report also noted that the Washington Aqueduct's 
water treatment plants need a major infusion of funds to modernize and 
upgrade treatment, and that the District has ancient and deteriorating 
water pipes leading to water main breaks, regrowth of bacteria, and 
lead problems. Those pipes must be replaced. In addition, the WASA-
operated sewage collection and treatment systems have serious 
inadequacies, including major problems whenever stormwater runoff 
overloads the treatment plant's capacity, causing raw sewage to flow 
into the Anacostia and Potomac rivers.
    In the wake of the DC citywide boil-water alerts in 1993 and 1996 
due to turbidity and bacteria problems, and EPA's enforcement orders 
issued thereafter, comprehensive sanitary surveys and engineering 
reviews by outside contractors found a series of serious problems with 
our water treatment and distribution system. These reviews recommended 
hundreds of millions of dollars in improvements in the city's water 
supply system.
    While the city has addressed some of the most pressing problems, it 
has not made many of the important investments needed to repair local 
water infrastructure. We strongly recommend that the City Council 
establish a citizen water board to oversee the city's water supply and 
sewer system. The board should oversee not only steps to improve our 
drinking water system, but also WASA's storm water and sewer 
obligations, because of the overall competition for water 
infrastructure dollars and need to focus on whole watershed and ``sewer 
shed'' solutions. This board--like those created by some States to 
oversee electric and other utilities--should be funded with a small 
surcharge on water and sewer bills, and should be wholly independent of 
WASA and the Washington Aqueduct. It should include independent 
engineering and public health experts and citizen activists interested 
in drinking water, and should issue an annual progress report on WASA's 
and the Washington Aqueduct's performance, progress and problems.
    7. The City Council must improve its oversight of WASA.
    The District's City Council is responsible for overseeing WASA's 
day-to-day activities, and has failed to do its job over recent years 
to make sure that WASA is carrying out its responsibilities to deliver 
safe drinking water and to safely collect and fully treat city sewage. 
More aggressive City Council oversight is needed to avoid continued 
problems with WASA.
    8. The mayor should make tap water and all environmental protection 
a high priority.
    The mayor should make drinking water safety, sewage collection and 
treatment and environmental protection a high priority. The mayor bears 
some responsibility for ensuring that WASA is doing its job. He has 
many ways to influence WASA's board and daily operations, and should 
insist on regular briefings and updates on how the city is fulfilling 
its obligations to provide these most basic city services.
    9. Consumers, health, and citizens groups should be on the blue 
ribbon commission, and should recommend people to serve on the panel.
    The announced ``independent'' panel to review WASA's embarrassing 
performance in addressing the lead problem has instead morphed into an 
internal review panel of city officials, including two of the WASA 
officials who so obviously have failed to do their jobs. In order to 
avoid a panel that merely papers over the problems and whitewashes the 
lead crisis, LEAD is calling upon city officials to name independent 
experts, consumers, citizen groups and environmentalists to the panel.
    10. The EPA, CDC, the DC Dept of Health and the City Council should 
establish a joint task force with citizen participation, to evaluate 
the extent of lead poisoning from all sources in the District, and its 
environmental justice implications, particularly for low-income 
AfricanAmerican and Latino households.
    According to expert estimates, the District has widespread lead 
poisoning, affecting perhaps tens of thousands of District children. 
Because of the city's demographic and economic realities, most of these 
children are African American and Latino. The District and Federal 
officials should establish a joint task force, with citizens and 
medical experts, to evaluate the extent of the problem and its 
environmental justice implications, and to recommend actions to remedy 
it.

[GRAPHIC] [TIFF OMITTED] T4604.184

[GRAPHIC] [TIFF OMITTED] T4604.185

[GRAPHIC] [TIFF OMITTED] T4604.186

[GRAPHIC] [TIFF OMITTED] T4604.187

      Statement of Muriel Wolf, M.D., Children's Medical Center, 
              George Washington University Medical School

    Thank you for the opportunity to provide this testimony to you 
today regarding the effect of elevated lead levels and lead poisoning. 
My name is Dr. Muriel Wolf. I am an Associate Professor of Pediatrics 
at George Washington University Medical School, and Attending in 
Pediatrics and Cardiology and Senior Pediatrician at Children's 
National Medical Center in Washington, DC. I have taken care of 
children with elevated lead levels and lead poisoning for over 30 
years.
    Fortunately, the health care landscape has changed significantly 
since the 1970s when we admitted over 100 children per year with 
elevated lead levels of over 60 mcg/dl. Now, we admit fewer than 5 
children per year with elevated lead levels at this number.
    The problem of lead in the water in the District of Columbia has 
alerted all of us about the possibility of elevated blood lead levels. 
But as of this writing, there is no strong evidence that the lead in 
the water has caused any serious elevation of blood lead levels.
    While the issue of lead in the District water supply is an 
important one, let it not be lost that most elevated lead levels in 
children are due to lead paint in old houses. Children exposed to an 
environment where there is peeling or flaking lead paint are at risk 
for elevated blood lead levels. Small amounts of lead paint chips or 
dust can cause blood lead levels to become elevated. Because of the 
presence of lead paint in old houses, the Centers for Disease Control 
(CDC) has recommended in cities where more than 20 percent of the 
houses were built before 1970, children should be tested for elevated 
blood lead at age one, and then again at 2 years of age. In DC, over 50 
percent of the housing was built before 1970. Accordingly, all District 
children should have blood lead tests at 1 and 2.
    Lead can cause significant health problems. Currently the 
acceptable blood lead level according to CDC guidelines is 9mcg/dl or 
less. Very high blood lead levels (over 50 to 60 mcg/dl) may cause 
serious health problems such as marked learning disability and mental 
retardation. Even higher blood lead levels can be associated with brain 
swelling and seizures. Elevated blood lead levels may cause significant 
anemia and kidney damage.
    Children with blood lead levels above 20 mcg/dl may have learning 
disabilities and attention deficit disorder problems, and hearing and 
growth may even be affected. More recent studies have shown that even 
mild elevations of blood lead levels between 10 and 20 mcg/dl may 
minimally lower the IQ by 1 to 3 points.
    The goal is to prevent elevated blood lead level, and currently 
those elevated levels almost always come from exposure to lead paint 
and dust. Homes with lead paint should be screened for lead hazards 
where there is peeling and flaking paint. Windows and doors should be 
wiped with high phosphate soap. Floors should be. wet-mopped rather 
than vacuumed so that the lead in the dust is not spread throughout the 
room. Children and adults should frequently wash their hands to prevent 
environmental exposure to lead dust. Finally, the paint causing the 
problem should be sealed or removed.
    Lead paint remains the most serious source of lead problems at this 
time. But lead in the water is a significant issue as well--especially 
if the CDC decides to lower the acceptable level of lead for children. 
Lead in the water may contribute to elevated lead levels, but nobody 
knows for sure. It has not been shown so far in DC to be the cause of 
elevated lead levels beyond the 10 mcg/dl level. Of the 14 patients 
identified in the District with elevated lead levels above 10 mcg/dl, 
all lived in environments where there was lead paint and tested 
positive on dust wipes.
    Current research reported in the New England Journal of Medicine in 
April 2003 suggested that lead levels of 5-9 mcg/dl can indeed lower IQ 
by 5-7 points. If this research can be corroborated by other studies, 
then we should be significantly concerned that lead in the water in the 
District of Columbia may be contributing to elevated lead levels.
    It is appropriate to study the issue of lead in the water in the 
District of Columbia, but the lead found in housing is the major 
problem at the current time.

                               __________

       Statement of Andy Bressler, Resident, District of Columbia

    Chairman Crapo, Ranking Member Graham, Members of the Committee, I 
want to thank you for holding this important hearing.
    I would like to tell you about my family. My name is Andy Bressler. 
My wife Shellie and I have lived on Capitol Hill for the past 7 years. 
Some of you may recognize our sons Adam and Casey. Back in February, 
our family was profiled in the Washington Post. I ask that the 
article\1\ be included in the record. You may have also seen them in 
the halls of these buildings when they come to visit and to have lunch 
with their Mommy who works in the Hart Building.
---------------------------------------------------------------------------
    \1\ The article referred to may be found in Committee files.
---------------------------------------------------------------------------
    Three years ago, we had the great fortune of adding twin boys to 
our household. Despite some of the obstacles urban living entails, we 
have enjoyed living in the city and have looked forward to being able 
to enjoy everything that city life offers. Little did we know that we 
were exposing our children to potential health hazards through lead-
poisoned drinking water.
    Imagine our shock a little over a year ago to hear from our 
pediatrician that our healthy, thriving recently turned 2 year olds had 
tested over the CDC recommended level for lead. We immediately 
contacted the DC Department of Health's Office of Lead and requested an 
inspection of our home. A test was conducted on our 125 year old house 
it was determined there was no lead paint exposure on the interior, 
but, there was a limited area of lead paint on an exterior door. We 
then proceeded to have that door replaced. When we inquired about the 
possibility of lead in our water, the inspector reassured us that that 
DC water was fine and safe to drink, and that could not be the source 
of the lead problem.
    Months later, my wife and I took the boys in for their 3-year 
checkup. The next afternoon, my wife received a call from the doctor's 
office to say that once again the boys lead levels had not declined, 
and in fact had risen. Casey tested at 14; Adam tested at 12 (both at 
levels above the 10 mg threshold). In knowing we had done work to 
remediate the problem months early, the doctor asked if the boys drink 
water. When we replied that we use it to water down their juice and to 
cook with, he advised us to stay away from unfiltered tap water and to 
solely use bottled water for their cups and in preparing their meals.
    The next day, we contacted the DC Lead Hotline at WASA to request a 
water test for our home--this was in mid-January 2004. Through the Moms 
on the Hill group, we had learned that there had been some concern 
about lead in DC water, and that there had been some testing going back 
6 months or more. A few days later, the Washington Post broke the story 
about the extreme lead levels found in DC water. We waited over 2 weeks 
for someone from WASA to return our multiple phone messages. We finally 
had our water tested by WASA, and it does show significant elevated 
lead levels (24 ppb).
    Between our own research and speaking with experts, we have learned 
that that there is no cure or antidote for our sons' exposure level. By 
eliminating the exposure, it would eventually leave their bodies. But, 
we understand that it will likely take years before the lead is out of 
their system. We have taken all possible steps to rid our house of the 
lead, and little did we know that every time we gave our children 
something to drink, we were exposing them once again to the lead.
    Another uncertainty is the long-term effects these levels of 
exposure will have on our children. Experts have testified that at 
their level of exposure, minimally they will lose precious IQ points. 
Other problems could include learning difficulties, attention 
disorders, and/or general behavior problems. These symptoms would not 
present themselves until years later once they are in elementary and 
middle school.
    As parents of twins, we have been cautioned not to compare 
developmental milestones with other children their age. We were told 
that our children would reach these steps at their own pace. As a part 
of human nature, it is very difficult not to compare and wonder. At 
this time, our greatest concern that each time one of them has 
difficulty in grasping a subject matter in school or an unexplained 
emotional outburst, we will question if it is long-term effect of being 
exposed to leaden water up until their third birthday.
    Some of the issues that we would like to see addressed by Congress, 
EPA, WASA, and the City:
    <bullet> Let's move quickly to a solution--if it means replacing 
the lead pipes, then let's get on with it!
    <bullet> We need much better oversight from both Congress and the 
EPA--It is obvious that there have been failures over the last several 
years, as both the EPA, WASA, and the WASA board have failed the public 
by not coming forward sooner, and moving toward a solution sooner.
    <bullet> We are also disappointed that the ``Task force'' working 
on this issue is not open to the public, nor does it have 
representation from citizens affected by this severe problem.
    <bullet> There needs to be real accountability for the lack of 
leadership and management oversight at WASA, EPA, and especially the 
Board of WASA, who were appointed to represent the public.
    <bullet> From what we understand, this is not a new issue, as DC's 
water had a lead problem back in the late 1980s, and early 1990s. At 
that time, WASA undertook steps and developed a plan to fix the lead 
pipe problem. However, it appears that since that time WASA and its 
Board abandoned those efforts, and we would very much like to 
understand why they did not follow through on those plans.
    <bullet> We also are concerned about the continually changing 
advice that we have received from WASA regarding how to reduce the lead 
levels in our water (such as how long to run the water--1 minute, 5 
minutes, 10 minutes??). In addition, WASA's hotline has given us 
conflicting information regarding whether the service line leading to 
our house is lead or not (it appears as though it is).
    <bullet> Scientists have stated incidences leaching are higher in 
warmer weather. Now that summer is approaching, what can be done in the 
immediate future to help alleviate the high lead exposure levels in the 
water.
    <bullet> Finally, we understand there is a plan to begin replacing 
lead service lines, and we would like to have a better understanding 
and guidance as to how WASA is prioritizing these replacements.
    Thank you for holding this hearing, and we would be pleased to 
speak with you or your staff regarding any of these issues, or our 
experiences with the DC government and WASA.
    Thank you.

                               __________

  Timeline for the Implementation of the Lead and Copper Rule in the 
                   District of Columbia 2000 to 2004

    Nov. 1, 2000: The Aqueduct replaced its secondary disinfection 
treatment by converting from free chlorine to chloramines.
    2001-2002: DCWASA initiates massive water meter replacement 
program; some 18,000 water meters were replaced with new, remote read 
capability units.
    July 30, 2002: EPA first receives preliminary information that 
DCWASA exceeded the lead action level; final report submitted August 
27, 2002. EPA advises DCWASA that it has to return to regular sampling 
frequency and sample site numbers (100 samples every 6 months), 
beginning with next compliance period (January 1, 2003), conduct lead 
public education program and initiate lead service line replacement 
program.
    October 2002: DCWASA conducts lead in drinking water public 
education program within required timeframe. On October 30 and 31, 
2002, DCWASA sent:
    <bullet>  lead brochure mailed to every residence via Washington 
Post circulation department;
    <bullet>  brochure and public service announcement delivered to 
Washington Post's and Washington Times' editorial boards;
    <bullet>  brochure and PSA sent to 8 television stations; 18 local 
radio stations and the AP;
    <bullet>  brochure to city libraries, DC public schools and Board 
of Education, DC Department of Health, and to 12 hospitals and clinics;
    <bullet>  DC Council members Patterson and Cropp; and
    <bullet>  brochures to all lead sampling volunteer homeowners (hand 
delivered).

           From November 4-December 14, 2002 brochures were delivered 
        to remaining hospitals, libraries and schools.

    Jan. 1, 2003: DCWASA begins routine tap sampling program with 
increased monitoring frequency and increased sample site numbers.
    Jan. 24, 2003: EPA receives first report on DCWASA's public 
education program: due November 10, 2002; report received January 24, 
2003).
    May 5, 2003: EPA obtains the services of corrosion expert, Marc 
Edwards of Virginia Tech, through a HQ level of effort contractor to 
assist EPA Region III in analyzing data and to make recommendations to 
EPA and to DCWASA for potential treatment options--assistance to WASA 
that is above and beyond EPA's responsibilities.
    May 21, 2003: Lead Service Line Replacement (LSLR) program plan 
submitted showing DCWASA's intended implementation of the LSLR program. 
Due September 30, 2003; Received May 21, 2003 (four months early).
    June 27, 2003: EPA Region III approved DC WASA's LSL Replacement 
program plan on June 27, 2003.
    July 30, 2003: Lead and copper tap monitoring shows action levels 
exceeded for monitoring period January-June 2003. EPA advises DCWASA 
that Lead service line replacement and public education program must 
continue.
    Sept 2003: The public education program was conducted by DCWASA 
(program report was due October 10, 2003; report received October 14, 
2003).
    <bullet>  brochure insert in water bills sent to all billing units 
in August 2003 bills, with highlighted message on bill face.
    <bullet>  pamphlet and brochure mailed Sept 30, 2003 to Mayors' 
office of Latino Affairs, Dept. of Health, all ANC Chairpersons, DC 
Public schools, libraries, hospitals and clinics.
    <bullet>  Newspaper ad placed in Washington Post Sept 30, 2003.
    <bullet>  PSA's faxed to TV and radio stations Sept 30, 2003.
    Oct. 2003: The public education program was conducted by DCWASA 
(program report was due November 10, 2003; report received early on 
October 14, 2003).
    Sept. 30, 2003: EPA receives LSLR preliminary report; official 
report received October 27, 2003. (program report was due September 30, 
2003).
    Oct. 17, 2003: Region III's contractor, Marc Edwards, submits his 
draft report on his research which recommends that DCWASA conduct 
specific research in several areas.
    Nov. 19, 2003: EPA Region III completed the initial review of DC 
WASA's LSLR report.
    Jan 26, 2003: DC WASA conducted full lead and copper tap monitoring 
during July-December 2003 compliance period. EPA instructs DCWASA to 
continue LSL replacement and public education programs.
    Nov 11, 2003: Marc Edwards presents findings and recommendations to 
DCWASA, Washington Aqueduct, and EPA Region III.
    January 21, 2004: DCWASA presents to Washington Aqueduct and 
Virginia wholesale customers preliminary research plan containing 
actions recommended by Marc Edwards and study results to date.
    Feb. 5, 2004: Technical Expert Working Group (TEWG) formed on 
conference call.
    Feb. 9, 2004: First face to face meeting of the TEWG conducted at 
the Washington Aqueduct offices, outline of the research action plan 
developed.
    Feb. 11, 2004: EPA ORD in Cincinnati begins analyzing lead service 
line pipe scale with X-ray defraction techniques to begin preliminary 
analysis of pipe conditions.
    Feb 16, 2004: DCWASA staff and their contractors meeting with Steve 
Reiber at University of Washington in Seattle, who now is EPA's 
external corrosion expert through contract. Purpose of meeting is to 
learn set up for electro-chemical testing of pipe loops. Equipment to 
be shipped back to District of Columbia to run tests on pipe specimens 
with actual District tap water.
    Feb 25, 2004: First draft action plan due to be ready for briefing 
to DC City Council.
    March 10, 2004: Final Research Action Plan due (30 days past 
initial meeting).

                               __________

               Statement of Robert Vinson Brannum, Parent

    Good afternoon, Mr. Chairman and members of the Subcommittee. Mr. 
Chairman let me introduce myself to you and other members of the 
Subcommittee. My name is Robert Vinson Brannum. I am a parent of an 
eleven-year old son and a proud native Washingtonian. I am also a 
resident of Ward 5 and the historic Bloomingdale community along the 
North Capitol Corridor. I have served three terms as president of the 
Bloomingdale Civic Association. As a member of this African American 
and greater Washington community, I believe in the spirit of 
volunteerism and community service. I am happy to have been invited by 
the Subcommittee to submit this statement for its official record and 
review.
    In the aftermath of recent disclosures regarding high levels of 
lead discovered in the DC water system, this afternoon the Subcommittee 
on Fisheries, Wildlife, and Water will hold an oversight hearing on the 
detection of lead in DC drinking water, focusing on needed improvements 
in public communications and the status of short-and long-term 
solutions.
    It is disturbing in the year 2004 to have questions raised about 
the quality of the drinking water in my home city--the Nation's 
Capitol. I would rather have a conversation about full voting rights 
rather than talking about how long to let my faucet run each morning 
when I rise and each evening when I return from work. Good and safe 
drinking water not only sounds good, but also it serves as an indicator 
of a healthy society.
    On 22 March 2004, I submitted water samples for testing. I have not 
received the results. There are many District of Columbia residents who 
wonder what happened, how did it happened and why it took so long for 
the information to become public? What did our Federal and local 
officials know about the lead levels, when did they know it, and what 
did they do when they learned about it?
    Officials from the U.S. Environmental Protection Agency (EPA), the 
Washington Aqueduct, the DC Water And Sewer Authority (WASA), and the 
DC Department of Health must answer these questions and many more. 
However, in the search for answers I do hope we do lose focus on the 
critical issue of solving the problem while directing our sights to 
responsibility and accountability. As a parent and a teacher, I am 
naturally concerned about the impact of high lead levels on the 
physical and cognitive development of our children, particularly 
African American children. As a community activist, I am concerned 
about the increased cost of maintaining safe water for daily 
consumption by those who are on low and fixed incomes.
    There are many who do not trust WASA to perform ongoing tests. Like 
so many other concerned parents, I am not a scientist or a chemist. 
Yet, from all I have read it appears the issue is not the actual tests 
conducted, but rather the apparent delay in the notification of the 
public by WASA and EPA. From what I have been able to read and have 
been told, lead is not being exposed to the water at the Aqueduct and 
distributed by WASA. By most accounts, the water becomes exposed to 
lead via the lead service lines or lead soldered joints.
    Other residents of this community have expressed to me their 
concerns about the water. Several residents have paid to have the lead 
pipes from the service line to their homes and they are still not 
comfortable about the safety of the water. Some residents feel WASA has 
the records to determine where all the lead service lines are and 
should pay for the replacement. Still others believe there should be a 
moratorium on water bill payments until the problem is resolved. There 
was almost a unanimous view the Army Corps of Engineers should review 
the current chemical make-up of the water to make certain that change 
was not the principal cause of the lead.
    If it becomes necessary to repair or replace all the lead service 
lines, I do not feel the costs should be borne by the residents of the 
District of Columbia or the Government of the District. Historically, 
Presidential appointed commissioners governed the District of Columbia 
and the U.S. Congress directed all municipal functions of the District. 
Even to this day, the District of Columbia does not have complete 
control of its own municipal operations let alone its own water system. 
It is my expectation the Federal Government would bear the complete 
cost of the service line replacement. I do hope the subcommittee will 
support an appropriation to cover the Federal Government's 
responsibility in this crisis.
    Many who have voiced questions about the lead have expressed 
concerns because of its negative affect on children, particularly 
African American children. If the statement of the DC Department of 
Health are correct, none of the children tested and found to have high 
led levels were exposed to lead from water. All of children were 
exposed to lead because of lead paint and lead dust in the home.
    To this day no one is able to state with presumptive certainty how 
the lead got into the water. However, this fact has not diminished the 
critics of the District of Columbia government. In addition, I, 
personally find it incredulous for EPA to assert the lead notification 
problem has been the sole responsibility of WASA and EPA bears no 
accountability.
    The water distribution in the District of Columbia is the 
responsibility of WASA. There are some, as an expression of their 
disappointment in the conduct of WASA during this lead crisis who feel 
the governance of WASA has to be restructured to exclude any local 
District government involvement. As a resident of the District, I 
cannot support the idea of a Federal takeover of WASA to the agency 
that may have contributed to the current crisis and may be seeking to 
recreate history to absolve itself of any responsibility or 
accountability.
    In a discussion with students, their questions regarding the lead 
issue are simple. How did the lead get into the water? Why did it take 
so long to the people? Can there be a double filtration system of the 
water? Is this just a ploy for the water companies (commercial) to get 
more money? How can you ever know if the water is safe?
    Mr. Chairman, this committee, along with WASA, EPA, and the DC 
Department of Health has a duty to assure the public and our young 
people the water is safe to drink. This can only happen when all 
entities stop finger-pointing to one another and worked closely to 
solve the lead in the water problem. I do not shrink to no one on the 
urgency to solve this matter. However, I am troubled by the rush to 
judgment and the push for the concept of a ``Federal takeover'' of 
WASA. I feel District officials; particularly Deputy Mayor and City 
Administrator Robert Bobb should be given the opportunity to respond 
and to determine the best course of city action. Deputy Mayor Bobb has 
assembled District agency directors and he has taken a ``clear hands'' 
on approach to lead the District government response. The District 
Government is engaged at the highest levels.
    Lead service lines are not unique to the District of Columbia. It 
is my understanding major cities such as New York City, Chicago, and 
Richmond have lead service lines in their city systems. Just as in the 
District of Columbia, high lead levels have been found in the water of 
suburban jurisdictions and schools in Maryland and Virginia.
    Mr. Chairman, everyone wants to have safe drinkable water for all 
who live, work and visit the Nation's Capitol. Unfortunately, no one is 
able to identify the source of the lead. All our immediate efforts 
should be to find the cause and solve the problem before casting blame.

[GRAPHIC] [TIFF OMITTED] T4604.188

[GRAPHIC] [TIFF OMITTED] T4604.189

[GRAPHIC] [TIFF OMITTED] T4604.190

[GRAPHIC] [TIFF OMITTED] T4604.191

[GRAPHIC] [TIFF OMITTED] T4604.192

[GRAPHIC] [TIFF OMITTED] T4604.193

[GRAPHIC] [TIFF OMITTED] T4604.194

[GRAPHIC] [TIFF OMITTED] T4604.195

[GRAPHIC] [TIFF OMITTED] T4604.196

[GRAPHIC] [TIFF OMITTED] T4604.197

[GRAPHIC] [TIFF OMITTED] T4604.198

[GRAPHIC] [TIFF OMITTED] T4604.199

[GRAPHIC] [TIFF OMITTED] T4604.200

[GRAPHIC] [TIFF OMITTED] T4604.201

[GRAPHIC] [TIFF OMITTED] T4604.202

[GRAPHIC] [TIFF OMITTED] T4604.203

[GRAPHIC] [TIFF OMITTED] T4604.204

[GRAPHIC] [TIFF OMITTED] T4604.205

[GRAPHIC] [TIFF OMITTED] T4604.206

[GRAPHIC] [TIFF OMITTED] T4604.207

  Statement of David C. Bellinger, Ph.D., M.Sc., from the Children's 
     Hospital Boston, Harvard Medical School, Boston, Massachusetts
                      Lead (Supplemental Article)

                                ABSTRACT

    Children differ from adults in the relative importance of lead 
sources and pathways, lead metabolism, and the toxicities expressed. 
The central nervous system effects of lead on children seem not to be 
reversible. Periods of enhanced vulnerability within childhood have not 
consistently been identified. The period of greatest vulnerability 
might be endpoint specific, perhaps accounting for the failure to 
identify a coherent ``behavioral signature'' for lead toxicity. The 
bases for the substantial individual variability in vulnerability to 
lead are uncertain, although they might include genetic polymorphisms 
and contextual factors. The current Centers for Disease Control and 
Prevention screening guideline of 10  g/dL is a risk management tool 
and should not be interpreted as a threshold for toxicity. No threshold 
has been identified, and some data are consistent with effects well 
below 10. Historically, most studies have concentrated on 
neurocognitive effects of lead, but higher exposures have recently been 
associated with morbidities such as antisocial behavior and 
delinquency. Studies of lead toxicity in experimental animal models are 
critical to the interpretation of nonexperimental human studies, 
particularly in addressing the likelihood that associations observed in 
the latter studies can be attributed to residual confounding. Animal 
models are also helpful in investigating the behavioral and 
neurobiological mechanisms of the functional deficits observed in lead-
exposed humans. Studies of adults who have been exposed to lead are of 
limited use in understanding childhood lead toxicity because 
developmental and acquired lead exposure differ in terms of the 
maturity of the organs affected, the presumed mechanisms of toxicity, 
and the forms in which toxicities are expressed.
                                 ______
                                 
    Key Words: lead toxicity <bullet> children <bullet> toxicology 
<bullet> epidemiology

    Abbreviations: CDC, Centers for Disease Control and Prevention

    Although children are viewed as the most vulnerable segment of the 
population with regard to lead poisoning, recognition of lead as an 
adult toxicant preceded by thousands of years the first description of 
childhood lead poisoning.\1\ For millennia, exposure to lead was 
primarily via occupation, but the introduction of leaded paint for 
residential use in the 19th century brought large amounts of this metal 
within easy reach of children.\2\ The later use of lead as a gasoline 
additive, begun in the 1920s and lasting into the 1990s in the United 
States,\3\ contributed further to the contamination of environmental 
media with which children have intimate daily commerce, including air, 
dusts, and soils.

 DIFFERENCES BETWEEN CHILDREN AND ADULTS IN LEAD SOURCES, METABOLISM, 
                             AND TOXICITIES

    Children and adults differ somewhat in the relative importance of 
different lead exposure sources and pathways, in aspects of lead 
metabolism, and in the specific ways in which toxicities are expressed. 
To a greater extent than adults, young children normally explore their 
environment via hand-to-mouth activity, behaviors that are likely to 
increase the lead intake of a child who lives in an environment with 
hazards such as leaded paint in poor repair or elevated levels of lead 
in house dust or yard soils.<SUP>4,}5</SUP> The average fractional 
gastrointestinal absorption of lead is much greater in infants and 
young children than in adults,\6\ and absorption is increased in the 
presence of nutritional deficiencies that are more common in children 
than in adults (eg, iron, calcium).<SUP>7,}8</SUP>
    In both children and adults, lead toxicity can be expressed as 
derangements of function in many or an systems. Although lead causes 
central nervous system abnormalities in adults,<SUP>9,}10,}11</SUP> 
peripheral neuropathies tend to be more prominent. In the developing 
nervous system, in contrast, central effects are more prominent than 
peripheral effects.\12\ Moreover, peripheral nervous system effects in 
adults tend to reverse after cessation of exposure,<SUP>13,}14</SUP> 
whereas the central effects in children seem not to do 
so,<SUP>15,}16,}17,}18</SUP> perhaps because lead perturbs the complex 
processes by which synaptic connections are selected and modified.\19\ 
Even pharmacotherapy, at least succimer administered to young children 
who present with blood lead levels of 20 to 44  g/dL, does not seem to 
reduce or reverse cognitive injury.\20\ An important exception to these 
generalizations is that neurobehavioral deficits associated with modest 
elevations of prenatal lead levels, if ever present, seem largely to 
attenuate by the time children reach school age.\21\

 CRITICAL WINDOWS OF VULNERABILITY AND INTERINDIVIDUAL DIFFERENCES IN 
                             SUSCEPTIBILITY

    It is difficult to identify discrete windows of enhanced 
developmental vulnerability to lead exposure. The intraindividual 
stability of blood lead level over time is substantial, particularly in 
lead-rich environments such as the inner city or areas around lead 
smelters, where many of the major epidemiologic studies have been 
conducted.<SUP>22,}23</SUP> In addition, under many exposure scenarios, 
the half-life of lead in blood is greater in children than in 
adults.<SUP>5,}24</SUP> When blood lead levels do vary over time, age 
at exposure and magnitude of exposure are often highly confounded, with 
blood lead level peaking in the age range of 1 to 3 years.\25\ This is 
probably because this period encompasses both the onset of independent 
ambulation and the time when a child's oral exploration of the 
environment is greatest. As a result, if a study were to find that 
blood lead level measured at age 2 is most predictive of some critical 
neurocognitive outcome at school age, then it would be difficult to 
ascertain whether this reflects a special vulnerability of the central 
nervous system at age 2 or that blood lead levels tend to be highest 
during this period. Some studies support the former hypothesis,\26\ 
whereas others have found that school-age neurocognitive outcomes are 
most strongly related to recent or concurrent blood lead 
levels.<SUP>22,}27</SUP> The findings of yet other studies fail to 
provide evidence for the existence of any critical periods of 
vulnerability.\28\
    Another reason that it is difficult to identify a single critical 
period of heightened vulnerability to lead toxicity is that there might 
be many such periods, depending on the particular endpoint of interest. 
Using primate models, Rice <SUP>29,}30</SUP> demonstrated that the 
timing of developmental lead exposure affected the nature and the 
severity of deficit on a variety of tasks (spatial discrimination 
reversal, nonspatial discrimination reversal, and a fixed-interval 
response operant task). In contrast, performance on a spatial delayed 
alternation task was not affected by age at exposure.\31\ Morgan et 
al\32\ observed different expressions of attentional dysfunction in 
rats depending on the timing of lead exposure. It seems eminently 
plausible that this fundamental principle of toxicology applies to 
children as well, although the evidence is meager. This is likely to be 
attributable, in no small measure, to the absence in most human 
epidemiologic studies of sufficiently detailed exposure data that 
capture, at least, features such as timing, duration, and dose. If the 
specific effects of lead do differ according to exposure scenario, then 
this lacunae in exposure data would account, at least in part, for the 
general lack of success in discerning a coherent ``behavioral 
signature'' of lead exposure in children.\33\ This suggests, however, 
that we should not necessarily expect strict consistency across studies 
in the patterns of neurocognitive impairment associated with 
lead.<SUP>33,}34</SUP>
    An individual's vulnerability to neurodevelopmental injury is also 
likely to vary according to host characteristics that are, at present, 
largely unknown. Individuals differ widely in the blood lead level at 
which signs of clinical intoxication appear, with some individuals 
seeming well at a blood lead level that in others results in 
encephalopathy or even death. Plots of ``subclinical'' blood lead level 
and endpoints such as covariateadjusted IQ reveal tremendous scatter of 
observations around the regression lines (eg,\35\), with low R\2\ 
values associated with the regressions, suggesting that children are 
variable in their responses to lower levels of exposure, as well. An 
important implication is that children with the same blood lead level 
should not be considered to be at equivalent developmental risk.
    The potential sources of individual variability in lead-associated 
neurodevelop-
mental risk are legion, although none has been confirmed with even a 
modest degree of certainty. One type of explanation focuses on 
toxicokinetic and toxicodynamic factors. It is assumed that blood lead 
level, the biomarker of internal dose that is most often used, is a 
valid index of the biologically effective dose at the brain, the 
critical target organ for neurotoxicity. The many intervening steps 
that link the internal dose and the response in the brain, however, 
provide many opportunities for interindividual differences in 
sensitivity to arise.\36\ Certain genetic polymorphisms involved in 
lead metabolism are thought to affect individual vulnerability, 
including those for the vitamin D receptors\11\ and for lead-binding 
red blood cell proteins such as amino levulinic acid 
dehydratase.<SUP>37,}38</SUP> Supportive evidence is sparse, 
however.\39\ Gender differences have been reported in the 
immunotoxicity of gestational lead exposure in rats.\40\ In humans, 
gender differences in neurotoxicity have been 
reported,<SUP>41,}42,}43,}44,}45</SUP> although in some studies, it is 
male individuals who seem to be more vulnerable, whereas in others it 
is female individuals. Co-exposure to other toxicants is another 
candidate explanation for individual differences in susceptibility, 
although greater attention has been paid to the potential of co-
exposures to be confounders than to be effect modifiers. In a rodent 
model, the effect of lead on mortality, spatial learning, and the N-
methyl-D-aspartate receptors differed depending on whether pups were 
exposed to lead alone or in combination with magnesium and zinc.\46\ 
Finally, characteristics of a child's rearing environment might 
influence the toxicity of a given lead dose.\47\ Lead seems to be 
similar to other biological risks, such as low birth weight, in that 
children from environments that offer fewer developmental resources and 
supports express deficits at a lower blood lead level than do children 
from more optimal environments<SUP>45,}48</SUP> and show less recovery 
after exposure.\43\

     FUNCTIONAL FORM OF THE DOSE-EFFECT RELATIONSHIP: A THRESHOLD?

    A threshold value below which lead has no apparent adverse 
developmental effect has not been identified. The 1991 Centers for 
Disease Control and Prevention (CDC) statement on childhood lead 
poisoning\49\ set 10  g/dL as the screening action guideline. Although 
this blood lead level was intended to serve as a risk guidance and 
management tool at the community level, it has been widely--and 
incorrectly--imbued with biological significance for the individual 
child. Indeed, it often seems to be interpreted as a threshold, such 
that a level <10  g/dL is viewed as ``safe'' and a higher level as 
``toxic.'' The truth is unlikely to be so simple, however. No single 
number can be cited as a threshold, divorced from a context that 
specifies factors such as the endpoint of interest, the age at exposure 
and at assessment, the duration of blood lead elevation, and 
characteristics of the child's rearing environment. Although few data 
were available at the time on putative effects below 10  g/dL, the 1991 
CDC statement stated that adverse effects are likely to occur in this 
range (p. 9). This should not be surprising given that even after 2 
decades of steady decline in population blood lead levels,\50\ the mean 
still lies between 1\51\ and 2\52\ orders of magnitude greater than 
estimates of natural background levels in humans. It strains credulity 
to conclude that the threshold for neurotoxicity lies within the narrow 
and, in an evolutionary sense, still quite elevated range of present-
day blood lead levels. Data reported since the 1991 CDC statement 
support this position. Among children in the Boston prospective study, 
for whom the mean blood lead level at age 2 years was 7  g/dL (90th 
percentile, 13  g/dL), a significant inverse association was found 
between blood lead level and both IQ and academic achievement at 10 
years of age.\26\ No point of inflection in this relationship was 
identified when nonparametric regression models were fitted, and the 
data were most consistent with a linear (ie, nonthreshold) model 
extending to the lowest blood lead levels represented in the cohort (<1 
 g/dL).\53\ In the Third National Health and Nutrition Examination 
Survey sample, among 4,853 6- to 16-year-old children, current blood 
lead was inversely associated with 4 measures of cognitive function, 
even when the sample was restricted to children with blood lead levels 
<5  g/dL.\54\ Blood lead histories of the children were not available, 
however, so it is possible that their levels had been much higher at 
younger ages and that it was those levels that were responsible for the 
later performance deficits of the children with higher concurrent blood 
lead levels. Moreover, measures of key potential confounders such as 
parent IQ and home environment were not available, although strong 
confounding by these factors within such a narrow range of blood lead 
levels is unlikely. These limitations were addressed in the study of 
Canfield et al.\55\ In the subgroup of 101 children whose blood lead 
levels were <10  g/dL at 6, 12, 18, 24, 36, 48, and 60 months of age, 
significant covariate-adjusted associations were observed between blood 
lead level and IQ at ages 3 and 5. Chiodo et al\56\ also reported 
significant inverse associations between neuropsychological function 
and blood lead levels <10  g/dL. In the Canfield et al\55\ study, 
moreover, the slope of the association was greater in the subgroup of 
children whose peak blood lead was <10  g/dL than it was in the 
complete study sample that included children whose teak blood lead 
levels exceeded 10  g/dL. Reanalyses of the Boston prospective 
study\57\ suggested the same pattern. Collectively, these new studies 
provide compelling evidence that 10  g/dL should not be viewed as a 
threshold. The precise shape of the dose-effect relationship in the 
lower portion of the exposure range remains uncertain, however. 
Although the data are consistent with the slope being steeper below 10  
g/dL than above 10  g/dL, a convincing mechanism has not been proposed.

 NONCOGNITIVE EFFECTS OF LEAD: BROADENING OUTCOME ASSESSMENTS BEYOND IQ

    The neurocognitive effects of pediatric lead toxicity have garnered 
the greatest attention from both researchers and regulators, perhaps 
for reasons of ease of measurement by the former and ease of 
interpretation by the latter. Indeed, enough studies provide data on 
endpoints such as IQ to make meta-analyses 
feasible,<SUP>21,}58,}59,}60</SUP> with all such efforts reaching 
similar conclusions, viz, that an IQ decline of 1 to 5 points is 
associated with a 10- g/dL increase in blood lead (eg, from 10 to 20  
g/dL). Many studies have identified distractibility, poor 
organizational skills, and hyperactivity as possible reasons for the 
reduced global cognitive function of more highly exposed 
children.<SUP>61,}62,}63,}64,}65,}66</SUP>
    Recently, the range of outcomes examined in relation to childhood 
lead exposure has been expanded, building on older reports of serious 
behavioral pathologies in case series of children with 
subencephalopathic lead poisoning. In 1 of these early reports, Byers 
and Lord\67\ noted that poor school progress among children who were 
previously treated for lead poisoning was attributable not only to 
their cognitive deficits but also to their aggression and explosive 
tempers. Within the past decade, several studies have suggested that 
even ``subclinical'' lead exposure is a risk factor for antisocial, 
delinquent behaviors. For example, a history of childhood lead 
poisoning was the strongest predictor of adult criminality among male 
individuals in the Philadelphia subsample of the Collaborative 
Perinatal Project.\68\ Needleman et a1\69\ found that male adolescents 
with increased bone lead levels self-reported more delinquent acts and 
were rated by both their parents and teachers as having scores that 
exceeded clinical cutoffs on the Attention, Aggression, and Delinquent 
Behavior scales of the Child Behavior Checklist. Furthermore, between 
ages 7 and 12, the behaviors of boys with higher bone lead levels 
deteriorated more than did the behaviors of boys with lower bone lead 
levels. Among adolescents in the Cincinnati Lead Study, the frequencies 
of self-reported delinquent and antisocial behaviors were significantly 
associated with both prenatal and early postnatal blood lead 
levels.\70\ In a case-control study, adjudicated delinquents had 
significantly higher bone lead levels than did community control youths 
and were 4 times more likely to have a bone lead level at the 80th 
percentile of the distribution (approximately the detection limit).\71\ 
Finally, in a set of historical analyses, Nevin\72\ reported striking, 
provocative concordances between temporal trends in the amount of lead 
used commercially and in violent crime and unwed pregnancies. Although 
such ecologic analyses provide a weak basis for causal inference, they 
do suggest hypotheses that should be evaluated in settings in which 
information is available on exposure, outcome, and potential 
confounders at the individual rather than the community level. Much 
work remains to be done to clarify the potential contributions of lead, 
as well as other environmental pollutants, to child psychiatric 
morbidity.<SUP>73,}74</SUP>

                       UTILITY OF ANIMAL STUDIES

    Because studies of children's environmental lead exposure must 
necessarily be observational rather than experimental (apart from 
randomized clinical trials comparing alternative treatment modalities), 
much of the controversy surrounding their interpretation has focused on 
the possibility that residual confounding, rather than lead toxicity 
itself, explains the associations between higher body burdens and 
reduced function. Such discussions are difficult to conclude to 
everyone's satisfaction because there is no logical conclusion to the 
line of argument that posits a succession of unmeasured factors that 
might be responsible for creating such spurious associations. Moreover, 
errors in model specification can result in bias toward the null 
hypothesis in the estimate of lead's neurotoxicity, if statistical 
adjustments are made for factors that are in the causal pathway between 
lead and poor outcome. For this reason, animal behavioral models of 
lead toxicity, in which the possibility of confounding (in either 
direction) is reduced by random assignment to exposure groups and by 
active control of relevant (known) genetic and environmental factors, 
are crucial elements of the total data base to which regulators can and 
should appeal in setting exposure standards. The inference that low-
level lead exposure causes human behavioral morbidity becomes more 
plausible when behavioral changes are also observed after lead is 
administered to animals under experimental conditions. Indeed, the 
striking similarities between the general pattern of behavioral 
abnormalities in lead-exposed animals and in ``free range'' lead-
exposed children provides support, albeit indirect, for the inference 
that the relationships observed in humans are causal.<SUP>33,}75</SUP>
    The converse is true, as well, in that sometimes the results of 
animal studies suggest that an association observed in humans might not 
reflect a causal influence. For instance, analyses of the Second 
National Health and Nutrition Examination Survey data set suggested 
that very modest elevations in current blood lead level, well within 
the range of community exposures, were associated with increased 
hearing threshold in children.<SUP>76,}77</SUP> Although some studies 
of animal models provide limited evidence of a modest effect at high 
blood lead levels,\78\ the results of a recent study in 31 rhesus 
monkeys with blood lead levels of 35 to 40  g/dL for the first 2 
postnatal years cast doubt on the validity of the conclusion that low-
level lead exposure causes hearing deficits in children. In this study, 
no lead-associated effects were detected on any level of auditory 
processing using tympanometry (middle ear function), otoacoustic 
emissions (cochlear function), or auditory brainstem-evoked potentials 
(auditory nerve, brainstem pathways).\79\ This might explain why recent 
studies of 2 cohorts of Ecuadorian children with substantially elevated 
blood lead levels (means of 40 and 52  g/dL) failed to find a 
significant association between blood lead level and hearing 
threshold.<SUP>80,}81</SUP>
    One reason that animal models of lead toxicity are so useful in 
understanding childhood lead toxicity is the deep level of analysis 
that they allow in the effort to identify the behavioral mechanism(s) 
of functional deficit. The assessments included in most human 
epidemiologic studies tend to be global or apical tests of cognition 
and achievement rather than experimental, laboratory tests. One reason 
for this is that exposure-associated decrements on such tests are more 
highly valued by risk analysts and regulators as bases for exposure 
standards. Although poor performance on global tests is often strongly 
predictive of adaptive difficulties in school or the workplace,\82\ the 
mere fact of poor performance provides relatively little insight into 
the reasons for it, i.e., about the underlying ``behavioral lesion.'' 
For example, in many studies, higher lead levels are associated with 
reduced scores on a design-copying task. A child might perform poorly 
on such a task for many reasons, however, including poor visual-
perceptual skills, poor fine motor control, metacognitive or 
organizational deficits, poor impulse control, anxiety, or a depressed 
mood. In a diagnostic clinical evaluation, the relative merits of these 
various hypotheses can be explored using a test battery tailored to the 
child's presentation and modified on the basis of the tester's 
observations as the evaluation proceeds. In a field epidemiologic 
study, an investigator might have 1-time access to a child for perhaps 
3 hours, needing to administer a fixed battery to all children to 
ensure comparability of the data and the circumstances of its 
collection. Under such constraints, dissection of a behavioral deficit 
by means of a detailed process analysis is not feasible, and an 
exposure-associated decrement in performance on apical tests tends to 
be ``explained,'' inappropriately, in terms of a deficit in a complex 
construct such as ``attention'' or ``memory.'' Limited efforts to 
deconstruct such global constructs have been conducted in lead-exposed 
children. Application of an assessment battery based on a 
neuropsychological model of attention\83\ revealed that elevated 
dentine lead levels were associated with deficits in 2 of the 4 
elements of attention in this model: the ability to select a focus and 
carry out operations on it, and the ability to shift focus in a 
flexible and adaptive manner.\39\ The continuous accessibility of 
experimental animals makes them an ideal resource for explicating the 
bases for the global deficits observed in human subjects. They are 
literally a captive audience from whom cooperation and consent for 
repeated testing is not required and who do not need to miss work or 
school to participate. Fine-grained process analyses of the behaviors 
of lead-exposed primates, for instance, are consistent across, 
laboratories and with the limited human data available,\39\ in 
identifying several specific aspects of the global construct 
``attention'' that are sensitive to lead: a tendency to be distracted 
by irrelevant stimuli, to respond in a perseverative manner, an 
inability to inhibit inappropriate responses, difficulty changing 
response strategies when reinforcement contingencies shift, and 
difficulty abstracting general rules (i.e., ``learning how to 
learn'').\33\ No substantial obstacles stand in the way of efforts to 
administer to children batteries that would allow similarly fine-
grained dissection of behavior, and investigators are currently working 
toward this goal.<SUP>84,}85</SUP>
    Animal models are also better suited than human studies to the task 
of testing limits to evaluate the effects of lead on the ability to 
weather ``periods of behavioral transition,'' \86\ as well as to 
identify factors that exacerbate or reduce lead toxicity (ie, effect 
modification). In the laboratory, one can ``program'' life histories to 
explore the impact of different factors on the severity and nature of 
lead-associated deficits and to see whether the point at which and the 
way in which an animal's behavior breaks down over time or under stress 
are affected by previous lead exposure. Animal models can also be 
helpful in probing the nature and bases of individual differences in 
sensitivity to lead toxicity.\29\
    Animal models are of relatively little help, however, in evaluating 
lead's effects on the ability to manipulate symbolic or abstract 
systems, such as reading or mathematics, that have no compelling 
nonhuman analogues. In addition, studies of lead's effects on 
behavioral systems that tend to be species specific (eg, communication, 
affect, reproduction, social behaviors) are less relevant to 
understanding childhood lead toxicity than are nonhuman models of 
systems with strong cross-species parallels in the morphology of 
behavior, such as problem solving and learning.\87\

                        UTILITY OF ADULT STUDIES

    Studies conducted on adults are likely to be of limited relevance 
in understanding lead toxicity in children, particularly with regard to 
nervous system effects. This organ continues to undergo substantial 
changes well into the second decade of postnatal life, involving the 
establishment of hemispheric dominance, the completion of myelination 
(particularly in the frontal lobes), synaptic pruning, and synaptic 
reorganization. As a result, the impact of an acquired brain lesion in 
an adult can differ dramatically from the impact of a similar lesion 
incurred during development.\88\ Even in the absence of an insult, the 
brain-behavior relationships underlying complex cognitive processes can 
differ substantially between adults and children. For example, lesions 
that spare language in proficient speakers can impair language 
acquisition, suggesting that the neural substrate for language 
processing is not as highly localized in children as in adults.\89\ A 
functional magnetic resonance imaging study of performance on a verbal 
fluency task identified the expected regions of activation in both 
children and adults (left inferior frontal cortex, left middle frontal 
gyrus) but more widespread cortical activation among children than in 
adults, particularly in the right hemisphere (right inferior frontal 
gyrus).\90\ This seems not to be attributable simply to age-related 
differences in competence but to age-related differences in functional 
neuroanatomy. In another functional magnetic resonance imaging study, 
comparing visual lexical processing in adults and 7- to 10-year-olds, 
different patterns of activation were found in children and adults, 
even when the 2 age groups were matched in terms of accuracy on the 
task.\91\ This suggests that, to some extent, the specific regions of 
the brain enlisted to solve a particular problem change with age. Thus, 
it seems that the adult and the developing child differ in so many 
critical respects that few lessons about pediatric lead neurotoxicity 
can be gleaned from studying adult lead neurotoxicity.

                               CONCLUSION

    Conceptually, excessive lead exposure in children poses a 
relatively simple problem. We know where the most important hazards are 
in the environments of young children, the major pathways of exposure, 
the range of effects (to a level of detail far greater than for any 
other environmental pollutant), and at least the general features of 
the dose-effect relationships for the most intensively studied 
endpoints. Studies continue to describe apparent effects that were 
previously unknown, as well as show that known effects can be detected 
at lower and lower levels of exposure. Fortunately, even as these 
advances in knowledge were being achieved, children's exposures to lead 
were in dramatic decline, with the mean blood lead level now barely >2  
g/dL.\92\ Although much is known about the effects of lead on brain 
chemistry and physiology, we nevertheless lack a unifying model of the 
mechanisms of lead neurotoxicity. It is not obvious, however, that 
additional evidence on the health effects of lead or the mechanisms of 
its protean toxicities is needed to motivate public health 
interventions to reduce children's lead exposure. In terms of housing 
and community interventions, apart from the obvious immediate and long-
term benefits of complete residential lead abatement, if conducted 
properly, as a way to reduce childhood exposures, we know relatively 
little about other environmental, nutritional, or social interventions 
that are effective (including cost-effective). Given the apparent 
absence of commitment at a societal level to eradicate this entirely 
preventable childhood disease even in the face of economic analysis 
that demonstrates it to be cost-effective,\93\ it seems that the answer 
to the question posed 10 years ago, ``Lead toxicity in the 21st 
century: will we still be treating it?'' \94\ is, sadly, ``Yes.''

                               FOOTNOTES

    Received for publication Oct. 7, 2003; accepted Oct. 20, 2003.
    Reprint requests to (D.C.B.) Children's Hospital, Farley Basement 
Box 127, 300 Longwood Ave, Boston MA 02115. E-mail: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="96f2f7e0fff2b8f4f3fafafff8f1f3e4d6f5fefffaf2e4f3f8e5b8fef7e4e0f7e4f2b8f3f2e3b8">[email&#160;protected]</a>

                               REFERENCES

    1. Gibson JL, Love W, Hardine D, Bancroft P, Turner AJ. Note on 
lead poisoning as observed among children in Brisbane. In: Huxtable LR, 
ed. Transactions of the Third Intercolonial Medical Congress of 
Australasia. Sydney, Australia: Charles Potter; 1982:76-83.
    2. Markowitz G, Rosner D. ``Cater to the children'': The role of 
the lead industry in a public health tragedy, 1900-1955. Am J Public 
Health. 2000; 90:36-46 [Abstract/Free Full Text].
    3. Rosner D, Markowitz G. A ``gift of God''? The public health 
controversy over leaded gasoline during the 1920s. Am J Public Health. 
1985; 75:344-352 [ISI][Medline].
    4. Calabrese EJ, Stanek EJ, James RC, Roberts SM. Soil ingestion: a 
concern for acute toxicity in children. Environ Health Perspect. 1997; 
105:1354-1358 [ISI][Medline].
    5. Manton WI, Angle CR, Stanek KL, Reese YR, Kuehnemann TJ. 
Acquisition and retention of lead by young children. Environ Res. 2000; 
82:60-80 [ISI][Medline].
    6. Ziegler EE, Edwards BB, Jensen RL, Mahaffey KR, Fomon SJ. 
Absorption and retention of lead by infants. Pediatr Res. 1978; 12:29-
34 [ISI][Medline].
    7. Wright RO, Shannon MW, Wright RJ, Hu H. Association between iron 
deficiency and low-level lead poisoning in an urban primary care 
clinic. Am J Public Health. 1999; 89:1049-1053 [Abstract].
    8. Bradman A, Eskenazi B, Sutton P, Athanasoulis M, Goldman LR. 
Iron deficiency associated with higher blood lead in children living in 
contaminated environments. Environ Health Perspect. 2001; 109:1079-1084 
[ISI][Medline].
    9. Stollery BT. Reaction time changes in workers exposed to lead. 
Neurotoxicol Teratol. 1996; 18:477-483 [ISI][Medline].
    10. Muldoon SB, Cauley JA, Kuller LH, et al. Effects of blood lead 
levels on cognitive function of older women. Neuroepidemiology. 1996; 
15:62-72 [ISI][Medline].
    11. Schwartz BS, Stewart WF, Bolla KI, et al. Past adult lead 
exposure is associated with longitudinal decline in cognitive function. 
Neurology. 2000; 55:1144-1150 [Abstract/Free Full Text].
    12. National Research Council. Measuring Lead Exposure in Infants, 
Children, and Other Sensitive Populations. Washington, DC: National 
Academy Press; 1993.
    13. Baker EL, White RF, Pothier LJ, et al. Occupational lead 
neurotoxicity: improvement in behavioral effects after reduction of 
exposure. Br J Ind Med. 1985; 42:507-516 [ISI][Medline].
    14. Yokoyama K, Araki S, Aono H. Reversibility of psychological 
performance in subclinical lead absorption. Neurotoxicology. 1988; 
9:405-410 [ISI][Medline].
    15. Needleman HL, Schell A, Bellinger D, Leviton A, Allred E. The 
long-term effects of exposure to low doses of lead in childhood: an 11-
year follow-up report. N Engl J Med. 1990; 322:83-88 [Abstract].
    16. White RF, Diamond R, Proctor S, Morey C, Hu H. Residual 
cognitive deficits 50 years after lead poisoning during childhood. Br J 
Ind Med. 1993; 50:613-622 [ISI][Medline].
    17. Tong S, Baghurst PA, Sawyer MG, Bums J, McMichael AJ. Declining 
blood lead levels and changes in cognitive functioning during 
childhood: the Port Pirie Cohort Study. JAMA. 1998; 280:1915-1919 
[Abstract/Free Full Text].
    18. Stokes L, Letz R, Gerr F, et al. Neurotoxicity in young adults 
20 years after childhood exposure to lead: The Bunker Hill experience. 
Occup Environ Med. 1998; 55:507-516 [Abstract].
    19. Johnston MV, Goldstein GW. Selective vulnerability of the 
developing brain to lead. Curr Opin Neurol. 1998; 11:689-693 
[ISI][Medline].
    20. Rogan WJ, Dietrich KN, Ware JH, et al. The effect of chelation 
therapy with succimer on neuropsychological development in children 
exposed to lead. N Engl J Med. 2001; 344:1421-1426 [Abstract/Free Full 
Text].
    21. Pocock S, Smith M, Baghurst PA. Environmental lead and 
children's intelligence: a systematic review of the epidemiological 
evidence. BMJ. 1994; 309:1189-1197 [Abstract/Free Full Text].
    22. Dietrich KN, Berger O, Succop P. Lead exposure and the motor 
developmental status of urban 6-year-old children in the Cincinnati 
Prospective Study. Pediatrics. 1993; 91:301-307 [Abstract].
    23. McMichael AJ, Baghurst PA, Robertson EF, Vimpani GV, Wigg NR. 
The Port Pirie cohort study: blood lead concentrations in early 
childhood. Med J Aust. 1985; 143:499-503 [ISI][Medline].
    24. Succop PA, O'Flaherty EJ, Bomschein RL, et al. A kinetic model 
for estimating changes in the concentration of lead in the blood of 
young children. In: Lindberg SE, Hutchinson TC, eds. International 
Conference on Heavy Metals in the Environment. Vol 2. Edinburgh: CEP 
Consultants, Ltd; 1987:289-291.
    25. Brody DJ, Pirkle JL, Kramer RA, et al. Blood lead levels in the 
U.S. population. Phase 1 of the Third National Health and Nutrition 
Examination Survey (NHANES III, 1988 to 1991). JAMA. 1994; 272:277-283 
[Abstract].
    26. Bellinger DC, Stiles KM, Needleman HL. Low-level lead exposure, 
intelligence and academic achievement: a long-term follow-up study. 
Pediatrics. 1992; 90:855-861 [Abstract].
    27. Tong S, Baghurst P, McMichael A, Sawyer M, Mudge J. Lifetime 
exposure to environmental lead and children's intelligence at 11-13 
years: the Port Pirie cohort study. BMJ. 1996; 312:1569-1575 [Abstract/
Free Full Text].
    28. Wasserman GA, Liu X, Popovac D, et al. The Yugoslavia 
Prospective Lead Study: contributions of prenatal and postnatal lead 
exposure to early intelligence. Neurotoxicol Teratol. 2000; 22:811-818 
[ISI][Medline].
    29. Rice DC. Lead-induced behavioral impairment on a spatial 
discrimination reversal task in monkeys exposed during different 
periods of development. Toxicol Appl Phannacol. 1990; 106:327-333 
[ISI][Medline].
    30. Rice D. Lead exposure during different developmental periods 
produces different effects on FI performance in monkeys tested as 
juveniles and adults. Neurotoxicology. 1992; 13:757-770 [ISI][Medline].
    31. Rice DC, Gilbert SG. Sensitive periods for lead-induced 
behavioral impairment (nonspatial discrimination reversal) in monkeys. 
Toxicol Appl Pharmacol. 1990; 102:101-109 [ISI][Medline].
    32. Morgan RE, Garavan H, Smith EG, Driscoll LL, Levitsky DA, 
Strupp BJ. Early lead exposure produces lasting changes in sustained 
attention, response initiation, and reactivity to errors. Neurotoxicol 
Teratol. 2001; 23:519-531 [ISI][Medline].
    33. Bellinger D. Interpreting the literature on lead and child 
development: the neglected role of the ``experimental system.'' 
Neurotoxicol Teratol. 1995; 17:201-212 [ISI][Medline].
    34. Rice D. Behavioral effects of lead: commonalities between 
experimental and epidemiologic data. Environ Health Perspect. 1996; 
104(suppl 2):337-351 [Medline].
    35. Wasserman GA, Liu X, Lolacono NJ, et al. Lead exposure and 
intelligence in 7-year-old children: the Yugoslavia Prospective Study. 
Environ Health Perspect. 1997; 105:956-962 [ISI][Medline].
    36. Links JM, Schwartz BS, Simon D, Bandeen-Roche K, Stewart WF. 
Characterization of toxicokinetics and toxicodynamics with linear 
systems theory: application to lead-associated cognitive decline. 
Environ Health Perspect. 2001; 109:361-368 [ISI][Medline].
    37. Smith C, Wang X, Hu H, Kelsey K. A polymorphism in the delta-
aminolevulinic acid dehydratase gene may modify the pharmacokinetics 
and toxicity of lead. Environ Health Perspect. 1995; 103:248-253 
[ISI][Medline].
    38. Schwartz BS, Lee BK, Lee GS, et al. Associations of blood lead, 
dimercaptosuccinic acid-chelatable lead, and tibia lead with 
polymorphisms in the vitamin D receptor and delta-aminolevulinic acid 
dehydratase gene. Environ Health Perspect. 2000; 108:949-954.
    39. Bellinger D, Hu H, Titlebaum L, Needleman HL. Attentional 
correlates of dentin and bone lead levels in adolescents. Arch Environ 
Health. 1994; 49:98-105 [ISI][Medline].
    40. Bunn TL, Parsons PJ, Kao E, Dietert RR. Exposure to lead during 
critical windows of embryonic development: differential immunotoxic 
outcome based on stage of exposure and gender. Toxicol Sci. 2001; 
64:57-66 [Abstract/Free Full Text].
    41. Dietrich KN, Krafft KM, Bornschein RL, et al. Low-level fetal 
lead exposure effect on neurobehavioral development in early infancy. 
Pediatrics. 1987; 80:721-730 [Abstract].
    42. Pocock S, Ashby D, Smith MA. Lead exposure and children's 
intellectual performance. Int J Epidemiol. 1987; 16:57-76 [Abstract].
    43. Bellinger D, Leviton A, Sloman J. Antecedents and correlates of 
improved cognitive performance in children exposed in utero to low 
levels of lead. Environ Health Perspect. 1990; 89:5-11 [ISI][Medline].
    44. McMichael AJ, Baghurst P, Vimpani G, Robertson E, Wiig N, Tong 
S-L. Sociodemographic factors modifying the effect of environmental 
lead on neuropsychological development in early childhood. Neurotoxicol 
Teratol. 1992; 14:321-327 [ISI][Medline].
    45. Tong S, McMichael AJ, Baghurst PA. Interactions between 
environmental lead exposure and sociodemographic factors on cognitive 
development. Arch Environ Health. 2000; 55:330-335 [ISI][Medline].
    46. Newman HM, Yang RSH, Magnusson KR. Effects of developmental 
exposure to lead, magnesium and zinc mixtures on spatial learning and 
expression of NMDA receptor subunit mRNA in Fischer 344 rats. Toxicol 
Lett. 2002; 126:107-119 [ISI][Medline].
    47. Bellinger D. Effect modification in epidemiological studies of 
low-level neurotoxicant exposures and adverse health outcomes. 
Neurotoxicol Teratol. 2000; 22:133-140 [ISI][Medline].
    48. Bellinger DC, Leviton A, Waternaux C, Needleman HL, Rabinowitz 
M. Low-level lead exposure, social class, and infant development. 
Neurotoxicol Teratol. 1988; 10:497-503 [ISI][Medline].
    49. U.S. Centers for Disease Control. Preventing Lead Poisoning in 
Young Children. Atlanta, GA: U.S. CDC; 1991.
    50. Pirkle JL, Brody DJ, Gunter EW, et al. The decline in blood 
lead levels in the United States. The National Health and Nutrition 
Examination Survey (NHANES). JAMA. 1994; 272:284-291 [Abstract].
    51. Mushak P. New directions in the toxicokinetics of human lead 
exposure. Neurotoxicology. 1993; 14:29-42.
    52. Flegal AR, Smith DR. Lead levels in preindustrial humans. N 
Engl J Med. 1992; 326:1293-1294 [ISI][Medline].
    53. Schwartz J. Low-level lead exposure and children's IQ: a meta-
analysis and search for a threshold. Environ Res. 1994; 65:42-55 
[ISI][Medline].
    54. Lanphear BP, Dietrich K, Auinger P, Cox C. Cognitive deficits 
associated with blood lead concentrations <10  g/dL in U.S. children 
and adolescents. Public Health Rep. 2000; 115:521-529 [ISI][Medline].
    55. Canfield RC, Henderson CR, Cory-Slechta DA, Cox C, Jusko TA, 
Lanphear BP. Intellectual impairment in children with blood lead 
concentrations below 10  g per deciliter. N Engl J Med. 2003; 348:1517-
1526 [Abstract/Free Full Text].
    56. Chiodo LM., Jacobson SW, Jacobson JL. Neurodevelopmental 
effects of postnatal lead exposure at very low levels. Neurotoxicol 
Teratol. 2004, in press.
    57. Bellinger DC, Needleman HL. Intellectual impairment and blood 
lead levels. N Engl J Med. 2003; 349:500 [Free Full Text].
    58. Needleman HL, Gatsonis C. Low-level lead exposure and the IQ of 
children. JAMA. 1990; 263:673-678 [Abstract].
    59. Schwartz J. Beyond LOEL's, p values, and vote counting: methods 
for looking at the shapes and strengths of associations. 
Neurotoxicology. 1993; 14:237-246 [ISI][Medline].
    60. World Health Organization/International Programme on Chemical 
Safety. Environmental Health Criteria 165. Inorganic Lead. Geneva, 
Switzerland: World Health Organization; 1995.
    61. Needleman HL, Gunnoe C, Leviton A, et al. Deficits in 
psychologic and classroom performance of children with elevated dentine 
lead levels. N Engl J Med. 1979; 300:689-695 [Abstract].
    62. Yule W, Urbanowicz M-A, Lansdown R, Millar I. Teachers' ratings 
of children's behaviour in relation to blood lead levels. Br J Dev 
Psychol. 1984; 2:295-305 [ISI].
    63. Thomson GO, Raab GM, Hepburn WS, Hunter R, Fulton M, Laxen DP. 
Bloodlead levels and children's behaviour--results from the Edinburgh 
lead study. J Child Psychol Psychiatry. 1989; 30:515-528 
[ISI][Medline].
    64. Bellinger D, Leviton A, Allred E, Rabinowitz M. Pre- and 
postnatal lead exposure and behavior problems in school-aged children. 
Environ Res. 1994; 66:12-30 [ISI][Medline].
    65. Wasserman G, Staghezza-Jaramillo B, Shrout P, Popovac D, 
Graziano J. The effect of lead exposure on behavior problems in 
preschool children. Am J Public Health. 1998; 88:481-486 [Abstract].
    66. Burns J, Baghurst P, Sawyer M, McMichael A, Tong S. Lifetime 
low-level exposure to environmental lead and children's emotional and 
behavioral development at ages 11-13 years: the Port Pirie Cohort 
Study. Am J Epidemiol. 1999; 149:740-749 [Abstract].
    67. Byers RK, Lord EE. Late effects of lead poisoning on mental 
development. Am J Dis Child. 1943; 66:471-494.
    68. Denno DW. Biology and Violence. New York, NY: Cambridge 
University Press; 1990.
    69. Needleman HL, Riess JA, Tobin MJ, Biesecker GE, Greenhouse JB. 
Bone lead levels and delinquent behavior. JAMA. 1996; 275:363-369 
[Abstract].
    70. Dietrich KN, Ris MD, Succop PA, Berger OG, Bornschein RL. Early 
exposure to lead and juvenile delinquency. Neurotoxicol Teratol. 2001; 
23:511-518 [ISI][Medline].
    71. Needleman HL, McFarland C, Ness RB, Fineberg SE, Tobin MJ. Bone 
lead levels in adjudicated delinquents: a case-control study. 
Neurotoxicol Teratol. 2002; 24:711-717 [ISI][Medline].
    72. Nevin R. How lead exposure relates to temporal changes in IQ, 
violent crime, and unwed pregnancy. Environ Res. 2000; 83:1-22 
[ISI][Medline].
    73. Rice DC. Parallels between attention deficit hyperactivity 
disorder and behavioral deficits produced by neurotoxic exposure in 
monkeys. Environ Health Perspect. 2000; 108(suppl 3):405-408 [Medline].
    74. Bellinger DC. Future directions for neurobehavioral studies of 
environmental neurotoxicants. Neurotoxicology. 2001; 22:645-656 
[FISI][Medline].
    75. Davis JM, Otto DA, Weil DE, Grant LD. The comparative 
developmental neurotoxicity of lead in humans and animals. Neurotoxicol 
Teratol. 1990; 12:215-229 [ISI][Medline].
    76. Schwartz J, Otto D. Blood lead, hearing thresholds, and 
neurobehavioral development in children and youth. Arch Environ Health. 
1987; 42:153-160 [ISI][Medline].
    77. Schwartz J, Otto D. Lead and minor hearing impairment. Arch 
Environ Health. 1991; 46:300-305 [ISI][Medline].
    78. Rice DC. Effects of lifetime lead exposure in monkeys on 
detection of pure tones. Fundam Appl Toxicol. 1997; 36:112-118 
[ISI][Medline].
    79. Lasky RE, Luck ML, Torre P, Laughlin N. The effects of early 
lead exposure on auditory function in rhesus monkeys. Neurotoxicol 
Teratol. 2001; 23:639-649 [ISI][Medline].
    80. Counter AS, Vahter M, Laurell G, Buchanan LH, Ortega F, 
Skerfving S. High lead exposure and auditory sensory-neural function in 
Andean children. Environ Health Perspect. 1997; 105:522-526 
[ISI][Medline].
    81. Buchanan LH, Counter AS, Ortega F, Laurell G. Distortion 
product oto-acoustic emissions in Andean children and adults with 
chronic lead intoxication. Acta Otolaryngol. 1999; 119:652-658 
[ISI][Medline].
    82. Neisser U, Boodoo H, Bouchard TJ, et al. Intelligence: knowns 
and unknowns. Am Psychol. 1995; 51:77-101 [ISI].
    83. Mirsky A, Anthony B, Duncan C, Ahearn M, Kellam S. Analysis of 
the elements of attention: a neuropsychological approach. Neuropsychol 
Rev. 1990; 2:109-145.
    84. Paule MG, Chelonis JJ, Buffalo EA, Blake DJ, Casey PH. Operant 
test battery performance in children: correlation with IQ. Neurotoxicol 
Teratol. 1999; 21:223-230 [ISI][Medline].
    85. Chelonis JJ, Daniels-Shaw JL, Blake DJ, Paule MG. Developmental 
aspects of delayed matching-to-sample task performance in children. 
Neurotoxicol Teratol. 2000; 22:683-694 [ISI][Medline].
    86. Cory-Slechta DA. Exposure duration modifies the effects of low 
level lead on fixed-interval performance. Neurotoxicology. 1990; 
11:427-442 [ISI][Medline].
    87. Paule MG, Adams J. Interspecies comparison of the evaluation of 
cognitive developmental effects of neurotoxicants in primates. In: 
Chang LW, ed. Principles of Neurotoxicology. New York, NY: Marcel 
Dekker; 1994:713-731.
    88. Bellinger DC. Perspectives on incorporating human 
neurobehavioral endpoints in risk assessments. Risk Anal. 2002; 22:487-
498 [ISI][Medline].
    89. Stiles J. Neural plasticity and cognitive development. Dev 
Neuropsychol. 2000; 18:237-272 [ISI][Medline].
    90. Gaillard WD, Hertz-Pannier L, Mott SH, Barnett AS, LeBihan D, 
Theodore WH. Functional anatomy of cognitive development. fMRI of 
verbal fluency in children and adults. Neurology. 2000; 54:180-185 
[Abstract/Free Full Text].
    91. Schlagger BL, Brown TT, Lugar HM, Visscher KM, Miezin FM, 
Petersen SE. Functional neuroanatomical differences between adults and 
school-age children in the processing of simple words. Science. 2002; 
296:1476-1479 [Abstract/Free Full Text].
    92. Stephenson J. CDC report on environmental toxins: some 
progress, some concerns. JAMA. 2003; 289:1230-1233 [Free Full Text].
    93. Grosse SD, Matte TD, Schwartz J, Jackson RJ. Economic gains 
resulting from the reduction in children's exposure to lead in the 
United States. Environ Health Perspect. 2002; 110:563-569 
[ISI][Medline].
    94. Needleman HL, Jackson RJ. Lead toxicity in the 21st century: 
will we still be treating it? Pediatrics. 1992; 89:678-680 
[ISI][Medline].
                               __________
       Statement of Mike Keegan, Policy Analyst, National Rural 
                           Water Association
        The Solution to Lead in the Water is More Local Control

    Mr. Chairman, if you relied on the newspapers, television accounts, 
or commentary from the national environmental groups to understand the 
situation with lead in the District's drinking water supply, you would 
only be hearing one perspective. From these sources, you have heard 
that the only way to solve the lead problem is by removing local 
authority and transferring it to the Federal Government. This is one 
solution, however, it is not the only policy that Congress should 
consider--and by no means, does it have any greater rate of success in 
solving local problems.
    The lead crisis now shrouding the District is a product of a 30-
year effort to build a dysfunctional Federal environmental system whose 
key principal is the antithesis of Home Rule; to take authority away 
from the local citizens and transfer it to Federal bureaucracies and 
the interest groups who control them.
    The National Rural Water Association has over 23,000 small and 
rural community members who supply drinking water or wastewater to 
their communities. These communities are governed by locally-elected 
officials; they don't make profits and their families drink the water 
they supply. Therefore, unlike commercial enterprise, there is no 
incentive nor any reason to supply anything but the safest water 
possible. The Safe Drinking Water Act, in many instances, directs EPA 
to override the desired local health policy of these communities--and 
forces them to pay for EPA's decision. They all have to comply with the 
EPA Lead and Copper Rule just like the District of Columbia (DC) and 
the Water and Sewer Authority (WASA). We urge you to not let this 
incident be the predicate for removing more of our local authority to 
determine local policies to the Federal level.

                   WHY THE CURRENT LAW IS UNWORKABLE

    The country's water protection program (Safe Drinking Water Act) 
relies on a uniform regulatory compliance program--at the expense of 
the judgment of locally elected officials--that is too complex and 
arbitrary to handle local individual problems. This program was 
guaranteed to fail because (1) it can't possibly manage future local 
crises that were not dreamed of when it was designed and published in 
the Federal Register, and (2) it doesn't consider the unintended 
consequences of its mandates--it operates in a vacuum of reality, and 
(3) it can't balance competing local priorities. These three flaws 
appear to have contributed to the current situation in the District. 
Now when there is a crisis that needs civic leadership--no one is 
responsible; and the Federal Register isn't talking.

                WHAT CAUSED THE PROBLEM IN THE DISTRICT?

    Local judgment was overridden by the Federal regulatory system, 
which was too arbitrary and inflexible to deal with the situation.
    One theory, is the EPA Rule to reduce byproducts from disinfection 
steered the WASA to a new disinfection regiment that caused a change in 
the water chemistry that resulted in corrosion and increased lead 
concentrations. The relationship between the correlation rules is not 
adequately considered when applied in the real world because EPA, in a 
vacuum, implements them. Additionally, the law prohibits the District 
from balancing the competing objectives of the two rules.
    Another theory, a mechanical action disrupted homeowners' plumbing 
enough to cause a temporary spike in lead samples. If this were the 
case, the regulations contain a solution (and public notification 
protocol) based on the long-term problem including corrosion control 
and replacing some lead service lines which would not fit if this 
theory were correct.
    The Act and the regulations don't fit in the either case. If the 
cause is something else, why are we mandating particular solutions for 
problems we don't understand?
    These necessary balancing judgments are beyond the capability of 
static regulations and beyond the abilities of regulators charged only 
with the enforcement of the specific regulations. Regulators can only 
regulate the letter of the law, they can't think beyond compliance--
which is critical in determining public health policy. It is essential 
to realize that meeting regulations is not synonymous with public 
health protection. In the District example, it is likely that WASA and 
EPA would have looked at the situation differently. EPA was forced to 
focus on enforcement, regardless of unintended consequences. On the 
other hand, if WASA retained authority, it would have had the 
discretion to be more concerned with the overall public health 
implications and the ability to be more cautious in changing water 
treatment regimes. It is only elected policy makers with the authority 
to look at public policy in a holistic manner that can balance public 
health risks.
    Once the lead levels started to increase, WASA and EPA probably 
knew that the higher lead levels were not as alarming as the 
environmental community and media would claim because of the 
conservative nature of the standards, and that this may be a temporary 
problem which the Federal public notification requirements would not 
convey. In all of WASA's actions, it appears that after months off the 
situation, which EPA was aware of reportedly, WASA only violated the 
public notification elements of the regulations, not any water quality 
criteria. Just how sacrosanct is the exact application of Federal 
regulations?
    <bullet> EPA allowed Columbus, Ohio out of some of the compliance 
details of the lead rule that was not provided to WASA. EPA's ruling in 
Columbus\1\ shows that they think some higher lead levels in water are 
not a health risk. They allowed Columbus a safe harbor if they had 
higher levels. Why was Columbus (allowed this special exemption) and 
not DC? And more importantly, how much higher than the Federal 
standards can you go before there is a health risk? This common sense 
question is one that EPA can't answer.\2\
---------------------------------------------------------------------------
    \1\ In the past, the City of Columbus made certain changes to the 
method it uses to treat drinking water. Inadvertently, the treatment 
change caused an increase in the level of lead in the drinking water. . 
. . Through this Agreement, the U.S. EPA would suspend the lead service 
lines sampling and replacement provisions for up to three years 
beginning if and when the City exceeds the lead limit . . .'' Federal 
Register: July 27, 2000 (Volume 65, Number 145) [Page 46166-46167].
    \2\ In a March report, EPA did not find that arsenic concentrations 
above their standard necessarily present an ``unreasonable risk to 
health.'' [USEPA, Exemptions & the Arsenic Rule, March 2002, p. 11, 
#7]. Instead of identifying the levels of arsenic that are ``protective 
of the public'' [42USC300g-1(b)(15)(B)l or don't present ``an 
unreasonable risk to health'' [42USC300g-5(a)(3)] as named in the Safe 
Drinking Water Act and that the Agency was requested to name by several 
Congressmen, EPA creatively chose to identify what these levels are 
not. ``EPA is . . . determining what does not pose an unreasonable risk 
to health with respect to arsenic, rather than address the much more 
complex issue of what does constitute an unreasonable risk to health.'' 
[USEPA, Exemptions & the Arsenic Rule, March 2002, p. 11, #7].
---------------------------------------------------------------------------
    <bullet> Considering the extreme valves in DC's water that exceeded 
EPA's action level by a factor of over 20, numerous homes tested over 
the lead action level, all the media uproar over this issue, and the 
alarm it has fomented in the public, would you ever think the CDC would 
have said the following just last week: ``. . . although lead in tap 
water contributed to a small increase in BLLs in DC, no children were 
identified with BLLs >10  g/dL, even in homes with the highest water 
lead levels.'' \3\ Does this finding by CDC seem consistent with the 
level of alarm being portrayed to the public?
---------------------------------------------------------------------------
    \3\ Blood Lead Levels in Residents of Homes with Elevated Lead in 
Tap Water--DC, 2004, March 30, 2004 (http://www.cdc.gov/mmwr).
---------------------------------------------------------------------------
        PUBLIC NOTIFICATION (VIOLATIONS VS. PUBLIC HEALTH RISKS)

    The public notification process is another area in the Safe 
Drinking Water Act that is flawed. Since the relationship between 
``violation'' and public health risk must be evaluated on a case-by-
case basis. Mandatory public notice requirements for all violations can 
be used to mislead the public. Some violations are worse than others 
and it is the health impact and degree of malice that needs to be 
conveyed to the public more than the simple fact that there was a 
violation. The current Federal standard for lead in drinking water is 
15 parts per billion (ppb) [based on a percentage of homes tested]. 
Does that mean that 14.5 ppb is safe and 15.5 ppb is comparably unsafe? 
It certainly does not. However, this is how the issue is presented to 
the public. The news reports of the situation commonly report that 
water with lead levels above 15 ppb is ``contaminated'' and, 
inferentially, anything below as not contaminated. Safe, clean, 
polluted, and contaminated are all characterizations and can be 
misleading and inflammatory. There is no bright line of concentrations 
in the parts per billion when lead levels become safe or unsafe. The 
actual health effects are uncertain and are dependent on the amount of 
water consumed, age of the person, amount of time exposed and other 
variables. This is why more public information is better--not just the 
alarming news. In this instance, the public should have known all along 
the levels of lead in every test and the balancing that was going on in 
the water chemistry. This constant public discussion and disclosure 
would lessen the ability of the media or interest groups to create an 
appearance of a cover up when there was none.
    The public needs to understand that removing all lead from the 
water supply is technologically impossible and not necessary to protect 
the public. So the civic policy has dealt with how much lead we can 
live with and what is the most economical way to get it to acceptable 
levels. This can be different for separate communities, with unique 
circumstances, economies, natural environments, demographics, 
extraordinary local considerations, etc. For example, a community with 
lead at 16 ppb in their water and numerous public housing units with 
lead paint should not be forced into the same compliance measures as 
community with 300 ppb of lead in the water and no houses with lead 
paint.

                 THE SOLUTION CONGRESS SHOULD CONSIDER

    Ask yourself who cares more about the health of the children in the 
District (and is more responsive to those families), the local mayors 
or an EPA regional employee in Philadelphia? If the mayors, or the 
regional governments of WASA, had the authority over managing the 
health policy underlying the water supply--we would likely not be in 
the situation we are in now because they are elected for the exact 
reason of managing issues that have many variables and impacts. Mayors 
can manage the balancing of local priorities in a way that regulatory 
enforcers cannot. Now you are being asked to give more authority to EPA 
at the expense of the local mayors.
    Congress or EPA can expand the regulatory program and require more 
Federal uniform mandates on locals in response to the District 
experience. This has been the history of national drinking water 
legislation. However, this will not solve the problem of drinking water 
protection because the Federal Government cannot possibly design a 
program that foresees the infinite challenges that local communities 
face in providing safe water. The problem with the Safe Drinking Water 
Act is that improving drinking water in small communities is more of a 
RESOURCE problem than a REGULATORY problem.
    The best way to avoid threats is to have the most educated and 
responsible local officials overseeing the water supply. We urge you to 
consider this alternative perspective of local governments and their 
citizens. The key to finding the best public health policy to tackle 
the lead issue is for it to be derived and supported by the people that 
benefit from a safe drinking water and have to pay for the service. If 
the locals don't like the results, they can elect a new government.

       THE ROLE OF NATIONAL ENVIRONMENTAL GROUPS IN LOCAL ISSUES

    Why do the environmental groups support a Federal control program? 
The answer is because they can control it better. Most of their polices 
would not be accepted at the local level (by the people) if there was 
an open public health debate. Therefore, the groups have made an 
expertise at getting national legislation enacted that they can exploit 
through lawsuits as well as intimidating bureaucrats into publishing 
over-zealous regulations.
    Many interest groups petition this committee to authorize more and 
more, ever-stringent Federal unfunded mandates on small communities 
with the intention of improving public health on the community's 
behalf. Unfortunately, this does not work and things are not that 
simple. The key to long-term improvement is local support, local 
education and available resources. We continually ask for the list of 
the communities that need to improve their drinking water and are not 
willing to take the steps to do it. Such a list does not exist. We 
encourage organizations that advocate increasing unfunded mandates on 
communities to take their case directly to the local community. If they 
can get the community's support, then we would back any new standard or 
policy. The problem has been that communities do not support most of 
these policies at the local level because they waste limited resources 
on non-priority projects.

      A CURRENT EXAMPLE OF THE UNINTENDED CONSEQUENCES OF THE SDWA

    It appears that the Stage I rule was the rule that caused WASA to 
change their treatment to chloramines and resulted in the increase in 
lead concentrations in the drinking water. The National Rural Water 
Association is urging EPA to rethink finalizing the Stage 2 
Disinfection and Disinfection By-Products (Stage 2) and Long Term 2 
Enhanced Surface Water Treatment (LT2) Proposed Rules in light of the 
recent chloramines study released by the EPA Office of Research and 
Development. The study concluded that alternatives to drinking water 
chlorination, such as chloramines, may produce ``increased 
concentrations'' of some byproducts.
    We are concerned that this rule may result in unintended 
consequences including exposure to the public of ``certain 
dihalogenated disinfection by-products and iodo-trihalomethanes.''
    We are particularly concerned by the report's following finding:

          ``Important observations included finding the highest levels 
        of iodotri-
        halomethanes (THMs) at a plant that used chloramination without 
        pre-chlorination . . . Another important observation involved 
        finding the highest concentration of dichloroacetaldehyde at a 
        plant that used chloramine and ozone disinfection. Therefore, 
        although the use of alternative disinfectants minimized the 
        formation of the four regulated THMs, certain dihalogenated 
        DBPs and iodo-THMs were formed at significantly higher levels 
        than in waters treated with chlorine. Thus, the formation and 
        control of the four regulated THMs is not necessarily an 
        indicator of the formation and control of other halogenated 
        DBPs, and the use of alternative disinfectants does not 
        necessarily control the formation of all halogenated DBPs, and 
        can even result in increased concentrations of some. Moreover, 
        many of these halogenated DBPs--including certain dihalogenated 
        and brominated species--were not studied in the ICR. ''

    The proposed rules will likely require a significant number of 
water supplies to switch from their current disinfection process to 
chloramines which, according to the EPA's recent findings, may have 
unknown public health risks and may be more harmful than chlorine.
                               __________
    Statement of Richard P. Maas and Steve C. Patch, UNC, Asheville 
                    Environmental Quality Institute

 Update on Research Regulations and Proposition 65 Litigations Related 
      to Lead discharge from Brass Water Service Parts and Meters

    HEALTH EFFECTS RELATED TO LOW LEVEL LEAD EXPOSURE: A CONTINUING 
                             ENLIGHTENMENT

    <bullet> Between 1987 and 1991, Needleman, McMichael and others 
first discovered that infants and young children even with very low 
blood lead levels (BLLs) exhibited IQ deficits.
    <bullet> Infants born with BLLs below 3  g/dL scored higher on 
cognitive development Index tests at age 2 than infants born with BLLs 
of 6-7  g/dL or 10-12  g/dL.
    <bullet> Nine-year-olds with moderately elevated BLLs (10  g/dL) 
were found to have higher drop-out rates, behavior problems and 
criminal behavior at age 19 than 9-years olds with BLLs below 5  g/dL.
    <bullet> Numerous recent studies have found that low level lead 
exposure not only causes IQ reductions but also causes increases in 
learning disabilities, attention deficit disorder and aggressive 
behavior.
    <bullet> Most recently Dr. Bruce Lamphear in a major study (2001) 
found IQ and learning (esp. reading) deficits in children (ages 6-16) 
with BLLs as low as 2.5  g/dL.
    <bullet> The Centers for Disease Control and Prevention (CDCP) has 
reviewed and validated this study.
    <bullet> The USEPA upon review of these studies has officially 
adopted the position that there is no threshold dose below which lead 
does not cause neurologic damage in infants and young children. Thus, 
the EPA has set a Maximum Contaminant Level Goal (MCLG) for lead in 
drinking water of zero.

  THE VERY LATEST NEWS ON LEAD POISONING (APRIL 17, 2003: NEW ENGLAND 
                          JOURNAL OF MEDICINE)

    Researchers from Cornell University, Cincinnati Children's 
Hospital, and University of Rochester (funded by the National Institute 
of Environmental Health Sciences NIEHS) were ``surprised'' to find that 
the IQ scores of children who had BLLs of 10  g/dL were about 7 points 
lower than children with BLLs of 1  g/dL.

[GRAPHIC] [TIFF OMITTED] T4604.208


    Most previous studies focused on children with BLLs of 10-30  g/dL 
and extrapolated back to lower levels.
    It now appears that most of the neurological damage is caused by 
the first 10  g/dL.
    One in ten North American children (ages 1-5) have BLLs above 5  g/
dL

[GRAPHIC] [TIFF OMITTED] T4604.209


    <bullet> For modeling the effects of low level lead exposure in 
infants and young children, the EPA has calculated a BLL increase of 
0.16  g/dL for each  g/day of lead ingested.
    <bullet> Various studies have found IQ deficits of 2-6 points for 
each 10  g/dL increase in BLLs (mean approx. 6 4 pts). Therefore, a 
young child drinking 2 liters/day of water with just 10  g/L of lead 
(20  g/day) would experience a BLL increase of approximately 3.2  g/dL 
(1.3 IQ point deficit) even if they had no other sources of lead 
exposure.
    <bullet> The USEPA estimates that 14-20 percent of total U.S. 
childhood lead exposure is from drinking water, although nearly all 
lead exposure could easily come from tapwater in any particular 
residence.

[GRAPHIC] [TIFF OMITTED] T4604.210


     CHRONOLOGY OF REDUCTION OF LEAD IN DRINKING WATER: CALIFORNIA 
                          HAS BEEN THE LLEADER

    <bullet> 1988: Federal Lead Ban. Elimination of leaded-solder in 
new buildings (most buildings will continue to have leaded solder for 
decades to come).
    <bullet> 1994: Use of leaded brass in submersible well pumps banned 
nationally by the USEPA.
    <bullet> June 1998: Kitchen and lavatory faucets. CA Prop 65 
settlement agreement requires that residential faucet fixtures meet a 
very low lead discharge std. (Achievable only with no lead or very low 
lead alloys) Adopted nationally by most faucet companies.
    <bullet> March 2000: CA Prop 65 settlement agreement to eliminate 
the use of leaded-brass alloys in residential water meters. Specifies 
Federalloy or Sebiloy (aka EnViroBrass) alloys. (Now available from 
Schlumberger and others.)
    <bullet> 2001-present: Ca Prop 65 litigation to require no-lead or 
very low lead alloys in residential gate valves, ball valves, backflow 
preventers, and pressure reducing valves. Reportedly close to final 
settlement.

[GRAPHIC] [TIFF OMITTED] T4604.211


    <bullet> 2002: Virtually all leaded brass plumbing components have 
now been banned from use in residential and most other building 
plumbing systems at least in California. Only leaded-brass water 
service parts such as curb valves, meter stops, tail pieces, elbows and 
main (corporation) stops have not been addressed.
    <bullet> October 10, 2002: A 60-day CA Prop 65 notice was filed 
with the appropriate CA Public Enforcement Agencies against Mueller, 
A.Y. McDonald, Ford Meter Box, and James Jones for illegally 
manufacturing and selling leaded-brass water service components in the 
State of California.
    <bullet> January 3, 2003: This lawsuit was expanded to include all 
distributors of leaded-brass water service parts in California.

Environmental Quality Institute Laboratory Study of Lead Discharge from 
          Water Service Parts (Leaded-Brass vs. No-Lead Brass)

                                METHODS

    <bullet> Mueller, James Jones, A.Y. McDonald, Ford, Cambridge Brass 
purchased in CA.
    <bullet> Parts included different types of curb stops, elbows, main 
stops and compression Ts.
    <bullet> Extraction water made to simulate average CA public water 
in terms of lead corrosivity (pH = 8.04, hardness: 100 mg/L, Alk: 82 
mg/L, CI residual: 1.0 mg/L.)
    <bullet> Experiments run for 19 days with samples taken after 16-
hour overnight dwell.
    <bullet> Days 17, 18, 19: shorter dwell time samples of 10 min, 30 
min, and 2 hours.

[GRAPHIC] [TIFF OMITTED] T4604.212


[GRAPHIC] [TIFF OMITTED] T4604.213

                                results
    Lead is initially leached quickly from the parts and the rate slows 
down over time.
    <bullet> 16-hr dwell = 100 percent
    <bullet> 2-hr dwell = 58 percent
    <bullet> 30 min dwell = 31 percent
    <bullet> 10 min dwell = 19 percent.

    [GRAPHIC] [TIFF OMITTED] T4604.214
    

      Table 5.--Comparison of Lead Discharge (g/L) From ``No-Lead'' Parts Versus Similar Leaded Brass Parts
----------------------------------------------------------------------------------------------------------------
                                                                                             Mean `Q'
                                                                                   `Q' Stat  Stat for    Factor
                    No-Lead                       Comparable Leaded Brass ID #s    for Non-   Leaded    Dif. in
                                                                                     lead      Brass      Lead
                                                                                     Part      Parts   Discharge
----------------------------------------------------------------------------------------------------------------
CB1...........................................  13, 23, 33, 42, 44, 45...........      0.91      20.7       22.8
CB2...........................................  13, 23, 33, 42, 44, 45...........      0.60      20.7       34.5
CB3...........................................  18, 24, 28, 38...................      0.53      8.81       16.6
CB4...........................................  13, 23, 33, 42, 44, 45...........      0.78      20.7       26.5
CB5...........................................  17, 22, 40, 43...................      2.81      17.8       6.35
CB7...........................................  15, 20, 26, 30...................      1.79      5.90       3.30
CB8...........................................  14, 19, 25, 29...................      2.64      16.5       6.25
CB9...........................................  31, 35, 36, 39...................      1.64      47.8       29.1
CB10..........................................  34, 44, 45, 47...................      1.31      32.9       25.1
CB12..........................................  16, 21, 27, 32...................      5.48     56.70       10.3
                                               -----------------------------------------------------------------
    Mean......................................                                                              18.0
----------------------------------------------------------------------------------------------------------------

   approximate calculations of lead exposure from water service parts
    Assumptions:
    <bullet> 30 water uses/day (1 overnight 4 2-h, 15 30-min, 10 10-
min).
    <bullet> 2 L/day as 8 250 ml ingestions.
    <bullet> 4.5 liters storage in plumbing system (80 ft of \1/2\,, 
interior plus 20 ft of \3/4\,, service line.
    <bullet> system contains a main stop, elbow, straight coupling, 
curb stop, also tail pieces and water meter).
[GRAPHIC] [TIFF OMITTED] T4604.215


[GRAPHIC] [TIFF OMITTED] T4604.216

                                results
    Total Pb discharge (Day 19)
    <bullet> No lead: No water meter and tail pieces = 28  g.
    <bullet> No lead: With lead-free water meter and tailpieces = 50  
g.
    <bullet> Leaded: No water meter and tail pieces = 205  g.
    <bullet> Leaded: With water meter and tail pieces = 332  g.

                                     Table 7.--Calculated Daily Lead Ingestion for Various Brass Water Service Parts
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                          Calculated                        Calculated
       Lab ID # of Part        Calculated Daily  Lab ID # of Part  Calculated Daily  Lab ID # of Part     Daily Lead      Lab ID # of       Daily Lead
                                Lead Ingestion                      Lead Ingestion                        Ingestion           Part          Ingestion
--------------------------------------------------------------------------------------------------------------------------------------------------------
CB1..........................  0.12............  CB13............  1.19............  CB25............  1.11...........  CB37...........  17.21
CB2..........................  0.10............  CB14............  2.30............  CB26............  0.32...........  CB38...........  1.82
CB3..........................  0.08............  CB15............  1.13............  CB27............  2.16...........  CB39...........  8.10
CB4..........................  0.12............  CB16............  0.95............  CB28............  1.54...........  CB40...........  2.18
CB5..........................  0.24............  CB17............  1.49............  CB29............  1.02...........  CB41...........  13.96
CB6..........................  0.26............  CB18............  1.43............  CB30............  0.16...........  CB42...........  1.43
CB7..........................  0.08............  CB19............  1.79............  CB31............  2.48...........  CB43...........  2.23
CB8..........................  0.21............  CB20............  1.19............  CB32............  1.92...........  CB44...........  4.63
CB9..........................  0.20............  CB21............  1.82............  CB33............  0.92...........  CB45...........  1.47
CB10.........................  0.11............  CB22............  2.15............  CB34............  2.18...........  CB46...........  13.18
CB11.........................  0.40............  CB23............  0.95............  CB35............  2.38...........  CB47...........  1.58
CB12.........................  0.10............  CB24............  0.82............  CB36............  1.82...........
--------------------------------------------------------------------------------------------------------------------------------------------------------


      Table 8.--Total Calculated Daily Pb Exposures, Childhood Blood Lead Level Increases,  and IQ Deficits
----------------------------------------------------------------------------------------------------------------
                                                                    Total Daily      BLL g/dl       IQ Deficit
                                                                  Lead Ingestion -------------------------------
                   Water Delivery System Type                    ----------------
                                                                   Mean    90th%   Mean    90th%   Mean    90th%
----------------------------------------------------------------------------------------------------------------
No lead.........................................................    1.15    1.86    0.18    0.30    0.12    0.21
Conventional leaded brass.......................................    5.20    9.50    0.83    1.52    0.58    1.07
Conventional leaded-brass in most corrosive 20% of CA system        12.5    22.8    2.00    3.65    1.40    2.56
 (approx. pop. = 5 million).....................................
----------------------------------------------------------------------------------------------------------------

                        SUMMARY AND CONCLUSIONS

    We are now aware that even very low lead exposures cause neurologic 
damage, especially in infants and young children, resulting in IQ 
reductions, attention deficit disorders, aggressive behavior and 
reading disabilities.
    Leaded-brass water service parts represent a small to moderate 
additional source of lead exposure to infants and young children. 
Leading to early measurable BLL increases and IQ deficits of about 0.33 
to 1.5 points, along with other lead-related neurological problems.
    Some infants and young children, due to unfortunate water 
consumption habits, will receive lead exposure from drinking water much 
higher than those estimated from this study.
    While the increase in childhood lead exposure from leaded-brass 
water service parts is usually relatively small, this is a needless 
extra exposure with the effects additive to other lead exposures.
    We have nearly eliminated lead from our drinking water systems, and 
soon it will be illegal to manufacture and sell leaded-brass water 
system parts of any type in California.
    The city of Los Angeles and many other towns nationwide are already 
purchasing only no-lead water service components.

    What is the Extra Cost of Switching to No-Lead Water Service Parts?

Example: City with Service Area Population of 50,000 people--
  20,000 residential services.

    Approximate Cost of Conventional Leaded and No-Lead Brass Service
------------------------------------------------------------------------
                                                       Leaded    No-Lead
                                                        (USD)     (USD)
------------------------------------------------------------------------
1. Corporation Stop.................................   $ 29.50   $ 36.88
2. Curb Stop........................................     40.50     50.63
3. Tail Pieces (2)..................................     12.00     15.00
4. Water Meter Casing...............................     20.00     25.00
                                                     -------------------
  Total.............................................   $102.00  $ 127.50
------------------------------------------------------------------------

    Price Differential = $25.50 / service.
    <bullet> Assume City adds new services at 1 percent per year and 
replaces 1 percent of existing services due to breakage, distribution 
line upgrades, etc.
    <bullet> 20,000 services <greek-e> 2 percent <greek-e> $25.50 = 
$10,200/yr.
    <bullet> Spread over the 20,000 residential services, this will add 
51 cents per year to each family's water bill, or about 4.3 cents per 
month.
    but my water service parts are compliant with nsf-61 section 8!
    <bullet> NSF-61 Section 8 protocol and standards were developed 
primarily by the plumbing industry to ensure that most 5 percent and 7 
percent brass parts would pass.
    <bullet> NSF-61 Section 8 is not a health-based standard. It allows 
a 100mL volume brass part to discharge up to 450  g/L of lead and still 
receive verification!
    <bullet> Children will still receive very substantial doses of lead 
in drinking water in a home with NSF-61 Section 8 compliant service 
parts.

                   SOME FINAL THOUGHTS AND QUESTIONS

    1. Given our recent knowledge about health effects of lead, and 
considering that leaded-brass water service parts installed today will 
be in service discharging lead for the next 20-40 years, is it not time 
for public water suppliers to ``do the right thing'' by voluntarily and 
proactively eliminating this last source of lead to our customers?
    2. When the next wave of media publicity about the irreversible 
health effects of low level lead exposure comes to public attention, do 
we want to have to explain to our customers why we were still 
installing leaded-brass parts in 2003 when lead-free parts were readily 
available?
    3. Class Action Suits and Personal Injury Suits have gotten 
completely out of control in the U.S. (78 percent of our Congress are 
lawyers!). If public water suppliers are shown to have been still 
installing leaded-brass parts even after all the parts in residences 
were converted to no-lead brass, how vulnerable could we be to these 
types of legal actions?
    Public Water Suppliers have led the way in reducing lead in 
drinking water. Let's finish the job!

[GRAPHIC] [TIFF OMITTED] T4604.217

[GRAPHIC] [TIFF OMITTED] T4604.218

[GRAPHIC] [TIFF OMITTED] T4604.219

[GRAPHIC] [TIFF OMITTED] T4604.220

[GRAPHIC] [TIFF OMITTED] T4604.221

[GRAPHIC] [TIFF OMITTED] T4604.222

[GRAPHIC] [TIFF OMITTED] T4604.223

[GRAPHIC] [TIFF OMITTED] T4604.224

[GRAPHIC] [TIFF OMITTED] T4604.225

[GRAPHIC] [TIFF OMITTED] T4604.226

[GRAPHIC] [TIFF OMITTED] T4604.227

[GRAPHIC] [TIFF OMITTED] T4604.228

[GRAPHIC] [TIFF OMITTED] T4604.229

[GRAPHIC] [TIFF OMITTED] T4604.230

[GRAPHIC] [TIFF OMITTED] T4604.231

[GRAPHIC] [TIFF OMITTED] T4604.232

[GRAPHIC] [TIFF OMITTED] T4604.233

         [From the Washington Post (1877-1954), Sept. 15, 1895]

                      Potomac Water and Lead Pipe

      SOURCE OF DANGER WHERE SUCH A PIPE HAS BEEN USED A LONG TIME

    A. W. Dow, inspector of asphalt and cements, yesterday made his 
report to the Engineer Commissioner. In it he says considerable change 
has been made in the past year in asphalt pavement by the addition of a 
fine sand to a sand similar to that formerly used. Under the present 
circumstances this is the best that can be done. The only fine sand now 
available is that dredged off the foot of Seventeenth street.
    The inspector deals also with the public wells analyzed. There were 
found to be 96 good ones, 41 suspicious, and 57 condemned.
    The most interesting part, of the report deals with the 
investigation of the action of Potomac water on lead pipe, to determine 
if enough lead is dissolved by the water to be injurious to public 
health. In order to have all conditions corresponding as near as 
possible with those of actual service, the inspector had one new 40-
foot lead service pipe in Anacostia and 50 feet of new lead pipe 
attached to the high service main at the U street pumphouse. From the 
investigation the inspector concludes that the only great source of 
danger is where the coating becomes detached by a rapid flow of water 
after the pipe had remained unused for some time. He will continue the 
investigation.
                                 ______
                                 

          [From the Washington Post (1877-1954), June 9, 1893]

                       Lead Pipes Unsatisfactory

          LOOKING FOR A GOOD SANITARY PIPE FOR SUPPLYING WATER

    Capt. Powell, the Engineer Commissioner, has determined that a 
substitute must be found for lead pipes which, according to the present 
plumbing regulations, must be used in providing a water service for 
residences. The general fear that such pipes might cause lead poisoning 
under certain conditions makes their general adoption in the District a 
menace to the health of the people.
    It has been shown that the chemical character of Potomac water 
causes such pipes to become coated on the inside with an insulation of 
carbonate of lime, soda, and clay, held in solution in the water. This 
coating, it has been argued, is a sure protection from danger of lead 
poisoning, but the engineer department has decided that it is too ??? 
safeguard. It is probable that the city's supply of water will be 
filtered at some future day, as sand filtration of drinking water has 
been adopted in many large cities abroad and is rapidly becoming 
popular.
    Just what effect the filtered water may have on the coating of lead 
pipes has not been determined. The fact that iron pipes become thickly 
rusted on the inside, which causes a material loss of water pressure, 
makes their use unsatisfactory. Yesterday, Capt. Derby, in charge of 
the division of water and sewers, examined the first substitute for 
lead pipe that has been presented since the investigation began. It was 
what is known as the improved BoWar-Barff process, being a steel pipe 
coated inside and out with black oxide of iron. Capt. Derby reported it 
as ``worth experimenting with,'' and tests of the pipe will be 
commenced at once. Several other styles of pipe are to be examined.
                               __________

               [From the Washington Post, March 28, 2004]

          District Residents Applaud Planned Inquiry by Senate

                   (By David Nakamura, Staff Writer)

    A U.S. Senate subcommittee has scheduled an oversight hearing for 
April 7 to investigate the Federal role in the lead contamination of 
the District's drinking water, residents were told at a special meeting 
on the contamination yesterday. The Fisheries, Wildlife and Water 
Subcommittee, chaired by Senator Michael D. Crapo (R-Idaho), will hear 
from the U.S. Environmental Protection Agency, the Army Corps of 
Engineers and the DC Water and Sewer Authority, a staff member 
confirmed later. The Senate's involvement comes after the House 
Government Reform Committee held a hearing March 5, at which members 
blasted the two Federal agencies and WASA for failing to provide a safe 
water supply and to inform the public of the health risks. So far, 
tests have shown that at least 5,000 DC homes have water with lead 
levels that exceed the Federal limit. The problem is caused by lead 
leaching off pipes and plumbing fixtures.
    At the meeting of environmentalists and residents yesterday at Van 
Ness Elementary School in Southeast Washington, some parents cheered 
the news of the Senate's action. Government leaders ``are not moving 
fast enough,'' said Liz Pelcyger, who lives on Capitol Hill and has 
year-old twins. Valerie Jablow, a Capitol Hill resident who has a 2-
year-old son, said that she had met with staff members of Sen. James 
Jeffords (I-Vt.), the Ranking Minority Member on the committee. ``They 
urged us to be present at the hearing,'' Jablow told about 40 residents 
at the meeting yesterday. ``They need to hear from ordinary citizens on 
this issue.'' Members of the coalition that organized yesterday's 
meeting said they want to force District and Federal leaders to include 
residents in decision-making as they deal with the lead contamination 
problems. Damu Smith, executive director of the National Black 
Environmental Justice Network, part of the coalition, told the audience 
that it is unfair that DC leaders had assembled an interagency lead 
task force that includes no ordinary citizens. ``We need to drive this 
process,'' Smith said. ``This is not an issue the politicians or agency 
should be leading. They are responsible for the crisis in the first 
place. We'll meet with them and work with them.'' The only District 
leader at the meeting was DC Council member Jim Graham (D-Ward 1), 
whose staff handed out free water test kits.
    Graham criticized his colleague, DC Council member Carol Schwartz 
(R-At Large), who co-chairs the task force with Mayor Anthony A. 
Williams (D), for not including residents and for holding meetings 
behind closed doors. Schwartz has argued that the task force can move 
faster to combat the lead problems if members are not distracted by 
reporters or residents. Last week, Schwartz allowed Smith and other 
environmentalists to meet with the task force for an hour. Not everyone 
was critical of the way city leaders are handling the crisis. Robert 
Brannum, who lives in the Bloomingdale neighborhood, cautioned 
residents to ``be careful before we cast the blame. We can talk about 
getting the lead out of the water, or we can cast blame and be 
political.'' But most other residents voiced less patience. Michael 
Smith, a firefighter from Northeast, said, ``I do not have any 
confidence in WASA's ability to manage this.'' Ethel Meachum of 
Southwest said she was outraged that the agency, which first knew of 
lead problems during the 2001-2002 testing period, had ``waited 3 years 
to tell me about this.'' Another woman complained that she has ``gone 
all over the world and the first thing people tell me is, `Be careful 
of the water.' Now I find that in DC the water is just as bad.''
                               __________
                      U.S. Environmental Protection Agency,
                                                  Philadelphia, PA.
Jerry N. Johnson,
General Manager,
District of Columbia Water and Sewer Authority,
5000 Overlook Ave., SW,
Washington, DC.
    Dear Mr. Johnson: As you may be aware, over the past several weeks, 
the United States Environmental Protection Agency Region III (``EPA'') 
has been conducting an audit of the District of Columbia Water and 
Sewer Authority's (``DCWASA'') compliance with the Lead and Copper 
Rule, specifically focusing on 40 C.F.R. Sections 141.84, 141.85 and 
141.90. That compliance audit remains ongoing, and EPA is continuing to 
evaluate additional information as it becomes available.
    Based on the information reviewed to date, EPA believes that DCWASA 
failed to comply with the provisions listed below. As EPA's continues 
to review DCWASA's compliance with the Lead and Copper Rule, EPA may 
identify other areas of non-compliance.
    1. On information and belief, DCWASA failed to comply with the lead 
service line replacement sampling requirements of 40 C.F.R. 
Sec. 141.84(d)(1), by failing to conduct follow-up sampling within 72 
hours after the completion of the partial replacement of a lead service 
line during the compliance period ending September 30, 2003.
    2. On information and belief, DCWASA failed to comply with the 
Public Education requirements of 40 C.F.R. Sec. 141.85(b) by failing to 
use the required language for public service announcements submitted to 
television and radio stations for broadcasting during the 6-month 
compliance periods ending October 2002, April 2003, and October 2003.
    3. On information and belief, DCWASA failed to comply with the 
Public Education requirements of 40 C.F.R. Sec. 141.85(c)(2)(i) by 
failing to use the required language in notices inserted in each 
customer's water utility bill during August 2003.
    4. On information and belief, DCWASA failed to conduct public 
service announcements every 6 months as required of 40 C.F.R. 
Sec. 141.85(c)(3) during the compliance period beginning April 2003.
    5. On information and belief, Respondent failed to submit tap water 
monitoring for lead and copper within the first 10 days following the 
end of the monitoring period ending June 30, 2002, as required of 40 
C.F.R. Sec. 141.90(a).
    6. On information and belief, Respondent failed to comply with the 
Public Education reporting requirements of 40 C.F.R. Sec. 141.90(f) by 
failing to send written documentation to EPA within 10 days after the 
end of each period in which the system is required to perform public 
education during the compliance period ending October 31, 2002.
    If DCWASA believes it has not violated the provisions set forth 
above, or if DCWASA has any information relevant to its compliance with 
the provisions set forth above that it believes EPA should consider, 
please provide any relevant information to EPA within twenty-one (21) 
days of receipt of this letter. If this information has been provided 
in your response to the Information Request dated March 31, 2004, 
please note which response provides documentation of compliance. The 
information should be sent to: Karen D. Johnson (3WP32), Chief, Safe 
Drinking Water Act Branch, United States Environmental Protection 
Agency, Region III, 1650 Arch Street, Philadelphia, PA 19103-2029.
    We appreciate your cooperation, and the cooperation of your staff, 
in connection with EPA's compliance audit. Please be aware that neither 
this letter nor EPA's decision to conduct a compliance audit limits 
EPA's ability to take an enforcement action against any person, 
including, but not limited to DCWASA. If you have any questions, please 
contact Karen Johnson at (215) 814-5445. Thank you for your cooperation 
in this matter.
            Sincerely,
                                 Jon M. Capacasa, Director,
                                         Water Protection Division.
                                 ______
                                 
                          Information Request
    This information is requested pursuant to Section 1445(a) of the 
Safe Drinking Water Act, 42 U.S.C. Sec. 300j-4(a). The Instructions and 
Definitions for responding to this Information Request are as follows:

                     A. INSTRUCTIONS & DEFINITIONS

    1. A separate narrative response must be made for each question set 
forth below, and for each subpart of each question.
    2. Precede each answer with the corresponding number of the 
question and subpart to which it responds.
    3. Provide all documents in your possession which relate to the 
responses given. With respect to each document, identify the date, 
author, addressee, current location, and custodian and identify the 
question or subpart to which it relates.
    4. Provide documents in both hard copy and electronic form, where 
available. The term ``document'' refers to ``writings,'' ``recordings'' 
and ``photographs'' as those terms are defined in Rule 1001 of the 
Federal Rules of Evidence. Documents should be produced as they are 
kept in the usual course of business.
    5. If any question cannot be answered in full, answer to the extent 
possible along with an explanation of why the question cannot be 
answered in full. If your responses are qualified in any manner, please 
explain.
    6. If information or documents not known or not available to you as 
of the date of submission of your response to this request should later 
become known or available to you, you must supplement your response to 
EPA. Moreover, should you find at any time after the submission of your 
response that any portion of the submitted information is false or 
misrepresents the truth, you must notify EPA of this fact as soon as 
possible and provide a corrected response.
    7. The term ``you'' or ``your'' refers to the District of Columbia 
Water and Sewer Authority (``DCWASA'').
    8. The term ``LCR'' refers to EPA's Lead and Copper Rule, 40 C.F.R. 
Sections 141.80-.90.
    9. The term ``lead service line'' means ``a service line made of 
lead which connects the water main to the building inlet and any lead 
pigtail, gooseneck or other fitting which is connected to such lead 
line.'' See 40 C.F.R. Sec. 141.2.
    10. To the extent you provide information in electronic format, 
contact Karen D. Johnson at (215) 814-5445 prior to providing the 
information in order to verify compatibility with EPA's equipment.
    11. The following certification must accompany each submission 
pursuant to this request and must be signed by a management 
representative of DCWASA authorized to respond on behalf of DCWASA:

          ``I certify that the information contained in or accompanying 
        this submission is true, accurate, and complete. As to the 
        identified portion(s) of this submission for which I cannot 
        personally verify its truth and accuracy, I certify as the 
        company official having supervisory responsibility for the 
        person(s) who, acting under my direct instructions, made the 
        verification, that this information is true, accurate, and 
        complete. I am aware that there are significant penalties for 
        submitting false information, including the possibility of 
        fines and imprisonment.''

    12. All information shall be submitted within twenty-one (21) days 
of receipt of this Request for Information to: Karen D. Johnson (MC 
3WP32), Chief, Safe Drinking Water Act Branch, United States 
Environmental Protection Agency, Region III, 1650 Arch Street, 
Philadelphia, PA 19103-2029.

                       B. REQUEST FOR INFORMATION

    DCWASA is hereby required, pursuant to Section 1445(a) of the Safe 
Drinking Water Act, 42 U.S.C. Sec. 300j-4(a), to submit the following 
information pursuant to the Instructions set forth above:
    1. With regard to the person providing answers to these questions, 
State your name, business address, business telephone number and 
position with DCWASA.
    2. With regard to any person who participated in or contributed to 
DCWASA's response to this Request for Information, provide that 
person's name, business address, business telephone number, and 
position with DCWASA, including whether the person is an employee or a 
contractor.
    3. (a) Provide all results from lead sampling or monitoring 
performed on drinking water supplied by DCWASA in the District of 
Columbia since January 1, 1994. This request includes all results in 
the possession or control of DCWASA or its agents or representatives 
(including contractors) regardless of whether the sampling and/or 
analysis was performed by DCWASA, a representative or agent of DCWASA 
(including a contractor), a homeowner or building owner, a 
representative of the Washington Aqueduct, a representative of any 
other Federal or District of Columbia agency, or by any other person. 
This request seeks all results from lead sampling or monitoring in the 
possession or control of DCWASA or its agents or representatives 
(including contractors) regardless of whether the sample was taken from 
a building served by a known or suspected lead service line or not. 
This request seeks all results from lead sampling or monitoring in the 
possession or control of DCWASA or its agents or representatives 
(including contractors) regardless of whether the samples were required 
by EPA's Lead and Copper Rule (``LCR''), 40 C.F.R. Sec. 141.80, et 
seq., or whether the samples were used to calculate the 90th percentile 
pursuant to the LCR. This request seeks all results from lead sampling 
or monitoring in the possession or control of DCWASA or its agents or 
representatives (including contractors) regardless of whether or not 
those samples were invalidated.
    (b) To the extent any samples taken to determine the concentration 
of lead in drinking water provided by DCWASA were invalidated, DCWASA 
shall identify the invalidated samples, the lead concentration of each 
sample, and provide an explanation as to why the samples were 
invalidated. Such explanation shall include the procedures followed for 
such invalidation, including but not limited to identifying who in 
DCWASA made the decsion to invalidate the sample, and who if anyone at 
EPA approved the invalidation. Provide copies of all approvals by EPA 
for any lead sample invalidation.
    4. Identify all lead service lines within DCWASA's service area 
that were physically replaced from 1996 to the present for any reason, 
including lead service lines physically replaced in connection with 
normal maintenance and/or other road work.
    (a) Provide all work orders, daily construction reports, or any 
other documents reflecting physical replacement of lead service lines 
from 1996 to the present.
    (b) With respect to all lead service lines physically replaced from 
1996 to the present, state what portions of the lead service lines were 
physically replaced and what portions were not physically replaced (for 
example, those portions downstream of the property line). When the lead 
service line was replaced only up to the property line, identify what, 
if any, portion was replaced by the homeowner and/or building owner.
    (c) Provide the location of each lead service line that has been 
replaced. Identify all lead samples taken following full or partial 
replacement of lead service lines from 1996 to the present, including 
but not limited to those taken to comply with the requirements of 40 
C.F.R. Sec. 141.84(d)(1).
    (d) With respect to each lead service line that has been replaced 
from 1996 to the present, State the reason the line was replaced (i.e., 
exceedance of EPA action level for lead of 0.015 mg/L, routine 
maintenance, etc.)
    5. Provide the locations by address of all known or suspected lead 
service lines. This may be provided in electronic or written format.
    6. (a) Provide the location of all lead service lines that have 
been tested for lead since 2000. This may be provided in electronic or 
written format.
    (b) Identify each lead service line that has tested below the EPA 
action level for lead of 0.015 mg/L and been counted by DCWASA toward 
fulfilling the requirements of 40 C.F.R. Sec. 141.84. This may be 
provided in electronic or written format.
    (c) Provide the location of all lead service lines that have 
exceeded the EPA action level for lead of 0.015 mg/L. This may be 
provided in electronic or written format.
    7. Identify the type and composition of any pipe, collar or shut 
off valve used for service line replacement since January 1, 1994.
    8. Provide copies of all instructions provided by you to residents 
from December 1999 to the present for the purpose of obtaining samples 
for compliance with the lead action level under the LCR, sampling in 
connection with DCWASA's lead service line replacement program, 
sampling after physical replacement of a lead service line, or any 
other purpose related to sampling for lead in drinking water. Provide 
all versions of these instructions. To the extent the instructions 
changed over time, provide all versions and identify the timeframes in 
which each version of the instructions was used.
    9. Provide all lead service line replacement sampling results from 
2000 to the present, including the date the lead service line was 
replaced, when the sample was taken, when the sampling results were 
received from the laboratory, and the date the results were sent to the 
homeowner and/or residents served by the lead service line. Provide 
representative samples of all notification provided from 2000 to the 
present to homeowners and/or residents served by a service line that 
exceeded 0.015 mg/L of lead. Provide the addresses that received the 
notice and the dates of such notices.
    10. Provide representative samples of all transmittals of lead 
sampling results to residents sent by you since December 1999, 
including the cover letter(s) and any attachment(s). To the extent 
different versions of the cover letter were used to transmit lead 
sampling results to different populations (i.e., residences sampled for 
compliance with the LCR, lead service line sampling, post-replacement 
sampling, or any other purpose), provide samples of each version. To 
the extent the wording of the transmittals changed over time, provide 
all versions and identify the timeframe(s) in which each version was 
used. State whether sample results were transmitted to all residences 
that were sampled or only to a subset (such as residences that tested 
over the LCR action level).
    11. (a) Provide copies of all documents (including bill inserts) 
produced or distributed by you since December 2000 in any language for 
the purpose of educating the public about lead in drinking water.
    (b) Produce all information regarding lead in drinking water used 
as a reference by persons answering telephone help lines for DCWASA in 
any language other than English since December 2000.
    12. Provide copies of all newspaper advertisements you have 
purchased since December 2000 for the purpose of educating the public 
about lead in drinking water. Identify the newspaper(s) in which each 
advertisement was published and the date(s) of publication.
    13. (a) Provide copies of all transmittal documents, letters or 
other documents since December 2001 that accompanied any document or 
public service announcement regarding lead in drinking water 
distributed by DCWASA to television stations, radio stations, 
newspapers, the Department of Health of the District of Columbia, 
libraries, hospitals, clinics, City Council or any other person or 
agency pursuant to 40 C.F.R. Sec. 141.85(c).
    (b) Provide copies of all public service announcements regarding 
the lead content of drinking water distributed by DCWASA since December 
2001 to television stations, radio stations, newspapers, the Department 
of Health of the District of Columbia, libraries, hospitals, clinics, 
City Council or any other person or agency pursuant to 40 C.F.R. 
Sec. 141.85(c).
    (c) Identify the date each public service announcement was 
distributed and provide any document demonstrating the date each public 
service announcement was distributed.
    14. Provide copies of all policies and/or procedures that DCWASA 
has for lead testing, lead service line replacement and public 
notification/education regarding the presence of lead in drinking 
water.
    15. Provide copies of all preliminary, draft and final reports for 
all tap water monitoring for lead and copper submitted by DCWASA to EPA 
pursuant to 40 C.F.R. Sec. 141.90(a) since December 2001.
    16. Provide copies of all written documentation submitted by DCWASA 
to EPA pursuant to 40 C.F.R. Sec. 141.90(f) since December 2001.
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
